Nos. 19-840 & 19-1019

In the Supreme Court of the United States
THE STATES OF CALIFORNIA, COLORADO, CONNECTICUT,
DELAWARE, HAWAII, ILLINOIS, IOWA, MASSACHUSETTS,
MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW YORK,
NORTH CAROLINA, OREGON, RHODE ISLAND, VERMONT,
VIRGINIA, AND WASHINGTON, ANDY BESHEAR, THE
GOVERNOR OF KENTUCKY, AND THE DISTRICT OF COLUMBIA,
Petitioners,
v.
THE STATE OF TEXAS, et al.,
Respondents.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
JOINT APPENDIX
SAMUEL P. SIEGEL
Deputy Solicitor General
STATE OF CALIFORNIA
DEPARTMENT OF JUSTICE
1300 I Street
Sacramento, CA 95814
(916) 210-6269
Sam.Siegel@doj.ca.gov

KYLE D. HAWKINS
Solicitor General
OFFICE OF THE ATTORNEY
GENERAL
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
Kyle.Hawkins@oag.texas.gov

Counsel of Record for
Petitioners–Cross-Respondents
the State of California, et al.

Counsel of Record for Respondents–Cross-Petitioners the State
of Texas, et al.

PETITION FOR A WRIT OF CERTIORARI FILED: JAN. 3, 2020
CROSS-PETITION FOR A WRIT OF CERTIORARI FILED: FEB. 14, 2020
CERTIORARI GRANTED: MAR. 2, 2020

(Additional counsel and caption listed on inside cover)

THE STATE OF TEXAS, et al.,
Cross-Petitioners,
v.
THE STATE OF CALIFORNIA, et al.
Cross-Respondents.
DOUGLAS N. LETTER
General Counsel
OFFICE OF THE GENERAL
COUNSEL
U.S. HOUSE OF
REPRESENTATIVES
219 Cannon House Office Bldg.
Washington, D.C. 20515-6532
(202) 225-9700
Douglas.Letter@mail.house.gov
Counsel of Record for Respondent–Cross-Respondent the U.S.
House of Representatives
ROBERT EARL HENNEKE
TEXAS PUBLIC POLICY
FOUNDATION
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
rhenneke@texaspolicy.com
Counsel of Record for Respondents–Cross-Petitioners Neill
Hurley and John Nantz

NOEL J. FRANCISCO
Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel of Record for Respondents–Cross-Respondents the
United States of America, et al.

i
TABLE OF CONTENTS
Page
List of opinions, decisions, orders, and judgments in the appendix to the petition for a
writ of certiorari in No. 19-840 .............................. 1
Relevant court of appeals docket entries .................... 2
Relevant district court docket entries ...................... 12
Amended complaint (D. Ct. Dkt. 27) ........................ 29
Declaration of John Nantz in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 71
Declaration of Neill Hurley in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 75
Declaration of Blaise Duran in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 79
Declaration of Michael Ghasemi in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 88
Declaration of Stephanie Muth in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 93
Declaration of Wayne Salter in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ..................................................... 97
Declaration of Jamie Walker in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 104

ii
TABLE OF CONTENTS
(continued)

Page

Declaration of Theodore K. Nickel in support
of application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 115
Declaration of Arlene Larson in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 124
Declaration of Jim L. Ridling in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 130
Declaration of Allen Kerr in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 135
Declaration of Mike Michael in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 138
Declaration of Drew L. Snyder in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 145
Declaration of Jennifer R. Tidball in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 151
Declaration of Judith Muck in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 156
Declaration of Bruce R. Ramge in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 171

iii
TABLE OF CONTENTS
(continued)

Page

Declaration of Jon Godfread in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 177
Affidavit of Robin Tester in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 182
Declaration of Thomas Steckel in support of
application for preliminary injunction
(D. Ct. Dkt. 41) ................................................... 185
Declaration of Henry J. Aaron in support of
opposition to application for preliminary
injunction (D. Ct. Dkt. 91-1) .............................. 192
Declaration of Sabrina Corlette in support of
opposition to application for preliminary
injunction (D. Ct. Dkt. 91-1) .............................. 279
Report of the Congressional Budget Office,
Repealing the Individual Health Insurance
Mandate: An Updated Estimate
(Nov. 2017) (D. Ct. Dkt. 91-1) ........................... 306
Federal defendants’ memorandum in response
to plaintiffs’ application for preliminary
injunction (D. Ct. Dkt. 92) ................................. 312
Declaration of Blake Fulenwider in support of
application for preliminary injunction
(D. Ct. Dkt. 175-1) .............................................. 339
Declaration of Teresa MacCartney in support
of application for preliminary injunction
(D. Ct. Dkt. 175-1) .............................................. 344

iv
TABLE OF CONTENTS
(continued)

Page

Declaration of James J. Donelon in support of
application for preliminary injunction
(D. Ct. Dkt. 175-1) .............................................. 353
Declaration of Eric A. Cioppa in support of
application for preliminary injunction
(D. Ct. Dkt. 175-1) .............................................. 359
District court’s July 16, 2018 order on consideration of issues on summary judgment
(D. Ct. Dkt. 176) ................................................. 364
Plaintiffs’ statement on consideration of the
constitutionality of the individual mandate
on summary judgment (D. Ct. Dkt. 181) ........... 365
Intervenor States’ response to July 16, 2018
court order (D. Ct. Dkt. 182) .............................. 370
Court of appeals revised January 9, 2020
opinion and order ............................................... 374
Court of appeals order denying en banc review ..... 490
Court of appeals judgment ...................................... 492

1
The following opinions, decisions, orders, and judgments have been omitted in printing this joint appendix because they appear on the following pages in the
appendix to the petition for a writ of certiorari in No.
19-840:
Appendix A — Court of appeals opinion and order
(filed Dec. 18, 2019, revised Dec. 20, 2019)1 ............. 1a
Appendix B — District court stay order and administrative closure (Dec. 31, 2018)............................... 114a
Appendix C — District court final judgment
(Dec. 30, 2018) ....................................................... 116a
Appendix D — District court opinion and order
granting stay and partial final judgment
(Dec. 30, 2018) ....................................................... 117a
Appendix E — District court opinion and order
granting partial summary judgment
(Dec. 14, 2018) ....................................................... 163a

The court of appeals initially issued its opinion on December 18,
2019, and then issued a revised opinion on December 20, 2019
that made a series of technical changes. The December 20 version of the opinion appears in the petition appendix in No. 19-840
(at 1a-113a). After that petition was filed on January 3, 2020,
the court of appeals issued another revised opinion on January 9,
2020, that made further technical changes. The January 9 version of the opinion is included in this Joint Appendix (at 374-489);
and petitioners have cited to that version in their merits briefing.

1

2
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________
No. 19-10011
TEXAS, ET AL., Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA, ET AL., Defendants –
Appellants,
CALIFORNIA, ET AL., Intervenor-Defendants –
Appellants.
_______
DOCKET ENTRIES
_______
DATE
PROCEEDINGS
01/07/2019 US CIVIL CASE docketed. NOA filed
by Appellants District of Columbia,
State of California, State of Connecticut, State of Delaware, State of Hawaii,
State of Illinois, State of Kentucky,
State of Massachusetts, State of Minnesota, State of New Jersey, State of
New York, State of North Carolina,
State of Oregon, State of Rhode Island,
State of Vermont, State of Virginia and
State of Washington.
01/07/2019 CASE CAPTION updated. Additional
appeal filed. Parties added: Appellants
USA, HHS, Alex M. Azar, II, Secretary, U.S. Department of Health and
Human Services, United States Internal Revenue Service and Charles P.

3
DATE

PROCEEDINGS
Rettig. NOA filed by Appellants Mr.
Charles P. Rettig, United States Internal Revenue Service, Mr. Alex M. Azar,
II, Secretary, U.S. Department of
Health and Human Services, HHS and
USA.

*****
01/07/2019 OPPOSED MOTION to intervene
filed by United States House of
Representatives.
*****
01/31/2019 UNOPPOSED MOTION to intervene
filed by State of Colorado, State of
Iowa, State of Michigan and State of
Nevada.
*****
02/01/2019 OPPOSED MOTION filed by Appellants District of Columbia, State of
Connecticut, State of Delaware, State
of Hawaii, State of Illinois, State of
Kentucky, State of Massachusetts,
State of Minnesota, State of New Jersey, State of New York, State of North
Carolina, State of Oregon, State of
Rhode Island, State of Vermont, State
of Virginia and State of Washington to
expedite the appeal. REVIEWED
AND/OR EDITED - The original text
prior to review appeared as follows:
OPPOSED MOTION filed by Appellant State of California to expedite the
appeal
*****

4
DATE
PROCEEDINGS
02/11/2019 RESPONSE/OPPOSITION filed by
Mr. Paul LePage, State of Alabama,
State of Arizona, State of Arkansas,
State of Florida, State of Georgia,
State of Indiana, State of Kansas,
State of Louisiana, State of Mississippi, State of Missouri, State of Nebraska, State of North Dakota, State of
South Carolina, State of South Dakota,
State of Tennessee, State of Texas,
State of Utah, State of West Virginia
and State of Wisconsin to the Motion
filed by Appellants State of California,
District of Columbia, State of Connecticut, State of Delaware, State of Hawaii, State of Illinois, State of
Kentucky, State of Massachusetts,
State of Minnesota, State of New Jersey, State of New York, State of North
Carolina, State of Oregon, State of
Rhode Island, State of Vermont, State
of Virginia and State of Washington.
*****
02/13/2019 REPLY filed by Not Party United
States House of Representatives to the
Response/Opposition filed by Appellants USA, HHS, Mr. Alex M. Azar, II,
Secretary, U.S. Department of Health
and Human Services, United States
Internal Revenue Service and Mr.
Charles P. Rettig.
*****
02/14/2019 REPLY filed by Appellant State of California to the Response/Opposition

5
DATE

PROCEEDINGS
filed by Appellees Mr. Paul LePage,
State of Alabama, State of Arizona,
State of Arkansas, State of Florida,
State of Georgia,
State of Indiana,
State of Kansas, State of Louisiana,
State of Mississippi, State of Missouri,
State of Nebraska, State of North Dakota, State of South Carolina, State of
South Dakota, State of Tennessee,
State of Texas, State of Utah, State of
West Virginia and State of Wisconsin.

*****
02/14/2019 COURT ORDER granting motion
to intervene by United States
House of Representatives.
02/14/2019 COURT ORDER denying Motion to expedite appeal filed by Appellants State
of Connecticut, State of Illinois, State
of Oregon, State of Delaware, State of
Virginia, State of California, State of
Hawaii, State of North Carolina, State
of Rhode Island, State of Washington,
State of New York, State of Massachusetts, District of Columbia, State of
Vermont, State of Kentucky, State of
Minnesota and State of New Jersey;
granting Motion to intervene by State
of Colorado, State of Iowa, State of
Michigan and State of Nevada.
*****
03/25/2019 APPELLANT’S BRIEF FILED A/Pet’s
Brief deadline satisfied. Paper Copies

6
DATE

PROCEEDINGS
of Brief due on 04/08/2019 for Appellants District of Columbia, State of
California, State of Connecticut, State
of Delaware, State of Hawaii, State of
Illinois, State of Kentucky, State of
Massachusetts, State of Minnesota,
State of New Jersey, State of New
York, State of North Carolina, State of
Oregon, State of Rhode Island, State of
Vermont, State of Virginia and State
of Washington.

03/25/2019 INTERVENOR’S BRIEF FILED by Intervenor United States House of Representatives. Paper Copies of Brief due
on 04/08/2019 for Intervenor United
States House of Representatives.
03/25/2020 LETTER filed by Appellants Mr. Alex
M. Azar, II, Secretary, U.S. Department of Health and Human Services,
HHS, Mr. Charles P. Rettig, United
States Internal Revenue Service and
USA Letter re: United States brief.
*****
04/08/2019 COURT ORDER granting Motion to
extend time to file appellee’s brief filed
by Appellees State of Tennessee, State
of South Carolina, State of Alabama,
State of Louisiana, State of Florida,
State of Arkansas, State of Wisconsin,
State of South Dakota, State of Georgia, State of Missouri, State of Utah,

7
DATE

PROCEEDINGS
State of Kansas, State of West Virginia, State of Texas, State of Nebraska, State of Mississippi, State of
Arizona, State of Indiana and State of
North Dakota E/Res’s Brief deadline
updated to 05/01/2019 for Appellees
Neill Hurley, John Nantz, State of Alabama, State of Arizona, State of Arkansas, State of Florida, State of
Georgia, State of Indiana, State of
Kansas, State of Louisiana, State of
Mississippi, State of Missouri, State of
Nebraska, State of North Dakota,
State of South Carolina, State of South
Dakota, State of Tennessee, State of
Texas, State of Utah, State of West
Virginia and State of Wisconsin; to extend time to file brief as appellant
A/Pet’s Brief deadline updated to
05/01/2019 for Appellants Alex M.
Azar, II, Secretary, U.S. Department of
Health and Human Services, Charles
P. Rettig, United States Department
of Health and Human
Services,
United States Internal Revenue Service and United States of America.

*****
04/08/2019 Unopposed Motion filed by Appellants
Mr. Alex M. Azar, II, Secretary, U.S.
Department of Health and Revenue
Service and USA for expedited oral argument.
*****

8
DATE
PROCEEDINGS
04/10/2019 COURT ORDER expediting the appeal; granting Motion for oral argument filed by Appellants USA, HHS,
Mr. Alex M. Azar, II, Secretary, U.S.
Department of Health and Human
Services, United States Internal Revenue Service and Mr. Charles P. Rettig.
*****
05/01/2019 APPELLEE’S BRIEF FILED E/Res’s
Brief deadline satisfied. Paper copies
of Brief due on 05/07/2019 for Appellees State of Alabama, State of Arizona, State of Arkansas, State of
Florida, State of Georgia, State of Indiana, State of Kansas, State of Louisiana, State of Mississippi, State of
Missouri, State of Nebraska, State of
North Dakota, State of South Carolina,
State of South Dakota, State of Tennessee, State of Texas, State of Utah
and State of West Virginia.
05/01/2019 APPELLANT’S BRIEF FILED by
USA, Mr. Alex M. Azar, II, Secretary,
U.S. Department of Health and Human Services, Mr. Charles P. Rettig,
HHS and United States Internal Revenue Service. A/Pet’s Brief deadline satisfied.
05/01/2019 APPELLEE’S BRIEF FILED E/Res’s
Brief deadline satisfied. Reply Brief
due on 05/22/2019 for Appellants District of Columbia, State of California,

9
DATE

PROCEEDINGS
State of Connecticut, State of Delaware, State of Hawaii, State of Illinois,
State of Kentucky, State of Massachusetts, State of Minnesota, State of
New York, State of North Carolina,
State of Oregon, State of Rhode Island,
State of Vermont, State of Virginia and
State of Washington. Paper Copies of
Brief due on 05/07/2019 for Appellees
Neill Hurley and John Nantz.

*****
05/22/2019 APPELLANT’S REPLY BRIEF FILED
Reply Brief deadline satisfied. Paper
Copies of Brief due on 05/28/2019 for
Appellants District of Columbia, State
of California, State of Connecticut,
State of Delaware, State of Hawaii,
State of Illinois, State of Kentucky,
State of Massachusetts, State of Minnesota, State of New York, State of
North Carolina, State of Rhode Island,
State of Vermont, State of Virginia and
State of Washington.
05/22/2019 INTERVENOR’S
REPLY
BRIEF
FILED Paper Copies of Brief due on
05/28/2019 for Intervenor United
States House of Representatives.
*****
05/23/2019 CASE CALENDARED for oral argument on Tuesday, 07/09/2019 in New
Orleans in the West Courtroom -- PM
session.

10
DATE

PROCEEDINGS

*****
06/26/2019 The ORAL ARGUMENT panel has
requested of the parties the following: supplemental letter briefs.
Miscellaneous due on 07/03/2019.
*****
07/03/2019 APPELLANT’S
SUPPLEMENTAL
BRIEF FILED by Mr. Alex M. Azar, II,
Secretary, U.S. Department of Health
and Human Services, Mr. Charles P.
Rettig, HHS, United States Internal
Revenue Service and USA. Miscellaneous deadline satisfied.
*****
07/05/2019 APPELLANT’S
SUPPLEMENTAL
BRIEF FILED. Miscellaneous deadline satisfied.
07/05/2019 LETTER filed by Intervenor United
States House of Representatives referencing OA Panel Request.
07/05/2019 LETTER filed by Appellees State of Alabama, State of Arizona, State of Arkansas, State of Florida, State of
Georgia, State of Indiana, State of
Kansas, State of Louisiana, State of
Mississippi, State of Missouri, State
of Nebraska, State of North Dakota,
State of South Carolina, State of South
Dakota, State of Tennessee, State of
Texas, State of Utah and State of West

11
DATE

PROCEEDINGS
Virginia referencing OA Panel Request.

07/05/2019 LETTER filed by Appellees Mr. Neill
Hurley and Mr. John Nantz referencing OA Panel Request.
*****
07/09/2019 ORAL ARGUMENT HEARD before
Judges King, Elrod, Engelhardt.
*****
12/18/2019 PUBLISHED OPINION FILED. [1910011 Affirmed in Part; Vacated in
Part and Remanded] Judge: CDK,
Judge: JWE, Judge: KDE. Mandate issue date is 02/10/2020.
12/18/2019 JUDGMENT ENTERED AND FILED.
Costs Taxed Against: Each Party to
Bear Its Own Costs on Appeal.
*****
12/20/2019 TECHNICAL REVISION MADE TO
OPINION.
*****
01/09/2020 TECHNICAL REVISION MADE TO
OPINION.
*****
01/29/2020 COURT ORDER denying for rehearing
en banc.
Mandate issue date is
02/06/2020.
*****
02/06/2020 MANDATE ISSUED. Mandate issue
date satisfied.

12
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants.
_______
DOCKET ENTRIES
_______

02/26/2018

DOCKET
NUMBER
1

04/09/2018

14

DATE

PROCEEDINGS
COMPLAINT against All
Defendants filed by Louisiana, West Virginia,
Florida, South Carolina,
Texas, South Dakota,
North Dakota, Phil Bryant, Arizona, Arkansas,
Indiana, Paul LePage,
Utah,
Missouri, Nebraska, Georgia, Wisconsin, Kansas, Tennessee,
Alabama.

*****
Answer to Complaint
filed by State of California, State of Connecticut,
District of Columbia,

13
DATE

04/09/2018

DOCKET
NUMBER

15

PROCEEDINGS
State of Delaware, State
of Hawaii, State of Illinois, State of Kentucky,
State of Massachusetts,
State of New Jersey,
State of New York, State
of North Carolina, State
of Oregon, State of Rhode
Island, State of Vermont,
State of Virginia, State of
Washington, State of
Minnesota.
MOTION to Intervene
filed by District of Columbia, State of California, State of Connecticut,
State of Delaware, State
of Hawaii, State of Illinois, State of Kentucky,
State of Massachusetts,
State of Minnesota, State
of New Jersey, State of
New York, State of North
Carolina, State of Oregon, State of Rhode Island, State of Vermont,
State of Virginia, State of
Washington with Brief/
Memorandum in Support.

*****

14

04/23/2018

DOCKET
NUMBER
27

04/26/2018

39

DATE

PROCEEDINGS
AMENDED
COMPLAINT FOR DECLARATORY
AND
INJUNCTIVE RELIEF
against All Defendants
filed by West Virginia,
Florida, South Carolina,
Texas, South Dakota,
North Dakota, Arkansas,
Utah, Missouri, Kansas,
Louisiana, Mississippi,
Arizona, Indiana, Paul
LePage, Nebraska, Georgia, Wisconsin, Tennessee,
Alabama,
Neill
Hurley, John Nantz.

*****
PLAINTIFF-STATES’
AND
INDIVIDUALPLAINTIFFS’
APPLICATION FOR PRELIMINARY
INJUNCTION
filed by Alabama, Arizona, Arkansas, Florida,
Georgia, Neill Hurley,
Indiana, Kansas, Paul
LePage, Louisiana, Mississippi, Missouri, John
Nantz, Nebraska, North
Dakota, South Carolina,
South Dakota, Tennessee, Texas, Utah, West
Virginia, Wisconsin.

15

04/26/2018

DOCKET
NUMBER
40

04/26/2018

41

Appendix in Support
filed by Alabama, Arizona, Arkansas, Florida,
Georgia, Neill Hurley,
Indiana, Kansas, Paul
LePage, Louisiana, Mississippi, Missouri, John
Nantz, Nebraska, North
Dakota, South Carolina,
South Dakota, Tennessee, Texas, Utah, West
Virginia, Wisconsin re 39
MOTION for Injunction.

04/27/2018

42

MOTION to Expedite
Ruling on Motion to Intervene filed by District
of Columbia, State of

DATE

PROCEEDINGS
Brief/Memorandum
in
Support filed by Alabama, Arizona, Arkansas, Florida, Georgia,
Neill Hurley, Indiana,
Kansas, Paul LePage,
Louisiana, Mississippi,
Missouri, John Nantz,
Nebraska, North Dakota,
South Carolina, South
Dakota,
Tennessee,
Texas, Utah, West Virginia, Wisconsin re 39
MOTION for Injunction.

16
DATE

DOCKET
NUMBER

PROCEEDINGS
California, State of Connecticut, State of Delaware, State of Hawaii,
State of Illinois, State of
Kentucky, State of Massachusetts, State of Minnesota, State of New
Jersey, State of New
York, State of North Carolina, State of Oregon,
State of Rhode Island,
State of Vermont, State
of Virginia, State of
Washington with Brief/
Memorandum in Support.

*****
RESPONSE filed by Alabama, Arizona, Arkansas, Florida, Georgia,
Neill Hurley, Indiana,
Kansas, Paul LePage,
Louisiana, Mississippi,
Missouri, John Nantz,
Nebraska, North Dakota,
South Carolina, South
Dakota,
Tennessee,
Texas, Utah, West Virginia, Wisconsin re: 15
MOTION to Intervene.

04/30/2018

49

05/04/2018

*****
67
REPLY filed by District
of Columbia, State of

17
DATE

05/14/2018

DOCKET
NUMBER

PROCEEDINGS
California, State of Connecticut, State of Delaware, State of Hawaii,
State of Illinois, State of
Kentucky, State of Massachusetts, State of Minnesota, State of New
Jersey, State of New
York, State of North Carolina, State of Oregon,
State of Rhode Island,
State of Vermont, State
of Virginia, State of
Washington re: 15 MOTION to Intervene.

*****
73
PROPOSED ANSWER
IN INTERVENTION to
27 Amended Complaint,
filed by District of Columbia, State of California, State of Connecticut,
State of Delaware, State
of Hawaii, State of Illinois, State of Kentucky,
State of Massachusetts,
State of Minnesota, State
of New Jersey, State of
New York, State of North
Carolina, State of Oregon, State of Rhode Island, State of Vermont,
State of Virginia, State of
Washington.

18
DATE

DOCKET
NUMBER

PROCEEDINGS

05/16/2018

74

ORDER: The Court finds
that the Proposed Intervenor States’ Motion to
Intervene (ECF No. 15)
should be and is hereby
GRANTED.

06/07/2018

06/07/2018

*****
91
RESPONSE filed by District of Columbia, State
of California, State of
Connecticut, State of
Delaware, State of Hawaii, State of Illinois,
State of Kentucky, State
of Massachusetts, State
of Minnesota, State of
New Jersey, State of New
York, State of North Carolina, State of Oregon,
State of Rhode Island,
State of Vermont, State
of Virginia, State of
Washington re: 39 MOTION for Injunction.
92

RESPONSE filed by Alex
Azar, Department of
Health & Human Services, David Kautter,
United States Interval
Revenue
Services,
United States of America

19
DATE

DOCKET
NUMBER

07/05/2018

175

07/16/2018

176

PROCEEDINGS
re: 39 MOTION for Injunction.

*****
REPLY filed by Alabama, Arizona, Arkansas, Florida, Georgia,
Neill Hurley, Indiana,
Kansas, Paul LePage,
Louisiana, Mississippi,
Missouri, John Nantz,
Nebraska, North Dakota,
South Carolina, South
Dakota,
Tennessee,
Texas, Utah, West Virginia, Wisconsin re: 39
MOTION for Injunction.
ORDER: The Court ORDERS all parties to file
any additional information they wish to present in opposition to
considering these issues
on summary judgment.
Any additional information any party wishes
to present should be filed
on or before July 30,
2018. See FED. R. CIV.
P. 56(f)(3).
*****

20

07/30/2018

DOCKET
NUMBER
181

07/30/2018

182

DATE

PROCEEDINGS
RESPONSE filed by Alabama, Arizona, Arkansas, Florida, Georgia,
Neill Hurley, Indiana,
Kansas, Paul LePage,
Louisiana, Mississippi,
Missouri, John Nantz,
Nebraska, North Dakota,
South Carolina, South
Dakota,
Tennessee,
Texas, Utah, West Virginia, Wisconsin re: 176
Order Setting Deadline/
Hearing.
RESPONSE filed by District of Columbia, State
of California, State of
Connecticut, State of
Delaware, State of Hawaii, State of Illinois,
State of Kentucky, State
of Massachusetts, State
of Minnesota, State of
New Jersey, State of New
York, State of North Carolina, State of Oregon,
State of Rhode Island,
State of Vermont, State
of Virginia, State of
Washington re: 176 Order
Setting
Deadline/Hearing.

*****

21
DATE
09/05/2018

12/14/2018

12/17/2018

DOCKET
NUMBER
199

PROCEEDINGS
ELECTRONIC Minute
Entry for proceedings
held before Judge Reed
C. O’Connor: Oral Argument held on 9/5/2018.

*****
211
[STAYED per order of
Dec 30 2018] ORDER
granting Plaintiffs partial summary judgment
(Ordered by Judge Reed
C.
O’Connor
on
12/14/2018) (Judge Reed
C. O’Connor) Modified on
12/31/2018.
213

*****
MOTION re 211 Order
on Motion for Injunction
filed by District of Columbia, State of California, State of Connecticut,
State of Delaware, State
of Hawaii, State of Illinois, State of Kentucky,
State of Massachusetts,
State of Minnesota, State
of New Jersey, State of
New York, State of North
Carolina, State of Oregon, State of Rhode Island, State of Vermont,
State of Virginia, State of
Washington
with

22
DATE

DOCKET
NUMBER

12/21/2018

216

12/21/2018

217

12/26/2018

218

PROCEEDINGS
Brief/Memorandum
Support.

in

*****
RESPONSE AND OBJECTION filed by Alex
Azar, Department of
Health & Human Services, David Kautter,
United States Interval
Revenue
Services,
United States of America
re: 213 MOTION re 211
Order on Motion for Injunction.
RESPONSE filed by Alabama, Arizona, Arkansas, Florida, Georgia,
Neill Hurley, Indiana,
Kansas, Paul LePage,
Louisiana, Mississippi,
Missouri, John Nantz,
Nebraska, North Dakota,
South Carolina, South
Dakota,
Tennessee,
Texas, Utah, West Virginia, Wisconsin re: 213
MOTION re 211 Order
on Motion for Injunction.
*****
REPLY filed by District
of Columbia, State of

23
DATE

12/30/2018

DOCKET
NUMBER

220

PROCEEDINGS
California, State of Connecticut, State of Delaware, State of Hawaii,
State of Illinois, State of
Kentucky, State of Massachusetts, State of Minnesota, State of New
Jersey, State of New
York, State of North Carolina, State of Oregon,
State of Rhode Island,
State of Vermont, State
of Virginia, State of
Washington re: 213 MOTION re 211 Order on
Motion for Injunction.

*****
ORDER
GRANTING
STAY AND PARTIAL
FINAL JUDGMENT: On
December 17, 2018, the
Intervenor Defendants
moved the Court to clarify that the December 14,
2018 Order is not binding
or to enter a stay if the
Order is binding and to
enter final judgment or
certify the Order for immediate appeal. See ECF
No. 213. The Court finds
that the December 14,
2018 Order declaring the

24
DATE

12/30/2018

DOCKET
NUMBER

221

PROCEEDINGS
Individual Mandate unconstitutional and inseverable should be stayed.
Accordingly, the Court
ORDERS that the December 14, 2018 Order,
(ECF No. 211), and the
Partial Final Judgment
severing Count I and finalizing that Order--which will issue by separate order---be stayed
during the pendency of
the Order’s appeal. (Ordered by Judge Reed C.
O’Connor on 12/30/2018).
Final
Judgment
on
Count I: The Court issued its order granting
partial summary judgment on Count I of Plaintiffs’ Amended Complaint, and has determined
that it should be severed
from
the
remaining
claims. December 14,
2018 Order, ECF No.
211. In accordance with
Federal Rule of Civil Procedure 54(b), the Court
therefore
DECLARES
that 26 U.S.C. § 5000A(a)

25
DATE

12/31/2018

DOCKET
NUMBER

223

PROCEEDINGS
is
UNCONSTITUTIONAL and INSEVERABLE
from
the
remainder of the Patient
Protection and Affordable Care Act, Pub. L. 111148, 124 Stat. 119-1045
(2010).
(Ordered
by
Judge Reed C. O’Connor
on 12/30/2018).
STAY ORDER AND ADMINISTRATIVE CLOSURE. The Court has
entered a partial judgment on Count I in this
case (ECF No. 221). The
Court determines the remainder of this case
should be STAYED pending further orders. The
Clerk is therefore instructed to submit a JS-6
form to the Administrative Office, removing this
case from the statistical
records. Nothing in this
Order shall be considered
a dismissal or disposition
of the remaining clams.
The parties are directed
to notify the Court upon
the conclusion of the ap-

26
DATE

01/03/2019

DOCKET
NUMBER

224

PROCEEDINGS
peal of the partial judgment within 14 days of
any decision. Should further proceedings in the
meantime become necessary or desirable, any
party may initiate it by
filing an appropriate
pleading. (Ordered by
Judge Reed C. O’Connor
on 12/31/2018).
NOTICE OF APPEAL as
to 221 Order on Motion
for Miscellaneous Relief,
211 Order on Motion for
Injunction to the Fifth
Circuit by District of Columbia, State of California, State of Connecticut,
State of Delaware, State
of Hawaii, State of Illinois, State of Kentucky,
State of Massachusetts,
State of Minnesota, State
of New Jersey, State of
New York, State of North
Carolina, State of Oregon, State of Rhode Island, State of Vermont,
State of Virginia, State of
Washington.

*****

27
DATE
01/04/2019

01/07/2019

DOCKET
NUMBER
230

PROCEEDINGS
NOTICE OF APPEAL as
to 221 Order on Motion
for Miscellaneous Relief,,
211 Order on Motion for
Injunction to the Fifth
Circuit by Alex Azar, Department of Health &
Human Services, David
Kautter, United States
Interval Revenue Services, United States of
America.

*****
USCA Case Number 1910011 in United States
Court of Appeals Fifth
Circuit for 224 Notice of
Appeal, filed by State of
Virginia, State of Hawaii, State of Rhode Island, State of Minnesota,
State of Kentucky, State
of Vermont, State of New
Jersey, State of Connecticut, State of Oregon,
State of Illinois, District
of Columbia, State of
North Carolina, State of
Delaware, State of Massachusetts, State of California, State of New
York, State of Washington, 230 Notice of Appeal,
filed by David Kautter,

28
DATE

DOCKET
NUMBER

PROCEEDINGS
Department of Health &
Human Services, United
States of America, Alex
Azar, United States Interval Revenue Services.

29
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 23, 2018]
_______
AMENDED COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
_______
TO THE HONORABLE REED O’CONNOR:
The Patient Protection and Affordable Care Act
(the “Affordable Care Act,” “the ACA” or “the Act”), as
recently amended, forces an unconstitutional and irrational regime onto the States and their citizens. Because this recent amendment renders legally
impossible the Supreme Court’s prior savings construction of the Affordable Care Act’s core provision—
the individual mandate—the Court should hold that
the ACA is unlawful and enjoin its operation.
NFIB v. Sebelius, 567 U.S. 519 (2012), held that in
enacting the ACA, Congress sought to do something
unconstitutional: impose a mandate to obtain health
insurance by requiring that most Americans “shall”
insure that they are “covered under minimum essential coverage.” 26 U.S.C. § 5000A(a). “Congress
[wrongly] thought it could enact such a command under the Commerce Clause[.]” NFIB, 567 U.S. at 562

30
(Roberts, C.J.). The Supreme Court, however, interpreted the mandate to be part-and-parcel of a tax penalty that applies to many (but not all) of those to whom
the mandate applies. Thus, even though Congress
sought to do something unconstitutional in enacting
the mandate under the Commerce Clause, the Supreme Court salvaged its handiwork as a lawful exercise of the taxing power. But things changed on
December 22, 2017.
On December 22, 2017, the President signed into
law the Tax Cuts and Jobs Act of 2017. This new legislation eliminated the tax penalty of the ACA, without eliminating the mandate itself. What remains,
then, is the individual mandate, without any accompanying exercise of Congress’s taxing power, which
the Supreme Court already held that Congress has no
authority to enact. Not only is the individual mandate
now unlawful, but this core provision is not severable
from the rest of the ACA—as four Justices of the Supreme Court already concluded. In fact, Congress
stated in the legislative text that the ACA does not
function without the individual mandate.
The ACA’s unconstitutionality follows from three
holdings in NFIB and the aforementioned provision in
the Tax Cuts and Jobs Act of 2017. First, a majority of
the Supreme Court held that Congress lacks the constitutional authority to compel citizens to purchase
health insurance. NFIB, 567 U.S. at 558 (Roberts,
C.J.); id. at 657 (Scalia, Kennedy, Thomas, and Alito,
JJ., dissenting) (hereinafter “Dissenting Op.”). Second, the same majority concluded that the ACA included a mandate to buy health insurance that applies
to most (but not all) citizens, and a separate tax penalty that applies to most (but not all) of those required
to buy insurance under the mandate. Id. at 562–63

31
(Roberts, C.J.); id. at 663 (Dissenting Op.). Third, a
different majority held that, as a matter of constitutional avoidance, it was “fairly possible” to reinterpret
the mandate and tax penalty as a single “tax,” which
Congress may enact under its taxing authority. Id. at
564–74. In reaching this end, the majority concluded
that Congress’s taxing-power interpretation was only
“fairly possible” because the provision at issue raised
“at least some revenue for the Government.” Id. at 564
(citing United States v. Kahriger, 345 U.S. 22 (1953)).
Indeed, the raising of “at least some revenue” was “the
essential feature of any tax.” Id. (emphasis added). After all, if a provision raises no revenue, it cannot be
said “to pay the Debts and provide for the common Defence and general Welfare of the United States.” U.S.
Const. art. I, § 8, cl. 1 (emphasis added).
Pursuant to the Tax Cuts and Jobs Act of 2017,
starting in 2019, the tax penalty is eliminated by reducing the tax to zero. Pub. L. No. 115-97, § 11081, 131
Stat. 2054. The individual mandate itself, however, remains. But because the tax penalty provision in the
ACA no longer raises any revenue, the Supreme
Court’s avoidance reading is no longer possible. As the
Congressional Budget Office explained, the Tax Cuts
and Jobs Act of 2017 “eliminate[s]” the “individual
mandate penalty . . . but [not] the mandate itself.” Congressional Budget Office, Repealing the Individual
Health Insurance Mandate: An Updated Estimate 1,
(November 2017) (emphasis added) (hereinafter “CBO
2017 Report”).1 Because the tax penalty raises $0, it
lacks “the essential feature of any tax,” and the avoid-

See https://www.cbo.gov/system/files/115th-congress-2017-2018
/reports/53300-individualmandate.pdf.

1

32
ance interpretation adopted in NFIB to save the individual mandate from its unconstitutionality is no
longer “fairly possible.”
Following the enactment of the Tax Cuts and Jobs
Act of 2017, the country is left with an individual mandate to buy health insurance that lacks any constitutional basis. The invalidity of the ACA’s core provision
(individual mandate) thus follows from NFIB.
Once the heart of the ACA—the individual mandate—is declared unconstitutional, the remainder of
the ACA must also fall. NFIB, 567 U.S. at 691–708
(Dissenting Op.). As Congress made clear, “[t]he requirement [for individuals to buy health insurance] is
essential to creating effective health insurance markets.” 42 U.S.C. § 18091(2)(I) (emphasis added). “[T]he
absence of th[is] requirement would undercut Federal
regulation of the health insurance market.” Id.
§ 18091(2)(H). In particular, “the guaranteed issue
and community rating requirements would not work
without the coverage requirement [i.e., Section
5000A].” King v. Burwell, 135 S. Ct. 2480, 2487 (2015)
(emphasis added). So because the remainder of ACA
does not “function in a manner consistent with the intent of Congress,” the whole Act must fall with the
mandate. Alaska Airlines, Inc. v. Brock, 480 U.S. 678,
684–85 (1987) (describing severability analysis) (emphasis added).
Absent the individual mandate, the ACA is an irrational regulatory regime governing an essential
market. The ACA’s stated objectives are “achiev[ing]
near-universal [health-insurance] coverage,” 42
U.S.C. § 18091(2)(D), “lower[ing] health insurance
premiums,” id. § 18091(2)(F), and “creating effective
health insurance markets,” id. § 18091(2)(I). But without the “essential” mandate, coverage will decrease,

33
premiums will rise, and markets will become irrational. See id. Thus, the post-mandate ACA lacks
“some footing” in the “realities” of the health-insurance market, Heller v. Doe, 509 U.S. 312, 321 (1993),
and has no “plausible policy reason” for forcing continued compliance, Armour v. City of Indianapolis, 566
U.S. 673, 681 (2012).
In all, the ACA is unlawful and the Court should
enjoin its operation. Therefore, Plaintiffs seek declaratory and injunctive relief against the United States
of America, United States Department of Health and
Human Services, Alex Azar, in his official capacity as
Secretary of Health and Human Services, United
States Internal Revenue Service, and David J. Kautter, in his official capacity as Acting Commissioner of
Internal Revenue, regarding Defendants’ actions implementing and enforcing the Patient Protection and
Affordable Care Act.
I. PARTIES
1. Plaintiff States are all sovereigns within the
United States.
2. Plaintiff Paul LePage is the Governor of Maine
and Chief Executive of the Maine Constitution and the
laws enacted by the Maine Legislature. Me. Const. art.
V, Pt. 1, § 1.
3. Plaintiff Phil Bryant is the Governor of Mississippi and brings this suit on behalf of Mississippi
pursuant to Miss. Code Ann. § 7-1-33.
4. Plaintiff Neill Hurley is a citizen and resident
of Texas and a citizen of the United States. Mr. Hurley
maintains minimum essential health insurance coverage, which he purchased on the ACA-created exchange. Mr. Hurley is subject to the individual

34
mandate and objects to being required by federal law
to comply with it.
5. Plaintiff John Nantz is a citizen and resident
of the State of Texas and a citizen of the United States.
Mr. Nantz maintains minimum essential health insurance coverage, which he purchased on the ACAcreated exchange. Mr. Nantz is subject to the individual mandate and objects to being required by federal
law to comply with it.
6. In addition to performing various sovereign
functions and prerogatives, all Plaintiff States function as significant employers with tens of millions under their collective charge.2
7. Defendants are the United States of America,
the United States Department of Health and Human
Services (“Department”), Alex Azar, in his official capacity as Secretary of Health and Human Services, the
United States Internal Revenue Service (“Service”),
and David J. Kautter, in his official capacity as Acting
Commissioner of Internal Revenue.
8. The Department is a federal agency and is responsible for administration and enforcement of the
laws challenged here. See generally 20 U.S.C. § 3508;
42 U.S.C. §§ 202–03, 3501.
9. The Service is a bureau of the Department of
Treasury, under the direction of the Acting Commissioner of Internal Revenue, David J. Kautter, and is
responsible for collecting taxes, administering the Internal Revenue Code, and overseeing various aspects
2 See, e.g., U.S. Census Bureau, State and Local Government Employment and Payroll Data: March 2015 Annual Survey of Public
Employment & Payroll, http://factfinder.census.gov/bkmk/
table/1.0/en/ GEP/2015/00A4.

35
of the Act. See generally 26 U.S.C. § 7803 et. seq.; see
https://www.irs.gov/affordable-care-act/affordablecare-act-tax-provisions.
10. Any injunctive relief requested herein must be
imposed upon the Department, Secretary, Service,
and the Acting Commissioner for Plaintiffs to obtain
full relief.
II. JURISDICTION AND VENUE
11. The Court has jurisdiction pursuant to 28
U.S.C. § 1331 because this suit concerns the constitutionality of the ACA. The Court also has jurisdiction
to compel the Secretary of Health and Human Services
and Acting Commissioner of Internal Revenue to perform their duties pursuant to 28 U.S.C. § 1361.
12. The Plaintiffs’ claims for declaratory and injunctive relief are authorized by 28 U.S.C. §§ 2201 and
2202, by 5 U.S.C. § 706, by Rules 57 and 65 of the Federal Rules of Civil Procedure, and by the general legal
and equitable powers of the Court.
13. Venue is proper under 28 U.S.C. § 1391 because the United States, two of its agencies, and two
of its officers in their official capacity are Defendants;
and a substantial part of the events giving rise to the
Plaintiffs’ claims occurred in this District. Further, a
plaintiff “resides” in this district, a “substantial part
of the events [ ] giving rise to the claim occurred” in
this district, and “no real property is involved.” Id.
§ 1391(e)(1).

36
III. FACTUAL BACKGROUND
A. The Individual Mandate and the Affordable Care Act.
14. In 2010, Congress enacted a sweeping new
regulatory framework for the nation’s healthcare system by passing the Patient Protection and Affordable
Care Act, Pub. L. No. 111-148, 124 Stat. 119, and the
Health Care and Education Reconciliation Act of 2010,
Pub. L. No. 111-152, 124 Stat. 1029, collectively and
commonly referred to as the “Affordable Care Act.” See
Patient Protection and Affordable Care Act, Pub. L.
No. 111-148, 124 Stat. 119-1025 (Mar. 23, 2010) (hereinafter, collectively, “the Affordable Care Act,” “the
ACA” or “the Act”). President Obama signed the Patient Protection and Affordable Care Act (H.R. 3590,
111th Cong.) into law on March 23, 2010, and the
Health Care and Education Reconciliation Act (H.R.
4872, 111th Cong.) into law on March 30, 2010.
15. The ACA has the express statutory goals of
“achiev[ing] near-universal [health-insurance] coverage,” 42 U.S.C. § 18091(2)(D), “lower[ing] health insurance premiums,” id. § 18091(2)(F), and “creating
effective health insurance markets,” id. § 18091(2)(I).
16. The ACA contains three main features relevant to this lawsuit.
17. First, the ACA contains an “individual mandate” on most Americans to purchase health insurance
and, separately, a tax penalty for most who fail to comply. ACA § 1501; 26 U.S.C. § 5000A.
a. The statutory title of the individual mandate is “Requirement To Maintain Minimum Essential Coverage,” ACA § 1501; 26
U.S.C. § 5000A(a), and the statutory title

37
for the tax penalty is “Shared Responsibility Payment,” ACA § 1501; 26 U.S.C.
§ 5000A(b). The individual mandate provides: “An applicable individual shall . . .
ensure that the individual . . . is covered under minimum essential coverage.” 26
U.S.C. § 5000A(a).
b. Subsection (b) of Section 5000A—the
“Shared Responsibility Payment”—imposed a tax “penalty” on individuals who
failed to comply with Subsection (a): “If a
taxpayer who is an applicable individual . .
. fails to meet the requirement of subsection
(a) . . . then . . . there is hereby imposed on
the taxpayer a penalty with respect to such
failure[ ].” 26 U.S.C. § 5000A(b)(1). Subsection (c) determines the amount of the tax
penalty with a multi-step formula. Id.
§ 5000A(c).
c. Some Americans are exempt from the individual
mandate,
see
26
U.S.C.
§ 5000A(d)(2)–(4); id. § 1402(g)(1), while
others are subject to the mandate but exempt from the tax penalty, see 26 U.S.C.
§ 5000A(e)(1)–(5). “Many individuals . . .
[will] comply with a mandate, even in the
absence of penalties, because they believe
in abiding by the nation’s laws.” Congressional Budget Office, Key Issues in Analyzing Major Health Insurance Proposals 53
(Dec. 2008).3

See https://www.cbo.gov/sites/default/files/110th-congress-2007
-2008/reports/12-18-keyissues.pdf.

3

38
18. Second, the ACA imposes regulations on
health-insurance companies.
a. The Act requires health insurance companies to “accept every employer and individual in the State that applies for [ ]
coverage,” regardless of preexisting conditions (commonly termed “guaranteed issue”). ACA § 1201; 42 U.S.C. § 300gg-1–4.
b. The Act prohibits insurance companies
from charging individuals higher premiums
because of their health (commonly termed
“community rating”). ACA § 1201; 42 U.S.C.
§ 300gg-4(a)(1).
c. The Act imposes numerous coverage requirements on all health-insurance plans,
termed “essential health benefits” in the
Act, and limitations on “cost-sharing” on all
plans. See ACA §§ 1301–02; 42 U.S.C.
§§ 18021–22.
d. The Act charges “the Secretary” with the
authority to “define the essential health
benefits” that plans must include. ACA
§ 1302; 42 U.S.C. § 18022. Such benefits
“shall include” at least “ambulatory patient
services,” “emergency services,” “hospitalization,” “maternity and newborn care,”
“mental health and substance use disorder
services, including behavioral health treatment,” “prescription drugs,” “rehabilitative
and habilitative services and devices,” “laboratory services,” “preventive and wellness services and chronic disease
management,” and “pediatric services, including oral and vision care.” ACA § 1302;

39
42 U.S.C. § 18022(b)(1)(A)–(J) (capitalization altered).
19. Third, the ACA contains other regulations to
promote access to health insurance and the affordability of that insurance.
a. Employers of 50 or more full-time employees (defined as working “on average at least
30 hours [ ] per week,” ACA § 1513; 26
U.S.C. § 4980H(c)(4)(A)) must offer affordable health insurance if one employee qualifies for a subsidy to purchase health
insurance on the health-insurance exchanges created by the ACA. See ACA
§ 1513; 26 U.S.C. § 4980H.
b. Covered employers that fail to offer any insurance must pay a penalty of $2,000 per
year per employee. ACA § 1513; 26 U.S.C.
§ 4980H(a), (c)(1). If the employer fails to
offer affordable insurance, then it must pay
$3,000 per year per employee. ACA § 1513;
26 U.S.C. § 4980H(b); 79 Fed. Reg. 8544,
8544 (Feb. 12, 2014).
c. The Act also authorizes refundable tax
credits to make insurance purchased on the
exchanges more affordable for individuals
between 100% and 400% of the poverty line.
See ACA § 1401; 26 U.S.C. § 36B.
d. The Act substantially expanded Medicaid,
requiring States to cover—with an expanded benefits package—all individuals
under 65 who have income below 133% of
the poverty line. 42 U.S.C. § 1396; see generally NFIB, 567 U.S. at 574–80 (Roberts,
C.J.) (describing expansion and holding

40
that forcing States to comply is unconstitutional).
e. The Act also imposes additional insurance
taxes and regulations, like a tax on high
cost employer-sponsored health coverage,
26 U.S.C. § 4980I, a requirement that insurance providers cover dependents up to
26 years of age, 42 U.S.C. § 300gg-14(a), the
elimination of coverage limits, id. § 300gg11, and a reduction in federal reimbursement rates to hospitals, see 42 U.S.C.
§ 1395ww.
f. Finally, the Act contains a grab bag of other
provisions. For example, the Act imposes a
2.3% tax on certain medical devices, 26
U.S.C. § 4191(a), creates mechanisms for
the Secretary to issue compliance waivers
to States attempting to reduce costs
through otherwise-prohibited means, 42
U.S.C. § 1315, and regulates the display of
nutritional content at certain restaurants,
21 U.S.C. § 343(q)(5)(H).
20. According to Congress’s own findings, the
ACA’s provisions do not function rationally without
the individual mandate.
a. Congress stressed the importance of Section 5000A’s individual mandate with explicit findings in the text of the ACA itself.
ACA § 1501; 42 U.S.C. § 18091.
b. Chief among these legislative findings is
Section 18091(a)(2)(I), which provides:
Under sections 2704 and 2705 of the
Public Health Service Act [42 U.S.C.

41
300gg-3, 300gg-4] (as added by section 1201 of this Act), if there were no
requirement [to buy health insurance], many individuals would wait to
purchase health insurance until they
needed care. By significantly increasing health insurance coverage, the requirement [to buy health insurance],
together with the other provisions of
this Act, will minimize this adverse
selection and broaden the health insurance risk pool to include healthy
individuals, which will lower health
insurance premiums. The requirement is essential to creating effective
health insurance markets in which
improved health insurance products
that are guaranteed issue and do not
exclude coverage of pre-existing conditions can be sold.
42 U.S.C. § 18091(a)(2)(G) (emphasis
added). Even after the recent legislative
change, the individual mandate remains
part of the ACA, permitting the ACA to
function exactly as Congress outlined and
intended.
c. Other legislative findings from Section
18091 reinforce this point.
i. “By significantly reducing the number of
the uninsured, the requirement, together with the other provisions of th[e]
[ACA], will significantly reduce [health
care’s] economic cost.” Id. § 18091(2)I.
“[B]y significantly reducing the number

42
of the uninsured, the requirement, together with the other provisions of th[e]
[ACA], will lower health insurance premiums.” Id. § 18091(2)(F).
ii. “The requirement is an essential part of
[the Government’s] regulation of economic activity, and the absence of the requirement would undercut Federal
regulation of the health insurance market.” Id. § 18091(2)(H) (emphasis
added).
iii. “[T]he requirement, together with the
other provisions of th[e] [ACA], will significantly reduce administrative costs
and lower health insurance premiums.
The requirement is essential to creating
effective health insurance markets that
do not require underwriting and eliminate its associated administrative
costs.” Id. § 18091(2)(J) (emphasis
added).
d. The Supreme Court explained that the
ACA’s provisions are “closely intertwined,”
such that “the guaranteed issue and community rating requirements would not
work without the coverage requirement
[i.e., Section 5000A].” King, 135 S. Ct. at
2487 (emphasis added); NFIB, 567 U.S. at
547–48 (Roberts, C.J).
e. Upsetting this balance “would destabilize
the individual insurance market” in the
manner “Congress designed the Act to
avoid.” King, 135 S. Ct. at 2493.

43
B. The Individual Mandate and the Tax Penalty Are Inextricably Intertwined—One
Cannot Exist Without the Other under
NFIB v. Sebelius.
21. In NFIB v. Sebelius, 567 U.S. 519 (2012), the
constitutionality of the ACA was challenged by most
of the Plaintiff States herein.
22. As relevant here, the States argued that Section 5000A “exceeded Congress’s powers under Article
I of the Constitution.” Id. at 540 (Roberts, C.J.). Specifically, the States argued that: (1) the Commerce
Clause did not support the individual mandate; (2)
Congress’s tax power did not support the mandate;
and (3) if Section 5000A is unconstitutional, the Court
must enjoin the entire ACA because it is non-severable. See id. at 538–43 (Roberts, C.J.).
23. A majority of the Supreme Court held (via the
opinion of the Chief Justice and the four-Justice dissenting opinion) that the individual mandate exceeded
Congress’s power under the Commerce Clause and the
Necessary and Proper Clause. Id. at 558–61 (Roberts,
C.J.); id. at 657 (Dissenting Op.).
24. A different majority (via the opinion of the
Chief Justice and the four-Justice concurring opinion)
then held it was “fairly possible” to read the individual
mandate plus its tax penalty as a single, unified tax
provision, and thus could be supported under Congress’s tax power. Id. at 563 (Roberts, C.J.).
25. Under this alternate tax interpretation, Section 5000A is no longer “a legal command to buy insurance” backed up by a threat of paying a penalty that
is applicable to some, but not all, of those to whom the

44
mandate applies; “[r]ather, it makes going without insurance just another thing the Government taxes, like
buying gasoline or earning income.” Id. (Roberts, C.J.).
26. “The essential feature” of the Court’s alternative tax holding is that the tax penalty “produces at
least some revenue for the Government.” Id. at 564
(Roberts, C.J.) (citing Kahriger, 345 U.S. at 28 n.4)
(emphasis added). “Indeed, the payment is expected to
raise about $4 billion per year by 2017.” Id. (Roberts,
C.J.). Absent that “essential feature,” the Court’s alternative interpretation was not “fairly possible” under both the Constitution’s text and longstanding
Supreme Court precedent.
27. The NFIB dissent rejected this alternate reading. The dissent explained that Section 5000A is “a
mandate that individuals maintain minimum essential coverage, [which is] enforced by a penalty.” Id. at
662 (Dissenting Op.) (emphasis added). It is “a mandate to which a penalty is attached,” not “a simple
tax.” Id. at 665 (Dissenting Op.).
28. The dissent explained that the structure of
Section 5000A supported the mandate-attached-to-apenalty-that-sometimes-applies reading: Section
5000A mandates that individuals buy insurance in
Subsection (a), and then in Subsection (b) it imposes
the penalty for failure to comply with Subsection (a).
Id. at 663 (Dissenting Op.). Section 5000A exempts
“some” people from the mandate, but not the penalty—
”those with religious objections,” who “participate in a
health care sharing ministry,” and “those who are not
lawfully present in the United States.” Id. at 665 (Dissenting Op.) (citations omitted). “If [Section] 5000A
were [simply] a tax” and “no[t] [a] requirement” to obtain health insurance, exempting anyone from the

45
mandate provision, but not the penalty provision,
“would make no sense.” Id. (Dissenting Op.).
29. The Chief Justice agreed with the dissent’s primary conclusion (thereby creating a majority) that the
“most straightforward reading of” Section 5000A “is
that it commands individuals to purchase insurance.”
Id. at 562 (Roberts, C.J.). “Congress thought it could
enact such a command under the Commerce Clause,
and the Government primarily defended the law on
that basis.” Id. (Roberts, C.J.). The “most natural interpretation of the mandate” is that it is a command
backed up by a penalty, not a tax. Id. at 563 (Roberts,
C.J.).
C. The Tax Cuts and Jobs Act of 2017 Repealed The Tax Penalty, Leaving Only the
Unconstitutional Individual Mandate.
30. On December 22, 2017, the President signed
into law the Tax Cuts and Jobs Act of 2017. Among
many other provisions, the new law amended Section
5000A. Pub. L. No. 115-97, § 11081.
31. This amendment reduces the operative parts
of Section 5000A(c)’s tax penalty formula to “Zero percent” and “$0.” Pub. L. No. 115-97, § 11081. This
change applies after December 31, 2018. Id. After the
Tax Cuts and Jobs Act of 2017, Section 5000A(a) still
contains the individual mandate, requiring “[a]n applicable individual” to “ensure that the individual . . .
is covered under minimum essential coverage,” but
Section 5000A(b)’s tax “penalty” for an individual who
“fails to meet th[is] requirement” is now $0.
32. The House Conference Report of the Tax Cuts
and Jobs Act of 2017 agreed. “Under the [ACA], individuals must be covered by a health plan that provides
at least minimum essential coverage or be subject to a

46
tax (also referred to as a penalty) for failure to maintain the coverage (commonly referred to as the ‘individual mandate’).” H.R. Rep. No. 115-466, at 323
(2017).4 “The Senate amendment reduces the amount
of the individual responsibility payment, enacted as
part of the Affordable Care Act, to zero.” Id. at 324.
The Conference Report is silent about the individual
mandate itself.
33. The CBO’s report on the Tax Cuts and Jobs
Act of 2017 explains that the bill “eliminate[s]” the “individual mandate penalty . . . but [not] the mandate
itself.” CBO 2017 Report 1. The CBO added that “a
small number of people who enroll in insurance because of the mandate under current law would continue to do so [post elimination of the individual
mandate’s penalty] solely because of a willingness to
comply with the law.” Id.
34. In the Tax Cuts and Jobs Act of 2017, Congress did not amend or repeal the ACA’s legislative
findings that the individual mandate is essential to
the operation of the ACA.
35. As the Supreme Court explained in NFIB, “the
essential feature of any tax” is that it “produces some
revenue.” 567 U.S. at 564 (emphasis added).
36. Section 5000A, as amended by the Tax Cuts
and Jobs Act of 2017, now “produces” no revenue (beginning Jan. 1, 2019). Accordingly, it is not possible to
interpret the individual mandate as part of a single
unified tax provision.
37. Instead, the “most natural interpretation of
the mandate,” id. at 563 (Roberts, C.J.), is now the
See https://www.gpo.gov/fdsys/pkg/CRPT-115hrpt466/pdf/
CRPT-115hrpt466.pdf.

4

47
only interpretation possible: an unconstitutional command from the federal government to individuals to
purchase a product.
D. The ACA, As Amended, Imposes Serious
Injury and Irreparable Harm Upon the
States and Their Citizens.
38. As Congress itself found, the ACA’s provisions
only work rationally with the individual mandate—a
mandate now unconstitutional under NFIB.
39. The unconstitutional individual mandate,
along with the ACA itself, significantly harms and impacts the States, as independent sovereigns, in various ways:
a. Imposing a burdensome and unsustainable
panoply of regulations on a market that
each State has the sovereign responsibility
to regulate and maintain within its own
borders, to wit:
i. The ACA imposes a health insurance exchange in each State for consumers to
shop for health plans and access subsidies to help pay for coverage. Under the
ACA, States can choose between three
types of exchanges:
1. State-based exchange (adopted by 16
States, plus the District of Columbia), including five federally-supported exchanges, which rely on the
Healthcare.gov technology platform;
2. State-partnership with a federally
facilitated exchange (adopted by six
States), or

48
3. Federally-facilitated
exchange
(adopted by 28 States). Defendant
HHS established and imposed the
exchange infrastructure on the
States and certifies at the federal
level that participating health plans
meet the federal requirements to sell
plans on the exchange. The ACA does
not grant States statutory authority
to enforce the ACA and HHS maintains the authority to take enforcement action. For States involved in
the federally-facilitated exchange,
carriers must file plans with both the
state regulatory authority and CMS
(Centers for Medicare and Medicaid
Services), even if they do not plan to
participate in the exchange. Whether
they are sold on or off the federal
Marketplace, all individual and
small group health insurance plans
must include the essential health
benefits package and comply with
other federal requirements.
ii. The ACA also imposed myriad market
reforms on the States, including guaranteed issue, prohibition on preexisting
condition exclusions, and modified community ratings.
b. By forcing state, non-federal governmental
officials and citizens to comply with the
mandates of the ACA, including the individual mandate, and all of the ACA’s associated rules and regulations, instead of

49
state-based policy regarding health insurance, Plaintiffs are injured. Sovereigns suffer injury when their duly enacted laws or
policies are enjoined or impeded. See Alfred
L. Snapp & Son, Inc. v. Puerto Rico, 458
U.S. 592, 601 (1982) (recognizing the interest of a sovereign in its “power to create and
enforce a legal code, both civil and criminal”); Alaska v. U.S. Dep’t of Transp., 868
F.2d 441, 443 n.1 (D.C. Cir. 1989) (agreeing
that the State has standing to seek declaratory and injunctive relief “because DOT
claims that its rules preempt state consumer protection statutes, [and therefore]
the States have suffered injury to their sovereign power to enforce state law”); Maryland v. King, 133 S. Ct. 1, 3 (2012) (citing
New Motor Vehicle Bd. v. Orrin W. Fox Co.,
434 U.S. 1345, 1351 (1977) (Rehnquist, J.,
in chambers) (“It also seems to me that any
time a State is enjoined by a court from effectuating statutes enacted by representatives of its people, it suffers a form of
irreparable injury.”)); Planned Parenthood
of Greater Texas Surgical Health Servs. v.
Abbott, 734 F.3d 406, 419 (5th Cir. 2013)
(“When a statute is enjoined, the State necessarily suffers the irreparable harm of
denying the public interest in the enforcement of its laws.”); Coalition for Econ. Equity v. Wilson, 122 F.3d 718, 719 (9th Cir.
1997); Illinois Dep’t of Transp. v. Hinson,
122 F.3d 370, 372 (7th Cir. 1997) (State has
standing where it “complains that a federal
regulation will preempt one of the state’s
laws.”).

50
c. The unconstitutional individual mandate,
along with the ACA itself, significantly
harms and impacts the States by compelling them to take corrective action, at great
cost, to save their insurance markets, to
wit:
i. On January 21, 2018, Governor Scott
Walker of Wisconsin called on the Legislature to pass “a state-based reinsurance
program”
for
individuals
purchasing insurance on the ACA’s exchanges, which will “stabilize[ ]” the
market after “insurers exit[ ] [and]
shock rate increases.” Governor Scott
Walker, Press Release, Governor
Walker Proposes Health Care Stability
Plan to Stabilize Premiums for Wisconsinites on Obamacare (Jan. 21, 2018).5
This proposal would cost $200 million,
split between State and federal funds.
Governor Scott Walker, Memo Accompanying Jan. 21, 2018 Press Release.6 The
Wisconsin Legislature passed The Wisconsin Legislature passed a reinsurance
program in February 2018.7 Wisconsin’s
reinsurance program is necessary be-

See https://walker.wi.gov/press-releases/governor-walker-proposes-health-care-stability-planstabilize-premiums-wisconsinites.

5

See https://jwyjh41vxje2rqecx3efy4kf-wpengine.netdna-ssl.
com/wp-content/uploads/2018/01/180120Overview.pdf.

6

See Wisconsin State Legislature, Senate Bill 770,
https://docs.legis.wisconsin.gov/2017/proposals/reg/sen/bill/
sb770.

7

51
cause the ACA’s regulations of the individual market causes health-insurance
premiums to rise substantially. Without
Wisconsin’s intervention, plans in the
individual market would either not be
offered, or would be prohibitively expensive.
ii. Wisconsin’s Insurance Commissioner,
like the insurance commissioners of all
States, will need to take other corrective
actions to protect Wisconsin citizens
from the ACA’s irrational regime.
iii. While the Texas Legislature did not
adopt most ACA requirements into
Texas law, the Texas Department of Insurance (“TDI”) monitors the impact of
the ACA on the Texas insurance market
and takes action, when warranted, to
protect consumers and minimize market
disruptions. For example, TDI developed navigator rules to address insufficient federal standards for navigators,
28 TAC §§ 19.4001–19.4017, and the
ACA-forced dissolution of the Texas
Health Insurance Pool caused insurance
coverage disruptions given the difficulties with the federal health exchange
rollout, requiring TDI to issue an emergency rule extending existing insurance
coverage for Texas Health Insurance
Pool enrollees.
iv. Moreover, like other States, many
health insurers have withdrawn from
Texas due to unsustainable rising costs.
Some federally designated regions of

52
Texas have only one insurance carrier
offering healthcare plans. Texas residents and employers, including Texas itself as an employer, suffer as a result of
this lack of choice and higher costs.
v. Likewise, the ACA has wrought havoc
on the health insurance market in Nebraska. In 2017, two insurers exited Nebraska’s individual market, leaving only
a single insurer remaining. Aetna announced its withdrawal from Nebraska’s individual market in May 2017,
citing an expected loss of $200 million
for 2017 in the four states Aetna sold individual coverage. In June 2017, Blue
Cross and Blue Shield of Nebraska also
announced its withdrawal from Nebraska’s individual market, citing an expected loss of $12 million for 2017, in
addition to the approximately $150 million loss the company experienced in Nebraska from 2014 to 2016. In the wake
of these companies’ departures, only a
single insurer, Medica, is left in Nebraska’s individual market. Nebraskans
are left to hope Medica—which itself
raised premiums in plan year 2017 by
an average of nearly 31 percent—remains in the market for 2019.
vi. In Missouri, the Interim Committee on
Stabilizing Missouri’s Health Insurance
Markets, a bi-partisan committee of the
Missouri House, was formed to work on
solving the rising instability plaguing

53
the Missouri insurance markets as a result of the ACA. The committee voted
unanimously to create the “Missouri Reinsurance Plan,” and legislation to establish the Missouri Reinsurance Plan,
introduced on February 22, 2018. H.B.
2539, 99th General Assembly (Mo.
2018).8
vii. Governor Otter of Idaho recently issued
an Executive Order to the Idaho Department of Insurance to “approve [healthinsurance plans] that follow all Statebased requirements, even if not all
[ACA] requirements are met.” Office of
Governor C.L. “Butch” Otter, Executive
Order No. 2018-02 (Jan. 5, 2018).9 The
Idaho Department of Insurance has issued a bulletin implementing this order.
Idaho Dep’t of Ins., Bulletin No. 18-01
(Jan. 24, 2018).10
viii. Maryland began investigating the enactment of its own state-level individual
mandate to replace the amended ACA
individual mandate.11
See https://www.house.mo.gov/billtracking/bills181/hlrbillspdf/
5903H.01I.pdf.

8

See https://gov.idaho.gov/mediacenter/execorders/eo2018/EO%
202018-02.pdf.

9

10

See https://doi.idaho.gov/DisplayPDF?Id=4712.

See Josh Hicks, With Obama’s Federal Mandate Disappearing,
Md. Democrats Push ‘Down Payment’ Plan, Wash. Post (Jan. 9,
2018),
https://www.washingtonpost.com/local/md-politics/mddemocratspush-insurance-down-payment-plan-to-replace-federal-mandate/2018/01/09/bc0afbb0-f4f4-11e7-beb6c8d48830c54d_story.html?utm_term=.789a454ab8bf.

11

54
ix. Other States will need to take similar
corrective measures to address the
ACA’s irrational regime.
40. The unconstitutional individual mandate,
along with the ACA itself, significantly harms and impacts the States as Medicaid and CHIP providers:
a. The United States Congress created the
Medicaid program in 1965. See Social Security Amendments of 1965, Pub. L. No. 8997, 79 Stat. 286 (1965). Medicaid is jointly
funded by the United States and the States
to provide healthcare to individuals with insufficient income and resources. See generally 42 U.S.C. §§ 1396-1396w. To
participate in Medicaid, States must provide coverage to a federally-mandated category of individuals and according to a
federally-approved State plan. See 42
U.S.C. § 1396a; 42 C.F.R. §§ 430.10–430.12.
All 50 States participate in the Medicaid
program.12
b. The United States Congress created the
Children’s Health Insurance Program
(“CHIP”) in 1997. See Balanced Budget Act
of 1997, Pub. L. No. 105-33, Title IV, Subtitle J, 111 Stat. 251 (Aug. 5, 1997). The federal government and the States jointly fund
CHIP to provide healthcare for uninsured
children that do not qualify for Medicaid.
Federal Financial Participation in State Assistance Expenditures; Federal Matching Shares for Medicaid, the Children’s
Health Insurance Program, and Aid to Needy Aged, Blind, or Disabled Persons for October 1, 2014 through September 30, 2015, 79
Fed. Reg. 3385 (Jan. 21, 2014).

12

55
See 42 U.S.C. § 1397aa. CHIP covers children in families who have too much income
to qualify for Medicaid, but cannot afford to
buy private insurance. CHIP provides basic
primary health care services to children, as
well as other medically necessary services,
including dental care. All States now participate in CHIP since its creation in 1997.
c. Because Medicaid and CHIP are entitlement programs, States cannot limit the
number of eligible people who can enroll,
and Medicaid and CHIP must pay for all
services covered under the program.
Providing health care to individuals with
insufficient income or resources through
the Medicaid or CHIP programs is a significant function of state government.
d. One avenue for individuals to comply with
Section 5000A’s individual mandate is to
apply for Medicaid or CHIP. 26 U.S.C.
§ 5000A(f)(1)(A)(iii). Thus, because of the
individual mandate and the ACA, many individuals became eligible for Medicaid, or
may have been previously eligible but opted
not to enroll. Either way, the individual
mandate requires millions more to enroll in
Medicaid, imposing additional costs on the
States. This reality does not represent “unfettered choices made by independent
[state] actors,” ASARCO Inc. v. Kadish, 490
U.S. 605, 615 (1989), but is rather a direct
consequence of the individual mandate and
the ACA, leaving Medicaid as the only option through which numerous individuals
may comply.

56
e. As the CBO explained before both the enactment of ACA and the enactment of the
Tax Cuts and Jobs Act of 2017, at least
some individuals will obtain health insurance because of the mandate, even absent
any tax penalty. See CBO 2017 Report 1.
f. The mandate forcing more individuals onto
Medicaid or CHIP causes significant monetary injuries to the States, because these
programs obligate the States to share the
expenses of coverage with the federal government.
41. Pursuant to 26 U.S.C. § 4980H, the ACA
harms the States as large employers:
a. The ACA requires States, as large employers, to offer their employees health-insurance plans with minimum essential
benefits defined solely by the Federal Government.
b. If a State wished to pursue other health-insurance policies for its employees, perhaps
by offering insurance with a different assortment of coverage benefits, the Federal
Government will tax or penalize the State.
26 U.S.C. § 4980H.
c. The ACA imposes a 40% “[e]xcise tax” on
“high cost employer-sponsored health coverage.” 26 U.S.C. § 4980I. As an employer,
Wisconsin must do “considerable work” restructuring its health-insurance offerings

57
to avoid this costly measure. 13 This work
“may have a significant effect on future
plan design and maximum benefit limitations.”14
d. Because of the costs of the ACA, a major
Wisconsin health insurer, Assurant Health,
ceased its Wisconsin operations.15 This cost
Wisconsin approximately 1,200 jobs.16
e. The ACA resulted in the repeal of Wisconsin’s high-risk pool, the Health Insurance
Risk-Sharing Plan, which effectively managed the health-insurance needs of highrisk individuals before the full implementation of the ACA. Wis. Stat. §§ 149.10–.53
(2011–12) (statutory framework for Wisconsin Health Insurance Risk-Sharing Plan),
repealed by 2013 Wis. Act 20, § 1900n; see
generally Wis. Legislative Audit Bureau,
Report 14- 7 Health Insurance Risk-Sharing Plan Authority at p. 1 (June 2014) (describing history of Wisconsin’s HIRSP,
including dissolution and repeal).
Segal Consulting, Second Report—Observations and Recommendations for 2017 and Beyond, prepared for Wisconsin Group
Insurance Board Department of Employee Trust Funds, at p. 141
(Nov. 17, 2015), http://etf.wi.gov/boards/agenda-items-2015/
gib1117/item3ar.pdf.
13

14

Id. at 142.

See Guy Boulton, Milwaukee-Based Assurant Health To Be
Sold Of Or Shut Down, Milwaukee Journal Sentinel (Apr. 28,
2015), http://archive.jsonline.com/business/assurant-considering
-sale-ofmilwaukee-based-assurant-health-b99490422z1301614251.html.
15

16

Id.

58
f. If state employees obtain subsidized insurance from an exchange instead of from a
state plan, the Federal Government will tax
or penalize the state.
g. More employees will join state-sponsored
plans because of the mandate, imposing additional costs upon the States. See CBO
2017 Report 1. In Texas, for example, from
FY13–FY17, the Texas Group Benefits Program, administered by the Employees Retirement System of Texas, spent $487
million on ACA-related costs. 2016 Group
Benefits Program Comprehensive Annual
Report, Employees Retirement System of
Texas (Feb. 2017).17
h. Nebraska, for example, has borne significant new costs at the behest of the ACA. Nebraska, like other States, must offer nonfull time employees (i.e., employees working 30–39 hours per week) health insurance
plans with premiums identical to those offered to full time employees.
i. In Missouri, revenue is drained by fasterthan-projected growth in health care expenditures, driven in part by the impact of
the ACA. Accordingly, Governor Greitens’s
budget for Fiscal Year 2018 includes more
than $572 million in cuts across Missouri
state government and reduces the State’s
workforce by 188 positions. Mo. Office of
17 See https://ers.texas.gov/About-ERS/Reports-and-Studies/Reports-and-Studies-on-ERSadministered-Benefit-Programs/
FY16-GBP-Comprehensive-Annual-Report.pdf.

59
Admin., Summary, The Missouri Budget,
(2018). 18 For Fiscal Year 2019, the problems continue. “Health care costs paid by
the government continue to skyrocket.
Obamacare has still not been repealed, and
the cost of health care continues to rise.
Taxpayers pay more and more for government health care every year with little or no
improvement in results.” Mo. Office of Admin., Fiscal Year 2019 Budget Priorities,
The Missouri Budget.19
In South Dakota, the estimated cost impact
of the ACA upon the South Dakota State
Employee Benefits Program for FY 2015–
2018 is as follows: $10,400 for the review of
denied appeals; $19,140,252 for the elimination of the lifetime maximum; $4,575,200
for the expanded preventive services paid
only by the plan; $3,202,942 for the Transitional Reinsurance Program fee (fee imposed on self-funded plans); $172,141 for
the Patient Centered Outcomes Research
Institute fee (fee imposed on self-funded
plans); $1,514,205 for the expanded health
plan eligibility for part-time employees who
did not meet the pre-ACA eligibility definition; $100,000 for the Form 1095-C administration. To date, South Dakota is unable
to accurately estimate the cost of the preexisting conditions exclusion or the exSee https://oa.mo.gov/sites/default/files/FY_2018_Budget_
Summary_Abridged.pdf.

18

See https://oa.mo.gov/sites/default/files/FY_2019_Budget_
Summary.pdf.

19

60
panded eligibility for adult dependent children to age 26, though upon information
and belief, those qualifiers have increased
the costs for South Dakota’s taxpayers.
42. Under the ACA health insurance plans available to Individual Plaintiffs Hurley and Nantz, Individual Plaintiffs pay dramatically more than prior to
the ACA, have lost access to the doctors and health
care providers of their choice, and are unable to purchase a health insurance plan that meets their needs
and preferences.
43. The ACA injures Individual Plaintiffs Hurley
and Nantz by mandating that they purchase minimum essential health insurance coverage despite the
Supreme Court’s determination that the requirement
is unconstitutional. Despite the reduction of the individual mandate penalty to $0.00 under the Tax Cuts
and Jobs Act, Individual Plaintiffs have an obligation
to comply with the individual mandate under the ACA
while it remains federal law, despite the provision’s
unconstitutionality.
44. The ACA further injures the Individual Plaintiffs by establishing a health-care insurance regulatory system that prevents the Individual Plaintiffs
from purchasing health insurance under a free-market system that would allow them to have lower premiums, choice in provider, and options for health
insurance plans.
45. The ACA further injures the Individual Plaintiffs by requiring them to divert resources from their
businesses in order to obtain qualifying health insurance coverage, regardless of their judgment as to
whether maintaining such coverage is a worthwhile

61
cost of doing business, thereby harming their abilities
to maintain their own businesses.
46. In the absence of the ACA, the Individual
Plaintiffs would purchase a health-insurance plan different from the ACA-compliant plans that they are
currently required to purchase were they afforded the
option without the ACA.
47. Each of the injuries to Individual Plaintiffs is
caused by the Defendants’ continued enforcement of
the Affordable Care Act, and each of these injuries will
be redressed by a declaratory judgment from this
Court pronouncing the Affordable Care Act unconstitutional.
IV. CLAIMS FOR RELIEF
COUNT ONE
Declaratory Judgment That the Individual
Mandate of the ACA Exceeds Congress’s Article
I Constitutional Enumerated Powers
48. Plaintiffs incorporate the allegations contained in paragraphs 1 through 47 as if fully set forth
herein.
49. Section 5000A’s individual mandate exceeds
Congress’s enumerated powers by forcing Individual
Plaintiffs to maintain ACA-compliant health insurance coverage. Congress lacks the authority under the
Commerce Clause and Necessary and Proper Clause
to command individuals to purchase health insurance,
and the individual mandate cannot be upheld under
any other provision of the Constitution.
50. As a majority of the Supreme Court concluded,
the “most straightforward reading of” Section 5000A
“is that it commands individuals to purchase insurance.” NFIB, 567 U.S. at 562–63 (Roberts, C.J.); id. at

62
663–65 (Dissenting Op.). Thus, Congress lacks authority under the Commerce Clause and Necessary and
Proper Clause to command individuals to purchase
health insurance.
51. In NFIB, a different majority of the Supreme
Court saved Section 5000A from unconstitutionality
by interpreting it not as a mandate enforced by a separate tax penalty, but by combining the mandate with
the tax penalty and treating those provisions as a single tax on individuals who chose to go without insurance. 567 U.S. at 563 (Roberts, C.J.).
52. The Constitution grants to Congress the
“Power to lay and collect Taxes . . . to pay the Debts
and provide for the common Defence and general Welfare of the United States.” U.S. Const. art. I, § 8, cl. 1.
53. A provision that raises no revenue is not a tax
because it does nothing to “pay the Debts” or “provide
for the common Defense and general Welfare of the
United States.” Indeed, “the essential feature of any
tax” is the “produc[tion] [of] at least some revenue for
the Government.” NFIB, 567 U.S. at 564–65, 574.
54. The Tax Cuts and Jobs Act of 2017 reduced
Section 5000A’s tax penalty to $0. Pub. L. No. 115-97,
§ 11081. Accordingly, Section 5000A no longer possesses “the essential feature of any tax”; it no longer
“produces at least some revenue for the Government.”
55. Therefore, after Congress amended Section
5000A, it is no longer possible to interpret this statute
as a tax enacted pursuant to a valid exercise of Congress’s constitutional power to tax. Rather, the only
reading available is the most natural one; Section
5000A contains a stand-alone legal mandate.
56. No other provision of the Constitution supports Congress’s claimed authority to enact Section

63
5000A’s individual mandate. Accordingly, Section
5000A’s individual mandate is unconstitutional.
57. The remainder of the ACA is non-severable
from the individual mandate, meaning that the Act
must be invalidated in whole.
58. Alternatively, and at the very minimum, as
even the Obama Administration conceded in its briefing in NFIB, the guaranteed-issue and communityrating provisions are non-severable from the mandate
and must be invalidated along with the individual
mandate.
59. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable injury.
60. Plaintiffs are entitled to a declaration that the
individual mandate of the ACA exceeds Congress’s Article I constitutionally enumerated powers. Plaintiffs
also are entitled to a permanent injunction against
Defendants from implementing, regulating, or otherwise enforcing any part of the ACA because its requirements are unlawful and not severable from the
unconstitutional individual mandate.
COUNT TWO
Declaratory Judgment that the ACA Violates
the Due Process Clause of the Fifth Amendment to the Constitution
61. Plaintiffs incorporate the allegations contained in paragraphs 1 through 60 as if fully set forth
herein.
62. The Due Process Clause of the Fifth Amendment provides “nor shall any person . . . be deprived of
life, liberty, or property, without due process of law.”
U.S. Const. amend. V.

64
63. The Fifth Amendment contains an “implicit”
“equal protection principle” binding the federal Government. Sessions v. Morales-Santana, 137 S. Ct.
1678, 1686 (2017).
64. Legislation that imposes irrational requirements violates the Due Process Clause.
65. Given that Section 5000A’s individual mandate is unconstitutional, the rest of the ACA is irrational under Congress’s own findings.
66. The ACA lacks a rational basis now that the
individual mandate’s tax penalty has been repealed.
67. Section 18091(2)(I), the chief legislative finding in the ACA, explains that “[t]he requirement [to
buy health insurance] is essential to creating effective
health insurance markets in which improved health
insurance products that are guaranteed issue and do
not exclude coverage of pre-existing conditions can be
sold.” 42 U.S.C. § 18091(2)(I).
68. Given that the ACA’s “essential” feature—the
individual mandate—is unconstitutional, the law now
imposes irrational requirements, in violation of the
Due Process Clause.
69. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable injury.
70. Plaintiffs are entitled to a declaration that the
ACA violates the Due Process Clause to the Fifth
Amendment. Plaintiffs also are entitled to a permanent injunction against Defendants from implementing, regulating, or otherwise enforcing any part of the
ACA because its requirements are unlawful and not
severable from the unconstitutional individual mandate.

65
COUNT THREE
Declaratory Judgment That the ACA Violates
the Tenth Amendment to the United States
Constitution
71. Plaintiffs incorporate the allegations contained in paragraphs 1 through 70 as if fully set forth
herein.
72. The Tenth Amendment provides: “The powers
not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. Const.
amend. X.
73. Legislation that is irrational is outside the
powers delegated to the United States by the Constitution.
74. Under Congress’s own findings, the ACA lacks
a rational basis now that the individual mandate’s tax
penalty has been repealed and the individual mandate
is unconstitutional. See supra ¶¶ 53–62.
75. The ACA is therefore not within the powers
delegated to the United States.
76. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable injury.
77. Plaintiffs are entitled to a declaration that the
ACA violates the Tenth Amendment to the United
States Constitution. Plaintiffs also are entitled to a
permanent injunction against Defendants from implementing, regulating, or otherwise enforcing any part
of the ACA because its requirements are unlawful and
not severable from the unconstitutional individual
mandate.

66
COUNT FOUR
Declaratory Judgment Under 5 U.S.C. § 706 that
Agency Rules Promulgated Pursuant to the
ACA Are Unlawful
78. Plaintiffs incorporate the allegations contained in paragraphs 1 through 77 as if fully set forth
herein.
79. The Administrative Procedure Act requires
the Court to hold unlawful and set aside any agency
action that is, among other things, (a) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law; (b) contrary to constitutional right,
power, privilege, or immunity; and (c) in excess of statutory jurisdiction, authority, or limitations, or short of
statutory right. 5 U.S.C. § 706(2).
80. The Department and Service are both
“agenc[ies]” under the Administrative Procedures Act,
5 U.S.C. § 551(1), and the regulations and rules promulgated pursuant to the ACA are “rules” under the Administrative Procedures Act, 5 U.S.C. § 551(4).
81. Because the ACA exceeds Congress’s Article I
Constitutional enumerated powers and violates the
Fifth and Tenth Amendments to the Constitution for
the reasons described in prior paragraphs, all regulations promulgated pursuant to, implementing, or enforcing, the ACA are arbitrary and capricious,
contrary to law, and in excess of agency authority.
82. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable injury.
83. Plaintiffs are entitled to a declaration that
regulations promulgated pursuant to, implementing,

67
or enforcing the ACA violates the Administrative Procedure Act. Plaintiffs also are entitled to a permanent
injunction against Defendants from implementing,
regulating, or otherwise enforcing any part of the ACA
because its requirements are unlawful and not severable from the unconstitutional individual mandate.
COUNT FIVE
Injunctive Relief Against Federal Officials
from Implementing, Regulating, or Otherwise
Enforcing the ACA
84. Plaintiffs incorporate the allegations contained in paragraphs 1 through 83 as if fully set forth
herein.
85. Plaintiffs are entitled to a permanent injunction against Defendants from implementing, regulating, or otherwise enforcing any part of the ACA
because its requirements are unlawful and not severable from the unconstitutional individual mandate.
V. PRAYER FOR RELIEF
Plaintiffs respectfully request that the Court:
A. Declare the ACA, as amended by the Tax Cuts
and Jobs Act of 2017, to be unconstitutional either in
part or in whole.
B. Declare unlawful any and all rules or regulations promulgated pursuant to, implementing, regulating, or otherwise enforcing the ACA.
C. Enjoin, preliminarily and permanently, Defendants and their employees, agents, successors, or
any other person acting in concert with them, from implementing, regulating, enforcing, or otherwise acting
under the authority of the ACA.

68
D. Award Plaintiffs their reasonable costs, including attorneys’ fees.
E. Grant Plaintiffs any and all such other and
further relief to which they are justly entitled at law
and in equity.
Respectfully submitted this the 23rd day of April,
2018,
BRAD SCHIMEL
Attorney General of
Wisconsin

KEN PAXTON
Attorney General of
Texas

STEVE MARSHALL
Attorney General of
Alabama

JEFFREY C.
MATEER
First Assistant Attorney General

LESLIE
RUTLEDGE
Attorney General of
Arkansas
MARK BRNOVICH
Attorney General of
Arizona
PAM BONDI
Attorney General of
Florida
CHRISTOPHER
CARR
Attorney General of
Georgia
CURTIS HILL
Attorney General of
Indiana

BRANTLEY D.
STARR
Deputy First Assistant
Attorney General
JAMES E. DAVIS
Deputy Attorney General for Civil Litigation
/s/ Darren McCarty
DARREN McCARTY
Special Counsel for
Civil Litigation
Texas Bar No.
24007631
darren.mccarty
@oag.texas.gov
AUSTIN R. NIMOCKS
Special Counsel for
Civil Litigation

69
DEREK SCHMIDT
Attorney General of
Kansas
JEFF LANDRY
Attorney General of
Louisiana
JOSH HAWLEY
Attorney General of
Missouri
DOUG PETERSON
Attorney General of
Nebraska
WAYNE
STENEHJEM
Attorney General of
North Dakota
ALAN WILSON
Attorney General of
South Carolina
MARTY JACKLEY
Attorney General of
South Dakota
HERBERT
SLATERY, III
Attorney General of
Tennessee
SEAN REYES
Attorney General of
Utah
PATRICK
MORRISEY
Attorney General of

Attorney General of
Texas
P.O. Box 12548, Mail
Code 001
Austin, Texas 787112548
Tel: 512-936-1414
ATTORNEYS FOR
PLAINTIFF-STATES

70
West Virginia
JONATHAN
MITCHELL
Texas Bar No.
24075463
jfmitche
@stanford.edu
/s/ Robert Henneke
ROBERT
HENNEKE
Texas
Bar
No.
24026058
rhenneke
@texaspolicy.com
TEXAS
PUBLIC
POLICY
FOUNDATION
901 Congress Avenue
Austin, Texas 78701
(512) 472-2700 (p)
(512) 472-2278
Attorneys for Individual-Plaintiffs

71
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JOHN NANTZ
_______
I, John Nantz, do hereby declare:
1. I am a citizen of the United States and a resident of Austin, Texas.
2.

I am 31 years old.

3.

I am single. I have no dependents.

4. I am self-employed, and the founder of a management consulting business. I advise clients on maximizing growth potential, and develop organizational
plans and digital strategic plans.
5. I am ineligible for health insurance coverage
through an employer, Medicare, Medicaid, or the Children’s Health Insurance Program.
6. I am ineligible to receive a subsidy from the
federal government to purchase health insurance coverage.

72
7. I am currently covered under an individual
health insurance plan that meets minimum standards
under the Affordable Care Act.
8. For the 2018 calendar year, I purchased
health insurance from Oscar Insurance based on a recommendation from Stride Health (an individual insurance advisory company). I am enrolled in the Oscar
Saver Bronze Plan, an ACA-compliant individual
health insurance plan.
9. My monthly premium is $266.56. I must pay
a deductible of $6,500.00 annually before my health
insurance company begins to pay for covered health
care services. As stated on Oscar Insurance’s website,
“You pay the full price for covered medical services until you spend $6,500.00. After that, Oscar pays the full
amount of your covered medical care (in-network
only)”. The plan also includes a select set of complimentary services including an annual routine physical
examination and Doctor on Demand access. The full
list of complimentary services can be found at
https://www.hioscar.com/benefits/preventive/.
10. I have been enrolled in an ACA-mandated
plan since 2014. Before that, I was enrolled in an employer-sponsored plan offered by McKinsey & Company, which offered access to a much wider network of
providers. The cost of my current plan is high given
the high deductible, limited network of providers and
my age and health status. I enrolled in this plan because I was required by the ACA to do so; I do not believe it provides sufficient value to warrant the cost.
11. My plan is an Exclusive Provider Organization (EPO) Plan. I am limited to using the health care
providers within the network. The plan provides no
out-of-network benefits.

73
12. I am young and in good health. I have received
minimal professional medical care for years with my
use of the healthcare system limited almost exclusively to seeing sports therapists and chiropractors
which I have paid out-of-pocket or with my HSA. The
money that I have paid for ACA-mandated health insurance premiums would have been much better spent
on additional contributions to a Health Savings Account and/or basic catastrophic insurance, which
would be my preferred insurance option.
13. The ACA has greatly increased my health insurance costs. My preference would be to purchase
reasonably-priced insurance coverage that is consumer-driven in accordance with my actuarial risk. I
would maintain health insurance coverage through a
plan that offers low premiums and a high deductible
priced according to my risks and lifestyle choices. This
would be available to me in a consumer-driven, competitive insurance market. In this situation, I would
contribute to a Health Savings Account, which I would
use to pay for my health expenses.
14. The ACA’s individual mandate requires me to
divert resources from my business endeavors in order
to obtain qualifying health insurance coverage, regardless of my own judgment as to whether maintaining such coverage is a worthwhile cost of doing
business. The additional costs imposed upon me by
the individual mandate place a burden on my business.
15. I value compliance with my legal obligations,
and believe that following the law is the right thing to
do. The repeal of the associated health insurance tax
penalty did not relieve me of the requirement to purchase health insurance. I continue to maintain minimum essential health insurance coverage because I

74
am obligated to comply with the Affordable Care Act’s
individual mandate, even though doing so is a burden
to me.
I declare under penalty of perjury under the laws of
the State of Texas and the United States that the foregoing is true and correct.
Executed on this 23 day of April, 2018.
/s/ John Nantz
John Nantz

75
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF NEILL HURLEY
_______
I, Neill Hurley, do hereby declare:
1. I am a citizen of the United States and a resident of Katy, Texas.
2.

I am thirty-nine years old.

3.

I am married. I have two dependent children.

4. I am self-employed and own a consulting business. I am a technology consultant in the parking industry.
5. I am ineligible for health insurance coverage
through an employer, Medicare, Medicaid, or the Children’s Health Insurance Program.
6. I am ineligible to receive a subsidy from the
federal government to purchase health insurance coverage.
7. I am currently covered under a family health
insurance plan that meets minimum standards under
the Affordable Care Act. This plan also covers my wife

76
and our two children. My health insurance company
is Community Health Choice, and we are enrolled in
the HMO Bronze Plan.
8. I selected and enrolled in my health insurance
plan online through www.healthcare.gov – the health
insurance marketplace established by the federal government and managed by the U.S. Centers for Medicare and Medicaid Services.
9. My monthly premium is $1,081.70. I must pay
a deductible of $6,000.00 annually for myself and for
each covered family member or until our combined
family deductible expenses meet the overall family deductible of $12,000.00 annually.
10. I first enrolled in an ACA Gold plan in 2016. I
paid a monthly premium of $912.60. I renewed that
plan in 2017, even though the monthly premium had
increased by 17 percent to $1,071.50. In October of
2017, I received a notice from my health insurance
that my monthly premium for the same plan would increase by 49 percent to $1,594.84 if I elected to renew
coverage for 2018. I had to enroll in the Bronze plan,
which provides an inferior level of coverage, because I
could no longer afford to pay for the Gold plan.
11. I was enrolled in a health insurance plan
through my previous employer before the ACA mandated that I obtain coverage. My previous plan was
widely accepted by the health care providers in our local area. I only had to pay a low co-pay for physician
visits instead of meeting a high deductible before any
benefits are provided. My monthly premiums under
my previous plan were only $425.00.
12. I was unable to obtain a plan through the federal marketplace that was accepted by all of my and
my family’s health care providers. I opted to enroll in

77
a plan that was accepted by my children’s pediatrician. Our family practice physician, ENT specialist,
dermatologist, urgent care facility, and urologist do
not accept our ACA plan so we had to find new health
care providers that we would not otherwise choose.
Our new health care providers are not of the same
quality as I and my family had before. Some of our
new health care providers have limited the number of
appointments available to patients with ACA plans,
which delays my ability to timely access health care
for me and my family.
13. The ACA prevents me from obtaining care
from my preferred health care providers and has
greatly increased my health insurance costs. I would
purchase reasonably-priced insurance coverage that
allowed me to access care locally from my preferred
service providers, were I not limited to the plans provided through the federal health insurance marketplace.
14. The ACA’s individual mandate requires me to
divert resources from my business endeavors in order
to obtain qualifying health insurance coverage, regardless of my own judgment as to whether maintaining such is a worthwhile cost of doing business. The
additional costs imposed upon me by the individual
mandate place a burden on my business.
15. I value compliance with my legal obligations,
and believe that following the law is the right thing to
do. The repeal of the associated tax penalty did not
relieve me of the requirement to purchase health insurance. I continue to maintain minimum essential
health insurance coverage because I am obligated to
comply with the Affordable Care Act’s individual mandate.

78
I declare under penalty of perjury under the laws of
the State of Texas and the United States that the foregoing is true and correct.
Executed on this 23rd day of April, 2018.
/s/ Neill Hurley
Neill Hurley

79
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF BLAISE DURAN
_______
I, Blaise Duran, am a citizen of the United States, am
over the age of eighteen, and am competent to testify.
The following statements are true and correct based
on my personal knowledge:
1. I am the Manager for Underwriting, Data
Analysis and Reporting for the Employees Retirement
System of Texas (“ERS”), the agency that provides retirement and other benefit programs for Texas employees, retirees, and their dependents. As the
Manager for Underwriting, Data Analysis and Reporting for ERS, my responsibilities include analyzing the
financial impact to the Texas Employees Group Benefits Program (“GBP”) health benefit plans related to
the requirements of the Patient Protection and Affordable Care Act (ACA), including certain actions required by state laws amended by the Texas
Legislature in 2011 and 2013 related to ACA requirements. I have personal knowledge of the information
set forth herein. To the extent that the information

80
herein is a statement of the financial cost or benefit to
the GBP, my personal knowledge is based on information provided by ERS’ GBP consulting actuaries
and my review of the reasonableness of the assumptions and methodology used by the consulting actuaries to obtain the stated numbers.
2. ERS administers the GBP, which provides
coverage for health, life, dental, voluntary accidental
death and dismember-ment, vision and short and
long-term disability. One objective for offering GBP
benefits is to enable the state to attract and retain
competent and able employees by providing employees
and their dependents with life, accident, and health
benefit coverages at least equal to those commonly
provided in private industry.
3. As of August 31, 2017, GBP health insurance
plans cover about one of every 53 Texans.
4. As of August 31, 2017, ERS had 534,101 GBP
plan participants.
5. For GBP health plan participants, ERS paid
about $3.5 billion in medical and pharmacy claims for
self-funded plans and premiums for fully insured
plans for fiscal year (“FY”) 2017, which ran from September 1, 2016 to August 31, 2017.
6. The GBP health plans have instituted plan design changes and taken additional actions, as set forth
below, in connection with the ACA, including certain
actions required by state laws amended by the Texas
Legislature in 2011 and 2013 related to ACA requirements.
7. The ACA contains a prohibition against lifetime and annual dollar limits for essential health benefits, whether in-network or out-of-network. Prior to
the ACA, the GBP contained a $l million lifetime limit

81
on out-of-network coverage; there was no similar limit
on in-network coverage. This limit was removed effective September 1, 2010. As a result of this plan design
change, the GBP has paid approximately an additional $0.3 million for FY 2011, $0.3 million for FY
2012, $0.3 million for FY 2013, $0.3 million for FY
2014, $0.3 million for FY 2015, $0.4 million for FY
2016, and $0.4 million for FY 2017. Accordingly, for
the seven-year period between FY 2011 and FY 2017,
the GBP has paid approximately $2.3 million in costs
due to this plan design change.
8. The ACA requires provision of coverage for dependent children up to age 26, whether or not they are
married. Prior to the ACA, the GBP provided coverage
for eligible unmarried dependent children up to age
25. Coverage was expanded to all eligible dependent
children up to age 26 effective September l, 2011. As a
result of this plan design change, the GBP has paid
approximately an additional $7.6 million for FY 2012,
$11.1 million for FY 2013, $12.0 million for FY 2014,
$13.5 million for FY 2015, $18.3 million for FY 2016,
and $19.2 million for FY 2017. Accordingly, for the sixyear period between FY 2012 and FY 2017, the GBP
has paid approximately $81.7 million in costs due to
this plan design change.
9. The ACA requires coverage of certain preventive care services at no cost-share (that is, no co-payment, coinsurance or deductible) to the health plan
participant. Effective September 1, 2011, the GBP began providing this coverage at no cost-share. As a result of this plan design change, the GBP has paid
approximately an additional $20.3 million for FY
2012, $21.8 million for FY 2013, $23.0 million for FY
2014, $24.6 million for FY 2015, $26.0 million for FY
2016, and $27.2 million for FY 2017. Accordingly, for

82
the six-year period between FY 2012 and FY 2017, the
GBP has paid approximately $142.9 million in costs
due to this plan design change.
10. The ACA requires coverage of certain contraceptives for women at no cost share. The GBP began
providing this coverage at no cost share on September
1, 2012. As a result of this plan design change, the
GBP has paid approximately an additional $8.6 million for FY 2013, $8.3 million for FY 2014, $8.8 million
for FY 2015, $9.3 million for FY 2016, and $8 million
for FY 2017. Accordingly, for the five-year period between FY 2013 and FY 2017, the GBP has paid approximately $43 million in costs due to this plan
design change.
11. The ACA prohibits health plan coverage waiting periods that exceed 90 days. As a result, Section
1551.1055 of the Texas Insurance Code was amended
to provide that eligibility under the GBP health plans
begins not later than the 90th day after the date of employment. Effective September l, 2014, eligible new
employees and their eligible dependents are now enrolled effective the first day of the month following the
60th day of employment. Prior to this ACA requirement and related amendment to the state statute,
ERS enrolled employees on the first day of the month
after the 90th day of employment. Because administration of the GBP health plans provides for coverage to
begin on the first day of the month following an employee’s or dependent’s first eligibility to participate in
the plan, the waiting period was changed to 60 days to
ensure compliance with the ACA’s 90-day limit. As a
result of this plan design change, the GBP has paid
approximately an additional $19.3 million for FY
2015, $21.0 million for FY 2016, and $22.8 million for

83
FY 2017. Accordingly, for the three-year period between FY 2015 and FY 2017, the GBP has paid approximately $63.1 million in costs due to this plan
design change.
12. The ACA provides for an out-of-pocket maximum on participant cost share for in-network essential health benefits. The GBP implemented an out-ofpocket maximum on in-network medical coverage effective September l, 2014, and implemented an out-ofpocket maximum on in-network medical and prescription drug coverage effective September l, 2015. As a
result of this plan design change, the GBP has paid
approximately an additional $0.1 million for FY 2015,
$0.4 million for FY 2016, and $0.4 million for FY 2017.
Accordingly, for the three-year period between FY
2015 and FY 2017, the GBP has paid approximately
$0.9 million in costs due to this plan design change.
13. Under the ACA, employers are required to offer minimum essential health coverage for all full-time
employees and this coverage must be affordable and
offer minimum value. A “full-time employee” is defined generally as a person working on average 30
hours per week. The GBP definition of an eligible fulltime employee was changed from an employee working 40 hours per week to one working 30 hours per
week effective September 1, 2013. As a result of this
plan design change, the GBP has paid approximately
an additional $4.2 million for FY 2014, $4.4 million for
FY 2015, $4.7 million for FY 2016, and $5.0 million,
for FY 2017. Accordingly, for the four-year period between FY 2014 and FY 2017, the GBP has paid approximately $18.3 million in costs due to this plan
design change.
14. The ACA requires payment of PCOR (PatientCentered Outcomes Research) Fees for seven years.

84
The PCOR fees apply to plan years ending after October 1, 2012 and before October l, 2019; i.e., in the case
of the GBP, FY 2013 - FY 2019. The GBP paid approximately $0.5 million for FY 2013, $0.8 million for FY
2014, $0.9 million for FY 2015, $0.9 million for FY
2016, and $1.0 million for FY 2017. Accordingly, for
the five-year period between FY 2013 and FY 2017,
the GBP has paid approximately $4.1 million in costs
due to this fee.
15. The ACA established the Transitional Reinsurance Program (TRP) to which health insurers and
group health plans were required to contribute. The
GBP contributed to this program, which was operational for calendar years 2014 - 2016. The TRP impacted GBP cost across four fiscal years: FY 2014 - FY
2017. The GBP paid approximately $18.5 million for
FY 2014, $22.1 million for FY 2015, $14.5 million for
FY 2016, and $4.0 million for FY 2017. Accordingly,
for the four-year period between FY 2014 and FY
2017, the GBP has paid approximately $59.1 million
in costs due to this program.
16. Beginning with calendar year (CY) 2014, the
ACA requires payment of an annual fee by health insurance providers. The amount payable is the insurer’s proportionate share of the aggregate fee for
that year as statutorily defined. Certain of the GBP’s
fully insured health plans are subject to this fee, which
can be passed through to the GBP as part of the plans’
premiums. There are moratoriums on these fees for
CY 2017 and CY 2019. Thus far, these fees have impacted GBP cost across four fiscal years: FY 2014 - FY
2017. The GBP paid fees of approximately $8.9 million
for FY 2014, $19.3 million for FY 2015, $22.1 million
for FY 2016, and $7.5 million for FY 2017. Accordingly, for the four-year period between FY 2014 and

85
FY 2017, the GBP has paid approximately $57.8 million due to this fee. Unless the there is a change to the
requirement, ERS will continue to comply as required.
17. Although participation was not required, the
GBP participated in the ACA’s Early Retiree Reinsurance Program (ERRP), receiving reimbursement of
certain benefit payments for coverage of its early retirees during FY 2010 and FY 2011. The GBP received
reimbursements of approximately $30.2 million in FY
2011 and $40.7 million in FY 2012. Accordingly, in the
two-year period FY 2011 and FY 2012, the GBP received approximately $70.9 million due to this program.
18. The ACA established the Coverage Gap Discount Program (CGDP) under Medicare Part D which
commenced January l, 2011. The CGDP provides manufacturer discounts to beneficiaries in connection with
prescription drug expenditures in the Part D coverage
gap. The GBP provided prescription drug coverage to
Medicare-eligible participants under HealthSelect until January I, 2013, at which time such coverage was
transferred to HealthSelect Medicare Rx, a selffunded Employer Group Waiver Plan under Medicare
Part D. Since HealthSelect Medicare Rx participants
only pay the plan copay for prescription drugs that
would otherwise fall in the coverage gap, the GBP is
eligible to receive the manufacturer discounts in order
to offset a portion of the cost of HealthSelect Medicare
Rx. The GBP received discounts in connection with
prescription drugs dispensed of approximately $15.4
million in FY 2013, $39.7 million in FY 2014, $27.7
million in FY 2015, $48.2 million in FY 2016, and
$40.0 million in FY 2017. Accordingly, in the five-year
period between FY 2013 and FY 2017, the GBP has

86
received approximately $171.0 million due to this program.
19. Compliance with the ACA has imposed costs
on the GBP approximating $0.3 million in FY 2011,
$28.2 million for FY 2012, $42.3 million for FY 2013,
$76.0 million for FY 2014, $113.3 million for FY 2015,
$117.6 million for FY 2016, and $95.5 million for FY
2017. Participation in the ERRP and CGDP by the
GBP has resulted for payments to the GBP approximating $30.2 million for FY 2011, $40.7 million for FY
2012, $15.4 million for FY 2013, $39.7 million for FY
2014, $27.7 million for FY 2015, $48.2 million for FY
2016, and $40.0 million for FY 2017. Accordingly, for
the seven-year period between FY 2011 and FY 2017,
the GBP has incurred approximately $473.2 million in
costs and received approximately $241.9 million in
connection with its ACA compliance.
20. The GBP has made administrative process
changes in connection with its ACA compliance, such
as those related to the provision of Form 1095-B’s to
plan participants and the Internal Revenue Service.
21. The ACA also required ERS to reduce the maximum annual contribution to the GBP flexible spending account from $5,000 to $2,500 effective September
1, 2013; i.e., for FY 2014. While this requirement does
not impact GBP cost, it generates additional cost to
employers due to the additional social security taxes
they will pay as a result of reduced annual pre-tax contributions that employees can make to flexible spending accounts.
22. ERS’ process for making a plan design or benefit change to the GBP health plans varies depending
on the scope and impact of the change. Plan design

87
and benefit changes and changes to eligibility requirements require review by ERS staff in order to determine impact to rates, financial status of the GBP, and
operations. Additionally changes may require legislative action, approval by the ERS Board of Trustees,
action by the third party administrator, system
changes by ERS and/or system changes by the third
party administrator.
23. So long as the ACA continues to apply to coverages authorized and funded under the GBP, then
ERS won’t be able to make changes to the plan design
that would cause the GBP to discontinue paying
claims or costs as addressed in paragraphs 7, 8, 9, 10,
11,12, 13 and 14.
DECLARATION UNDER PENALTY OF PERJURY
24. I, Blaise Duran, a citizen of the United States
and a resident of Texas, hereby declare under penalty
of perjury pursuant to 28 U.S.C. § 1746 that the foregoing Declaration is true and correct.
Respectfully submitted this 11th day of April, 2018.
/s/ Blaise Duran
Blaise Duran

88
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF MICHAEL GHASEMI
_______
My name is Michael Ghasemi and I am over the age of
18 and fully competent to make this declaration and
state the following:
1. I am the Director of the Forecasting department within Financial Services for the Texas Health
and Human Services Commission (HHSC). In my role
as Forecasting Director, I oversee the Forecasting
team and all data reporting that we provide internally
and externally. We provide HHSC client services program caseload and cost projections as well as historical data for continual budget monitoring purposes,
client services appropriations requests, and many
other related ad hoc or reporting purposes.
2. Effective January 1, 2014. the ACA created
two additional “mandatory” populations for Medicaid
programs. One of the populations is former foster care
children. These are individuals under age 26 who aged
out of foster care in the state and who were enrolled in

89
federally-funded Medicaid when they aged out of foster care. Prior to the ACA, HHSC provided Medicaid
to the majority of former foster care children up to age
21. The second population is children ages 6 to 18 up
to and including 133 percent of the FPL. These children were eligible for the Children’s Health Insurance
Program (CHIP) prior to the ACA. Prior to the ACA,
Medicaid required states to provide coverage for children through age 5 up to 133% of FPL and 100% of the
FPL for children ages 6 to 18.
3. The ACA restricted HHSC to considering only
a sole factor to determine eligibility for populations
other than those who have a disability or who are elderly: Modified Adjusted Gross Income (MAGI). 42
U.S.C. § 1396a(e)(14). The tax filing rules are now the
only permissible consideration used to determine income and household composition for purposes of Medicaid eligibility for those populations. Other income,
such as child support and disability payments, cannot
be considered. Additionally, HHSC can no longer consider deductions to income, such as dependent care or
a work-related expense, when determining eligibility.
HHSC also cannot consider assets such as a vehicle
when evaluating eligibility for Medicaid.
4. Prior to the ACA, HHSC’s policy was to allow
children 6 months of continuous Medicaid coverage regardless of family income changes. Pursuant to the
ACA, eligibility redeterminations for Medicaid and
CHIP are now allowed no more frequently than one
per 12 months, unless the enrollee volunteers to
HHSC, or HHSC receives a report, that there is a
change that affects eligibility. HHSC conducts periodic income checks during the 12-month certification
period. For children, the periodic income check cannot

90
impact the child’s eligibility prior to the end of the continuous eligibility period (first six months). The second
six months of the child’s certification period has noncontinuous eligibility, and income information can affect eligibility. For parents and caretaker relatives,
the entire certification period for Medicaid has noncontinuous eligibility, and changes in income can affect eligibility.
5. Texas’s Medicaid caseload (the number of individuals enrolled in the Medicaid eligibility groups)
increased from 3.01 million average monthly in State
Fiscal Year (SFY) 2009 to 4.07 million average
monthly in SFY 2017 (figures are rounded).
6. After the implementation of the ACA, there
were increases in the Texas Medicaid caseload due to
the 12-month recertification with a periodic income
check for children and adults, use of MAGI (rather
than income with potential disregards), and former
foster care youth population, as well as increases
likely due to increased focus and outreach resulting
from the ACA. The overall Medicaid caseload rose
above 4 million clients by September of 2014, an increase of 9.6 percent over September 2013. The following table provide estimates for ACA-related caseload
additions to Medicaid, based on March 2016 forecast
data:

91
7. ACA-Related Caseload Additions to Medicaid - March
2016 Estimates1
ACA-Related
Caseload
Additions
to Medicaid
12-Month
recertification
MAGI
Changes/
Eligible,
Newly
Enrolled
Foster
Care to
Age 26
CHIP to
Medicaid
(not “New
clients”)
Total

FY
2014

FY
2015

FY
2016

FY
2017

7,349

96,806

97,040

97,928

45,796

113,007

116,151

119,298

562

1,722

1,816

1,846

46,890

228,002

247,261

253,927

100,598 439,536 462,269 472,999

All numbers are Average Monthly Recipient Months by SFY
(annualized). These changes are now assumed to be in the Medicaid caseload. As such, distribution of “type” of addition to the
caseload is estimated for the step-ups due to MAGI changes, 12month recertification, and newly-enrolled clients as there is no
unique identifier for impacts due to these changes. Underlying
caseload data and trends are assumed as a basis for the estimates.

1

92
8. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this 13th day of April, 2018.
/s/ Michael Ghasemi
Michael Ghasemi
Director of Forecasting
Texas Health and Human Services
Commission

93
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF STEPHANIE MUTH
_______
My name is Stephanie Muth and I am over the age of
18 and fully competent to make this declaration and
state the following:
1. I am the State Medicaid Director for the Texas
Health and Human Services Commission (HHSC). In
my role as the State Medicaid Director, I oversee Medicaid and Children’s Health Insurance Program
(CHIP) services across Texas.
2. Medicaid is funded by both the state and federal governments. The federal share of Medicaid funds
Texas receives is based on the Federal Medical Assistance Percentage (FMAP). The FMAP is calculated annually using each state’s per capita personal income in
relation to the U.S. average. The Federal Fiscal Year
2018 FMAP for Texas is 56.88%, meaning the federal/state share of Medicaid funding is 56.88%/43.12%
for most client services.

94
3. Medicaid cost is determined by the caseload—
the volume or number of individuals served in each
Medicaid eligibility group—and cost per client—a
function of the number, type, and cost of the services
a client receives, and how those services are provided.
4. The Affordable Care Act (ACA) mandates certain Medicaid benefits Texas is required to cover. Rather than allowing HHSC to make such
determinations based on the needs of Texas’s population, the ACA imposed a rule upon Texas that mandated reinstating birthing centers as a Medicaid
provider, providing Medicaid reimbursement to providers recognized by states as licensed birth attendants, recognizing licensed midwives as a provider
type, and implementing comprehensive tobacco cessation services for pregnant women.
5. The ACA requires all Medicaid providers to revalidate their enrollment information every three to
five years. 42 C.F.R. § 455.414. All durable medical
equipment providers are required to revalidate enrollment information at least once every three years. All
other provider types must revalidate their enrollment
information at least once every five years. The ACA
also requires states to collect an application fee as a
condition for newly enrolling or re-enrolling institutional providers. 42 C.F.R. § 455.460.
6. As part of HHSC’s implementation of the
ACA’s requirements, HHSC contracted with the Texas
Medicaid & Healthcare Partnership (TMHP) to implement two initiatives related to the provider revalidation required by the ACA. One initiative was the ACA
Provider Re-Enrollment Operations Support initiative, for which HHSC paid TMHP $17,107,072
($12,632,677 in federal funds and $4,474,395 in state
general revenue) for TMHP’s work performed on this

95
initiative from August 1, 2014 through July 31, 2017.
This initiative required TMHP to perform various
tasks—such as developing an enrollment application,
educating the provider community about the need to
re-enroll, and answering providers’ questions about
how to complete the application—in support of the
provider revalidation required by the ACA. The second
initiative was the ACA Provider Re-enrollment Quick
Hits initiative in 2014-2015, for which HHSC paid
TMHP $2,084,215 ($1,829,444 in federal funds and
$254,771 in state general revenue). This initiative required TMHP to make several enhancements to the
then-existing provider enrollment technology to support the ACA provider enrollment regulations.
7. HHSC’s Medicaid operations staff spent significant amounts of time working on ACA-related issues, including the ACA provider re-enrollment.
Medicaid operations had two staff members (a Project
Manager and a Business Analyst) assigned full time
to ACA-related work for two years. Medicaid operations also had another Program Manager and the Director working on ACA-related issues. The estimated
cost to HHSC for these employees’ work on the ACA
was $387,082 over a two-year time period.
8. Beginning in January 2014, HHSC was required by the ACA to pay an annual excise tax to the
federal government known as the Health Insurer Tax.
The tax is based on the amount of health insurance
premiums collected. HIT will continue to increase with
premium growth. In SFY 2017, HHSC paid
$112,044,306.98 in general revenue for Medicaid and
$1,078,737.40 in general revenue for CHIP for the
Health Insurer Tax, for a total of $113,123,044.38 in
general revenue for the Health Insurer Tax.

96
9. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the __ day of April, 2018.
/s/ Stephanie Muth
Stephanie Muth
State Medicaid Director
Texas Health and Human Services Commission

97
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF WAYNE SALTER
_______
My name is Wayne Salter and I am over the age of 18
and fully competent to make this declaration and state
the following:
1. I am the Associate Commissioner for Access
and Eligibility Services for the Texas Health and Human Services Commission (HHSC). HHSC Access and
Eligibility Services determines eligibility in Texas for
Medicaid and the Children’s Health Insurance Program (CHIP). As Associate Commissioner for Access
and Eligibility Services, I oversee more than 11,000
employees responsible for delivering public assistance
programs including Medicaid, Supplemental Nutrition Assistance Program and Temporary Assistance
for Needy Families, disability determination services
and community-based programs and services to millions of Texans every year.
2. HHSC administers Medicaid at the state level
to residents of Texas. Texas Medicaid serves: (1) lowincome families, (2) children, (3) pregnant women, (4)

98
elders, and (5) people with disabilities. The Affordable
Care Act (ACA) added an additional category: former
foster care youth. These are individuals under age 26
who aged out of foster care in the state and who were
enrolled in federally-funded Medicaid when they aged
out of foster care. 42 U.S.C.A. § 1396a(a)(10)(A)(i)(IX)
(West); Affordable Care Act, Pub L 111448, 124 Stat.
865, § 2004. Were the ACA repealed, HHSC would still
be required to provide Medicaid to former foster care
youth up to age 21.
3. Financial eligibility for Medicaid and many
other social programs is based on a family’s income
level as compared to Federal Poverty Level (FPL). The
FPL is intended to identify the minimum amount of
income a family would need to meet very basic family
needs.
4. Prior to the passage of the ACA, HHSC used
these factors to determine eligibility for Medicaid:
(1) family income, (2) age, (3) assets, (4) other factors
such as being a child, parent, or caretaker relative, a
pregnant woman, or an elderly or disabled individual.
HHSC reviewed eligibility criteria for Medicaid enrollees every 6 months allowing for a quick determination should anyone become ineligible for Medicaid due
to no longer meeting Medicaid eligibility criteria such
as household income increasing above the FPL.
5. Effective January 1, 2014, the ACA expanded
Medicaid to the following populations:
o As noted above, one of the populations is
former foster care children under age 26,
and Texas is required to enroll that population in Medicaid without applying a financial test. Pub. L. 111-148, 124 Stat.
271, § 2002.

99
o The second population is children ages 6 to
18 up to and including 133 percent of the
FPL (these children were ineligible for
CHIP prior to the ACA).
6. Prior to the ACA, Medicaid required states to
provide coverage for children through age 5 up to
133% of FPL and 100% of the FPL for children ages 6
to 18. If the ACA were repealed, HHSC could return
to using 100% FPL limit for children ages 6 to 18.
7. The ACA restricted HHSC to considering only
a sole factor to determine eligibility for populations
other than those who have a disability or who are elderly: Modified Adjusted Gross Income (MAGI). 42
U.S.C. § 1396a(e)(14). The tax filing rules are now the
only permissible consideration used to determine income and household composition for purposes of Medicaid eligibility for those populations. Other income,
such as child support and disability payments, cannot
be considered. Additionally, HHSC can no longer consider deductions to income, such as dependent care or
a work-related expense, when determine eligibility.
The FPL for each type of Medical assistance program
was adjusted to account for the loss of deductions.
8. Under the ACA, HHSC cannot consider assets
such as a vehicle or home when evaluating eligibility
for Medicaid. HHSC has always exempted the homestead when evaluating eligibility for Medicaid. Were
HHSC not subject to operating within the confines of
the ACA, it could use pre-ACA income determination
methodologies to account for considerations such as
assets and alternate income that factor into a household’s income status.

100
9. Prior to the ACA, HHSC’s policy was to allow
children 6 months of continuous Medicaid coverage regardless of family income changes. Pursuant to the
ACA, eligibility redeterminations for Medicaid and
CHIP are now allowed no more frequently than one
per 12 months, unless the enrollee volunteers to
HHSC, or HHSC receives a report, that there is a
change that affects eligibility. HHSC conducts periodic income checks during the 12-month certification
period in which electronic income data is pulled and
compared against the income currently being counted
for the Medicaid recipient. For children, the periodic
income check is conducted in months five through
eight of the certification period and cannot impact the
child’s eligibility prior to the end of the continuous eligibility period (first six months). The second six
months of the child’s certification period has non-continuous eligibility, and income information can affect
eligibility. For parents and caretaker relatives, the periodic income check is conducted in months three
through eight of the certification period. The entire
certification period for Medicaid for parents and caretaker relatives has non-continuous eligibility, and
changes in income can affect eligibility. If the ACA
were repealed, HHSC could revert back to the six
month certification period for Children’s Medicaid and
Medicaid for Parents and Caretaker Relatives without
a statutory change.
10. CHIP provides healthcare coverage for children under age 19 whose family income exceeds the
Children’s Medicaid income limit but is less than or
equal to the applicable income limit for CHIP. 1 To
1 Defined in Texas Works Handbook, C-131.1, Federal Poverty
Income Limits (FPIL).

101
qualify for CHIP, a child must, among other requirements, be uninsured for at least 90 days or claim one
of the good cause exemptions to this 90-day waiting
period2 as defined by Texas state statute. The ACA expanded the reasons for good cause beyond what was in
the Texas state statute. The ACA also prohibits states
from imposing a waiting period of longer than 90 days.
42 C.F.R. § 457.805(b)(l). Additionally, the ACA imposes strict requirements on HHSC regarding how to
provide notice to applicants of eligibility determinations, including the language that must be used and
the exact content of the notice. 42 C.F.R. § 457.340(e).
11. Federal rules require HHSC to track individuals determined ineligible for Medicaid or CHIP and
transfer the information to the Health Insurance Marketplace for coverage. For children subject to the 90day CHIP waiting period, HHSC sends their information to the Marketplace during the waiting period,
contacts the Marketplace once the waiting period has
ended, and enrolls the child in CHIP coverage. 42
C.F.R. §457.340(d)(3). HHSC is also required to determine Medicaid or CHIP eligibility for individuals who
applied via the Federal Marketplace but were found
potentially eligible for Medicaid or CHIP.
12. Subsidies under the ACA are available to
adults starting at 100% FPL.
13. The ACA required changes regarding individuals with a Medicaid-qualifying immigration status.
Prior to the ACA, a non-citizen had to provide proof

The waiting period only applies to children who were covered by
a third-party health benefits plan (private health insurance) at
any time during the 90 days (3 calendar months) before the date
of application for CHIP.

2

102
that the individual had a Medicaid-qualifying immigration status before the individual could receive Medicaid benefits. The ACA created a new mandate
requiring HHSC to allow those individuals to receive
Medicaid during a period of “reasonable opportunity”
by simply asserting that they are non-citizens with a
Medicaid-qualifying immigration status. Pursuant to
the ACA, this mere assertion from an individual imposes a duty upon HHSC to provide that individual
with Medicaid benefits for 90 days while the individual is given the opportunity to verify his or her immigration status. If the ACA were repealed, HHSC could
revert to its pre-ACA policy requiring verification of
U.S. citizenship or alien status prior to determining
eligibility.
14. The ACA mandates that HHSC initially adopt
a Qualified Hospital’s preliminary determination of an
individual’s eligibility for Medicaid. 42 U.S.C.
1396(a)(47). If a Qualified Hospital determines—
based upon a household’s attestation of income, citizenship or immigration status, and Texas residency—
that an individual is Medicaid-eligible, the ACA requires HHSC to provide the individual with Medicaid
benefits during a period of “presumptive eligibility”
until HHSC determines whether the individual is· eligible for Medicaid or for two months, whichever is
earlier. This could require HHSC to provide up to two
months of Medicaid benefits to individuals that ultimately may not be determined Medicaid-eligible by
HHSC. To implement the presumptive eligibility mandate, HHSC built a new website (the Presumptive Eligibility Website) and made updates to the HHSC
eligibility determination system (Texas Integrated Eligibility Redesign System, or “TIERS”). Prior to the
implementation of the ACA, HHSC already provided
presumptive Medicaid eligibility benefits to pregnant

103
women and women with breast or cervical cancer who
were determined presumptively eligible by Qualified
Entities. If the ACA were to be repealed, HHSC could
stop allowing Qualified Hospitals to determine presumptive eligibility for the following programs without a change in state law: Parent and Caretaker
Relative, Pregnant Women, Children under 19, and
Former Foster Care.3
15. The ACA requires HHSC to send tax form
1095-B out to individuals and the Internal Revenue
Service. This requirement that HHSC was not subject
to prior to the ACA requires HHSC to incur costs including automation systems, printing, and postage
that it would not have otherwise incurred.
16. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 13 day of April, 2018.
/s/ Wayne Salter
Wayne Salter
Assoc. Commissioner for Access and Eligibility Services
Texas Health and Human Services Commission

HHSC would still be required by state law to allow Qualified
Entities (such as clinics, physicians, etc.) the ability to determine
presumptive eligibility for the following programs: Pregnant
Women and Breast and Cervical Cancer.
3

104
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JAMIE WALKER, ASSISTANT DEPUTY COMMISSIONER, FINANCIAL
REGULATION DIVISION, TEXAS DEPARTMENT OF INSURANCE
_______
Introduction
1. My name is Jamie Walker. I am over eighteen
years of age, of sound mind, and am competent to testify to the matters contained in this declaration.
2. I am the Assistant Deputy Commissioner of
the Financial Regulation Division at the Texas Department of Insurance (TDI). The Financial Regulation Division is responsible for financial and solvency
related issues, including examinations, troubled companies, licensing, withdrawals, managed healthcare
networks, and insurance company transactions. As
the Assistant Deputy Commissioner, my official duties
include managing Financial Regulation staff working
on financial and solvency related issues and licensing
of insurance market participants.

105
3. In October 2012, I analyzed the business
plans, associated financial information, and merger
activity related to entrance into the Texas market. In
2013, I oversaw the development and implementation
of the navigator rules authorized under SB 1795, 83rd
Legislature, Regular Session (2013).
Market Entrants
4. Insurance companies and health maintenance
organizations (HMOs) are required under Insurance
Code Chapter 801 to obtain certificates of authority to
operate in Texas. The specific requirements for obtaining certificates of authority vary by the type of insurance or plan being offered by a carrier. Insurance code
§ 841.101 requires the issuance of certificates of authority for certain domestic insurance companies,
which includes health insurance companies offering
coverage affected by the Affordable Care Act, before
engaging in the business of insurance, except for the
lending of money. Insurance Code § 843.071 prohibits
a person from organizing or operating an HMO in
Texas without obtaining a certificate of authority. Insurance Code § 982.051 requires the issuance of certificates of authority for certain foreign insurance
companies, which includes health insurance companies offering coverage affected by the Affordable Care
Act, before engaging in the business of insurance, except for the lending of money.
5. TDI staff has done an analysis of filings made
by carriers wanting to enter the individual health
market. No carriers added the accident and health line
of authority needed to write individual health coverage between January 1, 2009, and March 22, 2018.
However, new carriers were issued certificates of authority with the intent of writing individual health
coverage. A summary of the number of carriers issued

106
accident and health certificates of authority and writing individual health coverage follows:
Calendar Year

No. of New Health Carriers

2009

-

2010

-

2011

2

2012

-

2013

-

2014

2

2015

2

2016

1

2017

-

2018 (thru 3/22)

Market Exits

6. An insurer, which includes health insurance
companies, must file with the Commissioner a plan for
orderly withdrawal under Insurance Code § 827.003 if
the company reduces its total annual premium volume
by 50% or more, or reduces its annual premium by
75% or more in a line of insurance in Texas. Insurance
Code § 843.051 makes an HMO subject to the withdrawal and restriction plan requirements in Insurance Code Chapter 827.
7. Under Insurance Code § 827.005, the Commissioner must approve a withdrawal plan that adequately provides for the meeting the requirements
prescribed by Insurance Code § 827.004(3), and the
Commissioner may modify restrict, or limit a withdrawal plan as necessary if the Commissioner finds
that a line of insurance subject to the withdrawal plan

107
is not offered in a quantity or manner to adequately
cover the risks in Texas or to adequately protect Texans if the withdrawal plan were approved as submitted.
8. Generally, the following actions are involved
when TDI receives withdrawal plans. TDI staff reviews the withdrawal plans for completeness and
points out deficiencies to the filer when necessary. TDI
evaluates whether the plan contents demonstrate that
the insurer will be able to meet its contractual obligations, provide service to policyholders and claimants
in Texas, and meet any other statutory obligations.
Once TDI has concluded that the plan demonstrates
those elements, TDI then considers whether, if the
plan is approved, the line of insurance being withdrawn from will continue to be offered in a quantity
and manner to adequately cover Texas risks.
9. TDI staff has done an analysis of withdrawal
plan filings made by carriers between January 1,
2009, and March 22, 2018, affecting participation in
the individual health line of business. A summary of
the numbers of carriers filing withdrawal plans for the
individual health line of business follows:
Calendar Year

No. of Health Withdrawal Filings

2009

-

2010

-

2011

-

2012

-

2013

2

2014

7

2015

2

108
2016

6

2017

8

2018 (thru 3/22)

-

As of March 22, 2018, there were 10 carriers offering
individual health coverage in various Texas regions
and one carrier offering coverage statewide.
Activities Involving Navigator Regulation
10. During the 83rd Legislature, Regular Session
(2013), the Legislature passed SB 1795, which created
Insurance Code Chapter 4154, Navigators for Health
Benefit Exchanges. Insurance Code § 4154.001 stated
the purpose of the statute as, “[s]ince the State of
Texas opted out of implementing a state exchange,
pursuant to the Patient Protection and Affordable
Care Act as amended by the Health Care and Education Reconciliation Act of 2010, the purpose of this
chapter is to provide a state solution to ensure that
Texans are able to find and apply for affordable health
coverage under any federally run health benefit exchange while helping consumers in this state.” Under
Insurance Code § 4154.051, the Commissioner was required to determine whether the standards and qualification for navigators provided by 42 U.S.C.
§ 18031 and any regulations enacted under that section were sufficient to ensure that navigators could
perform the required duties. If the Commissioner determined that the federal standards were insufficient,
the Commissioner was further required to make a
good faith effort to work in cooperation with the
United States Department of Health and Human Services (HHS) to propose improvement to those standards. If the Commissioner determined that the
insufficiencies in the federal standards had not been

109
addressed, the Commissioner was required to establish standards and qualifications by rule to ensure
navigators could perform the required duties.
11. The federal regulations enacted under 42
U.S.C. § 18031 were adopted in July 2013. TDI staff
evaluated the rules. In August 2013, Texas Attorney
General Greg Abbot joined 12 other attorneys general
in a letter addressing concerns with the federal regulations. In a September 2013, letter to the Commissioner, Governor Perry also addressed concerns with
the standards for navigators set out in federal regulations. TDI sought public comment on the sufficiency of
the standards in a stakeholder meeting held on September 30, 2013. TDI conducted additional investigation into the federal standards for navigators in followup to the stakeholder meeting by meeting or holding
teleconferences with navigator entities, consumer advocates, and representatives of health care provider
groups. TDI also conducted multiple conference calls
with HHS regarding the federal standards. TDI
posted an outline of solutions for potential insufficiencies identified during this process and invited additional public comment on the outline. TDI also held a
call with HHS on December 2, 2013, to discuss the outline; HHS indicated that it would not consider revising
the regulations to address the issues raised in the outline and confirmed that solutions set out in the outline
did not present federal preemption concerns. HHS
staff suggested that TDI proceed with its proposal of
rules. In the adoption of the final TDI rules, which
were effective in February 2014, the Commissioner
found that insufficiencies existed in the federal standards in the following areas: applicability of federal regulations to individuals and entities providing
navigator services; qualifications of individuals who

110
serve as navigators; education requirements for navigators; privacy requirements; and accountability of
navigators. In order to ensure that Texans were protected, TDI required navigators and navigator entities
to register with TDI and provide evidence through the
registration process that minimum standards were
met
12. SB 1795 also included Insurance Code
§ 4154.006 which contained an automatic expiration
date. The chapter was not extended; therefore, the
statute and associated rules adopted by TDI expired
on September 1, 2017.
Repeal of Texas Health Insurance Pool Statute
13. The Texas Legislature passed SB 1367, 83rd
Legislature, Regular Session (2013) abolishing the
Texas Health Insurance Pool. The House Research Organization Bill Analysis, dated May 15, 2013, provided
in part, “[i]n 1997, the 75th Legislature made operational the Texas Health Insurance Pool to sell health
insurance policies to individuals unable to get private
coverage due to pre-existing health conditions. The
pool, as it is known, began offering coverage in 1998,
and enrolled more than 23,000 Texans as of April
2013… Beginning January 1, 2014, the federal Patient
Protection and Affordable Care Act (ACA) will require
most individuals either obtain health insurance or pay
a tax penalty. Individuals purchasing insurance in a
health benefit exchange, an online marketplace of private, government regulated health insurance plans,
will not be denied coverage or charged more based on
their health status.” See Exhibit A, which is a true and
correct copy of the House Research Organization Bill
Analysis for SB 1367, dated May 15, 2013. In the SB
1367 Senate Research Center Bill Analysis, the Author’s/Sponsor’s Statement of Intent provided in part,

111
“[c]hanges in federal law have made the Texas Health
Insurance Pool (THIP) unnecessary.” See Exhibit B,
which is a true and correct copy of the Senate Research
Center Bill Analysis for SB 1367, dated July 18, 2013.
14. Under Section 2 of the bill, the Commissioner
approved the Texas Health Insurance Pool’s plan of
dissolution under the Commissioner’s Order No. 2990,
dated February 10, 2014. See Exhibit C attached,
which is a true and correct copy of Commissioner’s Order No. 2990, dated February 10, 2014. The Commissioner acknowledged the completion of the dissolution
effective September 1, 2015, by letter dated August 26,
2015. See Exhibit D attached, which is a true and correct copy of the letter discharging the Texas Health
Insurance Pool Board of Directors, dated August 26,
2015.
Activity Involving Complaints
15. TDI regulated fully insured individual and
group health plans. TDI’s Consumer Protection Section (Consumer Protection) receives and resolves complaints. Insurance Code 521 sets out the requirements
for consumer information and complaints at TDI. Insurance Code § 521.002 provides that TDI establish a
program to facilitate resolution of policyholder complaints. The program applies to insurers and generally
to HMOs. Further, Insurance Code § 521.051 states,
in part, that TDI must maintain a toll-free telephone
number to receive and aid in resolving complaints
against insurers.
16. As part of the process, TDI must provide,
through TDI’s toll-free telephone number, information
related to the number and disposition of justified, verified and documented as valid complaints received; the

112
rating of an insurer, if any, as published by a nationally recognized rating organization; the kinds of coverage available to a consumer through any insurer
writing insurance in this state; an insurer’s admitted
assets-to-liabilities ratio; and other appropriate information collected and maintained by TDI as found, in
part, under Insurance Code § 521.052.
17. TDI regulates the processing and settlement
of claims under Insurance Code Chapter 542. Insurance Code § 542.002 provides that Subchapter A of Insurance Code Chapter 542, the Unfair Claim
Settlement Practices Act, applies to a life, health, or
accident insurance company, in addition to other types
of insurers. Insurance Code § 843.051(a) makes HMOs
subject to the Act as well. Insurance Code § 542.005
defines a complaint as any written communication primarily expressing a grievance. Under Insurance Code
§ 542.008, TDI must establish a system for receiving
and processing individual complaints alleging a violation of Subchapter A of Insurance Code Chapter 542.
18. In addition, Insurance Code Chapter 843 provides regulatory authority with respect to HMOs, including who a complainant is, what a complaint is, and
when to submit a complaint to TDI. A complaint under
Insurance Code § 843.002(6), in part, “means any dissatisfaction expressed orally or in writing by a complainant to a[n] [HMO] regarding any aspect of the
[HMO’s] operation.” Insurance Code § 843.002(5) provides that a complainant is “an enrollee, or a physician, provider, or other person designated to act on
behalf of an enrollee, who file a complaint.”
19. Insurance Coe § 843.282 requires TDI to accept complaints alleging certain violations of Insurance Code Chapter 843 and other laws in the
Insurance Code by “[a]ny person, including a person

113
who has attempted to resolve a complaint through [an
HMO’s] complaint system process and is dissatisfied
with the resolution.”
20. The following is based on information conveyed to me from Consumer Protection staff. Consumer Protection receives complaints from consumers
and provides, such as physicians and hospitals, involving claims for healthcare services. Consumer Protection maintains a database tracking system for
complaints. The system uses codes to track the type of
health coverage involved in the complaint. Consumer
Protection collected data on healthcare complaints for
the calendar years 2010 through 2017, showing the
number of complaints involving qualified health
plans, under the Affordable Care Act (ACA Complaints) as summarized in the following table:
Calendar Year

No. of ACA Complaints

2010

-

2011

-

2012

-

2013

-

2014

824

2015

1,483

2016

2,117

2017

1,107

I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.

114
Executed on 24 April 2018.
/s/ Jamie Walker
Jamie Walker
Assistant Deputy Commissioner
Texas Department of Insurance

115
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF THEODORE K. NICKEL,
COMMISSIONER, WISCONSIN OFFICE OF
THE COMMISSIONER OF INSURANCE, PURSUANT TO 28 U.S.C. § 1746
_______
1. My name is Ted Nickel, I am the Commissioner of the Wisconsin Office of the Commissioner of
Insurance (“OCI”).
2. OCI is responsible for regulating the Wisconsin health-insurance market and protecting consumers of this market. Overall, OCI performs a variety of
tasks to protect insurance consumers and ensure a
competitive insurance environment, including:
a. Reviewing insurance policies that are sold
in Wisconsin to make sure they meet the requirements set forth in Wisconsin law;
b. Conducting examinations of domestic and
foreign insurers to ensure compliance with
Wisconsin laws and rules;

116
c. Monitoring the financial solvency of licensed companies to make sure that consumers have the insurance coverage they
expect when they need it;
d. Issuing licenses to the various parties involved in selling and marketing insurance
products;
e. Assisting insurance consumers with their
insurance problems;
f. Researching special insurance issues to understand and assess their impact on Wisconsin;
g. Providing technical assistance on legislation and promulgating administrative rules
to interpret insurance laws;
h. Creating and distributing public information and consumer education pieces to
educate people about insurance; and
i. Operating a state life insurance fund, a
property fund for the property owned by local units of government, and a patients
compensation fund insuring health care
providers for medical malpractice.
3. As Commissioner, I am the head of OCI and
the chief regulator of insurance in Wisconsin. Generally, my official duties include supervising the entire
agency, serving as final adjudicator of all administrative actions, and serving on various councils and committees in a variety of capacities.
4. Additionally, my official duties with OCI include studying the impact of the Affordable Care Act
(hereinafter “the ACA,” or “the Act”) on Wisconsin’s insurance market, ensuring Wisconsin’s compliance

117
with the Act, advising the Wisconsin Governor’s Office
on the ACA, and developing strategies for Wisconsin
to mitigate the numerous harms the Act has inflicted
on Wisconsin health-insurance markets.
5. A member of my office has testified in front of
Congress about the negative effects of the Affordable
Care Act on Wisconsin’s health-insurance market. 1
Briefly, this testimony explained that Wisconsin had
competitive individual and small group health-insurance markets before the ACA, which were significantly harmed by the ACA.
HARMS CAUSED BY THE AFFORDABLE CARE
ACT
6. The Affordable Care Act inflicts numerous
harms on Wisconsin and its citizens, as detailed below.
Specifically, the Act inflicts harms on Wisconsin as a
regulator of the health-insurance market.
7. The Act inflicts harms on Wisconsin because,
as a result of the Act’s individual market reforms
many failings, Wisconsin was forced to enact statelevel individual market reforms to stabilize this market.
a. Because of the ACA’s burdensome regulations, many insurers in Wisconsin have left
the individual market, scaled back their offerings in the individual market, or otherwise limited their exposure in the
individual market. For those insurers still
selling in the individual market, their products have become much more expensive.
This testimony may be found at http://docs.house.gov/
meetings/IF/IF14/20170202/105506/HHRG-115-IF14-WstateWieskeJ-20170202.pdf.

1

118
Premiums have consistently risen since the
ACA was enacted. In 2017, average premium rates rose 17%, and in 2018 they increased by 42%.
b. As a result, the Wisconsin Legislature
passed a reinsurance program in February
2018 to stabilize the individual market. See
Wisconsin State Legislature, Senate Bill
770; 2 Governor Scott Walker, Press Release, Governor Walker Proposes Health
Care Stability Plan to Stabilize Premiums
for Wisconsinites on Obamacare (Jan 21,
2018);3 Governor Scott Walker, Memo Accompanying Jan. 21, 2018 Press Release;4Bob Lang, Legislative Fiscal Bureau
Memo Accompanying Assembly Bill
885/Senate Bill 770 (Feb. 12, 2018).5
c. Wisconsin’s reinsurance program is necessary because the ACA’s regulations of the
individual market have caused health-insurance premiums to rise substantially.
Without Wisconsin’s intervention, plans in
the individual market would either not be
offered, or would be prohibitively expensive.
https://docs.legis.wisconsin.gov/2017/proposals/reg/sen/bill/
sb770.

2

https://walker.wi.gov/press-releases/governor-walker-proposeshealth-care-stability-plan-stabilize-premiums-wisconsinites.

3

https://jwyjh41vxje2rqecx3efy4kf-wpengine.netdna-ssl.com/wpcontent/uploads/2018/01/180120Overview.pdf.

4

http://docs.legis.wisconsin.gov/misc/lfb/bill_summaries/2017_
19/0885_ab_885_wisconsin_healthcare_stability_plan_and_medical_assistance_lapse_2_12_18.pdf

5

119
d. This reinsurance program proposal costs an
estimated $200 million, split between state
and federal funds.
e. The reinsurance plan cannot be implemented without federal approval through a
Section 1332 State Innovation Waiver; a
process involving drafting of the application, staff travel, and presentation preparation for required public hearings, OCI funds
to support actuarial analysis required for
inclusion in the application, and administrative expenses necessary to operate the
program.
8. As mentioned above, the Act forced Wisconsin
insurers out of the individual market and/or all
health-insurance markets.
a. For example, a major Wisconsin health insurer, Assurant Health, ceased its Wisconsin operations because of the ACA. See, e.g.,
Guy Boulton, Milwaukee-based Assurant
Health to be sold off or shut down, Milwaukee Journal Sentinel (Apr. 28, 2015).6 This
cost Wisconsin 1,200 jobs. Id.
b. This contributes to the harms to the individual market, as mentioned above. As
some health insurers have stopped using
agents to sell individual health insurance
products and have left the market altogether, therefore no longer needing agents,
the ACA has also resulted in OCI collecting
less revenue in health insurance-related
http://archive.jsonline.com/business/assurant-considering-saleof-milwaukee-based-assurant-health-b99490422z130161425l.html.

6

120
agent licensing fees. Agents licensed to sell
insurance in Wisconsin must pay an initial
fee of $75.00 along with an application fee
of $10.00. See Wis. Stat. § 628.04(l)(a); Wis.
Admin. Code Ins. § 6.59 (“Licensing of individuals as agents, reinsurance intermediaries, or managing general agents”).
A
licensing fee of $100 and a biennial license
renewal fee of $35.00 also applies to some
firms.
See
Wis.
Stat.
§ 628.04(l)(a); Wis. Admin. Code Ins.
§ 6.58(3), (5).
9. The Act creates an unsustainable insurance
market, which will ultimately raise Medicaid reimbursement rates.
a. As the ACA causes insurers to leave the
marketplace, more individuals will be unable to obtain insurance coverage.
b. These individuals will ultimately receive
uncompensated medical care via hospital
emergency rooms. See generally 42 U.S.C.
§ 18091(2)(A), (F), (I) (describing this problem).
c. To compensate for this uncompensated
care, health-care providers will raise their
rates on compensated services, thus requiring the State to reimburse more money for
Medicaid-paid services.
10. The Act harms Wisconsin because it
preempted Wisconsin law, preventing Wisconsin from
regulating the Wisconsin health-insurance market in
the manner it sees fit. Relatedly, Wisconsin repealed
statutes and regulations related to its high risk pool,
a safety net for individuals with high health care

121
needs. See infra, ¶ 10.a. Without the ACA, Wisconsin
could enforce these preempted laws and rules to return stability to the health-insurance market.
a. The ACA resulted in the repeal of Wisconsin’s high-risk pool, the Health Insurance
Risk-Sharing Plan, which effectively managed the health-insurance needs of highrisk individuals before the full implementation of the ACA. Wis. Stat. §§ 149.10–.53
(2011-12) (statutory framework for Wisconsin Health Insurance Risk-Sharing Plan),
repealed by 2013 Wis. Act 20, § 1900n; see
generally Wisconsin Legislative Audit Bureau, Report 14-7 Health Insurance RiskSharing Plan Authority at 1 (June 2014)
(describing history of Wisconsin’s Health
Insurance Risk-Sharing Plan, including
dissolution and repeal).7
b. The ACA preempted Wisconsin law relating
to coverage for preventive services. Wisconsin insurance law allows for cost-sharing
for preventative services. See OCI, Bulletin, September 3, 2010, Patient Protection
and Affordable Care Act of 2009 (hereinafter “OCI Bulletin”); 8 Wis. Stat. § 632.895
(describing Wisconsin coverage mandates,
which Wisconsin had interpreted to permit
cost-sharing). The ACA does not allow such
cost sharing. See 42 U.S.C. § 300gg-13.
c. The ACA preempted Wisconsin law on the
treatment of preexisting conditions. Under
7

http://legis.wisconsin.gov/lab/reports/14-7full.pdf.

https://oci.wi.gov/Pages/Regulation/Bulletin20100903PPACA
.aspx.

8

122
Wisconsin insurance law, preexisting condition exclusions were permitted for a 12month period. See OCI Bulletin; Wis. Stat.
§ 632.76(2)(ac). The ACA’s conflicting rules
on preexisting conditions increase the cost
of health insurance.
d. The ACA preempted Wisconsin fraud rules.
Under Wisconsin insurance law, rescission
in cases of fraudulent misrepresentation,
including negligent misrepresentations,
was permitted. See OCI Bulletin; Wis. Stat.
§ 632.76(1). The ACA allows rescission only
when fraudulent misrepresentation is intentional. See OCI Bulletin; 42 U.S.C.
§ 300gg-12.
11. The ACA imposes other costs, burdens, and requirements on OCI:
a. The Act forces OCI to expend significant
amounts of money on compliance and education costs. For example, in 2013 OCI
spent a significant amount of resources on
state-wide information-sharing town halls
for the public.
b. In preparation to comply with the ACA for
the 2018 plan year, OCI held multiple calls
with insurers to provide direction on the filing of their rates. With congressional uncertainty and ultimately a decision
resulting in the federal government no
longer funding cost sharing reduction subsidies (CSRs), OCI had to revise timelines
and expectations around rate filings and
communicate those expectations verbally
and in writing.

123
12. Finally, without the ACA, OCI could allow insurers to operate under a set of rules that creates certainty and stability for market growth while
protecting consumers and offering them affordable access to individual health insurance coverage. Under
the ACA, OCI has limited flexibility in regulating the
individual market and is forced to react to the implications federal rules have on the Wisconsin market.
As mentioned earlier, an example of that reaction is
addressing a destabilizing market with between $30–
50 million general purpose revenue to support a $200
million state based reinsurance plan.
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on 3 April 2018.
Signed,
/s/ Theodore K. Nickel
Theodore K. Nickel
Commissioner,
Wisconsin Office of the Commissioner of
Insurance

124
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF ARLENE LARSON, MANAGER OF FEDERAL HEALTH PROGRAMS &
POLICY AT WISCONSIN EMPLOYEE TRUST
FUNDS, PURSUANT TO 28 U.S.C. § 1746
_______
INTRODUCTION
1. My name is Arlene Larson, I am the Manager
of Federal Health Programs and Policy at the Wisconsin Department of Employee Trust Funds (“ETF”). My
duties generally include health insurance policy and
contract analysis and implementation.
2. ETF is responsible for administering retirement, insurance, and other benefit programs for State
and participating Local government employees and retirees of the Wisconsin Retirement System. ETF performs a variety of tasks to satisfy this responsibility.
The Group Insurance Board (“Board”) enters into contracts to provide the State Group Health Insurance
Program.

125
3. Additionally, my official duties with ETF include ensuring the State’s group health insurance program complies with the Patient Protection and
Affordable Care Act (hereinafter “the ACA,” or “the
Act”).
WISCONSIN’S STATE-EMPLOYEE HEALTH INSURANCE PLANS AND THE AFFORDABLE
CARE ACT’S EFFECTS
4. Below is basic information about the State’s
employees (and their family members) enrolled in the
State’s group health insurance program:
a. There are an estimated 167,500 state employees (and their family members) enrolled in the State’s group health insurance
program.
The employee contribution
amount appears in the grid, below. It varies between regular State employees and
the University of Wisconsin (UW) graduate
assistants. It further varies based upon the
benefit selected by the employee. Most employees choose a vendor that offers the “It’s
Your Choice Health Plan.” “It’s Your Choice
Health Plan.”

126
b. For 2017, ETF estimates that the State
spent the amounts below on the state-employee group health insurance program.

c. Additionally, there are administrative
tasks performed by state employees to enroll each employee in the group health insurance program.
5. The Act required the Board to modify the
State’s group health insurance program to State employees:
a. The Board enhanced an existing healthcare benefit for State employees to comply
with the essential-health-benefits requirements. Preventive care is required to be
paid at 100% under the ACA.
b. The Act lowered limits on employee flexible
health spending accounts. I am aware that
every year ETF reviews the limits to be certain we comply with requirements.
6. The ACA’s Market Share Fee, ACA § 9010,
may have financial impact on the State’s group health
insurance program in the future.
a. Beginning in 2015, ETF and the Board began an intensive investigation into moving
from a fully insured model to a self-insurance model for the State group health insurance program.
This investigation
included working with the Board’s consulting agency, Segal Consulting (Segal), which

127
issued reports to the board. To date, Segal
is the Board’s consulting actuary and former benefit consultant.
b. This investigation was motivated in part to
find a means to avoid the Act’s Market
Share fees of approximately 2% of health
premiums, per Segal’s March 25, 2015 report to the Board. Segal’s reports are publicly available on ETF’s website. I am
aware that in 2015, Congress approved a
moratorium on collection insurer taxes for
2017. The moratorium was set to expire in
2018. During annual health plan negotiations regarding 2018 rates, participating
health plans were limited in their 2017 administrative fee increases. Per Segal’s August 30, 2017 report to the Board, no
consideration was given to additional ACA
fees currently projected for 2018. The State
group health insurance program ultimately
did not change to self-insurance, and instead the Board explored cost reductions in
other areas.
7. The ACA’s 40% excise tax, 26 U.S.C. § 4980I,
may have a financial impact on the State’s group
health insurance program if enacted. This tax is triggered when the cost of plans offered by an employer
exceeds a certain value.
a. The Segal reports to the Board, referenced
above, also addressed the potential effect of
the ACA’s excise tax on the State’s group
health insurance program.
b. The federal government has delayed the enforcement of the excise tax for specific

128
years, but the State’s group health insurance program may be liable to pay the 40%
tax if it is imposed as written.
c. If the 40% excise tax is enforced, ETF and
the Board will dedicate time and resources
during its annual process to review options
to avoid or minimize the impact of the excise tax.
d. Segal annually provides benefit alternative
calculation estimates to ETF and the
Board. If the 40% excise tax is enforced,
Segal will provide calculations for options
to the State’s group health insurance program to minimize or avoid the tax.
8. The ACA imposes other costs and requirements on ETF:
a. The ACA has required ETF to comply with
the requirements surrounding IRS Form
1095-C for some retirees in the State’s
group health insurance program administered by ETF. In 2017, ETF hired a vendor
to issue 343 Form 1095-Cs.
b. ETF has had to dedicate some agency resources to studying the ACA and ensuring
the State’s compliance with the ACA. For
example, ETF coordinated with other state
agencies and local government municipalities to discuss the potential impact of the
employer shared responsibility penalty.
These discussions focused primarily on the
possibility of employers failing to offer
health insurance premium contributions to
full-time employees prior to the 91st day after the employee’s hire date.

129
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on 4-20-18,
Signed,
/s/ Arlene Larson
Arlene Larson, Manager of Federal
Health Programs and Policy
Wisconsin Employee Trust Funds

130
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JIM L. RIDLING,
ALABAMA COMMISSIONER OF INSURANCE
_______
My name is Jim L. Ridling and I am over the age of 18
and fully competent to make this declaration and state
the following:
1. I am Commissioner of the Alabama Department of Insurance (ALDOI). I have served as Commissioner of ALDOI for over nine (9) years. As
Commissioner, I am the head of the ALDOI and the
chief insurance regulator for the state of Alabama.
Generally, my official duties include supervising the
entire agency, serving as final adjudicator of all administrative actions, and serving on various commissions, councils, and committees in a variety of
capacities.
2. ALDOI is responsible for regulating the business of insurance in the state of Alabama. As a part
of these responsibilities, ALDOI performs a variety of
tasks that are designed to protect insurance consum-

131
ers while ensuring a competitive insurance environment. Included among the duties and responsibilities
are the following:
a. Licensing insurance companies and conducting regular examinations of domestic
insurers, and as necessary foreign insurers,
to ensure compliance with Alabama laws
and rules.
b. Monitoring the financial solvency of licensed insurers to make sure that consumers will be provided the insurance coverage
they have paid for when they need it.
c. Reviewing and approving all insurance policies to make sure they meet the requirements of Alabama law.
d. Licensing the insurance producers and various other representatives of the insurers.
e. Assisting insurance consumers with any
problems they may experience with their
insurance policies.
f. Providing technical assistance on legislation and adopting administrative rules to
implement and interpret insurance laws.
3. Included within all the duties and responsibilities is the regulation of the health insurance market,
and in particular the impact of the Affordable Care Act
(ACA) on Alabama’s health insurance market, ensuring compliance of the ACA in Alabama, advising the
Alabama Governor’s office on the ACA, and to generally develop strategies for the State of Alabama to mitigate the numerous harms the ACA has inflicted on
the health insurance markets in the State of Alabama.

132
4. In particular, the ACA has inflicted numerous
harms on Alabama and its citizens, as follows:
a. First, a stated goal of the ACA was to increase competition, as expressed by President Obama in an address to Congress on
September 9, 2009, where he said Alabama
lacked competition because one carrier had
almost 90% of the market.1 Because of the
ACA’s burdensome regulations, many insurers in Alabama have left the insurance
market or scaled backed their exposure so
that there is actually less competition for
the individuals within the health insurance
market to choose from. Instead of fostering
competition, Alabama has seen the exact
opposite within its borders when it comes to
the ACA’s effect on the insurance market.
After four years of the ACA, that one company had 100% of the individual health insurance market.
b. Another stated goal of the ACA was to reduce the rates paid for health insurance.
The embedded mandates through the essential health benefits requirement in the
ACA have added to the health insurer costs
in the market, putting upward premium
pressure on insurers in the Alabama market for policies in this State. On March 23,
2010 when President Obama signed the
ACA into law, an individual aged 52 could
purchase a major medical insurance policy
for $203 per month. On January 1, 2018, a
http://blog.al.com/live/2009/09/obama_cited_lack_of_
competitiv.html

1

133
comparable Obama Care policy for a 52
year old was $829, an increase of 308%, or
19% per year.
c. The ACA has had a disastrous effect on the
number of insurers within the state regarding the federal risk adjustment within the
individual and small group markets. The
stated goal again was to increase competition by stabilizing premiums. Here are the
results of the risk adjustments for the first
three years under ACA:
2014: One insurer collected $2,544,517,
four other insurers collected a total of
$246,858, and six insurers paid a total of
$2,791,376.2
2015: One insurer collected $15,326,641,
two other insurers collected a total of
$104,889, and seven insurers paid a total
of $15,431,531.3
2016: One insurer collected $27,243,856
and seven insurers paid a total of
$27,243,856, (including default payments).4

https://www.cms.gov/CCIIO/Programs-and-Initiatives/ Premium-Stabilization-Programs/Downloads/RI-RA-Report-REVISED-9-17-15.pdf

2

https://www.cms.gov/CCIIO/Programs-and-Initiatives/
Premium-Stabilization-Programs/Downloads/June-30-2016-RAand-RI-Summary-Report-5CR-063016.pdf
3

4 https://www.cms.gov/CCIIO/Programs-and-Initiatives/
Premium-Stabilization-Programs/Downloads/Summary-Reinsurance-Payments-Risk-2016.pdf

134
2017: The report for 2017 is due this summer. It is anticipated the transfers will
be sharply reduced due to the fact that
only one insurer remains in the individual market.
d. Finally, the ACA harms Alabama because
it preempted Alabama law, thus preventing
Alabama from regulating the Alabama
health insurance market in the manner it
deems most appropriate to the Alabama situation. Without the ACA, Alabama could
again enforce preempted laws and rules to
return stability to the health insurance
market.
5. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this 24th day of April, 2018.
/s/ Jim L. Ridling
Jim L. Ridling
Alabama Commissioner of Insurance

135
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF ALLEN KERR
_______
INTRODUCTION
1. My name is Allen Kerr, I am the Commissioner of the Arkansas Insurance Department (“AID”).
2. AID is responsible for regulating the Arkansas
health-insurance market and protecting consumers of
the market. Overall, AID performs a variety of tasks
to protect insurance consumers and ensure a competitive insurance environment, including:
a. Reviewing insurance policies that are sold
in Arkansas to make sure they meet the requirements set forth in Arkansas law;
b. Conducting examinations of domestic and
foreign insurers to ensure compliance with
Arkansas laws and rules;

136
c. Monitoring the financial solvency of licensed companies to make sure that consumers have the insurance coverage they
expect when they need it;
d. Issuing licenses to the various parties involved in selling and marketing insurance
products;
e. Assisting insurance consumers with their
insurance problems;
f. Researching special insurance issues to understand and assess their impact on Arkansas;
g. Providing technical assistance on legislation and promulgating administrative rules
to interpret insurance laws; and
h. Creating and distributing public information and consumer education pieces to
educate people about insurance.
3. As Commissioner, I am the head of AID and
the chief regulator of insurance in Arkansas. Generally, my official duties include supervising the entire
Department, serving as final adjudicator of all administrative actions, and serving on various councils and
committees in a variety of capacities.
4. Additionally, my official duties with AID include reviewing the impact of the Affordable Care Act
(hereinafter “the ACA,” or “the Act”) on Arkansas’ insurance market, ensuring Arkansas’ compliance with
the Act, advising the Arkansas Governor on the ACA,
and developing strategies for Arkansas to mitigate the
adverse impact the Act has inflicted on the Arkansas
health insurance market.

137
HARMS CAUSED BY THE AFFORDABLE CARE
ACT
5. The embedded mandates through essential
health benefits requirements in the ACA have added
to health insurer costs in this market putting upward
premium pressure on insurers in the Arkansas market for issuers offering individual and small group policies in this State. We estimate that since the
inception of the Arkansas health insurance exchange
in 2014, the percentage increase in premium in the individual market from the first year of the Exchange to
today is approximately 24%.
6. The Act adds costs to health insurers in benefit requirements, underwriting and in reporting, and
this negatively impacts the number of issuers in the
health insurance exchange we provide for individual
and small group policies. For example, as a result of
the ACA costs, several years ago, United Health Care
withdrew from participation in the Arkansas exchange, thereby reducing competition and the number
of insurers offering individual policies in this State.
7. Finally, the Act harms Arkansas because it
has preempted Arkansas law, preventing Arkansas
from regulating health insurance in the manner it
sees fit.
8. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Executed on this 19th day of April, 2018.
/s/ Allen Kerr
Allen Kerr, Commissioner
Arkansas Department of Insurance

138
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF MIKE MICHAEL
_______
My name is Mike Michael and I am over the age of 18
and fully competent to make this declaration and state
the following:
1. I am the Director of the Kansas State Employee Health Plan (SEHP). SEHP administers the
various insurance plans available to Kansas state employees and participating non-state entities (such as
school districts, cities or counties). SEHP is part of the
Division of Health Care Finance, a division within the
Kansas Department of Health and Environment. I
have served with SEHP for over 10 years.
2. I am particularly familiar with the SEHP
changes in costs, plans, and policies required to comply with requirements of the Affordable Care Act
(ACA).

139
3. At my direction, SEHP staff have prepared the
attached spreadsheet that answers questions posed to
SEHP concerning the impact of ACA.
4. As the spreadsheet details, I estimate that the
overall impact of ACA on SEHP operations to be additional costs of $44,410,997 spread over the years of
2013 to 2018 inclusive.
5.

The three largest categories of ACA costs are:
a. Plan changes to cover out-of-pocket maximums - $14,006,000;
b. Plan changes to cover individual mandate $10,559,000; and
c. ACA fees for transitional reinsurance $9,520,452.

6. SEHP is currently in its design stage for the
2019 Plan year. If ACA were to be eliminated, this
would affect the 2019 Plan by decreasing costs for compliance. This could potentially affect the insurance
rates charged to SEHP participants.
7. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 24 day of April, 2018.
/s/ Mike Michael
Mike Michael
Director
Kansas State Employee Health Plan

140
i. What impact does has the ACA had on each
agency’s budgeting?
 How does it break down particularly, what
costs were “one time” and what costs are
ongoing?

141

Type of cost
One Time Fees
Design of
Software for
1094/ 1095 Forms

Ongoing costs by
year
Plan changes

2013

2014

2015
$33,750

2016

2017

2018

Grand
Total
$33,750

$1,017,000 $3,011,000

$1,031,000

$963,000

1. Preventive

$1,391,000 $1,289,000 $1,362,000 $4,042,000
$2,231,637

2. Age 26

$550,000

$290,818

$521,000

$2,110,000 $2,420,000 $2,076,000 $1,922,000 $2,031,000 $10,559,000

$579,000

3. Removal of
dollar Limit
on DME

$290,818

4. Individaul
Mandate

142

Type of cost
5. Out of
Pocket
Maximum

Total Ongoing Cost
ACA FEES
Transitional
Reinsurance
Patient-Centered
Outcomes
Research institut
Total ACA Fees

Form 1094/1095
Report-ing

Grand Total

2013

$90,591

2014

2015

2016

2017

2018

Grand
Total

$4,940,000 $5,280,000 $1,277,000 $1,220,000 $1,289,000 $14,006,000

$156,623

$43,198

$163,294

$38,048

$163,294

$100,019

$10,427,592

$907,140

$9,520,452

$7,340,818 $7,990,818 $6,354,000 $5,915,000 $6,249,000 $33,849,637

$154,456

$4,482,107 $3,089,585 $1,948,760
$178,882

$18,774

$44,410,997

143
ii. How would a complete repeal of ACA tomorrow affect how policy and other decisions are
made for next year?
This would allow the plan to discuss preventative, age
26, DME limits, out of pocket limits and etc. to potentially modify to meet the needs of the state. This
would also eliminate additional costs such as PCORI
fees and tax reporting of 1094/1095.
 “In other words: are you currently making
plans regarding benefits/policy for next year,
and, if so, what impact would repeal of the ACA
have on the decision-making that is currently
happening?
We are currently in discussions about plan design for
2019. If repealed sooner would allow discussions for
plan design and potentially lower the plan costs.
 Would repeal of the ACA now allow your agencies to be more flexible in the decision it makes
for next year?
This would allow us to discuss options about preventive, age 26 removing DME limits and out of pocket
maximums. If repealed sooner would allow discussions for 2019 versus 2020.
 Would it grant your agencies greater authority
in making decisions regarding benefits and
health care than it currently has?
Yes
 What benefit would it be to your agencies (especially to its ability to make plans regarding
budget, policy, etc.) to have the ACA appealed
now as opposed to much later in the year or
even next year?

144
It would allow discussions of greater options and be
able to potentially reduce costs such as PCORI fees
and 1094/1095 reporting.
iii. How does your spending/budgeting under
ACA compare to prior to the implementation of
the ACA?
Because of the increase in cost for ACA, it has required
more revenue by the employer and employee to cover
the increased costs.

145
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF DREW L. SNYDER
_______
My name is Drew L. Snyder and I am over the age of
18 and fully competent to make this declaration and
state the following:
1. I am the Executive Director for the Mississippi
Division of Medicaid (DOM). DOM administers Medicaid at the state level to residents of Mississippi. Mississippi Medicaid serves: (1) Low-income families; (2)
Children; (3) Pregnant women; (4) Elders; and (5) People with disabilities. As result of the ACA, an additional category was added to this list to include
individuals under age 26, who aged out of foster care
in the state and who were enrolled in Medicaid while
in foster care. 42 U.S.C.A. § 1396a(a)(10)(A)(i)(IX)
(West); Affordable Care Act, Pub. L. 111-148, 124 Stat.
865, § 2004.
2. Financial eligibility for Medicaid and many
other social programs is based on a family’s income

146
level as compared to the Federal Poverty Level (FPL).
The FPL is intended to identify the minimum amount
of income a family would need to meet very basic family needs.
3. Medicaid is funded by both the state and federal governments. The federal share of Medicaid funds
Mississippi receives is based on the Federal Medical
Assistance Percentage (FMAP). The FMAP is calculated annually using each state’s per capita personal
income in relation to the U.S. average. Generally, Mississippi receives an FMAP of approximately 75%,
meaning the federal/state share of Medicaid funding
is around 75/25 for most client services.
4. With the passing of the Affordable Care Act
(“ACA”) in 2010, DOM’s ability to manage Medicaid
coverage to Mississippi residents has been significantly restricted. The regulations imposed by the ACA
result in substantial burden to DOM both administratively and financially.
Administrative & Policy Burdens Under the
ACA
5. Prior to the passing of the ACA, DOM used
several factors to determine eligibility for Medicaid for
families and children including: (1) Family income; (2)
age; (3) relationship; (4) other categorical factors, such
as being pregnant or disabled.1 Prior to the ACA DOM
had the option to review eligibility criteria for adult
enrollees more frequently than 12 months.
6. With the passing of the ACA, DOM was no
longer given the flexibility to verify a Mississippi resident’s eligibility based on these factors. Instead, the
Individuals receiving SSI cash assistance were and still are automatically eligible for Medicaid.

1

147
ACA expanded “mandatory” populations for Medicaid
programs, wherein Mississippi was required to provide them Medicaid regardless of actual financial status. See Pub. L. 111-148, 124 Stat. 271,
§ 2002. Specifically, in Mississippi the coverage for former foster children was raised from 21 years old to 26
years old. The ACA also mandated DOM use Modified
Adjusted Gross Income (MAGI) to determine eligibility.2 42 U.S.C.A. § 1396a(e)(14) (West). In other words,
the tax filing rules are now the primary consideration
used to determine income and household composition
for purposes of Medicaid eligibility. Income that is not
taxable cannot be considered.
7. The restrictions placed upon DOM when it
evaluates eligibility for Medicaid means that DOM is
forced to ignore many factors relevant to an individual’s ability to obtain health insurance for himself or
herself. As a result, the ACA caused a rise in the number of Mississippi residents enrolled in Medicaid.
8. The ACA also imposed changes to the Medicaid and CHIP renewal process. Pursuant to the ACA,
eligibility redeterminations are now allowed no more
frequently than once per 12 months, unless the enrollee volunteers to DOM that there is a change that affects eligibility. This change mandated by the ACA
restrains the frequency with which DOM can identify
persons no longer eligible for Medicaid and remove
them from the rolls, thus limiting the ability of the
agency to fully review whether an adult continues to
be eligible. The ACA’s individual mandate contributed

MAGI applies to pregnant women, children and families, but
does not apply to individuals who are elderly or who have disabilities.

2

148
to the expansion of the Medicaid population in Mississippi as well. As a result of the individual mandate,
Mississippi residents were required to seek health
care coverage, on penalty of paying a fine to the federal
government. Efforts to avoid imposition of the fine
likely prompted more individuals to seek Medicaid
from DOM.
9. Although it is difficult to quantify the exact
number of Medicaid enrollees that can be attributed to
the individual mandate, I am confident that the individual mandate played a substantial role in the increase in the number of Medicaid recipients since
2011. This assertion is based on my experience with
DOM and the research I have participated in to prepare reports to the Mississippi legislature.
10. New requirements pursuant to the ACA regarding non-Mississippi residents and illegal aliens
also increased the number of persons receiving Medicaid benefits in Mississippi. While non-residents and
illegal aliens are not (and have never been) required
to be provided full Medicaid benefits by DOM, the ACA
did create a new mandate requiring that DOM allow
them to apply for Medicaid by simply asserting that
they are in a qualified alien status and qualified to receive benefits. Pursuant to the ACA, this mere assertion from an individual imposes a duty upon DOM to
provide him or her benefits for up to 90 days while he
or she is given the opportunity to verify their citizenship or alien status. This imposition by the ACA resulted in an increase of persons covered by Medicaid
through DOM.
11. The ACA also forced DOM to expand Medicaid
coverage by mandating that DOM initially accept a
hospital’s determination of a person’s eligibility for

149
Medicaid. 42 U.S.C. 1396a(a)(47). If a hospital concludes that an individual is eligible for Medicaid, the
ACA requires DOM to provide him or her Medicaid for
two months while DOM makes its own eligibility determination. This increased the number of persons receiving Medicaid benefits through DOM at any given
time by forcing DOM to provide two months of benefits
to many individuals who would not have been approved by DOM as an original matter. In addition to
this numerical increase imposed by the ACA, this
mandate also required DOM to build new systems to
accommodate this requirement. These efforts required
the investment of administrative resources, time, and
money that could have been spent in other ways that
benefitted the state.
12. The ACA also mandates the specific Medicaid
services Mississippi is required to cover. Rather than
allowing DOM to make such determinations based on
the needs of Mississippi’s population, the ACA imposed a “one-size-fits-all” rule upon Mississippi governing the provision of inpatient hospital services,
outpatient hospital services, family planning services
and supplies, federally qualified health centers, nurse
midwife services, certified pediatric and family nurse
practitioner services, home health care services, medical transportation services, nursing facility services
for individuals 21 or over, rural health clinic services,
and other significant and complex medical services
and systems.
13. The ACA expands Medicaid coverage for
adults under age 65 (up to 133% FPL, or rather up to
138% FPL with a 5% income disregard). 42 U.S.C.A.
§ 1396a(a)(10)(A)(i)(VIII); (e)(14)(I)(i) (West). However, subsidies are available to adults through the Exchange beginning at 100% FPL.

150
14. As a cumulative result of these mandates,
rules, and restrictions imposed by the ACA, DOM’s
Medicaid caseload has increased since implementation of the ACA. Since the ACA’s implementation in
2014, Mississippi has expanded its Medicaid recipients from 2013 year end enrollment of 715,979 to a
current enrollment of 739,082 in March 2018.
Costs Incurred Under the ACA
15. Medicaid Cost is determined by the Caseload the volume or number of individuals served in each
category - and Cost per Client - a function of the number, type, and cost of the services a client receives, and
how those services are provided.
16. Given the increase in caseloads as a direct result of the ACA’s enactment, state spending on Medicaid has increased dramatically following the ACA’s
implementation.
17. Beginning in January 2014, DOM was required to pay an annual excise tax to the federal government known as the Heath Insurer Tax. See
Affordable Care Act, Pub. L. 111-148, 124 Stat. 865,
§ 9010. The tax is based on the amount of health insurance premiums collected. HIT will continue to increase with premium growth. In the FY 2017, DOM
paid a total of $43,504,254 in this tax.
18. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 20th day of April, 2018.
/s/ Drew L. Snyder, J.D.
Drew L. Snyder, J.D.
Executive Director
Mississippi Division of Medicaid

151
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JENNIFER R. TIDBALL
_______
My name is Jennifer R. Tidball and I am over the age
of 18 and fully competent to make this declaration and
state the following:
1. I am the Deputy Director for the Missouri Department of Social Services. I have served as Deputy
Director since August, 2014. I have served with the
Department for 23 years.
2. I am familiar with the business of the Department. As Deputy Director I have been made aware of
changes related to the enactment of the ACA by staff
that inform the Deputy Director.
3. I have personal knowledge of the matters and
information set forth herein.
Missouri Department of Social Services
4. The Missouri Department of Social Services
administers Medicaid at the state level to residents of
Missouri.

152
5. Financial eligibility for Medicaid and other social programs is based on a household’s income level
as compared to the Federal Poverty Level (FPL). Missouri uses multiple FPL percentages for different
Medicaid coverage types, dependent upon the program.
6. Medicaid is funded by both the state and federal governments. The federal share of Medicaid funds
Missouri receives is based on the Federal Medical Assistance Percentage (FMAP). The FMAP is calculated
annually using each state’s per capita personal income
in relation to the U.S. average. Generally, Missouri receives an FMAP of 64.61%, meaning the federal/state
share of Medicaid funding is around 65/35 for most
medical services for FFY 2018.
7. Missouri did not adopt the full Medicaid expansion, the regulations imposed by the ACA result in
substantial burden to Missouri Department of Social
Services both administratively and financially.
8. Missouri’s Medicaid caseload (the number of
individuals enrolled in the Medicaid eligibility groups)
increased from 881,719 for January 2013 to 969,049
for March 2018.
Administrative Changes to Medicaid Eligibility
Under the ACA
9. Missouri Medicaid serves: (1) Low-income
families; (2) Children; (3) Pregnant women; (4) Elderly; and (5) Persons with disabilities. As a result of
the ACA, an additional category was added to this list
to include individuals under age 26, who aged out of
foster care in the state and who were enrolled in Medicaid
while
in
foster
care.
42
U.S.C.A.
§ 1396a(a)(10)(A)(i)(IX) ; Affordable Care Act, Pub. L.
111-148, 124 Stat. 865, § 2004.

153
10. Before the ACA, Missouri did not offer Medicaid to this full group of former foster care children
under age 26.
11. Prior to the ACA, the Missouri Department of
Social Services used several factors to determine eligibility for Medicaid including: (1) Family income; (2)
age; (3) assets; (4) other factors such as being pregnant
or disabled.1
12. ACA restricted the Missouri Department of
Social Services to consider only a sole financial factor
to determine eligibility: Modified Adjusted Gross Income (MAGI). 2 42 U.S.C.A. § 1396a(e)(14). In other
words, IRS tax filing rules are now the only permissible consideration used to determine income and household composition for purposes of Medicaid eligibility.
Other income, such as child support and Social Security income for children whose total income falls below
an IRS determined threshold, is not considered. Because the ACA left no choice to states but to accept
these new criteria, Missouri approved the use of MAGI
by SB 127 (2013) beginning in January 2014.
13. The change to MAGI complicated the administration of the program because the eligibility criteria
differ from those used for other social service programs. Under the ACA, Missouri built a new eligibility
system to process MAGI Medicaid, which was costly
and complicated. Under ACA, open enrollment is once

Individuals receiving SSI cash assistance were and still are automatically eligible for Medicaid.

1

MAGI applies to pregnant women, children and families, but
does not apply to individuals who are elderly or who have disabilities.

2

154
per year. During the open enrollment period the Department receives an additional 10,000 to 15,000 applications per month.
The ACA’s individual mandate increased Missouri’s Medicaid enrollment
14. The ACA also included an individual mandate.
Missouri residents were required to seek health care
coverage or pay a penalty to the federal government.
15. Although it is difficult to quantify the exact
number of Medicaid enrollees that can be attributed to
the ACA, during the time period the ACA was implemented the Medicaid caseload increased, see numbers
above.
16. The ACA also mandates the specific Medicaid
services Missouri is required to cover.
Costs Incurred Under the ACA
17. Medicaid Cost is determined by the Caseload
– the volume or number of individuals served in each
category - and Cost per Client - a function of the number, type, and cost of the services a client receives, and
how those services are provided.
18. Given the increase in caseloads state spending
on Medicaid has increased following the ACA’s implementation. With the increase in caseload, the combined state share of Medicaid Administration and
Assistance increased from $3,516,957,427 in FFY
2013 to $3,851,597,485 in FFY 2017.
19. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.

155
Respectfully submitted this the 18th day of April, 2018.
/s/ Jennifer R. Tidball

156
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JUDITH MUCK
_______
My name is Judith Muck and I am over the age of 18
and fully competent to make this declaration and state
the following:
1. I am the Executive Director of the Missouri
Consolidated Health Care Plan (MCHCP). I have
served as Executive Director with Missouri Consolidated Health Care Plan for 5 years.
2. As the Executive Director for Missouri Consolidated Health Care Plan, I am responsible for the dayto-day operations of the health plan.
3. I am familiar with the business of MCHCP,
with the storage of records in the MCHCP and with
changes in costs, plans and policies related to the enactment of the ACA.
4. I have personal knowledge of the matters and
information set forth herein except where noted.

157
The Missouri Consolidated Health Plans
5. The Missouri Consolidated Health Care Plan
is a non-federal governmental health plan which provides insurance coverage for most state employees as
specified in Chapter 10 of the Revised Statutes of Missouri. Missouri statutes grants to the MCHCP Board
of Trustees (the Board) the general administration
and the responsibility for the proper operation of the
plan. 103.008 RSMo.
6. Under Section 103.014, the Board appoints an
Executive Director who has charge of the offices, records and employees of the plan, subject to the discretion of the board.
7. The Board, upon recommendations of the Executive Director of the MCHCP, sets benefits and premiums each year for the next plan year. Taken into
consideration when designing the coverage are benefits and limits that are mandated by law, both federal
and state.
8. Per 103.100 RSMo, every year MCHCP actuarially estimates the cost based on the plan design
chosen by the Board and sends an overall cost to provide benefits to the Office of Administration. The governor makes a recommendation and the legislature
passes the funding at the level it approves. MCHCP’s
budget is contained in the Office of Administration’s
budget as an employee benefit.
Financial Costs Associated with ACA Regulations
9. With the passing of the ACA Missouri Consolidated Health Care Plan has been affected with new
administrative and financial requirements.

158
10. These requirements are described in the attached chart that was used by the MCHCP which was
prepared by our employees shortly after state FY
2017, and updated as needed to summarize the historical and projected impact of the ACA on the MCHCP.
This chart was made and kept in the ordinary course
of business. This chart was made by assembling the
data available to MCHCP in its computerized accounting system, data warehouse, actuarial analysis and
contractual terms. This chart was found in the ordinary course of business and it was not prepared for
purposes of litigation. The exhibit is a true copy of this
chart. All fiscal years reference the state fiscal year.
The state fiscal year runs from July 1, through June
30 of the subsequent year.
Lifetime Maximum Benefit
11. At the time of passage and implementation of
the ACA, MCHCP did not have a lifetime maximum
benefit. “Lifetime maximum benefit” is the maximum
dollar amount a health insurance plan will pay in benefits to an insured person during that person’s lifetime. The ACA prohibited insurance contracts
nationwide from including any lifetime maximum
benefit. The ACA thus, eliminated Missouri Consolidated Health Care Plan’s ability to choose to impose
lifetime maximum benefits for essential health benefits in the future. 42 U.S.C. § 300-gg-11.
Young Adult Dependents
12. Prior to the implementation of the ACA on
January 1, 2010, Missouri Consolidated Health Care
Plan provided coverage for unemancipated dependents up to age 25 and unemancipated disabled children over age 25 who are permanently and totally
disabled when first eligible or covered before age 25..

159
But the ACA requires that all health insurance coverage nationwide provide continuing coverage for all dependents until the age of 26. 42 U.S.C. § 300-gg-14.
13. Providing continuing health insurance coverage for adult dependents until the age of twenty-six
puts costs upon Missouri Consolidated Health Care
Plan because each individual insured by the Missouri
Consolidated Health Care Plan constitutes expenses
for the system.
14. Specifically, Missouri Consolidated Health
Care Plan had costs of $316,382 in FY 2011,
$1,080.559 in FY 2012, $1,319,790 in FY 2013,
$1,574,090 in FY 2014, $1,726,080 in FY 2015,
$2,336,735 in FY 2016, $2,333,801 in FY 2017.
15. Accordingly, in the six-year period between
2012 and 2017, compliance with the ACA legal mandate to insure dependents until the age of twenty-six
imposed a cost of approximately $10,687,437.
16. Exact additional costs for 2018 are not yet
available, but compliance with the ACA will require
Missouri Consolidated Health Care Plan to indefinitely continue paying these additional costs because
the dependent age requirement mandated by the ACA
remains 26, which is higher than the age that Missouri Consolidated Health Care Plan had adopted
prior to the implantation of the ACA.
17. MCHCP estimates that these costs will be
$2,203,014 in FY 2018, $2,395,552 in FY 2019,
$2,553,658 in FY 2020, and $2,722,200 in FY 2021.
Preventive Services
18. Prior to adoption of the ACA on January 1,
2010, Missouri Consolidated Health Care Plan required insured persons to pay deductible, co-insurance

160
and/or copayments for some preventive care that are
now disallowed because the ACA requires that preventive care be covered at 100%. 42 U.S.C. § 300gg-13.
Prior to this provision, MCHCP covered almost all recommended preventive services with no cost share. Examples of services not previously covered at 100%
include over-the-counter tobacco cessation products
with a prescription, vitamin D with a prescription, aspirin with a prescription in certain situations, folic
acid with a prescription in certain situations, routine
prenatal care, and breast feeding support and services. Because so few services were not already covered, an actuary determined that this requirement did
not impact MCHCP premiums. MCHCP lost the flexibility to choose not to offer these services in the future
or to offer them subject to cost sharing requirements.
Clinical Trials
19. Effective January 1, 2013, the ACA requires
coverage for routine patient care costs incurred as the
result of a Phase I, II, III or IV clinical trial that is
conducted in relation to the prevention, detection or
treatment of cancer or other life-threatening disease
or condition. Prior to this provision, MCHCP covered
routine patient care costs incurred as the result of
Phase II, III or IV clinical trials for cancer in accordance with Missouri law. The actuary thus determined
that this requirement did not impact MCHCP premiums. MCHCP lost the flexibility to choose not to cover
the expanded trial requirements in the future.
Patient-Centered Outcomes Research Institute
(PCORI) Fee
20. The ACA requires Missouri Consolidated
Health Care Plan to pay a Patient-Centered Outcomes
Research Institute (PCORI) fee. 26 U.S.C. § 9511. The

161
fee applies to issuers of specified health insurance policies and plan sponsors of applicable self-insured
health plans to help fund the Patient-Centered Outcomes Research Institute. The fee is based on the average number of lives covered under the plan. The fee
applies to plan years ending on or after Oct. 1, 2012,
and before Oct. 1, 2019. MCHCP makes payment in
July of each year.
21. Missouri Consolidated Health Care Plan paid
the following for its persons enrolled in a health insurance plan: in FY 2014, $87,002; in FY 2015, $173,432;
in FY 2016, $181,018; in FY 2017, $187,783. It projects
to pay, assuming a 4% trend over current fee of $2.08,
$194,640 in FY 2018; $203,106 in FY 2019; $211,230
in FY 2020; and $211,230 in FY 2021.
Transitional Reinsurance Program Fee
22. The ACA requires Missouri Consolidated
Health Care Plan to pay the Transitional Reinsurance
Program fee. 42 U.S.C. § 18061. Section 1341 of the
ACA established a Transitional Reinsurance Program
to help stabilize premiums for coverage in the individual market during the years 2014 through 2016. If this
requirement had not been in place, Missouri Consolidated Health Care Plan would have saved approximately $3,878,420 in FY 2015; $3,185,756 in FY 2016;
$2,358,259 in FY 2017; and $388,725 in FY 2018.
Employer Shared Responsibility
23. Prior to the ACA, a full-time employee was defined as an employee who is employed at least 40
hours per week; the ACA altered that number to 30
hours per week. 26 U.S.C.A. § 4980H; Pub. L. 111-148,
124 Stat. 865, § 4980H(d)(4)(A).
24. This change impacted Missouri Consolidated
Health Care Plan by increasing the number of persons

162
the State of Missouri must insure, thus increasing the
total cost of providing insurance.
25. Under the ACA, any employer with 100 (decreases to 50 in 2016) or more fulltime equivalents
(FTEs) is subject to a penalty if the employer fails to
offer access to minimum essential coverage and if any
FTE receives a tax credit or if the coverage does not
meet minimum value and affordability requirements.
26. MCHCP coverage meets minimum value and
affordability requirements. MCHCP offers coverage to
all FTEs that are benefit-eligible. Effective January 1,
2015, MCHCP began offering coverage to certain variable hour employees who are not benefit-eligible but
who worked on average more than 30 hours per week
during the standard measurement period. These individuals are considered an FTE employee for the purpose of the ACA.
27. In FY 2016, this cost $112,833 and in FY 2017,
$137,790. Projected costs include $268,242 in FY 2018;
$290,897 in FY 2019; $310,096 in FY 2020; and
$330,562 in FY 2021. Estimated costs reflect
MCHCP’s contribution to the premium for variable
hour employees.
Excise or Cadillac Tax
28. Under the ACA, a 40 percent excise tax will be
assessed, beginning in 2022, on the cost of coverage for
health plans that exceed a certain annual limit
($10,200 for individual coverage and $27,500 for self
and spouse or family coverage. Limits for retiree coverage are higher.) Estimates are subject to further
guidance through regulations not yet available. Issues
that can impact the potential amount owed include

163
rate blending, age and demographic distributions,
HSA/FSA contributions as well as other issues.
29. This excise tax was estimated in December
2015, to be $2.0M-$2.5M in FY 2022. The lower
amount of the range is estimated based on rate blending with the higher amount reflecting no rate blending. The estimate given also does not include the
impact of any future benefit design changes should
they occur after the estimate was made.
IRS Reporting Requirements
30. Under the ACA, MCHCP is required to report
who has coverage to the Internal Revenue Service
(IRS) annually. MCHCP has contracted for the printing and mailing of 1094B and 1095B reporting.
31. Form 1094-B is for the Transmittal of Health
Coverage Information Returns. Form 1095-B is used
to report certain information to the IRS and to taxpayers about individuals who are covered by minimum essential coverage and therefore are not liable for the
individual shared responsibility payment.
32. These costs are $185,061 in FY 2016 and
$57,699 in FY 2017. They are projected to be $47,000
in FY 2018; $47,300 in FY 2019; $49,200 in FY 2010;
and $51,200 in FY 2021.
Administrative Requirements Associated with
ACA Regulations
33. Missouri Consolidated Health Care Plan is
currently structuring the benefits and policies for the
2019 plan year and bases its activities on knowledge
of whether the ACA is still federal law in order.
34. Without the expenses described above, Missouri Consolidated Health Care Plan would possibly
gain back nearly $3 million in funding. This is based

164
on $2,395,552 for its line item on young adult dependents, $203,106 saved on the PCORI fee, $290,897 on
the employer shared responsibility payments, and
$47,300 on IRS reporting requirements.
35. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 16 day of April 2018.
/s/ Judith Muck

165
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP

Young adult dependents Covered up to age 26. Effective
01/01/2010. Prior to this provision, MCHCP covered young
adult dependents up to age 25
if unmarried and if lived at
parent home or attended
school. Estimated costs reflect
MCHCP’s contribution to the

Preventive Services - Recommended preventive services
must be covered at 100% when
delivered in-network. Effective
01/01/2010. Prior to this provision - MCHCP covered almost
all recommended preventive
services with no cost share.
Examples of services not previously covered at 100% include
over-the-counter tobacco cessation products with a prescription vitamin D with a
prescription, aspirin with a
prescription in certain situations, folic acid with a prescription in certain situations.
The actuary determined that
this requirement did not impact MCHCP

MCHCP Actual Costs
FY 2011
$316,382
FY 2012
$1,080,559
FY 2013
$1,319,790
FY 2014
$1,574,090
FY 2015
$1,726,080
FY 2016
$2,336,735
FY 2017
$2,333,801
MCHCP Estimated Costs
FY 2018
FY 2019
FY 2020
FY 2021

$2,203,014
$2,395,552
$2,553,658
$2,722,200

MCHCP Actual Costs
FY 2011
$0.00
FY 2012
$0.00
FY 2013
$0.00
FY 2014
$0.00
FY 2015
$0.00
FY 2016
$0.00
FY 2017
$0.00
MCHCP Estimated Costs
FY 2018
FY 2019
FY 2020
FY 2021

$0.00
$0.00
$0.00
$0.00

166
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP
Women’s Preventive Services - Includes additional
recommended preventive services specific to women. Effective 01/01/2013 Prior to this
provision, MCHCP covered almost all recommended preventive services at 100%.
Examples of services not previously covered at 100% included routine prenatal care
and breast feeding support
and services. The actuary determined that this requirement did not impact MCHCP
premiums.

Clinical Trials - Coverage for
routine patient care costs incurred as the result of a Phase
I, II, III or IV clinical trial that
is conducted in relation to the
prevention, detection or treatment of cancer or other lifethreatening disease or condition. Effective 01/01/2013 Prior
to this provision, MCHCP covered routine patient care costs
incurred as the result of Phase
II, III or IV clinical trials for
cancer. The actuary determined that this requirement
did not impact MCHCP premiums.

MCHCP Actual Costs
FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

$0.00

FY 2015

$0.00

FY 2016

$0.00

FY 2017

$0.00

MCHCP Estimated Costs
FY 2018

$0.00

FY 2019

$0.00

FY 2020

$0.00

FY 2021

$0.00

MCHCP Actual Costs
FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

$0.00

FY 2015

$0.00

FY 2016

$0.00

FY 2017

$0.00

MCHCP Estimated Costs
FY 2018

$0.00

FY 2019

$0.00

FY 2020

$0.00

FY 2021

$0.00

167
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP
Patient-Centered Outcomes Research Institute
(PCORI) Fee - A fee on issuers of specified health insurance policies and plan
sponsors of applicable self-insured health plans to help
fund the Patient-Centered
Outcomes Research Institute.
The fee is based on the average number of lives covered
under the policy or plan. The
fee applies to plan years ending on or after Oct. 1, 2012,
and before Oct. 1, 2019. Payment made in July of each
year. Assumed a 4% trend over
current fee of $2.08.

MCHCP Actual Costs
FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

$87,002

FY 2015

$173,432

FY 2016

$181,018

FY 2017

$187,783

MCHCP Estimated Costs
FY 2018

$194,640

FY 2019

$203,106

FY 2020

$211,230

FY 2021

$211,230

MCHCP Actual Costs

Transitional Reinsurance Section 1341 of the ACA established a Transitional Reinsurance Program to help stabilize
premiums for coverage in the
individual market during the
years 2014 through

FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

N/A

FY 2015

$3,878,420

FY 2016

$3,185,756

MCHCP Estimated Costs
FY 2018

$2,358,259

FY 2019

$388,725

FY 2020

N/A

FY 2021

N/A

168
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP
Employer Shared Responsibility - Any employer with
100 (decreases to 50 in 2016)
or more full-time equivalents
(FTEs) is subject to a penalty
if the employer fails to offer access to minimum essential coverage and if any FTE receives
a tax credit or if the coverage
does not meet minimum value
and affordability requirements. MCHCP coverage
meets minimum value and affordability requirements.
MCHCP offers coverage to all
FTEs that are benefit-eligible.
Effective 01/01/2015, MCHCP
began offering coverage to certain variable hour employees
who are not benefit-eligible
but who worked on average
more than 30 hours per week
during the standard measurement period. These individuals
are considered an FTE employee for the purpose of this
law. Estimated costs
Excise Tax - On January 22,
2018, Congress passed and the
President signed into law a
two year delay on the Affordable Care Act’s 40 percent excise tax on high-value health
care plans. The 40 percent excise tax will take effect, beginning in 2022, on the cost of
coverage for health plans that

MCHCP Actual Costs
FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

N/A

FY 2015

N/A

FY 2016

$112,833

FY 2017

$137,790

MCHCP Estimated Costs
FY 2018

$268,242

FY 2019

$290,897

FY 2020

$310,096

FY 2021

$330,562

MCHCP Actual Costs
FY 2011

N/A

FY 2012

N/A

FY 2013

N/A

FY 2014

N/A

FY 2015

N/A

FY 2016
FY 2017

N/A
N/A

169
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP
exceed a certain annual limit
($10,200 for individual coverage and $27,500 for self and
spouse or family coverage.
Limits for retiree coverage are
higher.) Estimates are subject
to further guidance through
regulations which are not yet
available. Issues that can impact the potential amount
owed include rate blending,
age and demographic distributions, HSA/FSA contributions
as well as others. Although no
payments would be due
through FY 2021, an actuarial
estimate completed in Dec.
2015 estimated the excise tax
owed in 2022 to be $2M-$5M.
The lower amount of the range
is estimated based on rate
blending with the higher
amount reflecting no rate
blending. The estimate given
also does not include the impact of any future benefit design changes should they occur
after the analysis was completed.

Auto-Enrollment - Employers with >200 employees must
auto enroll employees into coverage if a new employee fails
to enroll or waive coverage.
Implementing regulations

MCHCP Estimated Costs
FY 2018
FY 2019
FY 2020
FY 2021

N/A
N/A
N/A
N/A

MCHCP Actual Costs
FY 2011
FY 2012
FY 2013
FY 2014

N/A
N/A
N/A
N/A

170
Affordable Care Act (ACA)
Provisions for Large
Groups (101+) with potential cost impact to MCHCP
have not been issued and this
provision will not be effective
until such time. Have not estimated costs for this provision.

FY 2015
$0.00
FY 2016
$0.00
FY 2017
$0.00
MCHCP Estimated Costs
FY 2018
FY 2019
FY 2020
FY 2021

$0.00
$0.00
$0.00
$0.00

MCHCP Actual Costs

IRS Reporting Requirements - Contracted services
for printing and mailing of
1094B and 1095B reporting

FY 2011
N/A
FY 2012
N/A
FY 2013
N/A
FY 2014
N/A
FY 2015
N/A
FY 2016
$185,061
FY 2017
$57,699
MCHCP Estimated Costs
FY 2018
FY 2019
FY 2020
FY 2021

$47,000
$47,300
$49,200
$51,200

171
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF BRUCE R. RAMGE
_______

INTRODUCTION
1. My name is Bruce Ramge and I am the Director of the Nebraska Department of Insurance
(“NDOI”).
2. DOI is responsible for regulating the Nebraska health insurance market and protecting consumers of this market. Overall, NDOI performs a
variety of tasks to protect insurance consumers and
ensure a competitive insurance market environment,
including:
a. Reviewing insurance policies sold in Nebraska to ensure compliance with Nebraska
and federal law;
b. Conducting examinations of foreign and domestic insurers doing business in Nebraska
to ensure compliance with Nebraska laws
and rules;

172
c. Monitoring the financial solvency of licensed companies to make sure that consumers have the insurance coverage they
expect when they need it;
d. Issuing licenses to agents, brokers, consultants, and other entities that sell and market insurance products;
e. Researching special insurance issues to understand and assess their impact on Nebraskans;
f. Providing technical assistance on legislation and promulgating rules and regulations to interpret insurance laws;
g. Creating and distributing public information and consumer education about all
types of insurance; and
h. When insurance companies are in financially hazardous condition or have become
insolvent, working with the guaranty associations made up of insurance companies,
which by statute must step in and pay policyholder claims when an insurer, for example CoOportunity, fails.
3. As Director, I am the head of NDOI and the
chief regulator of insurance in Nebraska. Generally,
my official duties include supervising the entire
agency, serving as final adjudicator of all administrative actions, and serving on various councils and committees in a variety of capacities.
4. Additionally, my official duties with NDOI include studying the impact of the Affordable Care Act
(“ACA”) on Nebraska’s insurance market, ensuring
Nebraska’s compliance with the ACA, advising the

173
Nebraska Governor on the ACA, and developing strategies for Nebraska to mitigate the numerous harms
the ACA has inflicted on Nebraska’s health insurance
markets.
HARMS CAUSED BY THE AFFORDABLE CARE
ACT
5. The ACA has wrought havoc on the health insurance market in Nebraska and imposed significant
burdens on NDOI as regulator of Nebraska’s insurance market.
6. Prior to enactment of the ACA, Nebraska’s individual major medical market offered more choices
for consumers. For example, in 2010, approximately
thirty carriers offered coverage in Nebraska’s individual market. The ACA’s effect on insurers’ participation in the market is demonstrated by the numbers:
three carriers in 2014, four carriers in 2015 and 2016,
two carriers in 2017, and one remaining carrier in
2018.
7. In 2017, two major carriers exited Nebraska’s
individual market. Aetna announced its withdrawal
from Nebraska’s individual market in May 2017, citing an expected loss of $200 million for 2017 in the four
states Aetna sold individual coverage. In June 2017,
Blue Cross and Blue Shield of Nebraska also announced its withdrawal from Nebraska’s individual
market, citing an expected loss of $12 million for 2017,
in addition to the approximately $150 million loss the
company experienced selling ACA plans in Nebraska
from 2014 to 2016. In the wake of these companies’ departures, only a single insurer, Medica, remains in Nebraska’s individual market. Nebraskans are left to
hope that Medica— which raised premiums 31% for

174
plan year 2018— remains in the individual market for
plan year 2019.
8. Premiums are predicted to keep rising. The
Congressional Budget Office’s April 2018 “Budget and
Economic Outlook: 2018 to 2028” estimates that, under current law, federal outlays for health insurance
subsidies and related spending will rise by about 60
percent over the projection period, increasing from $58
billion in 2018 to $91 billion by 2028. (cbo.gov/publication/53651). These rising premiums have a significant
negative impact on middle-class Nebraskans.
9. The State of Nebraska itself has borne significant new costs as a result of the ACA. For example,
the State of Nebraska, like other States, must offer
non-full time employees (i.e., employees working 3039 hours per week) health insurance plans with premiums identical to those offered to full time employees.
10. The Nebraska Department of Insurance, as
the primary enforcer of insurance laws, has spent the
past six years reading and enforcing thousands of
pages of federal regulations, guidance, and other subregulatory guidance related to the ACA, completely revised its insurance policy review standards for health
insurance products, educated the public on changes in
the law, and fielded consumer complaints expressing
confusion and frustration about the limited, expensive
choices that remain in the Nebraska individual market.
11. Additionally, the ACA harms Nebraska because it has preempted Nebraska law, preventing Nebraska from regulating health insurance in the
manner it sees fit.

175
12. The ACA forced insurers to issue policies to all
qualified applicants, regardless of their health condition, and the ACA does not allow insurers to charge
higher premiums to people who, because of pre-existing conditions, have higher anticipated medical costs.
The ACA forced insurers to pay for pre-existing conditions, which in turn drove up premiums. The ACA
forcing insurers to charge the same rate regardless of
health condition forced healthy people to pay higher
premiums. While sick people’s premiums became
lower, as discussed below, a mechanism already existed in Nebraska law to provide coverage for high-cost
individuals.
13. A recent study confirmed that the top one percent of insureds in Nebraska’s individual market are
responsible for 40 percent of the medical costs. Nebraska law creates a high-risk pool, which operated as
an insurer of last resort for people when private insurers refused to issue coverage to them due to expensive
anticipated medical costs. Because the ACA makes
private insurance available and “affordable” regardless of a purchaser’s health condition, Nebraska’s high
risk pool cannot operate as it did prior to 2014, to keep
high-cost individuals from driving up premiums for insurance purchasers of average or good health.
14. Finally, the ACA harmed the Nebraska health
insurance market by creating health insurance co-ops.
CoOportunity Health, which operated in Iowa and Nebraska, was the first co-op to go insolvent. Co-ops were
conceived in the ACA as an alternative to commercial
insurance, to create competition and drive down premiums. The premiums CoOportunity charged were insufficient to cover rising health costs, despite large
enrollment numbers (120,000 insureds in Nebraska
and Iowa combined) and $147 million in loans from

176
the federal government, in addition to members’ premiums. Under Nebraska law, other health insurers
were required to step in with funds to pay the claims
of the more than 80,000 Nebraskans insured by
CoOportunity. In summary, CoOportunity “created
competition” by taking customers from the private
market, went insolvent, then looked to its competitors
to pay those customers’ claims. CoOportunity was put
into liquidation in early 2015, and the CoOportunity
liquidator filed suit against the federal government,
which attempted to put itself, as creditor, ahead of policyholders when the time came to disburse what funds
remained in CoOportunity’s possession. The ACA’s coop program, nationwide, has cost taxpayers more than
$1.8 billion in funds that may never be recovered. Of
the original 23 co-ops, only six remain.
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on April 16, 2018
Signed,
/s/ Bruce R. Ramge
Bruce R. Ramge, Director
Nebraska Department of Insurance

177
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF JON GODFREAD
_______
Jon Godfread, being first duly sworn on oath, deposes
and states as follows:
1. My name is Jon Godfread and I am the Commissioner of the North Dakota Insurance Department
(“NDID”).
2. NDID is responsible for regulating the North
Dakota health insurance market and protecting the
consumers of this market. Overall, NDID performs a
variety of tasks to protect insurance consumers and
endure a competitive insurance market environment,
including:
a. Reviewing all insurance policies offered for
sale in North Dakota to ensure compliance
with North Dakota law;
b. Conducting examinations of foreign and domestic insurers doing business in North
Dakota to ensure compliance with North
Dakota laws and rules;

178
c. Monitoring the financial solvency of licensed companies to make sure that consumers have the insurance coverage they
expect when they need it;
d. Issuing licenses to individuals who are
qualified to serve as agents or consultants
and other entities that sell and market insurance products;
e. Reviewing and approving rates for health
insurance plans prior to being offered for
sale in North Dakota;
f. Creating and distributing public information and consumer education about all
types of insurance; and
g. Providing input and assistance on legislation and rules and regulations affecting insurance.
3. As Commissioner, I am the head of the NDID
and the chief regulator of insurance in North Dakota.
4. My official duties include studying the impact
of the Affordable Care Act (‘ACA”) on North Dakota’s
insurance market and developing strategies for North
Dakota to mitigate the negative consequences the
ACA has inflicted on North Dakota’s health insurance
markets.
5. North Dakota’s health insurance market was
not broken prior to enactment of the ACA. North Dakota had meaningful competition in its marketplace, a
highly successful state high risk pool which offered a
rich benefit plan, and the state had a low percentage
of uninsured individuals. Prior to implementation of
the ACA eight to ten percent of North Dakotans had
no health insurance. After the implementation of the

179
ACA eight to ten percent of North Dakotans have no
health insurance. The ACA attempted to fix something, which was not broken and has resulted in many
negative consequences to North Dakota.
6. In 2017, one major carrier completely exited
North Dakota’s individual health exchange marketplace due to continued expected financial losses. Another major carrier exited North Dakota’s individual
exchange marketplace in 48 of the state’s 53 counties,
citing the same concerns. This left only one insurance
company to sell on North Dakota’s individual exchange marketplace in 48 of the state’s 53 counties for
plan year 2018.
7. Premiums are predicted to keep rising. These
rising premiums have a significant negative impact on
North Dakotans who are self-employed and do not
qualify for a subsidy on the federal exchange, as these
North Dakotans have been forced to take on the full
weight of every rate increase over the years without
assistance.
8. The NDID has spent the past eight years reading and enforcing thousands of pages of federal regulations and other regulatory guidance related to the
ACA, spent countless hours on calls with federal officials in an attempt to learn how these laws and rules
impact North Dakota’s health insurance market and
our consumers, completely revised its insurance policy
review standards for health insurance products, and
fielded consumer complaints expressing confusion and
frustration about the limited, expensive choice that remain in North Dakota’s individual market.

180
9. The ACA harms North Dakota because it has
preempted North Dakota law, preventing North Dakota from regulating health insurance in the manner
it sees fit.
10. The ACA forced insurers to issue policies to all
qualified applicants, regardless of their health condition, and the ACA does not allow insurers to charge
higher premium to people who, because of pre-existing
conditions, have higher anticipated medical costs. The
ACA forced insures to pay for pre-existing conditions,
which in turn drove up premiums. The ACA forcing
insurers to charge the same rate regardless of health
condition has forced individuals without pre-existing
conditions to pay much higher premiums and in many
cases, the end result has been that these individuals
cannot afford to have health insurance coverage.
11. North Dakota law creates a high risk pool,
which prior to the enactment of the ACA operated as
an insurer of last resort for people when private insurers declined to issue coverage to them due to expensive
anticipated medical costs. Since the ACA makes private insurance available regardless of a purchaser’s
health condition, North Dakota’s high risk pool cannot
operate as it did prior to 2014, to keep high-cost individuals from driving up premiums for individuals of
average or good health.
Further your affiant sayeth not.
Dated this 19th day of April, 2018
/s/ Jon Godfread
Jon Godfread
North Dakota Insurance Commissioner

181
Subscribed and sworn to before me this 19th day of
April, 2018
/s/ Laura Helbling
Notary Public

182
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
AFFIDAVIT OF ROBIN TESTER
_______
PERSONALLY APPEARED before me, Robin Tester,
who being duly sworn, attests to the following:
1. I am the Insurance Policy Director of the Public Employee Benefit Authority, which administers the
Group Health Benefits Plan of the Employees of the
State of South Carolina, the public school districts,
and participating entities (typically referenced as the
“State Health Plan”).
2. I am familiar with the Patient Protection and
Affordable Care Act, P. L. 111-148, as amended by the
Health Care and Education Reconciliation Act of 2010,
P. L. 111- 152 (ACA).
3. State Health Plan participants include state
officers as well as employees of:
 State agencies (pursuant to S.C. Code Ann.
§ 1-11-710)

183
 Public school districts (pursuant to § 1-11710)
 Other participating entities/local subdivisions that elect to participate pursuant to §
1-11-720
Participants also include retirees of these employers
as defined in§ 1-11-730 of the Code of Laws and the
eligible spouses and eligible children of employees and
retirees.
4. Since January 1, 2011, the State Health Plan
has complied with the following ACA-prescribed benefits that were not previously provided under the Plan:
 No preexisting condition exclusion for individuals younger than 19
 No preexisting condition exclusion for individuals older than 19 (1/1/2014)
 No lifetime limits on essential benefits
 Restricted annual limits on essential benefits
 Prohibition on rescission of coverage
 Dependent coverage of children younger
than 26
5. The net material measureable direct financial
impact of the ACA on the State Health Plan totals
$29,230,152 during the period from 2011 through
2017:
Reinsurance/PCORI Fees
(2013-2017)

-$45,291,815

Early Retirement Reinsurance Fund (2012)

+$27,142,502

184
Lifetime Medical Claims
over $2M
Net total

-$11,080,839
$29,230,252

Notes on calculation: The $2 million lifetime maximum in force prior to January 1, 2011 was only applied to medical expense, not to pharmacy, so
pharmacy is not included in the calculation. Furthermore, the mandated addition of adult children up to
age 26 and the addition of non-permanent employees
was addressed through actuarial adjustment of contributions. The MUSC Health Plan was not included in
the calculation because it was created voluntarily as
an ACA non-grandfathered plan with the understanding of mandatory ACA coverage requirements.
FURTHER THE AFFIANT SAITH NOT.
/s/ Robin Tester
Robin Tester
SWORN TO before me this 15th day of March, 2018
/s/
NOTARY PUBLIC FOR SOUTH CAROLINA
My Commission Expires: 6/16/27

185
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: April 26, 2018]
_______
DECLARATION OF THOMAS STECKEL
_______
My name is Thomas Steckel and I am over the age of
18 and fully competent to make this declaration and
state the following:
1. I am the Director of the Division of Employee
Benefits within the South Dakota Bureau of Human
Resources (“Bureau”). I have served with the Bureau
for 4 years. As the Director of the Division of Employee
Benefits (“Division”), I am responsible for developing
and implementing the State’s health plan for state employees, including flexible benefits such as a vision
and dental plan. As a part of these responsibilities, I
recommend policy for the State’s health plan, administer the health plan, and monitor and balance the
health plan’s financials. I am particularly familiar
with changes in costs, plans, and policies related to the
enactment of the ACA because of my role as the Director of the Division. I have personal knowledge of the
matters and information set forth herein.

186
2. The Bureau serves four main roles for the
State of South Dakota, each role having its own division within the Bureau. The first role is the Bureau
provides human resource services to each agency and
bureau under the purview of the Governor of South
Dakota. These services include the processing of payroll, maintaining personnel files, and utilizing Human
Resource Managers to assist agencies in hiring, developing, and the disciplining of employees. The second
role is the Bureau provides employee and organizational development through services such as employee
training, leadership development, and 360 and engagement surveys. The third role is the Bureau lies in
classification and compensation. The Bureau establishes and administers a compensation structure for
executive branch employees and classifies each position based upon the position’s job duties. The fourth
major role of the Bureau is the establishment and administration of the benefits for state employees, which
includes the State’s health plan, the flexible benefits
available to state employees, and workers’ compensation program for state employees.
3. With the passing of the ACA, the Bureau has
suffered both administrative and financial burdens
that it otherwise would not have. The ACA deprived
the Bureau of the flexibility it previously had to provide health insurance plans tailored to the needs of its
population.
Financial Costs Associated with ACA Regulations
4. The individual mandate caused the following
estimated financial burdens to the Bureau:
a. IRO Review of denied appeals: $10,400.00
ongoing costs;

187
b. Elimination
of
lifetime
$19,140,252.00 ongoing costs;

maximum:

c. Pre-existing conditions exclusion prohibited by ACA: unable to accurately estimate
the ongoing costs of this mandate;
d. Expanded eligibility for adult dependent
children to age 26: unable to accurately estimate the ongoing costs of this mandate;
e. Expanded preventive services paid only by
the plan: $4,575,200.00 ongoing costs;
f. Transitional Reinsurance Program fee:
3,202,942.00 one-time costs;
g. Patient Centered Outcomes Research Institute fee: $172,141.00 ongoing costs;
h. Expanded health plan eligibility for parttime employees who did not meet the
State’s health plan’s pre-ACA eligibility
definition: $1,514,205.00 ongoing costs; and
i. Form 1095-C administration: $100,000.00
ongoing costs.
5. “Lifetime maximum benefit” is the maximum
dollar amount a health insurance plan will pay in benefits to an insured person during that person’s lifetime. The ACA banned insurance contracts
nationwide from including any lifetime maximum
benefit. The ACA thus eliminated the Bureau’s ability
to impose lifetime maximum benefits for essential
health benefits. 42 U.S.C. § 300-gg-ll (West). Prior to
the implementation of the ACA, the Bureau maintained a lifetime annual maximum of $2,000,000.
Since the implementation of the ACA, the Bureau has
been liable to pay, and has paid, substantial costs that
would not have been payable had the pre-ACA lifetime

188
maximum benefits still been in place. In the sevenyear period between 2011 and 2017, the Bureau has
paid approximately $19,140,252 in costs that would
not have been due had the ACA not eliminated its ability to apply a lifetime maximum benefit. Compliance
with the ACA will require the Bureau to indefinitely
continue paying these additional costs.
6. Prior to adoption of the ACA, the Bureau required insured persons to pay coinsurance and/or copays for preventative care that are now disallowed because the ACA requires that preventative care be covered at 100%. 42 U.S.C. § 300gg-13 (West). The change
to 100% funding of preventative care has cost the Bureau substantial sums. During the six-year period
from 2012 to 2017, therefore, the 100% funding for
preventative care mandated by the ACA has imposed
costs upon the Bureau approximating $4,575,200.
100% funding for preventative care is a permanent requirement pursuant to the ACA, so these costs to the
Bureau as a result will continue indefinitely.
7. Prior to implementation of the ACA, the Bureau provided insurance coverage for contraceptive
drugs at a rate below 100%. The ACA, however, requires contraceptives to be covered at 100%. 42 U.S.C.
§ 300gg-13(a)(4) (West); 77 Fed.Reg. 8725 (Feb. 2012).
Covering a class of drugs at 100% of cost is more expensive for the Bureau than covering a drug at less
than 100% of cost. If the Bureau could have maintained its prior coverage plan for contraceptives,
therefore, it would have saved significant monies. Specifically, the Bureau would have saved approximately
$672,780 during the five-year period from FY 2013
through 2017. The 100% funding for contraceptives
mandate is permanent pursuant to the ACA, so these
costs to the Bureau continue.

189
8. The ACA requires the Bureau to pay a Patient-Centered Outcomes Research Institute (PCORI)
fee. 26 U.S.C. § 9511. The fee was started under the
ACA for advancements in comparative clinical effectiveness research. The fee increases yearly and is
based on per average number of lives that are covered
by the plan or policy. In the last fiscal year, the Bureau
paid $2.26 per person enrolled in a health insurance
plan. If the PCORI fee had not been required under
the ACA, the Bureau would have saved approximately
$172,141 for FY 2014 to 2018. This fee is imposed currently for plans that end before October 1, 2019 and,
therefore, will continue to be paid into 2020 under the
ACA.
9. The ACA requires the Agency to pay the Transitional Reinsurance Program fee. 42 U.S.C. § 18061.
This fee is collected by the federal government to fund
reinsurance payments to issuers of non-grandfathered
reinsurance-eligible individual market plans, the administrative costs of operating the reinsurance program, and the General Fund of the U.S. Treasury for
the 2014, 2015, and 2016 benefit years. If this requirement had not been in place, the Bureau would have
saved approximately $2,622,787 in FY 2015 and FY
2016.
10. Prior to the ACA, a full-time employee was defined as an employee who is employed at least 40
hours per week; the ACA altered that number to 30
hours per week. 26 U.S.C.A. § 4980H (West); Pub. L.
111-148, 124 Stat. 865, § 4980H(d)(4)(A). This change
impacted the Bureau by increasing the number of persons the Bureau must insure, thus increasing the total
cost of providing insurance. The change required the
Bureau to provide insurance coverage to seasonal or
temporary employees who meet the ACA definition of

190
eligible employee. The ACA change in definition of eligible employee would have reduced the cost to the Bureau of providing health insurance coverage to all
“full-time” and eligible permanent part-time employees by approximately $1,514,205 for FY 2014 to FY
2018 YTD as of 3/31/18. The 30-hour “full-time employee” rule is a permanent requirement under the
ACA and, thus, these costs to the Bureau as a result
will continue.
11. Given the facts summarized in ¶¶ 4-10 above,
compliance with mandatory provisions of the ACA has
imposed costs upon the Bureau approximating
$28,715,140.00 dollars in FY 2012-2017 in order to
comply with the federal government’s requirements
under the ACA. These impositions of costs upon the
Bureau will continue indefinitely because the mandates imposed by the ACA are generally permanent.
Administrative Burdens Associated with ACA
Regulations
12. The individual mandate caused significant administrative burdens and expenses to program our IT
system to track and report ACA eligible employees
and complete mandatory IRS Form 1095 annual reports.
13. The ACA mandates constrain our flexibility in
plan design decisions, and the continued uncertainty
as to the potential changes in the law, including partial repeal of certain provisions, make long term strategic planning more complicated than it would be
absent the ACA.
14. The Bureau recently made changes to the
State employee health plan for the FY 2019 and those
changes assumed the ACA is still federal law. Repeal
of the ACA is necessary now, as opposed to in future

191
months or years, because the confines of the law that
the Bureau is forced to operate within create a significant obstacle to solving current budgetary concerns.
Without the expenses described above in ¶¶ 4-13, the
Bureau would gain back approximately $5.1 million in
funding. If the ACA is not repealed now, however, this
funding would not be available to the Bureau in time
to plan for the FY 2019. Thus, the Bureau, its enrollees and the taxpayers of South Dakota would be significantly burdened if the ACA remained law pending
this suit.
15. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 24th day of April, 2018.
/s/ Thomas Steckel
Thomas Steckel, Director
Division of Employee Benefits
South Dakota Bureau of Human Resources

192
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: June 7, 2018]
_______
DECLARATION OF HENRY J. AARON
_______
I, Henry J. Aaron, declare as follows:
1. I am currently the Bruce and Virginia MacLaury Senior Fellow in the Economic Studies Program
at the Brookings Institution. From 1990 through 1996,
I was the Director of the Economic Studies Program. I
am a member of the District of Columbia Health Benefits Exchange Executive Board and a member and
former chair of the Social Security Advisory Board. I
am a graduate of UCLA and hold a Ph.D. in economics
from Harvard University. I taught at the University of
Maryland from 1967 through 1989, except for 1977
and 1978 when I served as Assistant Secretary for
Planning and Evaluation at the Department of
Health, Education, and Welfare. I chaired the 1979
Advisory Council on Social Security. During the academic year 1996-97, I was a Guggenheim Fellow at the
Center for Advanced Studies in the Behavioral Sciences at Stanford University. I have been a member of

193
the visiting committees for the Department of Economics and the Medical and Dental Schools at Harvard University. I am the author of many books and
articles on health insurance and health care policy, including two studies of the impact on health care of limited resources in Great Britain (with William
Schwartz), a study of health policy in the United
States, and recommendations for modifications in
Medicare (a book with Jeanne Lambrew and an article
with Robert Reischauer).
2. In creating this declaration, I consulted with
fellow national health experts Sara Rosenbaum, the
Harold and Jane Hirsh Professor of Health Law and
Policy and founding chair, Department of Health Policy, Milken Institute School of Public Health, George
Washington University and Jeffrey Levi, Professor of
Health Policy and Management at the Milken Institute School of Public Health, George Washington University. While I consulted with these individuals for
their expert advice, I can attest to the information in
this declaration based on my independent experience
and background.
3. I understand that this lawsuit involves a challenge to the Affordable Care Act and seeks to enjoin it.
As noted above, I am the author of numerous books
and articles on health insurance and health care policy. In my expert opinion, enjoining the Affordable
Care Act would completely disrupt the U.S. health
care market for patients, providers, insurance carriers, and federal and state governments.

194
The Affordable Care Act Has Contributed to
Improvements in Health Coverage, Access,
Financial Security, and Affordability
4. The Affordable Care Act (ACA) is a comprehensive law that has improved the quality and affordability of health care and health insurance. It has done
so by: strengthening consumer protections in private
insurance; making the individual insurance market
accessible and affordable; expanding and improving
the Medicaid program; modifying Medicare’s payment
systems while filling in benefit gaps; increasing funding and prioritization of prevention and public health;
supporting infrastructure such as community health
centers, the National Health Service Corps, and the
Indian Health Service, among other policies. There is
widespread agreement that the ACA is the most significant health legislation enacted since the Social Security Act amendments that created Medicare and
Medicaid in 1965.
5. The ACA helped lower the number of people
without health insurance by an estimated 20.0 million
people from October 2013 to early 2016, a drop of 43
percent in the uninsured rate. This increase in coverage included 3 million African-Americans, 4 million
people of Hispanic origin, and 8.9 million white nonelderly adults. An estimated 6.1 million young adults
and 1.2 million children gained coverage between 2010
and early 2016.1,2 The reduction in the uninsured rate
Uberoi N, Finegold K and Gee E, Health Insurance Coverage
and the Affordable Care Act, 2010 – 2016, Office of the Assistant
Secretary for Planning and Evaluation Issue Brief, 2016,
https://aspe.hhs.gov/system/files/pdf/187551/ACA2010-2016.pdf

1

2

Executive Office of the President Council of Economic Advisors,

195
occurred across the income spectrum: the 2013 to 2015
rate reduction was 36 percent, 33 percent, and 31 percent for non-elderly people with income below 138 percent of poverty, between 138 and 400 percent of
poverty, and above 400 percent of poverty respectively.3 The drop in the uninsured rate was larger in
states that expanded Medicaid than in states that did
not do so.4
6. Many studies have found that access to health
care has improved since the ACA was enacted, especially among low-income people. 5 For example, from
the fall of 2013 to the spring of 2017, the share of nonelderly adults without a regular source of care fell
from 30 percent to 24.7 percent; the share that did not
receive a routine checkup in the last 12 months fell
from nearly 40 percent to 34 percent.6 The Council of
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017,
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf
Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017,
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf

3

Broaddus, M, Census Data: States Not Expanding Medicaid Lag
Further on Health Coverage, Center on Budget and Policy Priorities, 2017, https://www.cbpp.org/blog/census-data-states-not-expanding-medicaid-lag-further-on-health-coverage
4

Kominski GF, Nonzee NJ and Sorensen A, The Affordable Care
Act’s Impacts on Access to Insurance and Health Care for LowIncome Populations, Annual Review of Public Health, 2017,
38:489-505,
https://www.annualreviews.org/doi/10.1146/annurev-publhealth-031816-044555

5

6

Long SK, Bart L, Karmpan M, Shartzer A and Zuckerman S,

196
Economic Advisers (CEA) estimated a one third drop
in the share of people who reported that they were unable to obtain needed medical care because of cost,
with the 2015 level falling below its pre-recession
level. The CEA also found a correlation between increased coverage and an increased share of people
having a personal doctor and receiving a checkup in
the past 12 months.7 A review of the literature in 2017
found evidence that significant improvements in access to and use of care were associated with gaining
coverage. These gains included increased use of outpatient care; greater rates of having a usual source of
care or personal physician; increased use of preventive
services; increased prescription drug use and adherence; and improved access to surgical care.8 Racial and
ethnic disparities in access to care fell following the
expansion of coverage.9

Sustained Gains in Coverage, Access, and Affordability Under
the ACA: A 2017 Update. Health Affairs, 36(9), 2017,
https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.2017.0798
Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017,
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf

7

Sommers BD, Gawande AA and Baicker K, Health Insurance
Coverage and Health – What the Recent Evidence Tells Us, The
New England Journal of Medicine, 2017, 377:586-593,
http://www.nejm.org/doi/full/10.1056/NEJMsb1706645

8

Chen J, Vargas-Bustamante A, Mortensen K and Ortega AN.
Racial and Ethnic Disparities in Health Care Access and Utilization under the Affordable Care Act. Med. Care, 2016, 54:140–146,
https://www.ncbi.nlm.nih.gov/pubmed/26595227; Sommers BD,
Gunja MZ, Finegold K and Musco T. Changes in Self-Reported

9

197
7. The expansion of coverage and other provisions of the ACA will contribute to longer, healthier
lives. Research on previous coverage expansions has
found that having health insurance coverage improves
children’s learning ability, adults’ productivity, and
seniors’ qualify of life. 10 A recent review found that
coverage improves rates of diagnosing chronic conditions, treatment of such conditions, outcomes for people with depression, and self-reported health. 11 The
CEA estimated that, if the ACA experience matches
that in Massachusetts, 24,000 deaths are being
avoided annually. 12 The Institute of Medicine also
found that coverage improves community health by
limiting the spread of communicable diseases and reducing the diversion of public health resources for
medical care for the uninsured.13
Insurance Coverage, Access to Care, and Health Under the Affordable Care Act. JAMA, 2015, 314:366–374, https://
jamanetwork.com/journals/jama/fullarticle/2411283
Institute of Medicine, Board on Health Care Services, Coverage
Matters: Insurance and Health Care, National Academies Press,
2001, http://www.nationalacademies.org/hmd/Reports/2001/Coverage-Matters-Insurance-and-Health-Care.aspx

10

Sommers BD, Gawande AA and Baicker K, Health Insurance
Coverage and Health – What the Recent Evidence Tells Us, The
New England Journal of Medicine, 2017, 377:586-593,
http://www.nejm.org/doi/full/10.1056/NEJMsb1706645

11

Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017.
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf

12

Institute of Medicine, Board on Health Care Services, A Shared
Destiny: Community Effects of Uninsurance, The National Academies Press, 2003, https://www.nap.edu/catalog/10602/a-shared-

13

198
8. The law’s contribution to health extends beyond its coverage provisions. In part thanks to the
ACA’s payment incentives and its Partnership for Patients initiative, an estimated 125,000 fewer patients
died in the hospital as a result of hospital-acquired
conditions in 2015 compared to 2010, saving approximately $28 billion in health care costs over this period. 14 And its Tips from Former Smokers initiative
resulted in an estimated 500,000 people quitting
smoking permanently in the first five years of the campaign.15
9. The ACA strengthened financial security as
well as physical and mental health. A study found that
self-reported concerns about the cost of health care
dropped at a greater rate for low income people in two
states that expanded Medicaid relative to one that did
not.16 Between September 2013 and March 2015, the
number of people having problems paying medical
bills dropped by an estimated 9.4 million, a reduction
destiny-community-effects-of-uninsurance.
Agency for Healthcare Research and Quality, National Scorecard on Rates of Hospital-Acquired Conditions 2010 to 2015: Interim Data from National Efforts to Make Health Care Safer,
December 2016, https://www.ahrq.gov/professionals/qualitypatient-safety/pfp/2015-interim.html

14

Centers for Disease Control and Prevention, Tips Impact and
Results, no date, https://www.cdc.gov/tobacco/campaign/tips/
about/impact/campaign-impact-results.html?s_cid=OSH_tips_
D9391
15

Sommers BD, Blendon RJ, Orav EJ and Epstein AM, Changes
in Utilization and Health Among Low-Income Adults after Medicaid Expansion or Expanded Private Insurance, JAMA Internal
Medicine, 2016, 176:1501–1509, https://jamanetwork.com/journals/jamainternalmedicine/fullarticle/2542420

16

199
from 22.0 to 17.3 percent of non-elderly adults.17 One
study found that the amount of debt sent to collection
was reduced by over $1,000 per person residing in ZIP
Codes with the highest share of low-income, uninsured individuals in states that expanded Medicaid
compared to those that did not expand the program.18
The law also has reduced income inequality: projected
incomes in the bottom tenth of the distribution will increase by 7.2 percent while those in the top tenth will
be reduced by 0.3 percent.19
10. Most experts agree that the ACA contributed
to slower health care cost growth since its enactment,
although there is disagreement about the size of the
effect. The prices of health care goods and services
grew more slowly in the period from 2010 to 2016 than
in any comparable period since these data began to be
collected in 1959. Adding to this, health care service
use growth per enrollee slowed since 2010. National
health expenditures and projections for 2010 to 2019,

Kapman M and Long SK, 9.4 Million Fewer Families Are Having Problems Paying Medical Bills, Urban Institute Health Policy Center, Health Reform Monitoring Survey, 2015,
http://hrms.urban.org/briefs/9-4-Million-Fewer-Families-AreHaving- Problems-Paying-Medical-Bills.html

17

Hu L, Kaestner R, Mazumder B, Miller S and Wong A, The Effect Of The Patient Protection And Affordable Care Act Medicaid
Expansions On Financial Well-Being, National Bureau of Economic Research, 2016, No. 22170, http://www.nber.org/papers/w22170.pdf

18

Aaron H and Burtless A, Potential Effects of the Affordable
Care Act on Income Inequality, Brookings Report, 2014,
https://www.brookings.edu/research/potential-effects-of-the-affordable-care-act-on-income-inequality/

19

200
as of 2016, were over $2.6 trillion lower than the national health expenditure projections for the same period made in 2010. Additionally, employer-based
health plan premiums and out-of-pocket costs grew
more slowly from 2010 to 2016 than they did from
2000 to 2010. As a result, total spending associated
with a family policy was $4,400 less in 2016 than it
would have been had costs risen as fast as they did
during the previous decade. The coverage expansion
under the law also lowered hospitals’ cost of providing
uncompensated care by $10.4 billion in 2015; in states
that expanded Medicaid, the share of hospital operating costs devoted to uncompensated care dropped by
around half during this period.20
11. The ACA’s contribution to lower health care
cost growth has broader economic effects. It helped
stabilize the share of gross domestic product spent on
health. When the ACA was under consideration, the
Congressional Budget Office (CBO) estimated that the
ACA would reduce the federal budget deficit by an estimated $115 billion from 2010 to 2019 by cutting federal health spending and raising revenue. 21 States
have realized budget savings as well because of increased federal Medicaid support and reduced uncompensated care costs. Because the ACA has lowered the
Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017.
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf.

20

Elmendorf DW, Letter to Honorable Nancy Pelosi, Speaker,
U.S. House of Representatives, Congressional Budget Office,
March 20, 2010, https://www.cbo.gov/sites/default/files/111thcongress-2009-2010/costestimate/amendreconprop.pdf
21

201
cost to employers of health insurance for their employees, workers have received higher wages and other
fringe benefits. The ACA also has reduced “job lock,”
by freeing workers to change jobs without fear of losing health insurance coverage. An estimated 1.5 million people became self-employed because of the ACA’s
individual market reforms and financial assistance.22
Contrary to some critics’ claims, there is no evidence
that the law’s benefits have come at the expense of employment, hours of work, or compensation.23 ACA coverage also improves the U.S. system of automatic
stabilizers by protecting families’ health coverage during economic downturns. Improvement is greatest in
states that expanded Medicaid.
The ACA Expanded Consumer Protections in
All Types of Private Insurance
12. The ACA improved the quality, accessibility,
and affordability of health insurance coverage both for
people who were already insured and for the previously uninsured. Insurers may no longer set higher
premiums for people with pre-existing conditions,
charge women more than men, and carve out benefits

Blumberg LJ, Corlette S and Lucia K, The Affordable Care Act:
Improving Incentives for Entrepreneurship and Self Employment, Timely Analysis of Immediate Health Policy Issues, Urban
Institute,
May
2013,
https://www.urban.org/sites/default/files/publication/23661/412830-The-Affordable-Care-ActImproving-Incentives-for-Entrepreneurship-and-Self-Employment.PDF
22

Abraham J and Royalty AB, How Has the Affordable Care Act
Affected Work and Wages, Leonard Davis Institute of Health
Economics, University of Pennsylvania, Issue Brief, January
2017, https://ldi.upenn.edu/brief/how-has-affordable-care-actaffected-work-and-wages

23

202
for people who need them. They can no longer set annual or lifetime limits on total benefits or rescind coverage except in cases of fraud. Insurers must cover
dependents up to age 26 under their parents’ plans,
include annual out-of-pocket limits, and provide rebates to the insured if total benefits do not exceed statutory shares of premiums received. All nongrandfathered private plans must cover such evidence-based preventive services as immunizations
and cancer screenings, and they must do so with no
cost sharing. Individual and small group plans now
must include essential health benefits: ten categories
of health services with a scope that is the same as a
typical employer plan. The ACA also filled in the gaps
in the Mental Health Parity and Addiction Equity Act,
which requires group health plans and insurers that
offer mental health and substance use disorder benefits to provide coverage that is comparable to coverage
for general medical and surgical care.
13. The ACA’s guarantee of access to health insurance offers peace of mind to the up to 133 million
Americans who have a pre-existing health condition,
including parents of 17 million children with such conditions.24 Before the ACA, those with pre-existing conditions had to worry about finding affordable coverage
if they lost a job that provided health insurance or they
stopped being eligible for programs such as Medicaid
or the Children’s Health Insurance Program (CHIP).
Even if they could find insurance, they faced the risk
that needed services might be “carved-out” for them or
Office of the Assistant Secretary for Planning and Evaluation,
Health Insurance Coverage for Americans with Pre-Existing
Conditions: The Impact of the Affordable Care Act, Issue Brief,
January 2017, https://aspe.hhs.gov/system/files/pdf/255396/PreExistingConditions.pdf

24

203
excluded for all enrollees: before 2014, 62 percent of
individual market enrollees lacked maternity coverage, 34 percent lacked coverage for substance use disorders, 18 percent lacked coverage for mental health
care, and 9 percent lacked prescription drug coverage.25 Before enactment of the ACA, parents of children with autism typically lacked private health
insurance coverage for habilitative services. The ACA
bars benefit carve-outs and requires all individual and
small group market plans to cover essential health
benefits. The ACA’s focus on comprehensive benefits
has been particularly important in combatting the opioid epidemic: it requires coverage of screening and
treatment for substance use disorders, has expanded
parity to all plans, and supports integrating prevention and treatment with mental health, primary care,
and other related services.26
14. The ACA has improved women’s coverage as
well. From 2010 to early 2016, 9.5 million women
gained coverage.27 Starting in 2014, the ACA banned
the common practice of varying insurance rates by sex
Office of the Assistant Secretary for Planning and Evaluation,
Essential Health Benefits: Individual Market Coverage, Issue
Brief, December 2011, https://aspe.hhs.gov/basic-report/essential-health-benefits-individual-market-coverage

25

Abraham AJ, Andrews CM, Grogan CM, D’Aunno T, Humphreys KN, Pollack HA and Friedmann PD, The Affordable Care
Act Transformation of Substance Use Disorder Treatment, American Journal of Public Health, 2017, 107(1):31-32, https://www.
ncbi.nlm.nih.gov/pmc/articles/PMC5308192/

26

Uberoi N, Finegold K and Gee E, Health Insurance Coverage
and the Affordable Care Act, 2010 – 2016, Office of the Assistant
Secretary for Planning and Evaluation Issue Brief, 2016.
https://aspe.hhs.gov/system/files/pdf/187551/ACA2010-2016.pdf

27

204
– a practice that had added an estimated $1 billion a
year to women’s health insurance premiums.28 Health
plans may no longer carve-out maternity care from
plans and must allow women to see their obstetrician
or gynecologist without a referral. All non-grandfathered plans must cover women’s preventive services,
which includes contraceptive services, screening for
interpersonal and domestic violence, and breast-feeding services and supplies. The ACA’s reduction in costsharing for contraceptive services increased women’s
use of these services, including long-term contraception methods.29 The ACA’s bar on sex discrimination
makes it an important civil rights, as well as health
reform, law.
15. The ACA has improved coverage for young
adults. The ACA requires health insurers to extend
dependent coverage to children up to age 26. An estimated 2.3 million young adults (ages 19 to 25) gained
health insurance between 2010 and the end of 2013.
Starting in 2014, millions more gained coverage
through the Health Insurance Marketplaces and other
reforms.30 According to one review, “a wealth of evi-

Garrett D, Greenberger M, Waxman J, Benyo A, Dickerson K,
Gallagher-Robbins K, Moore R and Trumble S, Turning To Fairness: Insurance Discrimination Against Women Today and the
Affordable Care Act, National Women’s Law Center, Report,
March 2012, https://www.nwlc.org/sites/default/files/pdfs/nwlc
_2012_turningtofairness_report.pdf

28

Carlin CS, Fertig AR and Dowd BE, Affordable Care Act’s Mandate Eliminating Contraceptive Cost Sharing Influenced Choices
of Women With Employer Coverage, Health Affairs 35(9), 2016,
https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.2015.1457

29

30

Uberoi N, Finegold K and Gee E, Health Insurance Coverage

205
dence finds that the ACA dependent coverage expansions increased access to care, use of a wide variety of
services, and reduced out-of-pocket spending.” 31 For
example, mental health visits increased by 9.0 percent
and inpatient visits by 3.5 percent for young adults
gaining coverage on their parents’ plans.32
16. The ACA newly required all private health
plans to end the use of annual and lifetime limits and
to include an annual out-of-pocket limit on cost sharing. An estimated 22 million people enrolled in employer coverage are now protected against
catastrophic costs.33 While data collected on personal
bankruptcy does not include causes, filings dropped by
about 50 percent between 2010 and 2016; experts attribute some of this change to the new financial protections offered by the ACA starting in 2010.34
and the Affordable Care Act, 2010 – 2016, Office of the Assistant
Secretary for Planning and Evaluation Issue Brief, 2016.
https://aspe.hhs.gov/system/files/pdf/187551/ACA2010-2016.pdf
Abraham J and Royalty AB, How Has the Affordable Care Act
Affected Work and Wages, Leonard Davis Institute of Health
Economics, University of Pennsylvania, Issue Brief, January
2017, https://ldi.upenn.edu/brief/how-has-affordable-care-actaffected-work-and-wages

31

Akosa Antwi Y, Moriya AS and Simon KI, Access to Health Insurance and the Use of Inpatient Medical Care: Evidence from
the Affordable Care Act Young Adult Mandate, J Health Econ
39:171-187,
2015,
https://www.ncbi.nlm.nih.gov/pubmed/
25544401

32

Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017.
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf

33

34

St. John A, How the Affordable Care Act Drove Down Personal

206
The ACA’s Health Insurance Marketplaces
Have Given Millions Access to Quality Private
Insurance, Often with Financial Assistance
17. The ACA created Health Insurance Marketplaces (Marketplaces), a new way for people not eligible for Medicare or Medicaid to get affordable,
accessible private insurance independent of their jobs.
These Marketplaces offer websites at which people can
compare plans that have four different levels of cost
sharing (bronze, silver, gold, and platinum).35 Financial assistance comes through income-related, premium-based tax credits for qualified individuals with
income between 100 and 400 percent of the federal
poverty level and cost-sharing assistance or “reductions” for qualified individuals with income between
100 and 250 percent of the federal poverty level enrolled in silver plans. The Marketplaces also provide
people with support in navigating the system through
in-person help and call centers. In 2018, 12 states operate their State-based Marketplaces (SBMs) (operating their own websites rather than using the federally
run HealthCare.gov), 28 states rely entirely on the
federal government to run their Marketplaces (use
HealthCare.gov), and 11 states have hybrid Marketplaces (assuming some but not all functions). 36 The

Bankruptcy, Consumer Reports, May 2017, https://www.consumerreports.org/personal-bankruptcy/how-the-aca-drove-down-personal-bankruptcy/
People under age 30 also have access to a plan that only covers
catastrophic costs.
35

Kaiser Family Foundation, State Health Insurance Marketplace Types, 2018, https://www.kff.org/health-reform/stateindicator/state-health-insurance-marketplacetypes/?current

36

207
Marketplaces also offer small businesses a way to find
qualified health plans (called SHOP).
18. Several aspects of the ACA contributed to the
57 percent increase between 2013 and 2016 in the
number of people covered in the individual market (on
and off Marketplaces).37 An estimated 40 to 50 percent
of the coverage gain explained by the ACA resulted
from the Health Insurance Marketplaces’ policies. 38
One key reason for this expansion is financial assistance, primarily in the form of premium tax credits. In
2017, 84 percent of the 10.3 million people enrolled in
Marketplaces received premium tax credits, whose average annualized amount was $4,458 per enrollee.39
The premium tax credit is set to limit the percent of
income an enrollee pays for the second-lowest silver
plan in an area. This method of setting assistance
means that aid varies regionally with health insurance costs. Second, individual market insurance reforms contributed to increased individual market
enrollment. The number of people with pre-existing
Timeframe=0&sortModel=%7B%22colId%22:%22Location%22,%22sort%22:%22asc%22%7D
Kaiser Family Foundation, Health Insurance Coverage of Nonelderly 0-64, 2013 and 2016, https://www.kff.org/other/stateindicator/nonelderly-0-64/?dataView=1&currentTimeframe=3&sort
Model=%7B%22colId%22:%22Location%22,%22sort%22:%22asc
%22%7D
37

38 Frean M, Gruber J and Sommers BD, Premium Subsidies, the
Mandate, and Medicaid Expansion: Coverage Effects of the Affordable Care Act, National Bureau of Economic Research, 53:7286, 2016, http://www.nber.org/papers/w22213

Centers for Medicare & Medicaid Services, 2017 Effectuated
Enrollment Snapshot, June 2017, https://downloads.cms.gov/
files/effectuated-enrollment-snapshot-report-06-12-17.pdf
39

208
conditions covered in the individual market rose by 64
percent between 2010 and 2014.40 Coverage also increased because of the individual mandate, the requirement that people who can afford coverage have
it. How much of this increase in coverage can be traced
to financial incentives, changes in insurance requirements, or the coverage mandate remains a matter of
academic dispute.
19. The ACA set up the Marketplaces to encourage competition among insurers, both the keep premiums low and improve customer service. To that end, it
standardized benefits to facilitate shopping on price,
required that the Marketplaces create tools to allow
consumer to compare plans, and established a permanent risk-adjustment program to prevent insurers
from profiting by disproportionately enrolling people
with lower-than-average health care costs. The unsubsidized cost of coverage in the Marketplaces, before
the start of the Trump Administration, was 10 percent
lower than the average employer-sponsored insurance
premium.41 In the early years after the Marketplaces
opened, some insurers set prices so low that they lost
money in order to gain market share; others did not
Office of the Assistant Secretary for Planning and Evaluation,
Health Insurance Coverage for Americans with Pre-Existing
Conditions: The Impact of the Affordable Care Act, Issue Brief,
January 2017, https://aspe.hhs.gov/system/files/pdf/255396/PreExistingConditions.pdf

40

Blumberg LJ, Holahan J and Wengle E, Are Nongroup Marketplace Premiums Really High? Not in Comparison with Employer Insurance, Urban Institute, Brief, September 2016,
https://www.urban.org/research/publication/are-nongroupmarketplace-premiums-really-high-not-comparison-employer-insurance

41

209
fully understand the risks of their new customers. In
2017, they raised premiums to correct those mistakes.
After the 2017 price corrections, analysis indicated
that premiums would have grown in single digits for
2018 but for the policy changes under the Trump Administration. 42 Premiums have been lower in SBMs
than in HealthCare.gov states, because SBMs manage
their plans more actively than the administration. 43
In 2017, 71 percent of enrollees could buy a health
plan with a cost (net of tax-credit assistance) of less
than $75 per month.44 In 2016, most (70 percent) of
Marketplace enrollees reported no difficulty paying
out-of-pocket costs in the previous year, slightly lower
than enrollees in employer plans (75 percent).45 States
benefited fiscally in two ways: Marketplace financial
Fiedler M, Taking Stock of Insurer Financial Performance in
the Individual Health Insurance Market Through 2017, USCBrookings Schaeffer Initiative for Health Policy, Report, October
2017, https://www.brookings.edu/wpcontent/uploads/2017/10/individualmarketprofitability.pdf

42

Hall MA and McCue MJ, Health Insurance Markets Perform
Better in States That Run Their Own Marketplaces, To the Point,
The Commonwealth Fund, March 2018, http://www.commonwealthfund.org/publications/blog/2018/mar/health-insurancemarkets-states

43

Office of the Assistant Secretary for Planning and Evaluation,
Health Plan Choice and Premiums in the 2018 Federal Health
Insurance
Exchange,
Research
Brief,
October
2017,
https://aspe.hhs.gov/system/files/pdf/258456/Landscape_Master2018_1.pdf

44

Presentation: 2016 Survey of US Health Care Consumers: A
Look at Exchange Consumers, Deloitte Development LLC, 2016,
https://www2.deloitte.com/content/dam/Deloitte/us/Documents/life-sciences-health-care/us-dchs-consumer-survey-hix.pdf

45

210
assistance is fully federally financed and expanded insurance reduces state outlays to offset the cost to providers of uncompensated care.
20. Access and satisfaction as well as affordability
of individual market coverage have improved. According to one survey, in 2010, 60 percent of people seeking
individual market coverage found it very difficult or
impossible to find affordable care; by 2016, that proportion fell to 34 percent.46 A study of people newly enrolled in one plan in California and Colorado found
that the proportion of enrollees with a personal health
care provider rose from 59 to 73 percent, and the proportion receiving a flu shot in the previous year rose
from 41 to 52 percent.47 Satisfaction was roughly the
same among enrollees in Marketplace plans and employer plans in 2016.48 Satisfaction among adults with
Marketplace or Medicaid coverage rose between 2014
(78 percent) and 2017 (89 percent).49
Collins SR, Gunja MZ, Doty MM and Beutel S, How the Affordable Care Act Has Improved Americans; Ability to Buy Health
Insurance on Their Own, The Commonwealth Fund, Issue Brief,
2016,
http://www.commonwealthfund.org/publications/issuebriefs/2017/feb/how-the-aca-has-improved-ability-to-buy-insurance
46

Schmittdiel JA, Barrow JC, Wiley D, Ma L, Sam D, Chau CV
and Shetterly SM, Improvements in Access and Care Through
the Affordable Care Act, American Journal of Managed Care,
23(3):e95-97, 2017, http://www.ajmc.com/journals/issue/2017/
2017-vol23-n3/improvements-in-access-and-care-through-the-affordable-care-act

47

Presentation: 2016 Survey of US Health Care Consumers: A
look at Exchange Consumers, Deloitte Development LLC, 2016,
https://www2.deloitte.com/content/dam/Deloitte/us/Documents/life-sciences-health-care/us-dchs-consumer-survey-hix.pdf

48

49

The Commonwealth Fund, A Majority of Marketplace and

211
The ACA’s Medicaid Provisions Expanded Eligibility, Improved Accessibility and Quality of
Care, and Increased Savings
21. The ACA included a number of changes to
Medicaid. It expanded Medicaid coverage to adults
with income under 138 percent of the federal policy
level (which the Supreme Court ruled was unenforceable as a mandate in 2012, but which 32 states have
now adopted). It expanded minimum coverage standards for children ages 6 to 18, simplified program eligibility rules as well as the enrollment and renewal
process, increased spending on long-term services and
supports, added incentives to encourage quality measurement, and promoted care coordination for dual
Medicare-Medicaid eligible beneficiaries. It made family planning coverage a state option, extended coverage for young adults aging out of foster care, increased
Medicaid drug rebates, and increased efforts to combat fraud. Through the Center for Medicare and Medicaid Innovation (CMMI), the ACA also supported
testing and evaluation of payment reforms to improve
quality and decrease costs. The ACA also extended
funding for CHIP and made policy changes that Congress recently largely incorporated in a ten-year reauthorization of the program.
22. The number of non-elderly people with Medicaid coverage increased by 13 percent between 2013
and 2016,50 largely because 32 states (including the
Medicaid Enrollees Are Getting Health Care They Could Not
Have Afforded Prior to Having Coverage, Affordable Care Act
Tracking Survey, no date, http://acatracking.commonwealthfund.org/
Kaiser Family Foundation, Health Insurance Coverage of Nonelderly 0-64, 2013 and 2016, https://www.kff.org/other/

50

212
District of Columbia) expanded eligibility to low-income adults under the new category created by the
ACA.51 Eligibility rule streamlining and other simplifications, increased outreach efforts, a “spillover” effect from the opening of the Marketplaces, and the
individual mandate appear to have had a coverage effect as well. A recent literature review listed numerous studies documenting reductions in all states of the
proportion of people without insurance. Reductions
have been larger in states that expanded Medicaid
than in those that did not. It also found that the Medicaid expansion improved coverage among young
adults, people with HIV, veterans, rural residents,
and racial and ethnic minorities.52 The law’s Medicaid
expansion’s impact on coverage may have exceeded
that of other ACA policies.53
23. At least 40 studies have found improved access to and use of health care associated with the Medicaid expansion. For example, one study found that,
stateindicator/nonelderly-0-64/?dataView=1&currentTimeframe
=3&sortModel=%7B%22colId%22:%22Location%22,%22sort
%22:%22asc%22%7D
Maine has also scheduled an expansion to begin on July 1,
2018.

51

Antonisse L, Garfield R, Rudowitz R and Artiga S, The Effects
of Medicaid Expansion Under the ACA: Updated Findings From
a Literature Review, Henry J Kaiser Family Foundation, Issue
Brief,
September
2017,
https://www.kff.org/medicaid/issuebrief/the-effects-of-medicaid-expansion-under-the-aca-updated-findings-from-a-literature-review-september-2017/
52

Frean M, Gruber J and Sommers BD, Premium Subsidies, the
Mandate, and Medicaid Expansion: Coverage Effects of the Affordable Care Act, National Bureau of Economic Research, 53:7286, 2016, http://www.nber.org/papers/w22213

53

213
from November 2013 to December 2015, low-income
adults in two expansion states reported a greater increase (12.1 percentage points) in having a personal
physician and a greater reduction (18.2 percentage
points) in cost related barriers to access to care compared to low-income adults in a non-expansion state.54
Medicaid coverage also has increased access to treatment for substance use disorder, including opioid addiction.55 Some critics of the ACA have alleged that
Medicaid expansion caused addiction. What researchers have found is that states that expanded eligibility
tended to have higher rates of addiction before enactment of the ACA but that drug related mortality fell
compared to states that did not expand Medicaid after
enactment.56 Evidence is also building that Medicaid
coverage for low-income adults has helped provide
Sommers BD, Blendon RJ, Orav EJ and Epstein AM, Changes
in Utilization and Health Among Low-Income Adults After Medicaid Expansion or Expanded Private Insurance, JAMA Intern
Med., 176(1):1501-1509, 2016, https://jamanetwork.com/journals/jamainternalmedicine/fullarticle/2542420

54

Clemens-Cope L, Epstein M and Kenney G, Rapid Growth in
Medicaid Spending on Medications to Treat Opioid UseDisorder
and Overdose, The Urban Institute, Report, 2017, http://www.urban.org/sites/default/files/publication/91521/2001386-rapidgrowth-in-medicaid-spending-on-medications-to-treat-opioiduse-disorder-and-overdose_3.pdf Wen H, Hockenberry J, Borders
T and Druss B, Impact of Medicaid Expansion on Medicaid-Covered Utilization of Buprenorphine for Opioid Use Disorder Treatment, Medical Care, 55(4):336-341, 2017, http://journals.lww.
com/lwwmedicalcare/Fulltext/2017/04000/Impact_of_Medicaid_
Expansion_on_Medicaid_covered.5.aspx
55

Goodman-Bacon A and Sandoe E, Did Medicaid Expansion
Cause The Opioid Epidemic? There’s Little Evidence That It Did.,
Health Affairs Blog, August 2017, https://www.healthaffairs.org/do/10.1377/hblog20170823.061640/full/.

56

214
continuity of care for people going in and out of prisons
and may reduce recidivism.57
24. Much of the evidence on improvements to
health stemming from the ACA comes from its Medicaid expansion. One analysis found a 6.1 percent relative reduction in adjusted all-cause mortality in states
that had expanded Medicaid before the ACA.58 In addition, studies have documented improved outcomes
for such services as cardiac surgery associated with
the ACA’s Medicaid policies.59
25. The ACA’s Medicaid expansion has also led to
documented savings to people, states, and the health
system. For example, self-reported medical debt in
Ohio fell by nearly 50 percent after it broadened Medicaid eligibility. 60 An analysis of prescription drug
transaction data found that uninsured people gaining
Regenstein M and Rosenbaum S, What The Affordable Care
Act Means For People With Jail Stays, Health Affairs, 33(3),
2014, https://www.healthaffairs.org/doi/full/10.1377/hlthaff.2013
.1119.

57

Sommers BD, Baicker K and Epstein AM, Mortality and Access
to Care among Adults after State Medicaid Expansions, The New
England Journal of Medicine, 367:(1025-1034), 2012,
http://www.nejm.org/doi/full/10.1056/nejmsa1202099.

58

Charles E, Johnston LE, Herbert MA, Mehaffey JH, Yount
KW, Likosky DS, Theurer PF, Fonner CE, Rich JB, Speir AL, Ailawadi G, Prager RL and Kron IL, Impact of Medicaid Expansion
on Cardiac Surgery Volume and Outcomes, The Annals of Thoracic Surgery, 104:1251-1258, June 2017, http://www.annalsthoracicsurgery.org/article/S0003-4975(17)30552-0/pdf.

59

The Ohio Department of Medicaid, Ohio Medicaid Group VIII
Assessment: A Report to the Ohio General Assembly, January
2017, http://medicaid.ohio.gov/Portals/0/Resources/Reports/Annual/Group-VIII-Assessment.pdf.

60

215
Medicaid coverage due to the expansion experienced a
79 percent reduction in out-of-pocket spending per
prescription.61 State budgets may have also benefited
from receiving federal matching payments for statefunded programs and reductions in payments for uncompensated care; Louisiana, for example, estimated
such savings at $199 million in 2017.62 A recent national study found no significant increase in state
Medicaid spending, nor a decrease in education, transportation, or other state spending, as a result of the
expansion.63 States also have not shown regret about
their decisions to expand Medicaid, as indicated by
reauthorizations of and public statements supporting
the Medicaid expansion, even in Republican-led
states.64 The health system, in particular the hospital
sector, has also gained financially from the Medicaid
expansion. As previously mentioned, not only has uncompensated care decreased to a greater degree in
states that expanded Medicaid as compared to those
Mulcahy AW, Eibner C and Finegold K, Gaining Coverage
through Medicaid Or Private Insurance Increased Prescription
Use And Lowered Out-Of-Pocket Spending, Health Affairs, 35(9),
2016, https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.2016
.0091

61

Louisiana Department of Health, Medicaid Expansion 2016/17,
June 2017, http://dhh.louisiana.gov/assets/HealthyLa/Resources/
MdcdExpnAnnlRprt_2017_WEB.pdf.

62

Sommers B and Gruber J, Federal Funding Insulated State
Budgets From Increased Spending Related To Medicaid Expansion, Health Affairs, 65(5):938-944, 2017, https://www.healthaffairs.org/doi/pdf/10.1377/hlthaff.2016.1666

63

Hall M, Do States Regret Expanding Medicaid? USC-Brookings
Schaeffer
On
Health
Policy,
March,
2018,
https://www.brookings.edu/blog/usc-brookings-schaeffer-onhealth-policy/2018/03/26/do-states-regret-expanding-medicaid/

64

216
that did not; the hospitals that gained the most tended
to be small, rural, for-profit, and non-federal governmental hospitals.65
26. The ACA’s Medicaid provisions indirectly and
directly improved coverage for people with disabilities.
Its expansion directly helped those who did not qualify
under pre-ACA rules, including those awaiting a disability determination. It also authorized a new eligibility pathway for full Medicaid benefits for people who
were previously only eligible for partial Medicaid benefits under home- and community-based care waivers.
The law created new programs such as the Community First Choice Options as well as demonstration
programs to integrate care for people eligible for both
Medicaid and Medicare. Medicaid covers about 6 million low-income seniors and 10 million non-elderly
people with disabilities, with these two groups accounting for nearly two-thirds of overall Medicaid
spending. As of 2016, 17 states had adopted the ACA’s
option for home- and community-based services and 8
were participating in Community First Choice.66

Blavin F, How Has the ACA Changed Finances for Different
Types of Hospitals? Updated Insights from 2015 Cost Report
Data, The Urban Institute, April 2017, https://www.rwjf.org/content/dam/farm/reports/issue_briefs/2017/rwjf436310.

65

Musumeci M and Young K, State Variation in Medicaid Per
Enrollee Spending for Seniors and People with Disabilities,
Henry J Kaiser Family Foundation, Issue Brief, May 2017,
https://www.kff.org/medicaid/issue-brief/state-variation-in-medicaid-perenrollee-spending-for-seniors-and-people-with-disabilities/.
66

217
The ACA’s Medicare Provisions Improved
Benefits, Reduced Overpayments, Supported
Value-Based Purchasing, and Tackled Fraud
and Abuse
27. The ACA modified Medicare to improve its
benefits; promote quality, value-based purchasing,
and alternative payment models; and lower overpayments and fraud in its traditional program and Medicare Advantage. It created CMMI to develop and test
new payment models which, if determined to reduce
spending without harming quality of care (or to improve quality without increasing spending), could be
adopted by Medicare nationwide. It also included specific payment models as alternatives to paying for volume, such as Accountable Care Organizations (ACOs)
and bundled payments that pay per person or episode,
respectively. New quality “star rating” programs were
expanded to inform choices. The law also raised the
Medicare payroll tax for high-income people to support
Medicare’s Hospital Insurance Trust Fund.
28. The ACA included a major focus on preventive
services (described below as well). It created an annual wellness visit in Medicare and eliminated cost
sharing for certain evidence based preventive services.
In 2016, more than 10.3 million Medicare beneficiaries
had an annual wellness visit and 40.1 million used at
least one preventive service with no copay (provisions
included in the ACA). It also included a provision that
would gradually close the coverage gap or “donut hole”
in Medicare’s Part D drug benefit. Before the ACA,
Medicare beneficiaries had no drug coverage after the
standard benefit that ends with $2,830 in total spending and its catastrophic benefit that begins with
$4,550 in out-of-pocket spending (2010 values). Be-

218
cause of changes contained in the ACA, nearly 12 million Medicare beneficiaries received cumulative prescription drug savings from 2010 to 2016 that
averaged $2,272 per person ($1,149 per beneficiary in
2016 alone). 67 Research suggests the policy both reduced out-of-pocket costs and contributed to greater
use of generic drugs.68 Drug savings for Medicare –
and other payers – will also flow from ACA’s new pathway for approval of lower-cost “biosimilar” drugs. A
RAND analysis estimated that this provision could reduce U.S. health spending by $54 billion from 2017 to
2026.69
29. Most of the ACA’s savings come from reducing
Medicare overpayments. The ACA, for the first time,
built permanent productivity adjustments into Medicare payment formulas. The ACA also phased in new
benchmark payment rates and reduced upcoding for
risk in Medicare Advantage (MA). Despite concerns
about an estimated 12 percentage point reduction in
Centers for Medicare & Medicaid Services, Nearly 12 Million
People with Medicare Have Saved over $26 Billion on Prescription Drugs since 2010, Press Release, January 2017,
https://www.cms.gov/Newsroom/MediaReleaseDatabase/
Pressreleases/2017-Press-releases-items/2017-01-13.html

67

Bonakdar Tehrani A and Cunningham PJ, Closing the Medicare Doughnut Hole: Changes in Prescription Drug Utilization
and Out-of-Pocket Spending Among Medicare Beneficiaries With
Part D Coverage After the Affordable Care Act, Medical Care,
55(1):43-49, 2017, https://journals.lww.com/lwwmedicalcare/Abstract/2017/01000/Closing_the_Medicare_Doughnut_Hole__
Changes_in.7.aspx.

68

Mulcahy AW, Hlavka JP and Case SR, Biosimilar Cost Savings
in in the United States, RAND Corporation, Perspectives ,2017,
https://www.rand.org/pubs/perspectives/PE264.html.

69

219
MA rates, MA program enrollment has grown by over
70 percent and premiums have dropped since 2010.70
The ACA also included new tools and resources to combat health care fraud; in 2015, the government recovered $2.4 billion, returning $6.10 for each dollar
invested, and conducted its largest ever nationwide
health care fraud takedown, charging 243 people with
false billing.71
30. The ACA prioritized delivery system reform to
promote more efficient, high-quality care, led by Medicare. As of 2016, nearly 30 percent of payments in
Medicare and major private plans were made through
new payment models, virtually none of which existed
in 2010.72 In 2017, 21 percent of Medicare beneficiaries received care from an ACO or medical home, with
another 33 percent in Medicare Advantage.73 Because
Jacobson G, Damico A, Neuman T and Gold M, Medicare Advantage 2017 Spotlight: Enrollment Market Update, Henry J
Kaiser Family Foundation, Issue Brief, June 2017,
https://www.kff.org/medicare/issue-brief/medicare-advantage2017-spotlightenrollment-market-update/.
70

Department of Justice, Fact Sheet; The Health Care Fraud and
Abuse Control Program Protects Consumers and Taxpayers by
Combating Health Care Fraud, Press Release, February 2016,
https://www.justice.gov/opa/pr/fact-sheet-health-care-fraud-andabuse-control-program-protects-conusmers-and-taxpayers.

71

Health Care Payment Learning & Action Network, Measuring
Progress: Adoption of Alternative Payment Models in Commercial, Medicaid, Medicare Advantage, and Fee-for-Service Medicare Programs, Report, October 2017, https://hcplan.org/groups/
apm-fpt-work-products/apm-report/.

72

Henry J Kaiser Family Foundation, Medicare Delivery System
Reform: The Evidence Link, no date, https://www.kff.org/medicare-delivery-system-reform-the-evidence-link/.

73

220
these innovations are new, few evaluations have been
done. Some demonstrations seem to have been successful. For example, the pioneer ACOs saved Medicare $24 million in 2016, reduced spending by 1 to 2
percent relative to a comparison group in 2013, and
had overall quality composite scores that increased
over time.74 And, research has found that the bundled
payments for lower extremity joint replacement reduced readmissions while cutting average Medicare
per-episode spending by 21 percent if there were no
complications and 14 percent if there were complications.75
31. Medicare is on stronger financial footing because of the ACA. In 2010, CBO estimated that the
ACA would reduce Medicare spending by over $400
billion from 2010 to 2019.76 A study by the U.S. Department of Health and Human Services found Medicare spent $473.1 billion less from 2009 to 2014 than
it would have had the 2000 to 2008 average growth

Henry J Kaiser Family Foundation, Medicare Delivery System
Reform: The Evidence Link, Side-by-Side Comparison: Medicare
Accountable Care Organization (ACO) Model, no date,
https://www.kff.org/interactive/side-by-side-comparisonmedicare-accountable-care-organization-aco-models/.

74

Navathe AS, Troxl AB, Liao JM, Nan N, Zhu J, Zhon W, and
Emanuel EJ, Cost of Joint Replacement Using Bundled Payment
Models,
JAMA
Intern
Med.,
177(2):214-222,
2017,
https://jamanetwork.com/journals/jamainternalmedicine/articleabstract/2594805.
75

Elmendorf DW, Letter to Honorable Nancy Pelosi, Speaker,
U.S. House of Representatives, Congressional Budget Office,
March 20, 2010, https://www.cbo.gov/sites/default/files/111thcongress-2009-2010/costestimate/amendreconprop.pdf
76

221
rate continued. 77 Reduced Medicare spending, combined with increased revenue, contributed to extending the life of Medicare’s Hospital Insurance Trust
Fund by 12 years (to 2029) as compared to its projected
insolvency when the ACA was enacted (2017).78 The
benefits of slower Medicare cost growth accrue to beneficiaries and states as well. In 2016, Medicare premiums and cost sharing for traditional Medicare were
$700 lower per beneficiary compared to what such
spending would have been under 2009 projections.79
States similarly have saved since they pay Medicare
premiums and cost sharing for certain low-income
beneficiaries.
The ACA Strengthened the Public Health System and Made Other Capacity Improvements
32. Key coverage and funding provisions of the
ACA have protected millions of Americans from infectious and chronic diseases through clinical preventive
Chappel A, Sheingold S and Nguyen N, Health Care Spending
Growth And Federal Policy, Office of the Assistant Secretary for
Planning and Evaluation, Issue Brief, March 2016,
https://aspe.hhs.gov/system/files/pdf/190471/SpendingGrowth
.pdf

77

Medicare Trustees Report. Note that 2029 was also the projection in the 2010 report in which the Trustees attributed much of
the improvement to the ACA. For Trustees report, see:
https://www.cms.gov/Research-Statistics-Data-and-Systems/Statistics-Trends-and-Reports/ReportsTrustFunds/index.html.

78

Executive Office of the President Council of Economic Advisors,
2017 Economic Report of the President, Chapter 4 Reforming the
Health Care System, U.S. Government Publishing Office, 2017.
https://obamawhitehouse.archives.gov/sites/default/files/docs/
chapter_4-reforming_health_care_system_2017.pdf

79

222
services, funding for state and local public health services, and investments in healthier communities. It
supports improving health system infrastructure
through policies such as a new Community Health
Center Fund to expand services, a program to build
school-based health clinics, a permanent authorization of the Indian Health Care Improvement Act, and
a set of workforce policies to promote primary care and
increase the number of people trained through the National Health Service Corps. It also encourages integration of behavioral and primary care services
through training programs as well its insurance and
payment policies.
33. The required coverage of clinical preventive
services has resulted in increased use of key preventive services such as blood pressure and cholesterol
screenings and flu vaccinations.80 Insurance coverage
of vaccinations and ACA investments in the Section
317 Immunization Program, totaling almost $768 million for fiscal years 2010 to 2017, have increased protection against vaccine-preventable diseases among
Americans. For example, women were 3.3 times as
likely to have had the HPV vaccine after implementation of the ACA.81Increased coverage of smoking cessation services under Medicaid, newly mandated
Han X, Yabroff KR, Guy GP, Zheng Z and Jemal A, Has Recommended Preventive Service Use Increased after Elimination
of Cost-Sharing as Part of the Affordable Care Act in the United
States? Preventive Medicine, 78:85–91, 2015, http://doi.org/
10.1016/j.ypmed.2015.07.012.

80

Corriero R, Gay JL, Robb SW and Stowe EW, Human Papillomavirus Vaccination Uptake Before and After the Affordable
Care Act: Variation According to Insurance Status, Race, and Education (NHANES 2006-2014), Journal of Pediatric and Adolescent Gynecology, 31(1):23-27, 2017, https://doi.org/10.1016/j.jpag.

81

223
under the ACA, has also been demonstrated both to
reduce state health care costs and to improve health
outcomes. One analysis in Massachusetts found savings of $3.12 in medical costs for every $1 spent on
smoking cessation services.82
34. The Prevention and Public Health Fund
(PPHF), a new funding stream created by the ACA,
has sent over $3.9 billion to states since 2010 ($650
million for fiscal year 2017).83 This fund has supported
key programs, three of which are described below in
paragraphs 35-37.
35. The PPHF funded Tips from Former Smokers,
an advertising campaign to encourage quit attempts.
The Centers for Disease Control and Prevention estimated that it led 500,000 people to quit smoking for
good in the first five years of the campaign, with an
estimated cost of $2,000 for every life saved from a
smoking death. 84 In addition, states have received

2017.07.002.
Richard P, West K and Ku L, The Return on Investment of a
Medicaid Tobacco Cessation Program in Massachusetts,
PLoSONE, 7(1): e29665, 2012. https://doi.org/10.1371/journal.
pone.0029665.https://doi.org/10.1371/journal.pone.0029665

82

83 Trust for America’s Health, Updated Prevention and Public
Health Fund (PPHF) State Funding Data (FY10-FY17), March
2018, http://healthyamericans.org/health-issues/news/updatedprevention-and-public-health-fund-pphf-state-funding-datafy10-fy17/

Centers for Disease Control and Prevention, Tips Impact and
Results, no date, https://www.cdc.gov/tobacco/campaign/tips/
about/impact/campaign-impact-results.html?s_cid=OSH_tips_
D9391.

84

224
PPHF grants for their smoking cessation programs,
totaling over $133 million since 2010.
36. The PPHF investment, including nearly $17
million in fiscal year 2017, permitted expansion of the
Diabetes Prevention Program (DPP), a communitybased lifestyle change program. This program has
been shown to prevent progression to diabetes among
many of those with prediabetes, resulting in savings
and improved health outcomes. In testing by CMMI,
DPP saved Medicare an estimated $2,650 for each person enrolled in DPP over a 15-month period. 85 The
Medicare Diabetes Prevention Program (MDPP) is
now available to all eligible beneficiaries.
37. PPHF has been critical in expanding and sustaining the capacity of state and local health departments to meet the needs of their communities, in
particular through annual funding of the Preventive
Health and Health Services Block Grant ($160 million
a year) and Epidemiology and Laboratory Grants ($40
million a year). The two grants combined have put
over $1.1 billion into communities in fiscal years 2010
through 2017.
38. The ACA invested $1.5 billion in the Maternal,
Infant, and Early Childhood Home Visiting Grants to
support state-level expansion of the Nurse-Family
Partnership. This program has had a dramatic impact
on medical care, child welfare, special education, and
criminal justice system involvement by the families
Centers for Medicare & Medicaid Services, Medicare Diabetes
Prevention Program (MDPP) Expanded Model, no date,
https://innovation.cms.gov/initiatives/medicare-diabetes-prevention-program/.

85

225
served by the program, with a savings to government
programs of 1.9 times the cost.86
39. There is growing evidence that pediatric
asthma, diabetes, heart disease and other chronic conditions are linked with social and economic factors or
conditions where people live, grow, and work. 87
Through both the PPHF and CMMI, the ACA has supported investments in the multi-sector partnerships
that can address the health-related social needs of
people served by our health system. CMMI is supporting a $157 million initiative, Accountable Health Communities (AHC), in 23 states across the country as well
as accountable communities for health models
through the State Innovation Models grants in 10
states.88 Through various community prevention programs supported by the PPHF’s over $1 billion investment from 2010 to 2017, every state has received
support to build stronger partnerships across sectors
that will improve the health of communities.

Miller, TR, Projected Outcomes of Nurse-Family Partnership
Home Visitation during 1996-2013, USA., Prevention Science,
16(6):765-777, 2015, https://www.ncbi.nlm.nih.gov/pubmed/
26076883.

86

Magnan, S, Social Determinants of Health 101 for Health Care:
Five Plus Five. NAM Perspectives. National Academy of Medicine, 2017, https://nam.edu/social-determinants-of-health-101for-health-care-five-plus-five.
87

Centers for Medicare & Medicaid Services, CMS’ Accountable
Health Communities Model Selects 32 Participants to Serve as
Local ‘Hubs’ Linking Clinical and Community Services, Press Release, April 2017, https://www.cms.gov/Newsroom/MediaReleaseDatabase/Press-releases/2017-Press-releases-items/201704-06.html.

88

226
40. ACA investments have also expanded the
health care workforce in every state. More primary
care providers are now working in teams to address
complex care needs of populations. The increases are
due in large part to the expansion of primary care
training programs for physicians, physician assistants, and nurse practitioners funded through the
PPHF, which added approximately 4,500 providers.89
There was also the expansion of residency training
programs under the ACA, such as the Teaching
Health Centers program, that added approximately
1,555 primary care physicians working in shortage areas. Through a $1.5 billion investment in the National
Health Service Corps, the number of people served by
Corps clinicians rose from 9 million in 2010 to 15.9
million in 2016. The ACA investment increased its
number of health care providers from 7,358 to 15,159,
including physicians, nurses, dentists, and behavior
health providers serving in over 14,000 shortage area
sites. Corps clinicians had an 80 percent retention rate
after one year of completed service requirements.
41. The ACA invested in health care facilities as
well as workers. Its Community Health Center Fund
has been used, among other activities, for facility improvement, expanded access points, and expanded service capacity. 90 This Fund, plus the expansion of
Medicaid, contributed to growth in the number of patients served from 19.5 million in 2010 to 25.9 million
Health Resources and Services Administration, FY 2016 Annual Performance Report, 2016, https://www.hrsa.gov/sites/default/files/about/budget/peformancereport2016.pdf.

89

Congressional Research Service Reports, The Community
Health Center Fund: In Brief, 2017, https://www.everycrsreport.com/reports/R43911.html.

90

227
in 2016.91 It supported construction and renovation of
school-based health clinics, providing about 520
awards. 92 The ACA also authorized new programs
within the Indian Health Service, including behavior
health programs, and expanded subsidies in Medicaid
and the Marketplaces for American Indians and Native Americans.93
Enjoining the ACA Would Cause Widespread
Harm in All States for the Vast Majority of
Americans
42. As this review of the impact of the ACA illustrates, enjoining the ACA would cause grievous immediate and long-term harm to Americans’ health and
financial security, to the health system, and to federal
and state budgets. The law’s provisions are so interwoven in the health system that the harms from an
injunction would go far beyond negating the benefits
directly traceable to the ACA. Some ACA policies could
Rosenbaum S, Tolbert J, Sharac J, Shin P, Gunsalus R and Zur
J, Community Health Centers: Growing Importance in a Changing Health System, Henry J Kaiser Family Foundation, Issue
Brief, March 2018, http://files.kff.org/attachment/Issue-BriefCommunity-Health-Centers-Growing-Importance-in-a-Changing-Health-Care-System

91

Pilkey D, Skopec L, Gee E, Finegold K, Amaya K and Robinson
W, The Affordable Care Act and Adolescents, Office of the Assistant Secretary for Planning and Evaluation, Research Brief, August
2013,
https://aspe.hhs.gov/system/files/pdf/180281/rb_
adolescent.pdf
92

Ross RW, Garfield LD, Brown DS and Raghavan R, The Affordable Care Act and Implications for Health Care Services for
American Indian and Alaska Native Individuals, J Health Care
Poor Underserved, 26(4):1081-1088, 2015, https://www.ncbi.
nlm.nih.gov/pmc/articles/PMC4824684/.
93

228
not simply fall back to what they were almost a decade
ago. For example, Medicare probably could not make
payments to Medicare Advantage plans pursuant to
an injunction since the ACA replaced the previous
payment system; 19 million beneficiaries could lose
their plans and publicly traded insurers’ stocks could
plummet. Some programs that pre-dated the ACA
would cease to function under an injunction. For example, the ACA’s PPHF is now the only source of support for the long-standing Preventive and Public
Health Services Block Grant. This grant supports critical services, including lab capacity to test for outbreaks of flu or virus-borne diseases such as Zika,
responses to emerging public health threats such as
the opioid epidemic, and chronic health threats such
as damage to children through exposure to lead.94 Beyond the heightened threat to public health, states’
credit ratings could fall due to their increased financial exposure from such funding cuts along with the
loss of federal Medicaid funding.95
43. CBO acknowledged these and other challenges when it estimated the implications of the full
repeal of the ACA in 2015. It projected that repealing
the ACA would increase the federal budget deficit by
Clary A, Rosenthal J, Riley T, The Prevention and Public
Health Fund – Lessons from States; Questions for Policymakers,
National Academy for State Health Policy, State Health Policy
Blog, March 2017, https://nashp.org/the-prevention-and-publichealth-fund-lessons-from-states-questions-for-policymakers/

94

Schneider A, Fitch Report: Proposed Medicaid Cuts Could Impact States’ Credit Ratings, Georgetown University Health Policy Institute, Center for Children and Families, Say Ahhh! Blog,
June 2017, https://ccf.georgetown.edu/2017/06/28/fitchreportmedicaid-cuts-will-impact-states-schools-and-more/

95

229
$353 billion over ten years, not taking into account
macroeconomic feedback. Medicare spending would
increase by $802 billion over this period, raising seniors’ premiums and hastening Medicare Trust Fund
insolvency. CBO projected that 24 million people
would become uninsured.96
44. CBO prepared similar estimates in 2016 and
early 2017 when legislation to repeal parts of the ACA
(without a replacement) was under consideration. The
Urban Institute found that partial repeal would increase in the number of uninsured by 29.8 million, of
whom 82 percent would be in working families and 38
percent would be young adults. This dramatic increase
in the number of uninsured would increase the cost of
uncompensated care by an estimated $1.1 trillion over
a decade, which would put significant budget stress on
state and local governments as well as the health system.97 An analysis funded by the American Hospital
Association estimated that income of hospitals would
be reduced by $165.8 billion from 2018 to 2026.98

Congressional Budget Office, Budgetary and Economic Effects
of Repealing the Affordable Care Act, June 2015,
https://www.cbo.gov/sites/default/files/114th-congress-20152016/reports/50252-effectsofacarepeal.pdf

96

97 Blumberg LK, Buettgens M and Holahan J, Implications of
Partial Repeal of the ACA through Reconciliation, Urban Institute, Report, December 2016, https://www.urban.org/sites/default/files/publication/86236/2001013-the-implications-of-partial
-repealof-the-aca-through-reconciliation_1.pdf

Dobson DaVanzo & Associates, LLC, Estimating the Impact of
Repealing the Affordable Care Act on Hospitals, 2016, American
Hospital Association, Report, 2016, https://www.aha.org/system/files/2018-02/impact-repeal-aca-report_0.pdf

98

230
45. No analysis has systematically examined the
immediate implications of an injunction of the entire
law. It is not clear how Medicare would continue to
make payments if the basis for those payment rates is
nullified, whether states would get federal funding in
the next quarter for service and eligibility categories
authorized by the ACA, and if insurers no longer receiving premium tax credits could immediately revert
to medical underwriting. Workers in programs funded
by the ACA, such as CMMI programs, may become immediately unemployed. Drug discounts provided to
seniors with Medicare coverage could immediate
cease. People with disabilities whose care is funded by
Community First Choice could immediately lose access to care without state intervention. These few examples illustrate that enjoining the entire ACA would
create both chaos and inflict harm.
State-Specific Impacts
46. Enjoining the ACA would harm the health system, public health, and budgets of states across the
country. If people cannot access health coverage, more
people will become uninsured, uncompensated care
costs for states will increase, and states will be pressured to fill the void left from the ACA. The estimates
described below come from four sources: (1) state fact
sheets from the Department of Health and Human
Services;99 (2) Urban Institute estimates of the impact
of a repeal of the ACA’s funding-related provisions;100
Office of the Assistant Secretary of Planning and Evaluation,
Compilation of State Data on the Affordable Care Act, December
2016,
https://aspe.hhs.gov/compilation-state-data-affordablecare-act. Note that some estimates are not available for all states
due to small sample size.

99

100

Blumberg LK, Buettgens M and Holahan J, Implications of

231
(3) the Trust for America’s Health;101 and (4) the Centers for Medicare and Medicaid Services. 102 While
some of these numbers come from older or national
versus state-specific studies, they are consistent in
magnitude and direction with the likely impact of an
injunction.
California
47. Between 2010 and 2015, an estimated
3,826,000 people in California gained coverage. This
includes a large fraction of the people covered in the
California Health Insurance Marketplace (called Covered California), an estimated 294,000 young adults
who gained coverage by staying on their parents’
health insurance, and those gaining coverage from the
Partial Repeal of the ACA through Reconciliation, Urban Institute, Report, December 2016, https://www.urban.org/sites/default/files/publication/86236/2001013-the-implications-ofpartialrepeal-of-the-aca-through-reconciliation_1.pdf. Buettgens M,
Blumberg LJ, Holahan J, The Impact on Health Care Providers
of Partial ACA Repeal Through Reconciliation, Urban Institute,
Report,
January
2017,
https://www.urban.org/sites/default/files/publication/86916/2001046-the-impact-onhealth-careproviders-of-partial-aca-repeal-through-reconciliation_1.pdf.
Trust for America’s Health, Updated Prevention and Public
Health Fund (PPHF) State Funding Data (FY10-FY17), March
2018, http://healthyamericans.org/health-issues/news/updatedprevention-and-public-health-fund-pphf-state-funding-datafy10-fy17/
101

Centers for Medicare & Medicaid Services, 2017 Effectuated
Enrollment Snapshot, June 2017, https://downloads.cms.gov/
files/effectuated-enrollment-snapshot-report-06-12-17.pdf; Centers for Medicare & Medicaid Services, Nearly 12 Million People
with Medicare Have Saved over $26 Billion on Prescription
Drugs
since
2010,
Press
Release,
January
2017,
https://www.cms.gov/Newsroom/MediaReleaseDatabase/Pressreleases/2017-Press-releases-items/2017-01-13.html.

102

232
law’s Medicaid (called Medi-Cal) expansion and employer shared responsibility policy. This coverage
would be at risk if the ACA were enjoined.
48. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 16,133,192 people
in California have a pre-existing condition and would
be at risk for being charged unaffordable premiums or
denied coverage altogether without the ACA. Before
the ACA, 12,092,000 people in California with employer or individual market coverage had a lifetime
limit on their insurance policy: annual and lifetime
limits would return under an injunction to the ACA.
An estimated 15,867,909 people in California, including 6,324,503 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
49. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 1,389,886 people in California covered in the Health Insurance Marketplace would lose
coverage without the ACA. In 2017, 85 percent of Marketplace enrollees in California received a premium
tax credit that averaged $4,150 per person. That financial assistance would no longer be available under
an injunction.

233
50. Impact on Medicaid: Without the ACA, an estimated 1,188,000 fewer people in California would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated
136,000 more getting all needed care, 169,000 fewer
struggling to pay medical bills, 109,000 fewer experiencing symptoms of depression, and 1,430 avoided
deaths each year in California. Enjoining the law
would put these benefits at risk, along with improvements to long-term services and supports, eligibility
simplifications, and policies to lower drug costs and
improve the quality of care in Medicaid. This could, for
example, mean that people with disabilities in California’s Community First Choice program could lose access to services.
51. Impact on Medicare: The 5,829,777 people
with Medicare in California would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 403,631 people in California with $1,169 in average annual savings per beneficiary in 2016, would end. It would roll back the
coverage of proven preventive services with no cost
sharing which 3,879,678 people with Medicare in California used in 2016. It would suspend payment policies which would increase premiums, cost sharing,
and well as taxpayer costs in California. It would also
disrupt programs to reduce preventable patient harms
and avoidable readmissions. Hospital readmissions
for Medicare beneficiaries dropped between 2010 and
2015, which translates into 5,580 fewer unnecessary
returns to the hospital in California in 2015. The 29
Accountable Care Organizations (ACOs) in California
that offer Medicare beneficiaries the opportunity to receive higher quality, more coordinated care would no
longer operate under an injunction.

234
52. Impact on Public Health: Support for public
health in California would also be reduced under an
injunction. California received $317,998,658 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $61,653,559 for
immunizations and $15,110,953 for tobacco cessation
efforts.
53. Impact on Finances: The financial impact
on California would be significant. From 2019 to 2028,
it would lose $61.1 billion in federal Marketplace
spending and $99.1 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $160.2 billion. This would have a major impact on health care providers. From 2019 to
2028, California hospitals could lose $64.1 billion and
physicians could lose $24.7 billion. Uncompensated
care costs in California would increase by $140.1 billion over this period.
Connecticut
54. Between 2010 and 2015, an estimated 110,000
people in Connecticut gained coverage. This includes
a large fraction of the people covered in the Connecticut Health Insurance Marketplace (called AccessHealthCT), an estimated 25,000 young adults who
gained coverage by staying on their parents’ health insurance, and those gaining coverage from the law’s
Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if the ACA
were enjoined.
55. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 1,554,628 people
in Connecticut have a pre-existing condition and

235
would be at risk for being charged unaffordable premiums or denied coverage altogether without the ACA.
Before the ACA, 1,386,000 people in Connecticut with
employer or individual market coverage had a lifetime
limit on their insurance policy: annual and lifetime
limits would return under an injunction to the ACA.
An estimated 1,819,938 people in Connecticut, including 746,444 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
56. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 98,260 people in Connecticut covered in the Health Insurance Marketplace would lose
coverage without the ACA. In 2017, 77 percent of Marketplace enrollees in Connecticut received a premium
tax credit that averaged $5,312 per person. That financial assistance would no longer be available under
an injunction.
57. Impact on Medicaid: Without the ACA, an
estimated 72,000 fewer people in Connecticut would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated 8,000
more getting all needed care, 10,200 fewer struggling
to pay medical bills, 7,000 fewer experiencing symptoms of depression, and 90 avoided deaths each year
in Connecticut. Enjoining the law would put these

236
benefits at risk, along with improvements to long-term
services and supports, eligibility simplifications, and
policies to lower drug costs and improve the quality of
care in Medicaid. This could, for example, mean that
people with disabilities in Connecticut’s Community
First Choice program could lose access to services.
58. Impact on Medicare: The 644,136 people
with Medicare in Connecticut would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 65,248 people in Connecticut with $1,268 in average annual savings per beneficiary in 2016, would end. It would roll back the
coverage of proven preventive services with no cost
sharing which 473,312 people with Medicare in Connecticut used in 2016. It would suspend payment policies which would increase premiums, cost sharing,
and well as taxpayer costs in Connecticut. It would
also disrupt programs to reduce preventable patient
harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010
and 2015, which translates into 1,306 fewer unnecessary returns to the hospital in Connecticut in 2015.
The 12 Accountable Care Organizations (ACOs) in
Connecticut that offer Medicare beneficiaries the opportunity to receive higher quality, more coordinated
care would no longer operate under an injunction.
59. Impact on Public Health: Support for public
health in Connecticut would also be reduced under an
injunction. Connecticut received $86,545,015 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $10,382,997 for
immunizations and $971,964 for tobacco cessation efforts.
60. Impact on Finances: The financial impact
on Connecticut would be significant. From 2019 to

237
2028, it would lose $4.3 billion in federal Marketplace
spending and $10.5 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $14.8 billion. This would have a major
impact on health care providers. From 2019 to 2028,
Connecticut hospitals could lose $6.0 billion and physicians could lose $2.4 billion. Uncompensated care
costs in Connecticut would increase by $14.9 billion
over this period.
Delaware
61. Between 2010 and 2015, an estimated 35,000
people in Delaware gained coverage. This includes a
large fraction of the people covered in the Delaware
Health Insurance Marketplace, an estimated 7,000
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.
62. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 383,607 people in
Delaware have a pre-existing condition and would be
at risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 320,000 people in Delaware with employer or individual market coverage had a lifetime limit on their
insurance policy: annual and lifetime limits would return under an injunction to the ACA. An estimated
417,265 people in Delaware, including 171,575 women
ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer screenings, and
contraception – which are now provided at no extra
cost to consumers. These are just a few of the ACA’s

238
consumer protections that could be lost if this court allows the ACA to be enjoined.
63. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 24,171 people in Delaware covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 83 percent of Marketplace enrollees in Delaware received a premium tax
credit that averaged $5,010 per person. That financial
assistance would no longer be available under an injunction.
64. Impact on Medicaid: Without the ACA, an
estimated 6,000 fewer people in Delaware would have
Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and health.
For example, it resulted in an estimated 1,000 more
getting all needed care, 900 fewer struggling to pay
medical bills, 1,000 fewer experiencing symptoms of
depression, and 10 avoided deaths each year in Delaware. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.
65. Impact on Medicare: The 186,835 people
with Medicare in Delaware would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 23,485 people in Delaware
with $1,292 in average annual savings per beneficiary
in 2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which

239
149,051 people with Medicare in Delaware used in
2016. It would suspend payment policies which would
increase premiums, cost sharing, and well as taxpayer
costs in Delaware. It would also disrupt programs to
reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010 and 2015, which
translates into 575 fewer unnecessary returns to the
hospital in Delaware in 2015. The 7 Accountable Care
Organizations (ACOs) in Delaware that offer Medicare
beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
66. Impact on Public Health: Support for public
health in Delaware would also be reduced under an
injunction. Delaware received $34,384,937 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $5,146,859 for
immunizations and $314,964 for tobacco cessation efforts.
67. Impact on Finances: The financial impact
on Delaware would be significant. From 2019 to 2028,
it would lose $900 million in federal Marketplace
spending and $2.7 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $3.6 billion. This would have a major
impact on health care providers. From 2019 to 2028,
Delaware hospitals could lose $1.5 billion and physicians could lose $500 million. Uncompensated care
costs in Delaware would increase by $2.8 billion over
this period.
District of Columbia
68. Between 2010 and 2015, an estimated 25,000
people in the District of Columbia gained coverage.

240
This includes a large fraction of the people covered in
the District of Columbia Health Insurance Marketplace (called DC Health Link), an estimated 6,000
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.
69. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 268,134 people in
the District of Columbia have a pre-existing condition
and would be at risk for being charged unaffordable
premiums or denied coverage altogether without the
ACA. Before the ACA, 208,000 people in the District
of Columbia with employer or individual market coverage had a lifetime limit on their insurance policy:
annual and lifetime limits would return under an injunction to the ACA. An estimated 281,235 people in
the District of Columbia including 127,531 women
ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer screenings, and
contraception – which are now provided at no extra
cost to consumers. These are just a few of the ACA’s
consumer protections that could be lost if this court allows the ACA to be enjoined.
70. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 18,038 people in the District of Columbia covered in the Health Insurance Marketplace

241
would lose coverage without the ACA. In 2017, 4 percent of Marketplace enrollees in the District of Columbia received a premium tax credit that averaged
$2,967 per person. That financial assistance would no
longer be available under an injunction.
71. Impact on Medicaid: Without the ACA, an
estimated 16,000 fewer people in the District of Columbia would have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial
security, and health. For example, it resulted in an estimated 2,000 more getting all needed care, 2,300
fewer struggling to pay medical bills, 1,000 fewer experiencing symptoms of depression, and 20 avoided
deaths each year in the District of Columbia. Enjoining the law would put these benefits at risk, along with
improvements to long-term services and supports, eligibility simplifications, and policies to lower drug costs
and improve the quality of care in Medicaid.
72. Impact on Medicare: The 90,492 people
with Medicare in the District of Columbia would also
lose benefits and pay more under an injunction. Prescription drug discounts, which provided 3,360 people
in the District of Columbia with $1,181 in average annual savings per beneficiary in 2016, would end. It
would roll back the coverage of proven preventive services with no cost sharing which 54,535 people with
Medicare in the District of Columbia used in 2016. It
would suspend payment policies which would increase
premiums, cost sharing, and well as taxpayer costs in
the District of Columbia. It would also disrupt programs to reduce preventable patient harms and avoidable readmissions. Hospital readmissions for
Medicare beneficiaries dropped between 2010 and
2015, which translates into 346 fewer unnecessary returns to the hospital in the District of Columbia in

242
2015. The 8 Accountable Care Organizations (ACOs)
in the District of Columbia that offer Medicare beneficiaries the opportunity to receive higher quality, more
coordinated care would no longer operate under an injunction.
73. Impact on Public Health: Support for public
health in the District of Columbia would also be reduced under an injunction. The District of Columbia
received $79,091,220 from the law’s Prevention and
Public Health Fund between fiscal years 2012 and
2016. This includes $9,212,443 for immunizations and
$2,144,515 for tobacco cessation efforts.
74. Impact on Finances: The financial impact
on the District of Columbia would be significant. From
2019 to 2028, it would lose about $100 million in federal Marketplace spending and $1.7 billion in federal
Medicaid spending. The combined loss of federal
spending over this period would be about $1.7 billion.
This would have a major impact on health care providers. From 2019 to 2028, District of Columbia hospitals
could lose $700 million and physicians could lose $200
million. Uncompensated care costs in the District of
Columbia would increase by $1.7 billion over this period.
Hawaii
75. Between 2010 and 2015, an estimated 54,000
people in Hawaii gained coverage. This includes a
large fraction of the people covered in the Hawaii
Health Insurance Marketplace, an estimated 9,000
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.

243
76. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 560,494 people in
Hawaii have a pre-existing condition and would be at
risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 462,000 people in Hawaii with employer or individual market coverage had a lifetime limit on their
insurance policy: annual and lifetime limits would return under an injunction to the ACA. An estimated
631,152 people in Hawaii, including 256,448 women
ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer screenings, and
contraception – which are now provided at no extra
cost to consumers. These are just a few of the ACA’s
consumer protections that could be lost if this court allows the ACA to be enjoined.
77. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 16,711 people in Hawaii covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 82 percent of Marketplace enrollees in Hawaii received a premium tax
credit that averaged $4,238 per person. That financial
assistance would no longer be available under an injunction.
78. Impact on Medicaid: Without the ACA, an
estimated 33,000 fewer people in Hawaii would have
Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and health.

244
For example, it resulted in an estimated 4,000 more
getting all needed care, 4,700 fewer struggling to pay
medical bills, 3,000 fewer experiencing symptoms of
depression, and 40 avoided deaths each year in Hawaii. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.
79. Impact on Medicare: The 252,514 people
with Medicare in Hawaii would also lose benefits and
pay more under an injunction. Prescription drug discounts, which provided 22,212 people in Hawaii with
$1,361 in average annual savings per beneficiary in
2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which
158,239 people with Medicare in Hawaii used in 2016.
It would suspend payment policies which would increase premiums, cost sharing, and well as taxpayer
costs in Hawaii. It would also disrupt programs to reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare
beneficiaries dropped between 2010 and 2015, which
translates into 315 fewer unnecessary returns to the
hospital in Hawaii in 2015.
80. Impact on Public Health: Support for public
health in Hawaii would also be reduced under an injunction. Hawaii received $30,145,284 from the law’s
Prevention and Public Health Fund between fiscal
years 2012 and 2016. This includes $3,914,688 for immunizations and $227,370 for tobacco cessation efforts.
81. Impact on Finances: The financial impact
on Hawaii would be significant. From 2019 to 2028, it

245
would lose $500 million in federal Marketplace spending and $3.7 billion in federal Medicaid spending. The
combined loss of federal spending over this period
would be $4.3 billion. This would have a major impact
on health care providers. From 2019 to 2028, Hawaii
hospitals could lose $2.6 billion and physicians could
lose $800 million. Uncompensated care costs in Hawaii would increase by $2.8 billion over this period.
Illinois
82. Between 2010 and 2015, an estimated 850,000
people in Illinois gained coverage. This includes a
large fraction of the people covered in the Illinois
Health Insurance Marketplace, an estimated 91,000
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.
83. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 5,635,622 people
in Illinois have a pre-existing condition and would be
at risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 4,670,000 people in Illinois with employer or individual market coverage had a lifetime limit on their
insurance policy: annual and lifetime limits would return under an injunction to the ACA. An estimated
5,883,105 people in Illinois, including 2,380,326
women ages 15–64, would lose federally guaranteed of
preventive services — like flu shots, cancer screenings, and contraception – which are now provided at
no extra cost to consumers. These are just a few of the

246
ACA’s consumer protections that could be lost if this
court allows the ACA to be enjoined.
84. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 314,038 people in Illinois covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 81 percent of Marketplace enrollees in Illinois received a premium tax
credit that averaged $4,372 per person. That financial
assistance would no longer be available under an injunction.
85. Impact on Medicaid: Without the ACA, an
estimated 340,000 fewer people in Illinois would have
Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and health.
For example, it resulted in an estimated 39,000 more
getting all needed care, 48,400 fewer struggling to pay
medical bills, 31,000 fewer experiencing symptoms of
depression, and 410 avoided deaths each year in Illinois. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.
86. Impact on Medicare: The 2,118,300 people
with Medicare in Illinois would also lose benefits and
pay more under an injunction. Prescription drug discounts, which provided 187,357 people in Illinois with
$1,133 in average annual savings per beneficiary in
2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which

247
1,546,769 people with Medicare in Illinois used in
2016. It would suspend payment policies which would
increase premiums, cost sharing, and well as taxpayer
costs in Illinois. It would also disrupt programs to reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare
beneficiaries dropped between 2010 and 2015, which
translates into 8,108 fewer unnecessary returns to the
hospital in Illinois in 2015. The 29 Accountable Care
Organizations (ACOs) in Illinois that offer Medicare
beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
87. Impact on Public Health: Support for public
health in Illinois would also be reduced under an injunction. Illinois received $115,192,088 from the law’s
Prevention and Public Health Fund between fiscal
years 2012 and 2016. This includes $28,383,246 for
immunizations and $5,106,535 for tobacco cessation
efforts.
88. Impact on Finances: The financial impact
on Illinois would be significant. From 2019 to 2028, it
would lose $12.5 billion in federal Marketplace spending and $37.4 billion in federal Medicaid spending.
The combined loss of federal spending over this period
would be $49.9 billion. This would have a major impact on health care providers. From 2019 to 2028, Illinois hospitals could lose $24.6 billion and physicians
could lose $8.0 billion. Uncompensated care costs in Illinois would increase by $54.5 billion over this period.
Kentucky
89. Between 2010 and 2015, an estimated 404,000
people in Kentucky gained coverage. This includes a
large fraction of the people covered in the Kentucky

248
Health Insurance Marketplace, an estimated 31,000
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.
90. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 1,894,874 people
in Kentucky have a pre-existing condition and would
be at risk for being charged unaffordable premiums or
denied coverage altogether without the ACA. Before
the ACA, 1,414,000 people in Kentucky with employer
or individual market coverage had a lifetime limit on
their insurance policy: annual and lifetime limits
would return under an injunction to the ACA. An estimated 1,884,719 people in Kentucky, including
762,897 women ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer
screenings, and contraception – which are now provided at no extra cost to consumers. These are just a
few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
91. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 71,585 people in Kentucky covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 78 percent of Marketplace enrollees in Kentucky received a premium tax
credit that averaged $3,519 per person. That financial

249
assistance would no longer be available under an injunction.
92. Impact on Medicaid: Without the ACA, an
estimated 151,000 fewer people in Kentucky would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated
17,000 more getting all needed care, 21,500 fewer
struggling to pay medical bills, 14,000 fewer experiencing symptoms of depression, and 180 avoided
deaths each year in Kentucky. Enjoining the law
would put these benefits at risk, along with improvements to long-term services and supports, eligibility
simplifications, and policies to lower drug costs and
improve the quality of care in Medicaid.
93. Impact on Medicare: The 881,938 people
with Medicare in Kentucky would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 83,989 people in Kentucky
with $1,194 in average annual savings per beneficiary
in 2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which
634,656 people with Medicare in Kentucky used in
2016. It would suspend payment policies which would
increase premiums, cost sharing, and well as taxpayer
costs in Kentucky. It would also disrupt programs to
reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010 and 2015, which
translates into 2,384 fewer unnecessary returns to the
hospital in Kentucky in 2015. The 22 Accountable
Care Organizations (ACOs) in Kentucky that offer
Medicare beneficiaries the opportunity to receive
higher quality, more coordinated care would no longer
operate under an injunction.

250
94. Impact on Public Health: Support for public
health in Kentucky would also be reduced under an
injunction. Kentucky received $36,712,458 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $11,025,151 for
immunizations and $2,112,229 for tobacco cessation
efforts.
95. Impact on Finances: The financial impact
on Kentucky would be significant. From 2019 to 2028,
it would lose $2.9 billion in federal Marketplace spending and $46.8 billion in federal Medicaid spending.
The combined loss of federal spending over this period
would be $49.7 billion. This would have a major impact on health care providers. From 2019 to 2028,
Kentucky hospitals could lose $23.1 billion and physicians could lose $6.9 billion. Uncompensated care
costs in Kentucky would increase by $15.6 billion over
this period.
Massachusetts
96. Between 2010 and 2015, an estimated 107,000
people in Massachusetts gained coverage. This includes a large fraction of the people covered in the
Massachusetts Health Insurance Marketplace (called
the Massachusetts Health Connector), an estimated
52,000 young adults who gained coverage by staying
on their parents’ health insurance, and those gaining
coverage from the law’s Medicaid expansion and employer shared responsibility policy. This coverage
would be at risk if the ACA were enjoined.
97. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 2,931,068 people
in Massachusetts have a pre-existing condition and

251
would be at risk for being charged unaffordable premiums without the ACA. Before the ACA, 2,520,000 people in Massachusetts with employer or individual
market coverage had a lifetime limit on their insurance policy: annual and lifetime limits would return
under an injunction to the ACA. An estimated
3,399,092 people in Massachusetts, including
1,412,394 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
98. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 242,221 people in Massachusetts
covered in the Health Insurance Marketplace would
lose coverage without the ACA. In 2017, 74 percent of
Marketplace enrollees in Massachusetts received a
premium tax credit that averaged $2,135 per person.
That financial assistance would no longer be available
under an injunction.
99. Impact on Medicaid: Without the ACA, an
estimated 2,000 fewer people in Massachusetts would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.

252
100. Impact on Medicare: The 1,252,277 people
with Medicare in Massachusetts would also lose benefits and pay more under an injunction. Prescription
drug discounts, which provided 90,664 people in Massachusetts with $1,194 in average annual savings per
beneficiary in 2016, would end. It would roll back the
coverage of proven preventive services with no cost
sharing which 938,405 people with Medicare in Massachusetts used in 2016. It would suspend payment
policies which would increase premiums, cost sharing,
and well as taxpayer costs in Massachusetts. It would
also disrupt programs to reduce preventable patient
harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010
and 2015, which translates into 2,213 fewer unnecessary returns to the hospital in Massachusetts in 2015.
The 14 Accountable Care Organizations (ACOs) in
Massachusetts that offer Medicare beneficiaries the
opportunity to receive higher quality, more coordinated care would no longer operate under an injunction.
101. Impact on Public Health: Support for public
health in Massachusetts would also be reduced under
an injunction. Massachusetts received $108,021,166
from the law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes
$12,404,884 for immunizations and $2,147,272 for tobacco cessation efforts.
102. Impact on Finances: The financial impact
on Massachusetts would be significant. From 2019 to
2028, it would lose $5.4 billion in federal Marketplace
spending and $17.2 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $22.5 billion. This would have a major
impact on health care providers. From 2019 to 2028,

253
Massachusetts hospitals could lose $6.1 billion and
physicians could lose $2.6 billion. Uncompensated
care costs in Massachusetts would increase by $17.1
billion over this period.
Minnesota
103. Between 2010 and 2015, an estimated 250,000
people in Minnesota gained coverage. This number includes a large fraction of the people covered in the
Minnesota Health Insurance Marketplace (called
MNsure), an estimated 38,000 young adults who
gained coverage by staying on their parents’ health insurance, and those gaining coverage from the law’s
Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if the ACA
were enjoined.
104. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Without the ACA up to
2,318,738 people in Minnesota have a pre-existing
condition and would be at risk for being charged unaffordable premiums or denied coverage altogether. Before the ACA, 2,043,000 people in Minnesota with
employer or individual market coverage had lifetime
limits on their insurance policies: if the ACA were enjoined, annual and lifetime limits would surely return.
An estimated 2,761,583 people in Minnesota, including 1,075,362 women ages 15–64, would lose the federal guarantee of preventive services — such as flu
shots, cancer screenings, and contraception – which
are now provided at no extra cost to consumers. These
are just a few of the ACA’s consumer protections that
could be lost if this court allows the ACA to be enjoined.

254
105. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families who have benefitted from these provisions would
pay more out of pocket for health coverage or go without it altogether. Many of the 90,146 people in Minnesota covered in the Health Insurance Marketplace
would lose coverage without the ACA. In 2017, 70 percent of Marketplace enrollees in Minnesota received
premium tax credits that averaged $5,220 per person.
That financial assistance would no longer be available
under an injunction.
106. Impact on Medicaid: Without the ACA, an
estimated 36,000 fewer people in Minnesota would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated 4,000
more getting all needed care, 5,100 fewer struggling to
pay medical bills, 3,000 fewer experiencing symptoms
of depression, and 40 avoided deaths each year in Minnesota. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.
107. Impact on Medicare: The 944,222 people
with Medicare in Minnesota would also lose benefits
and pay more under an injunction than they now do.
Prescription drug discounts, that saved 66,930 Minnesotans an average of $1,077 per beneficiary in 2016
would end. It would roll back the coverage of proven
preventive services with no cost sharing which
604,022 people with Medicare in Minnesota used in
2016. It would suspend payment policies that have

255
lowered premiums, cost sharing, and taxpayer costs in
Minnesota. It would also disrupt programs to reduce
preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010 and 2015, which translates
into 1,435 fewer unnecessary returns to the hospital
in Minnesota in 2015. The 8 Accountable Care Organizations (ACOs) in Minnesota that offer Medicare beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
108. Impact on Public Health: Support for public
health in Minnesota would also be reduced under an
injunction. Minnesota received $83,959,272 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This sum includes
$18,224,535 for immunizations and $3,177,506 for tobacco cessation efforts.
109. Impact on Finances: The financial impact
on Minnesota would be significant. From 2019 to 2028,
Minnesota would lose $1.9 billion in federal Marketplace spending and $14.6 billion in federal Medicaid
spending. The combined loss of federal spending over
this period would be $16.4 billion. Such a reduction in
spending would have a major impact on health care
providers. From 2019 to 2028, Minnesota hospitals
could lose $7.3 billion and physicians could lose $2.7
billion. Uncompensated care costs in Minnesota would
increase by $24.5 billion over this period.
New Jersey
110. Between 2010 and 2015, an estimated 398,000
people in New Jersey gained coverage. This includes a
large fraction of the people covered in the New Jersey
Health Insurance Marketplace, an estimated 59,000

256
young adults who gained coverage by staying on their
parents’ health insurance, and those gaining coverage
from the law’s Medicaid expansion and employer
shared responsibility policy. This coverage would be at
risk if the ACA were enjoined.
111. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 3,847,727 people
in New Jersey have a pre-existing condition and would
be at risk for being charged unaffordable premiums or
denied coverage altogether without the ACA. Before
the ACA, 3,274,000 people in New Jersey with employer or individual market coverage had a lifetime
limit on their insurance policy: annual and lifetime
limits would return under an injunction to the ACA.
An estimated 4,210,183 people in New Jersey, including 1,701,115 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
112. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 243,743 people in New Jersey covered in the Health Insurance Marketplace would lose
coverage without the ACA. In 2017, 79 percent of Marketplace enrollees in New Jersey received a premium

257
tax credit that averaged $4,205 per person. That financial assistance would no longer be available under
an injunction.
113. Impact on Medicaid: Without the ACA, an
estimated 194,000 fewer people in New Jersey would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated
22,000 more getting all needed care, 27,600 fewer
struggling to pay medical bills, 18,000 fewer experiencing symptoms of depression, and 230 avoided
deaths each year in New Jersey. Enjoining the law
would put these benefits at risk, along with improvements to long-term services and supports, eligibility
simplifications, and policies to lower drug costs and
improve the quality of care in Medicaid.
114. Impact on Medicare: The 1,528,961 people
with Medicare in New Jersey would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 202,098 people in New Jersey with $1,344 in average annual savings per beneficiary in 2016, would end. It would roll back the
coverage of proven preventive services with no cost
sharing which 1,131,754 people with Medicare in New
Jersey used in 2016. It would suspend payment policies which would increase premiums, cost sharing,
and well as taxpayer costs in New Jersey. It would also
disrupt programs to reduce preventable patient harms
and avoidable readmissions. Hospital readmissions
for Medicare beneficiaries dropped between 2010 and
2015, which translates into 6,774 fewer unnecessary
returns to the hospital in New Jersey in 2015. The 29
Accountable Care Organizations (ACOs) in New Jersey that offer Medicare beneficiaries the opportunity

258
to receive higher quality, more coordinated care would
no longer operate under an injunction.
115. Impact on Public Health: Support for public
health in New Jersey would also be reduced under an
injunction. New Jersey received $54,491,391 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $14,039,534 for
immunizations and $2,578,857 for tobacco cessation
efforts.
116. Impact on Finances: The financial impact
on New Jersey would be significant. From 2019 to
2028, it would lose $6.7 billion in federal Marketplace
spending and $53 billion in federal Medicaid spending.
The combined loss of federal spending over this period
would be $59.7 billion. This would have a major impact on health care providers. From 2019 to 2028, New
Jersey hospitals could lose $30.2 billion and physicians could lose $10.4 billion. Uncompensated care
costs in New Jersey would increase by $29.0 billion
over this period.
New York
117. Between 2010 and 2015, an estimated 939,000
people in New York gained coverage. This includes a
large fraction of the people covered in the New York
Health Insurance Marketplace (called New York State
of Health), an estimated 147,000 young adults who
gained coverage by staying on their parents’ health insurance, and those gaining coverage from the law’s
Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if the ACA
were enjoined.
118. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were

259
an injunction ending the law. Up to 8,616,234 people
in New York have a pre-existing condition and would
be at risk for being charged unaffordable premiums or
denied coverage altogether without the ACA. Before
the ACA, 6,432,000 people in New York with employer
or individual market coverage had a lifetime limit on
their insurance policy: annual and lifetime limits
would return under an injunction to the ACA. An estimated 8,619,856 people in New York, including
3,582,133 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
119. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 207,083 people in New York covered in the Health Insurance Marketplace would lose
coverage without the ACA. In 2017, 55 percent of Marketplace enrollees in New York received a premium
tax credit that averaged $2,763 per person. That financial assistance would no longer be available under
an injunction.
120. Impact on Medicaid: Without the ACA, an
estimated 143,000 fewer people in New York would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated
16,000 more getting all needed care, 20,300 fewer

260
struggling to pay medical bills, 13,000 fewer experiencing symptoms of depression, and 170 avoided
deaths each year in New York. Enjoining the law
would put these benefits at risk, along with improvements to long-term services and supports, eligibility
simplifications, and policies to lower drug costs and
improve the quality of care in Medicaid. This could, for
example, mean that people with disabilities in New
York’s Community First Choice program could lose access to services.
121. Impact on Medicare: The 3,424,666 people
with Medicare in New York would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 348,566 people in New York
with $1,320 in average annual savings per beneficiary
in 2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which
2,440,280 people with Medicare in New York used in
2016. It would suspend payment policies which would
increase premiums, cost sharing, and well as taxpayer
costs in New York. It would also disrupt programs to
reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010 and 2015, which
translates into 8,407 fewer unnecessary returns to the
hospital in New York in 2015. The 38 Accountable
Care Organizations (ACOs) in New York that offer
Medicare beneficiaries the opportunity to receive
higher quality, more coordinated care would no longer
operate under an injunction.
122. Impact on Public Health: Support for public
health in New York would also be reduced under an
injunction. New York received $211,920,470 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $49,114,866 for

261
immunizations and $6,245,494 for tobacco cessation
efforts.
123. Impact on Finances: The financial impact
on New York would be significant. From 2019 to 2028,
it would lose $9.9 billion in federal Marketplace spending and $47.3 billion in federal Medicaid spending.
The combined loss of federal spending over this period
would be $57.2 billion. This would have a major impact on health care providers. From 2019 to 2028, New
York hospitals could lose $23.2 billion and physicians
could lose $9.0 billion. Uncompensated care costs in
New York would increase by $47.4 billion over this period.
North Carolina
124. Between 2010 and 2015, an estimated 552,000
people in North Carolina gained coverage. This includes a large fraction of the people covered in the
North Carolina Health Insurance Marketplace, an estimated 70,000 young adults who gained coverage by
staying on their parents’ health insurance, and those
gaining coverage from the law’s Medicaid expansion
and employer shared responsibility policy. This coverage would be at risk if the ACA were enjoined.
125. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 4,099,922 people
in North Carolina have a pre-existing condition and
would be at risk for being charged unaffordable premiums or denied coverage altogether without the ACA.
Before the ACA, 3,091,000 people in North Carolina
with employer or individual market coverage had a
lifetime limit on their insurance policy: annual and
lifetime limits would return under an injunction to the

262
ACA. An estimated 3,966,308 people in North Carolina, including 1,631,312 women ages 15–64, would
lose federally guaranteed of preventive services — like
flu shots, cancer screenings, and contraception –
which are now provided at no extra cost to consumers.
These are just a few of the ACA’s consumer protections
that could be lost if this court allows the ACA to be
enjoined.
126. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 450,822 people in North Carolina
covered in the Health Insurance Marketplace would
lose coverage without the ACA. In 2017, 93 percent of
Marketplace enrollees in North Carolina received a
premium tax credit that averaged $7,100 per person.
That financial assistance would no longer be available
under an injunction.
127. Impact on Medicaid: If North Carolina expanded Medicaid under the ACA, an estimated
313,000 people would gain Medicaid coverage. This
coverage would improve access to care, financial security, and health. For example, it would result in an estimated 36,000 more getting all needed care, 44,500
fewer struggling to pay medical bills, 29,000 fewer experiencing symptoms of depression, and 380 avoided
deaths each year in North Carolina. Enjoining the law
would put these potential benefits at risk, along with
improvements to long-term services and supports, eligibility simplifications, and policies to lower drug costs
and improve the quality of care in Medicaid.

263
128. Impact on Medicare: The 1,823,454 people
with Medicare in North Carolina would also lose benefits and pay more under an injunction. Prescription
drug discounts, which provided 165,931 people in
North Carolina with $1,117 in average annual savings
per beneficiary in 2016, would end. It would roll back
the coverage of proven preventive services with no cost
sharing which 1,377,219 people with Medicare in
North Carolina used in 2016. It would suspend payment policies which would increase premiums, cost
sharing, and well as taxpayer costs in North Carolina.
It would also disrupt programs to reduce preventable
patient harms and avoidable readmissions. Hospital
readmissions for Medicare beneficiaries dropped between 2010 and 2015, which translates into 2,472
fewer unnecessary returns to the hospital in North
Carolina in 2015. The 20 Accountable Care Organizations (ACOs) in North Carolina that offer Medicare
beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
129. Impact on Public Health: Support for public
health in North Carolina would also be reduced under
an injunction. North Carolina received $109,531,769
from the law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes
$12,919,323 for immunizations and $3,778,227 for tobacco cessation efforts.
130. Impact on Finances: The financial impact
on North Carolina would be significant. From 2019 to
2028, it would lose $38.2 billion in federal Marketplace
spending and $20.7 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $59.0 billion. This would have a major
impact on health care providers. From 2019 to 2028,

264
North Carolina hospitals could lose $22.7 billion and
physicians could lose $8.7 billion. Uncompensated
care costs in North Carolina would increase by $35.0
billion over this period.
Oregon
131. Between 2010 and 2015, an estimated 403,000
people in Oregon gained coverage. This includes a
large fraction of the people covered in the Oregon
Health Insurance Marketplace called OregonHealthCare.gov, an estimated 28,000 young adults
who gained coverage by staying on their parents’
health insurance, and those gaining coverage from the
law’s Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if
the ACA were enjoined.
132. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 1,692,205 people
in Oregon have a pre-existing condition and would be
at risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 1,356,000 people in Oregon with employer or individual market coverage had a lifetime limit on their
insurance policy: annual and lifetime limits would return under an injunction to the ACA. An estimated
1,737,240 people in Oregon, including 721,318 women
ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer screenings, and
contraception – which are now provided at no extra
cost to consumers. These are just a few of the ACA’s
consumer protections that could be lost if this court allows the ACA to be enjoined.

265
133. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 137,305 people in Oregon covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 75 percent of Marketplace enrollees in Oregon received a premium tax
credit that averaged $4,144 per person. That financial
assistance would no longer be available under an injunction.
134. Impact on Medicaid: Without the ACA, an
estimated 159,000 fewer people in Oregon would have
Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and health.
For example, it resulted in an estimated 18,000 more
getting all needed care, 22,600 fewer struggling to pay
medical bills, 15,000 fewer experiencing symptoms of
depression, and 190 avoided deaths each year in Oregon. Enjoining the law would put these benefits at
risk, along with improvements to long-term services
and supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid. This could, for example, mean that people
with disabilities in Oregon’s Community First Choice
program could lose access to services.
135. Impact on Medicare: The 784,032 people
with Medicare in Oregon would also lose benefits and
pay more under an injunction. Prescription drug discounts, which provided 50,777 people in Oregon with
$1,035 in average annual savings per beneficiary in
2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which

266
496,232 people with Medicare in Oregon used in 2016.
It would suspend payment policies which would increase premiums, cost sharing, and well as taxpayer
costs in Oregon. It would also disrupt programs to reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare
beneficiaries dropped between 2010 and 2015, which
translates into 75 fewer unnecessary returns to the
hospital in Oregon in 2015. The 4 Accountable Care
Organizations (ACOs) in Oregon that offer Medicare
beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
136. Impact on Public Health: Support for public
health in Oregon would also be reduced under an injunction. Oregon received $52,128,626 from the law’s
Prevention and Public Health Fund between fiscal
years 2012 and 2016. This includes $15,494,592 for
immunizations and $1,864,629 for tobacco cessation
efforts.
137. Impact on Finances: The financial impact
on Oregon would be significant. From 2019 to 2028, it
would lose $3.3 billion in federal Marketplace spending and $35.1 billion in federal Medicaid spending.
The combined loss of federal spending over this period
would be $38.4 billion. This would have a major impact on health care providers. From 2019 to 2028, Oregon hospitals could lose $17.5 billion and physicians
could lose $5.7 billion. Uncompensated care costs in
Oregon would increase by $15.2 billion over this period.
Rhode Island
138. Between 2010 and 2015, an estimated 68,000
people in Rhode Island gained coverage. This includes

267
a large fraction of the people covered in the Rhode Island Health Insurance Marketplace (called HealthSource RI), an estimated 8,000 young adults who
gained coverage by staying on their parents’ health insurance, and those gaining coverage from the law’s
Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if the ACA
were enjoined.
139. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 462,538 people in
Rhode Island have a pre-existing condition and would
be at risk for being charged unaffordable premiums or
denied coverage altogether without the ACA. Before
the ACA, 374,000 people in Rhode Island with employer or individual market coverage had a lifetime
limit on their insurance policy: annual and lifetime
limits would return under an injunction to the ACA.
An estimated 484,193 people in Rhode Island, including 201,595 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
140. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 29,065 people in Rhode Island covered in the Health Insurance Marketplace would lose

268
coverage without the ACA. In 2017, 78 percent of Marketplace enrollees in Rhode Island received a premium
tax credit that averaged $2,974 per person. That financial assistance would no longer be available under
an injunction.
141. Impact on Medicaid: Without the ACA, an
estimated 22,000 fewer people in Rhode Island would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated 3,000
more getting all needed care, 3,200 fewer struggling to
pay medical bills, 2,000 fewer experiencing symptoms
of depression, and 30 avoided deaths each year in
Rhode Island. Enjoining the law would put these benefits at risk, along with improvements to long-term
services and supports, eligibility simplifications, and
policies to lower drug costs and improve the quality of
care in Medicaid.
142. Impact on Medicare: The 208,324 people
with Medicare in Rhode Island would also lose benefits and pay more under an injunction. Prescription
drug discounts, which provided 14,990 people in
Rhode Island with $1,004 in average annual savings
per beneficiary in 2016, would end. It would roll back
the coverage of proven preventive services with no cost
sharing which 148,724 people with Medicare in Rhode
Island used in 2016. It would suspend payment policies which would increase premiums, cost sharing,
and well as taxpayer costs in Rhode Island. It would
also disrupt programs to reduce preventable patient
harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010
and 2015, which translates into 487 fewer unnecessary returns to the hospital in Rhode Island in 2015.
The 5 Accountable Care Organizations (ACOs) in

269
Rhode Island that offer Medicare beneficiaries the opportunity to receive higher quality, more coordinated
care would no longer operate under an injunction.
143. Impact on Public Health: Support for public
health in Rhode Island would also be reduced under
an injunction. Rhode Island received $34,890,537 from
the law’s Prevention and Public Health Fund between
fiscal years 2012 and 2016. This includes $5,997,036
for immunizations and $326,347 for tobacco cessation
efforts.
144. Impact on Finances: The financial impact
on Rhode Island would be significant. From 2019 to
2028, it would lose $700 million in federal Marketplace spending and $6.7 billion in federal Medicaid
spending. The combined loss of federal spending over
this period would be $7.4 billion. This would have a
major impact on health care providers. From 2019 to
2028, Rhode Island hospitals could lose $3.8 billion
and physicians could lose $1.4 billion. Uncompensated
care costs in Rhode Island would increase by $2.8 billion over this period.
Vermont
145. Between 2010 and 2015, an estimated 26,000
people in Vermont gained coverage. This includes a
large fraction of the people covered in the Vermont
Health Insurance Marketplace (called Vermont
Health Connect), an estimated 5,000 young adults
who gained coverage by staying on their parents’
health insurance, and those gaining coverage from the
law’s Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if
the ACA were enjoined.
146. Impact on Consumer Protections: Numerous consumer protections in private insurance would

270
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 280,727 people in
Vermont have a pre-existing condition and would be
at risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 215,000 people in Vermont with employer or individual market coverage had a lifetime limit on their
insurance policy: annual and lifetime limits would return under an injunction to the ACA. An estimated
285,858 people in Vermont, including 122,892 women
ages 15–64, would lose federally guaranteed of preventive services — like flu shots, cancer screenings, and
contraception – which are now provided at no extra
cost to consumers. These are just a few of the ACA’s
consumer protections that could be lost if this court allows the ACA to be enjoined.
147. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 29,088 people in Vermont covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 76 percent of Marketplace enrollees in Vermont received a premium tax
credit that averaged $3,898 per person. That financial
assistance would no longer be available under an injunction.
148. Impact on Medicaid: Without the ACA, an
estimated 3,000 fewer people in Vermont would have
Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and health.
Enjoining the law would put these benefits at risk,
along with improvements to long-term services and

271
supports, eligibility simplifications, and policies to
lower drug costs and improve the quality of care in
Medicaid.
149. Impact on Medicare: The 136,021 people
with Medicare in Vermont would also lose benefits and
pay more under an injunction. Prescription drug discounts, which provided 10,466 people in Vermont with
$1,206 in average annual savings per beneficiary in
2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which
94,170 people with Medicare in Vermont used in 2016.
It would suspend payment policies which would increase premiums, cost sharing, and well as taxpayer
costs in Vermont. It would also disrupt programs to
reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010 and 2015. The 3
Accountable Care Organizations (ACOs) in Vermont
that offer Medicare beneficiaries the opportunity to receive higher quality, more coordinated care would no
longer operate under an injunction.
150. Impact on Public Health: Support for public
health in Vermont would also be reduced under an injunction. Vermont received $16,564,102 from the law’s
Prevention and Public Health Fund between fiscal
years 2012 and 2016. This includes $2,706,809 for immunizations and $299,828 for tobacco cessation efforts.
151. Impact on Finances: The financial impact
on Vermont would be significant. From 2019 to 2028,
it would lose $1.0 billion in federal Marketplace spending and $1.9 billion in federal Medicaid spending. The
combined loss of federal spending over this period
would be $2.9 billion. This would have a major impact
on health care providers. From 2019 to 2028, Vermont

272
hospitals could lose $500 million and physicians could
lose $300 million. Uncompensated care costs in Vermont would increase by $2.4 billion over this period.
Virginia
152. Between 2010 and 2015, an estimated 327,000
people in Virginia gained coverage. This includes a
large fraction of the people covered in the Virginia
Health Insurance Marketplace, an estimated 59,000
young adults who gained coverage by staying on their
parents’ health insurance, and those who gained coverage due to the employer shared responsibility policy.
This coverage would be at risk if the ACA were enjoined.
153. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 3,491,076 people
in Virginia have a pre-existing condition and would be
at risk for being charged unaffordable premiums or denied coverage altogether without the ACA. Before the
ACA, 2,974,000 people in Virginia with employer or
individual market coverage had a lifetime limit on
their insurance policy: annual and lifetime limits
would return under an injunction to the ACA. An estimated 3,902,716 people in Virginia, including
1,587,663 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
154. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage

273
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 364,614 people in Virginia covered
in the Health Insurance Marketplace would lose coverage without the ACA. In 2017, 83 percent of Marketplace enrollees in Virginia received a premium tax
credit that averaged $3,807 per person. That financial
assistance would no longer be available under an injunction.
155. Impact on Medicaid: Virginia is debating
expanding Medicaid under the ACA, which could lead
to an estimated 179,000 people in Virginia gaining
coverage. This would improve access to care, financial
security, and health. For example, it could result in an
estimated 20,000 more getting all needed care, 25,500
fewer struggling to pay medical bills, 16,000 fewer experiencing symptoms of depression, and 220 avoided
deaths each year in Virginia. Enjoining the law would
put these potential benefits at risk, along with improvements to long-term services and supports, eligibility simplifications, and policies to lower drug costs
and improve the quality of care in Medicaid.
156. Impact on Medicare: The 1,392,261 people
with Medicare in Virginia would also lose benefits and
pay more under an injunction. Prescription drug discounts, which provided 109,517 people in Virginia
with $1,104 in average annual savings per beneficiary
in 2016, would end. It would roll back the coverage of
proven preventive services with no cost sharing which
1,026,111 people with Medicare in Virginia used in
2016. It would suspend payment policies which would
increase premiums, cost sharing, and well as taxpayer

274
costs in Virginia. It would also disrupt programs to reduce preventable patient harms and avoidable readmissions. Hospital readmissions for Medicare
beneficiaries dropped between 2010 and 2015, which
translates into 2,302 fewer unnecessary returns to the
hospital in Virginia in 2015. The 25 Accountable Care
Organizations (ACOs) in Virginia that offer Medicare
beneficiaries the opportunity to receive higher quality,
more coordinated care would no longer operate under
an injunction.
157. Impact on Public Health: Support for public
health in Virginia would also be reduced under an injunction. Virginia received $79,675,902 from the law’s
Prevention and Public Health Fund between fiscal
years 2012 and 2016. This includes $15,357,774 for
immunizations and $3,545,823 for tobacco cessation
efforts.
158. Impact on Finances: The financial impact
on Virginia would be significant. From 2019 to 2028,
it would lose $15.4 billion in federal Marketplace
spending and $2.6 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $18.0 billion. This would have a major
impact on health care providers. From 2019 to 2028,
Virginia hospitals could lose $7.8 billion and physicians could lose $3.7 billion. Uncompensated care
costs in Virginia would increase by $28.7 billion over
this period.
Washington
159. Between 2010 and 2015, an estimated 537,000
people in Washington gained coverage. This includes
a large fraction of the people covered in the Washington Health Insurance Marketplace (called Washington
Healthplanfinder), an estimated 50,000 young adults

275
who gained coverage by staying on their parents’
health insurance, and those gaining coverage from the
law’s Medicaid expansion and employer shared responsibility policy. This coverage would be at risk if
the ACA were enjoined.
160. Impact on Consumer Protections: Numerous consumer protections in private insurance would
also be lost if the ACA were enjoined or if there were
an injunction ending the law. Up to 2,969,739 people
in Washington have a pre-existing condition and
would be at risk for being charged unaffordable premiums or denied coverage altogether without the ACA.
Before the ACA, 2,427,000 people in Washington with
employer or individual market coverage had a lifetime
limit on their insurance policy: annual and lifetime
limits would return under an injunction to the ACA.
An estimated 3,079,369 people in Washington, including 1,258,201 women ages 15–64, would lose federally
guaranteed of preventive services — like flu shots,
cancer screenings, and contraception – which are now
provided at no extra cost to consumers. These are just
a few of the ACA’s consumer protections that could be
lost if this court allows the ACA to be enjoined.
161. Impact on Marketplace Coverage: The
ACA provides financial support for private coverage
through premium tax credits and cost-sharing reductions. If the ACA were enjoined, individuals and families that have benefitted from these provisions would
pay more for health coverage or go without it altogether. Many of the 184,070 people in Washington covered in the Health Insurance Marketplace would lose
coverage without the ACA. In 2017, 63 percent of Marketplace enrollees in Washington received a premium

276
tax credit that averaged $3,040 per person. That financial assistance would no longer be available under
an injunction.
162. Impact on Medicaid: Without the ACA, an
estimated 55,000 fewer people in Washington would
have Medicaid coverage. The law’s Medicaid expansion improved access to care, financial security, and
health. For example, it resulted in an estimated 6,000
more getting all needed care, 7,800 fewer struggling to
pay medical bills, 5,000 fewer experiencing symptoms
of depression, and 70 avoided deaths each year in
Washington. Enjoining the law would put these benefits at risk, along with improvements to long-term services and supports, eligibility simplifications, and
policies to lower drug costs and improve the quality of
care in Medicaid. This could, for example, mean that
people with disabilities in Washington’s Community
First Choice program could lose access to services.
163. Impact on Medicare: The 1,238,649 people
with Medicare in Washington would also lose benefits
and pay more under an injunction. Prescription drug
discounts, which provided 71,499 people in Washington with $1,065 in average annual savings per beneficiary in 2016, would end. It would roll back the
coverage of proven preventive services with no cost
sharing which 805,142 people with Medicare in Washington used in 2016. It would suspend payment policies which would increase premiums, cost sharing,
and well as taxpayer costs in Washington. It would
also disrupt programs to reduce preventable patient
harms and avoidable readmissions. Hospital readmissions for Medicare beneficiaries dropped between 2010
and 2015, which translates into 1,388 fewer unnecessary returns to the hospital in Washington in 2015.
The 6 Accountable Care Organizations (ACOs) in

277
Washington that offer Medicare beneficiaries the opportunity to receive higher quality, more coordinated
care would no longer operate under an injunction.
164. Impact on Public Health: Support for public
health in Washington would also be reduced under an
injunction. Washington received $84,038,862 from the
law’s Prevention and Public Health Fund between fiscal years 2012 and 2016. This includes $21,648,368 for
immunizations and $4,207,707 for tobacco cessation
efforts.
165. Impact on Finances: The financial impact
on Washington would be significant. From 2019 to
2028, it would lose $4.7 billion in federal Marketplace
spending and $38.1 billion in federal Medicaid spending. The combined loss of federal spending over this
period would be $42.8 billion. This would have a major
impact on health care providers. From 2019 to 2028,
Washington hospitals could lose $23.3 billion and physicians could lose $7.7 billion. Uncompensated care
costs in Washington would increase by $33.9 billion
over this period.
Conclusion
166. Based on my knowledge and experience, I believe that invalidating the Affordable Care Act would
cause significant harm to the nation, across all States,
to the economy and to the health insurance market. It
would immediately end federal support for Medicaid
coverage for nearly 12 million individuals in 32 states
and the District of Columbia; it would deprive residents of the remaining states of the option to expand
Medicaid coverage, an option that is under active debate in Virginia, Maine, and others, of broadening coverage in the future; it would reduce access to coverage

278
for low and middle income Americans; it would increase drug costs. Further, the disruption caused by
such an occurrence would cause immediate financial
harm to medical providers and insurance companies,
and significantly disrupt their ability to conduct business across all healthcare markets, including individual, Medicaid and Medicare, and small group markets.
I declare under penalty of perjury that the foregoing is
true and correct and of my own personal knowledge.
Executed on May 29, 2018, in Washington, D.C.
/s/ Henry J. Aaron
Henry J. Aaron*
Bruce and Virginia MacLaury Senior
Fellow
The Brookings Institution
*The views expressed here are my own and do not necessarily represent those of the trustees, officers or other staff of the Brookings Institution. Affiliation listed for identification only.

279
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: June 7, 2018]
_______
DECLARATION OF SABRINA CORLETTE
_______
I, Sabrina Corlette, declare:
1. I am a Research Professor at the Center on
Health Insurance Reforms (CHIR) at Georgetown
University’s Health Policy Institute. At CHIR, I direct
research on health insurance reform issues. My areas
of focus include state and federal regulation of private
health insurance plans and markets and evolving insurance market rules. I have published numerous papers relating to the regulation of private health
insurance and health insurance marketplaces. I also
serve on the Standards Committee for the National
Committee for Quality Assurance. Prior to joining the
Georgetown faculty, I was Director of Health Policy
Programs at the National Partnership for Women &
Families, where I provided policy expertise and strategic direction for the organization’s advocacy on
health care reform, with a particular focus on insurance market reform, benefit design, and the quality

280
and affordability of health care. I also served as an attorney at Hogan Lovells, during which time I advised
clients on health insurance, health finance, and food
and drug regulatory matters.
2. Since 2010, I have authored over 25 research
papers about the Affordable Care Act and its implementation. I have been invited to testify as an Affordable Care Act expert before seven congressional
committees (U.S. House of Representatives and U.S.
Senate) in the last five years. The California General
Assembly invited me in January 2018 to testify about
the status of the individual health insurance market.
I regularly provide technical assistance to state departments of insurance, state policymakers, and other
health care organizations regarding Affordable Care
Act regulations and guidance and their impact on consumers and other health care stakeholders. I am frequently consulted by journalists seeking Affordable
Care Act expertise, and have been quoted numerous
times on health insurance and Affordable Care Act issues in national and local print, radio, web-based, and
television media. A full list of my publications and media is available on our website at https://chir.
georgetown.edu.
3. I understand that this lawsuit involves a challenge to the Affordable Care Act and seeks to enjoin it.
In my expert opinion, enjoining the Affordable Care
Act would cause significant disruption to the U.S.
health care market, resulting in harm to patients, providers, insurance carriers, and federal and state governments.
4. The Affordable Care Act was enacted in part
to correct serious deficiencies in the individual health
insurance market that left millions uninsured and
millions more with inadequate coverage that failed to

281
protect them from serious financial harm if and when
they got sick. In order to assess the effect the Affordable Care Act has had on the individual insurance market today, it is important to understand the market
that Congress was seeking to change when it enacted
the Affordable Care Act in 2010.
5. Prior to implementation of the Affordable
Care Act’s market reforms, approximately 48 million
Americans lacked health insurance. 1 Those without
health insurance have a lower life expectancy than
those with coverage. Before the Affordable Care Act
was enacted, an estimated 22,000 people per year died
prematurely because they lacked insurance.2 This is
likely because the uninsured are more than six times
as likely as the privately insured to delay or forego
needed care due to costs. For example, uninsured cancer patients are more than five times more likely than
their insured counterparts to forego cancer treatment
due to cost.3

DeNavas-Walt C, Proctor BD, Smith J. Income, Poverty, and
Health Insurance Coverage in the United States: 2012, U.S. Census Bureau, Sept. 2013. Available at https://www.census.gov/
prod/2013pubs/p60-245.pdf.
1

Dorn S. Uninsured and Dying Because of It, The Urban Institute, Jan. 2008. Available at https://www.urban.org/sites/default/files/publication/31386/411588-Uninsured-and-DyingBecause-of-It.PDF.

2

Lives on the Line: The Deadly Consequences of Delaying Health
Reform, Families USA, Feb. 2010. Available at http://familiesusa.org/sites/default/files/product_documents/delaying-reform.pdf.
3

282
6. Being uninsured also results in financial insecurity. In 2010, when the Affordable Care Act was enacted, sixty percent of the uninsured reported having
problems with medical bills or medical debt.4
7. Additionally, prior to the Affordable Care Act,
the high and rising uninsured rate led to high and rising uncompensated care costs for providers, in 2009
estimated at $1000 worth of services per uninsured
person.5 Providers ultimately passed those costs onto
insured consumers and taxpayers.
8. Before the Affordable Care Act, approximately
19 million Americans purchased coverage in the individual insurance market because they lacked access to
employer-based insurance or were not eligible for public programs such as Medicare or Medicaid.6 The individual insurance market was an inhospitable place,
particularly for anyone in less than perfect health. An
estimated 133 million Americans have at least one
pre-existing condition that could threaten their access
to health care and health insurance.7
Cunningham, P. and Sommers, A. Medical Bill Problems Steady
for U.S. Families 2007-2010, Center for Studying Health System
Change, Dec. 2011. Available at http://www.hschange.org/CONTENT/1268/?words=tracking%20report%2028.

4

Hu, L. et al. The Effect of the Patient Protection and Affordable
Care Act Medicaid Expansions on Financial Wellbeing, National
Bureau of Economic Research, Feb. 2018. Available at
http://www.nber.org/papers/w22170.

5

DeNavas-Walt C, et al. Income, Poverty, and Health Insurance
Coverage in the United States: 2012.

6

Office of the Assistant Secretary for Planning and Evaluation,
Health Insurance Coverage for Americans with Pre-Existing Conditions: The Impact of the Affordable Care Act, Issue Brief, Jan.
2017. Available at https://aspe.hhs.gov/system/files/pdf/255396/

7

283
9. Prior to the Affordable Care Act, in most
states, applicants for health insurance could be denied
a policy because of their health status, or charged
more in premiums based on their health and gender,
along with a number of other factors. Insurers could
also issue policies that didn’t cover critical medical
services like pharmacy benefits, mental health or substance use treatment, maternity, or any of the care required to treat a person’s pre-existing condition. In
addition, insurers often rescinded an individual’s coverage if they got sick after enrolling in the plan, and
many plans imposed annual or lifetime dollar limits
on covered benefits.8
10. Prior to the Affordable Care Act, coverage was
often simply not available to many individuals applying for coverage. One of the many ways insurers maximized revenue was through aggressive underwriting
practices resulting in a denial of coverage to individuals posing a potential health risk. 9 In most states,
when an individual wanted to buy health insurance,
they had to fill out and submit a voluminous application that included detailed information about their
health history and status. Insurers would then review
the individual’s application and assess the likelihood
he or she would incur future health costs. A
Pre-ExistingConditions.pdf.
Corlette S, Volk J, Lucia K. Real Stories, Real Reforms. Robert
Wood Johnson Foundation, Sept. 2013. Available at
https://georgetown.app.box.com/file/124506387872.

8

U.S. Government Printing Office, Senate Hearing 113-663. A
New, Open Marketplace: The Effect of Guaranteed Issue and New
Rating Rules, U.S. Senate Health, Education, Labor & Pension
Committee, Apr. 11, 2013. Available at https://www.gpo.gov/
fdsys/pkg/CHRG-113shrg95186/html/CHRG-113shrg95186.htm.

9

284
Georgetown University study found that even people
with minor health care conditions, such as hay fever,
could be turned down for coverage.10 Health insurers
maintained underwriting guidelines that listed as
many as 400 separate medical conditions that could
trigger a denial of coverage.11
11. A U.S. Government Accountability (GAO)
study in 2011 found that average insurer denial rates
were 19 percent, but they varied dramatically marketto-market and insurer-to- insurer. For example, across
six insurers in one state, denial rates ranged from 6
percent to 40 percent.12 In practice, access to coverage
for people with pre-existing conditions was probably
less available than this study suggests, because of a
common industry practice known as “street underwriting,” in which an insurance agent or broker would ask
a potential applicant questions about their health status, and discourage them from applying if they posed
a health risk. These underwriting practices were
banned by the Affordable Care Act in 2014.
12. Prior to the Affordable Care Act, it was not uncommon for insurers to rescind coverage after they had
accepted an applicant. If an enrollee had any health
Pollitz K, Sorian R. How Accessible is Individual Health Insurance for Consumers in Less-than-perfect Health? Georgetown
University and Kaiser Family Foundation, Jun. 2001. Available
at https://kaiserfamilyfoundation.files.wordpress.com/2013/01/
how-accessible-is-individual-health-insurance-for-consumers-inless-than-perfect-health-executive- summary-june-2001.pdf.

10

11

U.S. Government Printing Office, Senate Hearing 113-663.

U.S. Government Accountability Office. Private Health Insurance: Data on Application and Coverage Denials, Mar. 2011.
Available at https://www.gao.gov/assets/320/316699.pdf.

12

285
care claims within their first year of coverage, the insurer would investigate that person’s health history.
If they found evidence that their condition was a preexisting one and not fully disclosed during the initial
underwriting process, the company would deny the
relevant claims and rescind or cancel the coverage.13
The Affordable Care Act prohibited this practice except in clear cases of fraud by the policyholder.
13. Prior to the Affordable Care Act, individual insurance was often unaffordable. Unlike those with employer sponsored coverage or in public programs like
Medicare or Medicaid, people with individual insurance must pay the full cost of their premium. According to one national survey prior to the Affordable Care
Act, 31 percent of individual market respondents
spent 10 percent or more of their income on premium
costs.14
14. Prior to the Affordable Care Act the cost of premiums caused many individuals to forego coverage
completely. A national survey found that nearly threequarters (73 percent) of people seeking coverage in the
individual market did not end up buying a plan, most
often because the premium was too high. The coverage
was least affordable for those individuals who needed
it the most – people with pre-existing conditions. The
Girion L. Health Insurer Tied Bonuses to Dropping Sick Policyholders, Los Angeles Times, Nov. 9, 2007. Available at http://articles.latimes.com/2007/nov/09/business/fi-insure9.

13

Collins SR, Robertson R, Garber T, Doty MM. Insuring the Future: Current Trends in Health Coverage and the Effects of Implementing the Affordable Care Act, The Commonwealth Fund, Apr.
2013. Available at http://www.commonwealthfund.org/~/media/Files/Publications/Fund%20Report/2013/Apr/1681_Collins_
insuring_future_biennial_survey_2012_FINAL.pdf.

14

286
same national survey found that 70 percent of people
with health problems reported it “very difficult” or
“impossible” to find an affordable plan, compared to 45
percent of people in better health.15
15. Prior to the Affordable Care Act, older and less
healthy individuals had to pay more for coverage because health insurers would segment their enrollees
into different groups and charge them different prices
based on their health or other risk factors. In practice,
this meant that people would be charged more because
of a pre-existing condition (even if they had been
symptom-free for years), because of their age, gender
(insurers assume women use more health care services than men), family size, geographic location, the
work they do, and even their lifestyle.16 A Georgetown
University study of insurers’ rating practices before
the Affordable Care Act found rate variation of more
than nine-fold for the same policy based on age and
health status. In many states, people in their early sixties would be charged as much as six times the premium of someone in their early twenties, based on age
alone. Even young people, when rated based on health

Doty MM, Collins SR, Nicholson JL, Rustgi SG. Failure to Protect: Why the Individual Insurance Market Is Not a Viable Option
for Most U.S. Families, The Commonwealth Fund, Jul. 2009.
Available at http://www.commonwealthfund.org/~/media/Files/
Publications/Issue%20Brief/2009/Jul/-Failure%20to%20Protect/
1300_Doty_failure_to_protect_individual_ins_market_ib_v2.pdf.

15

Buntin MB, Marquis MS, Yegian JM. The Role Of The Individual Health Insurance Market And Prospects For Change, Health
Affairs, Nov./Dec. 2004. Available at https://www.healthaffairs.org/doi/pdf/10.1377/hlthaff.23.6.79.

16

287
status, could be subjected to significant premium
costs.17
16. Under the Affordable Care Act, using health
status and gender to set premium rates is prohibited.
In addition, the Affordable Care Act provides low- and
moderate-income people between 100 and 400 percent
of the federal poverty line with subsidies to help defray
their premium costs. In 2018, the average monthly
premium tax credit is $550, resulting in an average
monthly premium for consumers receiving a premium
tax credit of $89.18
17. Prior to the Affordable Care Act, coverage in
the individual market was often inadequate to meet
people’s health care needs. In addition to paying more
in premiums, people in the individual market also
spent a larger share of their income on cost-sharing
than those with employer-sponsored coverage. Prior to
the Affordable Care Act, people in the individual market were more than twice as likely to be considered
“underinsured” than those in an employer plan. 19
Someone is considered “underinsured” when they
have insurance but because of high deductibles, high
Pollitz K, Sorian R. How Accessible is Individual Health Insurance for Consumers in Less-than-perfect Health?

17

Kaiser Family Foundation. Marketplace Average Premiums
and Average Advanced Premium Tax Credit (APTC), Open Enrollment 2018. Available at https://www.kff.org/health-reform/
state-indicator/marketplace-average-premiums-and-average-advanced-premium-tax-credit-aptc/?currentTimeframe=0&sort
Model=%7B%22colId%22:%22Location%22,%22sort% 22:%22asc
%22%7D.

18

Collins SR, Robertson R, Garber T, Doty MM. Insuring the Future: Current Trends in Health Coverage and the Effects of Implementing the Affordable Care Act.

19

288
cost-sharing, or non-covered benefits, the insurance
offers inadequate financial protection for the health
care services people need.
18. Prior to the Affordable Care Act, a primary
reason people buying individual insurance coverage
had high out-of-pocket costs was that many individual
plans – over half according to one study – did not meet
minimum standards for coverage. 20 Coverage in the
individual market was inadequate for a number of reasons, including:
19. Pre-existing condition exclusions: in many
states, insurers were permitted to permanently or for
a period of time exclude from covered benefits treatments for any health problem that a consumer disclosed on their application. This practice was banned
under the Affordable Care Act.
20. Benefit exclusions: Insurers in the individual
market often sold policies that did not cover basic benefits such as maternity care, prescription drugs, mental health, and substance use treatment services. For
example, 20 percent of adults with individual insurance lacked coverage for prescription medicines before
the Affordable Care Act.21 The Affordable Care Act requires individual market insurers to cover a minimum
set of essential health benefits that includes maternity
Gabel JR et al. More Than Half Of Individual Health Plans
Offer Coverage That Falls Short Of What Can Be Sold Through
Exchanges As Of 2014, Health Affairs, Jun. 2012. Available at
https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.2011.1082.

20

Doty MM, Collins SR, Nicholson JL, Rustgi SG. Failure to Protect: Why the Individual Insurance Market Is Not a Viable Option
for Most U.S. Families

21

289
services, prescription drugs, and mental health and
substance use treatment.
21. High out-of-pocket costs: Prior to the Affordable Care Act, individual insurance policies often came
with high deductibles – $10,000 or more was not uncommon – and high cost-sharing. In fact, deductibles
were often three times what they were in employersponsored plans.22 As a result, many individual insurance plans were extremely low-value. One study found
that individual policies paid for just 55 percent of the
expenses for covered services, compared to 83 percent
for small employer group plans.23 The Affordable Care
Act requires insurers to meet a minimum adequacy of
coverage standard of 60 percent (meaning that on average, the plan must cover 60 percent of an average
enrollee’s covered health care costs). The law also
helps protect consumers from catastrophic medical
costs by capping their annual out-of-pocket spending
(for 2018, the annual cap is $7350 per individual).
22. Lifetime or annual dollar limits on coverage:
Prior to enactment of the Affordable Care Act, an estimated 102 million people were in plans with a lifetime
limit on benefits and about 20,000 people hit those
limits every year. An estimated 18 million people were
in plans with annual dollar limits on their benefits.
For people with serious high cost medical conditions,
McDevitt R et al. Group Insurance: A Better Deal For Most People Than Individual Plans, Health Affairs, Jan. 2010. Available
at
https://www.healthaffairs.org/doi/full/10.1377/hlthaff.2009
.0060.

22

Gabel J et al. Trends In The Golden State: Small-Group Premiums Rise Sharply While Actuarial Values For Individual Coverage Plummet, Health Affairs, Jul./Aug. 2007. Available at
https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.26.4.w488.

23

290
such as hemophilia, serious cancers, or end-stage renal disease, this can literally be a life or death issue.
The Affordable Care Act ushered in bans on lifetime
and annual dollar limits.
23. Among Congress’ goals for the Affordable Care
Act were to extend affordable, adequate health insurance coverage to more people and to correct many of
the dysfunctions of the individual market, described
above. Congress tried to achieve these goals through a
three-pronged strategy:
24. (1) Insurance reforms to help people locked out
of the system due to pre-existing conditions;
25. (2) An individual mandate to encourage
healthy people to enroll in the insurance pool and keep
premiums stable; and
26. (3) Subsidies to help people afford the insurance coverage (with Medicaid expansion available for
people under 138 percent of the federal poverty line).
The Affordable Care Act also created state-based insurance marketplaces where people can apply for the
subsidies and shop for plans.
27. To a significant degree, the Affordable Care
Act has achieved its goals. It has expanded access to
insurance coverage, improved health outcomes, and
improved families’ financial security.
28. Under the Affordable Care Act, the percentage
of people uninsured declined from 14.5 percent in 2013
to 9.1 percent in 2017. An estimated 20 million people
gained insurance coverage because of the Affordable
Care Act.24
24

Cohen RA, Zammitti EP, Martinez ME. Health Insurance Cov-

291
29. The goal of expanding coverage is ultimately
to improve people’s health outcomes and their financial security in the event of an unexpected illness or
injury. The Affordable Care Act’s reforms were fully
implemented in 2014, so it is still relatively early to
try to assess the law’s impact on access to care, health
outcomes, and financial security. However, data are
emerging to suggest the law is having a significant
positive impact.
30. Since enactment of the Affordable Care Act,
the percentage of Americans reporting that they didn’t
see a doctor or fill a prescription because they couldn’t
afford it has declined by more than one-third.25 Further, more people are reporting that they have a primary care doctor or have had a check-up in the last 12
months.26
31. Research to date also strongly suggests that
expanding access to coverage leads to better health
outcomes. For example, studies of the health reforms
erage: Early Release of Estimates From the National Health Interview Survey, 2017, Centers for Disease Control and Prevention, National Center for Health Statistics, May 2018. Available
at https://www.cdc.gov/nchs/data/nhis/earlyrelease/insur201805
.pdf.
McCarthy, J. U.S. Women More Likely Than Men to Put Off
Medical Treatment, Gallup, Dec. 2017. Available at
http://news.gallup.com/poll/223277/women-likely-men- put-offmedical-treatment.aspx.

25

Karpman, M. et al. Time for a Checkup: Changes in Health Insurance Coverage, Health Care Access and Affordability, and
Plan Satisfaction among Parents and Children between 2013 and
2015, Urban Institute, Jan. 2016. Available at http://hrms.urban.org/briefs/changes_coverage_access_affordability_parents_
children.pdf.

26

292
in Massachusetts, upon which the Affordable Care Act
was modeled, have found that coverage expansion in
that state led to reported improvements in physical
and mental health, as well as reductions in mortality.27 A Harvard study found that expanded coverage
under the Affordable Care Act was linked to major improvements in the diagnosis and treatment of chronic
diseases such as hypertension, diabetes, and high cholesterol.28
32. In addition to improving access to care, health
insurance also provides financial security, particularly in the event of a large, unanticipated medical expense. Unfortunately, in this country, health care is
extremely expensive. For example, the average cost of
a single MRI is $1,119. An uncomplicated hospital labor and delivery costs an average of $10,808, while a
C-section will average over $16,000. One course of
treatment for colon cancer will cost between $21,000
and $52,000. Yet over half of American families report
that they would not be able to afford to pay just $500
in cash for an unexpected expense.29
Van Der Wees, PJ, et al. Improvements In Health Status After
Massachusetts Health Care Reform, National Center for Biotechnology Information, Dec. 2013. Available at https://www.ncbi
.nlm.nih.gov/pubmed/24320165

27

Hogan DR et al. Estimating The Potential Impact Of Insurance
Expansion On Undiagnosed And Uncontrolled Chronic Conditions,
Health
Affairs,
Sept.
2015.
Available
at
https://www.healthaffairs.org/doi/abs/10.1377/hlthaff.2014.1435.

28

Picchi A, A $500 Surprise Expense Would Put Most Americans
into Debt, CBS MoneyWatch, Jan. 2017. Available at
https://www.cbsnews.com/news/most-americans-cant-afford-a500-emergency-expense/.

29

293
33. Research suggests that the Affordable Care
Act is helping to improve the financial security of the
newly insured. Survey data show that the number of
families who say they are having problems paying
medical bills has fallen dramatically since 2013, particularly among low- and moderate-income families.30
Other studies have shown that the Affordable Care
Act’s Medicaid expansion has led to reductions in the
amount of debt sent to collection agencies and improvements in families’ credit scores.31
34. The Affordable Care Act has also helped reduce uncompensated care costs borne by providers.
For example, hospital-based uncompensated care fell
by over 25 percent between 2013 and 2015, and in
Medicaid expansion states it has fallen by closer to 50
percent.32
35. Unfortunately, much of the progress under the
Affordable Care Act is at risk due to recent federal policy decisions designed to roll back key provisions of the
law and bypass consumer protections. Ultimately,
some of these decisions are likely to result in many
consumers facing higher premiums and fewer plan
choices in the individual insurance market.
Karpman, M and Long, S. 9.4 Million Fewer Families Are Having Problems Paying Medical Bills, Urban Institute, May 2015.
Available at http://hrms.urban.org/briefs/9-4-Million-FewerFamilies-Are-Having-Problems-Paying- Medical-Bills.pdf.

30

Hu, L. et al. The Effect of the Patient Protection and Affordable
Care Act Medicaid Expansions on Financial Wellbeing, National
Bureau of Economic Research, Feb. 2018. Available at
http://www.nber.org/papers/w22170.

31

Schubel, J and Broaddus, M. Medicaid Waivers That Create
Barriers to Coverage Jeopardize Gains, May 2018. Available at
https://www.cbpp.org/research/health/uncompensated-carecosts-fell-in-nearly-every- state-as-acas-major-coverage.

32

294
36. A stable health insurance market depends on
a large risk pool that is reasonably balanced between
healthy individuals and sicker ones. The Affordable
Care Act had a “three-prong” strategy designed to facilitate such a stable insurance market by requiring
all participating insurers to play by the same rules
and, through subsidies and the individual mandate,
encourage healthy people to become insured before
they get sick.
37. The Affordable Care Act marketplaces had a
rocky early start, but that was not unexpected given
that insurers had little knowledge of the new population of people they were covering, leading many to
make significant adjustments to their business strategy as they gained more experience and data about
their enrollees. In addition, unanticipated Congressional actions, such as the dramatic reduction in funding for a key premium stabilization program (the “risk
corridor” program) resulted in significant financial
losses for many insurers.
38. Specifically, the Affordable Care Act included
three programs intended to ensure that premiums remain stable, both during the initial years of the law’s
implementation and over the long term. These are the
risk corridors, reinsurance, and risk adjustment programs – often called the “3Rs.” The risk corridor program in particular was a temporary program designed
to provide a buffer for insurers that did not adequately
price their plans due to a lack of data about the health
risk of the newly insured population in the Affordable
Care Act marketplaces.
39. The risk corridor program works by requiring
the federal government (through the U.S. Department
of Health & Human Services or HHS) to partially re-

295
imburse insurers whose premium revenue was insufficient to pay claims. Insurers whose premium revenue exceeded their claims were required to pay HHS
a fraction of the excess premium.33
40. In the first two years of the Affordable Care
Act marketplaces, many insurers set relatively low
premiums in order to capture more market share. In
late 2014, long after insurers’ pricing decisions were
made, a Congressional appropriations bill dramatically limited the funds available to HHS to compensate insurers for significant losses.34
41. Because more insurers experienced losses
than gains in the first two years of the marketplaces,
HHS was able to pay insurers only 12.6 percent of the
risk corridor payments they were owed.35 This decision
had a serious financial impact on insurers, resulting
in an estimated $12.3 billion in losses,36 and likely accelerated the demise of several small, non-profit COOP health plans.37
33

42 U.S.C. §18062.

34

Pub. L. No. 113-235.

35 Department of Health and Human Services, Risk Corridors
Payment Proration Rate for 2014, Oct. 1, 2015,
https://www.cms.gov/CCIIO/Programs-and-Initiatives/PremiumStabilization-Programs/Downloads/RiskCorridorsPaymentProrationRatefor2014.pdf.

Small L. Government's unpaid risk corridor tab swells to
$12.3B,
FierceHealthcare,
Nov.
2017.
Available
at
https://www.fiercehealthcare.com/aca/government-s-unpaid-risk
-corridor-tab-swells-to- 12-3b.

36

Corlette S, Miskell S, Lerche J, Lucia K. Why are Many COOPs Failing? How New Non-profit Health Plans Have Responded
to Market Competition, The Commonwealth Fund, Dec. 2015.

37

296
42. The loss of risk corridor funds contributed to
the significant premium increases many insurers implemented for plan year 2016. However, it is noteworthy that premiums in the individual market were still
often below or close to those in the employer-sponsored
insurance market in 2016. 38 Given that Affordable
Care Act individual market benefit plans are designed
to be similar to a typical employer plan, this suggests
that during the first two years of the Affordable Care
Act marketplaces (2014 and 2015), many insurers had
underpriced their products in an effort to gain market
share. Many of these same insurers subsequently left
the Affordable Care Act market because they were unable to compete with insurers that had been more successful in projecting a premium rate that would allow
them to cover their costs.39
43. Going into plan year 2017, financial data from
insurers demonstrate that the markets were begin-

Available
at
http://www.commonwealthfund.org/~/media/files/publications/fundreport/2015/dec/1847_corlette_why_
are_many_coops_failing.pdf.
Holahan J, Blumberg LJ, Clemans-Cope L, McMorrow S, and
Wengle E. The Evidence on Recent Health Care Spending Growth
and the Impact of the Affordable Care Act, The Urban Institute
and Robert Wood Johnson Foundation, May 2017. Available at
https://www.urban.org/sites/default/files/publication/90471/
2001288-the_evidence_on_recent_health_care_spending_growth
_and_the_impact_of_the_afforda ble_care_act.pdf.

38

See e.g., Sprung A, Why Insurers Thrive (Or Dive) in ACA Marketplaces, healthinsurance.org, Apr. 2016. Available at
https://www.healthinsurance.org/blog/2016/04/28/why-insurersthrive-or-dive-in-aca- marketplaces/.

39

297
ning to stabilize and insurers were gaining their footing.40 Indeed, in 2017 the Congressional Budget Office
concluded that the Affordable Care Act’s insurance
markets would likely be stable in most places if left
unchanged.41 Consistent with this projection, 2017 appears to have been a profitable year for most individual market insurers.42
44. Unfortunately, my own review of insurers premium rate justifications (referred to as actuarial memoranda) for plan years 2018 and 2019 found that
recent policy changes are putting the stability of the
individual market at risk.43 Specifically:
Banerjee D. The ACA Individual Market: 2016 Will Be Better
Than 2015, But Achieving Target Profitability Will Take Longer,
S&P Global Ratings, Dec. 2016. See also Herman B. How some
Blues made the ACA work while others failed. Modern
Healthcare. October 15, 2016. Available at www.modernhealthcare.com/article/20161015/MAGAZINE/310159989.

40

H.R. 1628 American Health Care Act of 2017, Congressional
Budget Office, May 2017. Available at https://www.cbo.gov/system/files/115th-congress-2017-2018/costestimate/
hr1628aspassed.pdf.
41

42 Cox C, Semanskee A, Levitt L. Individual Insurance Market
Performance in 2017, Kaiser Family Foundation, May 2018.
Available at http://files.kff.org/attachment/Issue-Brief-Individual-Insurance-Market-Performance-in- 2017.

See Corlette S. The Effects of Federal Policy: What Early Premium Rate Filings Can Tell Us About the Future of the Affordable
Care Act, CHIRblog, May 2018.

43

Available at http://chirblog.org/what-early-rate-filings-tell-usabout-future-of-aca/; Corlette S. We Read Actuarial Memoranda
so You Don’t Have to: Trends from Early Health Plan Rate Filings, CHIRblog, Jun. 2017. Available at http://chirblog.org/weread- actuarial-memoranda-so-you-dont-have-to/; Corlette S.
Proposed Premium Rates for 2018: What do Early Insurance

298
45. The Trump administration’s decision in October of 2017 to cut off reimbursement to insurers for
low cost-sharing plans (called cost-sharing reduction
or CSR plans) resulted in significant premium increases in 2018. Additionally, the uncertainty about
that decision, which the President had been threatening for months, was a contributing factor for some insurers to either exit the marketplaces or reduce their
service areas.
46. For example, in its 2018 rate filing in Virginia,
Anthem informed the state: “A lack of CSR funding introduces a level of volatility which compromises the
ability to set rates responsibly. It has been estimated
that lack of CSR funding could increase premium
rates for Silver plans an additional 20 percent…” Anthem went on to say that if CSR reimbursements were
not guaranteed for 2018, it would consider exiting the
marketplaces, reducing service areas, or requesting
additional rate increases.
47. Additionally, although Congress did not zero
out the individual mandate penalty until 2019, many
insurers increased premiums for 2018 coverage on the
expectation that the Trump administration would not
enforce the individual mandate. For example, in its
Maryland filing for 2018, CareFirst Blue Cross
BlueShield stated: “we have assumed that the coverage mandate introduced by the ACA will not be enforced in 2018 and that this will have the same impact
as repeal. Based on industry and government esti-

Company Filings Tell Us? CHIRblog, May 2017. Available at
http://chirblog.org/proposed-premium-rates-for-2018-what-doearly-filings- tell-us/.

299
mates as well as actuarial judgment, we have projected that this will cause morbidity to increase by an
additional 20%.”
48. Other insurers are projecting the effect of the
individual mandate repeal to be felt in 2019. For example, Kaiser Foundation Health Plan projects that
premiums will need to increase 32.1 percent in Virginia. “The primary cause,” the company reports, is
“related to nonenforcement of the Individual Mandate.”
49. Similarly, insurers increased premiums due to
the Trump administration’s decision to decrease
spending on marketplace advertising and consumer
assistance, which are critical for educating and enrolling the healthy uninsured. For example, a Cigna filing for 2018 noted that they expected a smaller and
sicker population in their risk pool due to the lower
“overall awareness of individual health insurance
products.”
50. Going into 2019, insurers are also predicting
that their risk pools will be smaller and sicker due to
“potential movement into other markets.” These markets include association health plans and short-term,
limited duration insurance, both of which are exempt
from many of the Affordable Care Act’s consumer protections and are being promoted by the Trump administration as cheaper alternative coverage. For
example, insurers such as Optima and CareFirst in
Virginia note that the “availability of association
health plans and expanded availability of short-term
medical plans” was affecting their rate projections,
with CareFirst adding 10 percent to its premium increase as a result.

300
51. Individuals who are eligible for the Affordable
Care Act’s premium tax credits are largely insulated
from these premium increases because the tax credit
rises, dollar for dollar, with the increase in premium
for silver level health plans. The people who suffer the
most from these premium increases are the working
middle class: entrepreneurs who run their own businesses, freelancers and consultants, independent contractors, farmers and ranchers, and early retirees who
earn too much to qualify for the Affordable Care Act’s
premium subsidies.
52. Granting the plaintiffs’ request to enjoin the
Affordable Care Act amounts to an effort to repeal the
law without any clear public policy to replace it. Congress explicitly rejected repealing the Affordable Care
Act without a replacement last year. This is because
uprooting a complex law that has been in place for
over eight years, touches almost every facet of our
health care system, and includes many provisions
with widespread bipartisan support (such as allowing
young adults to stay on their parents’ plans until age
26, closing the Medicare drug benefit “donut hole,” and
expanding Medicaid) will inevitably result in dramatic
negative consequences, some of which are predictable,
and outlined below.
53. First, millions of individuals will lose their insurance coverage. In 2017, the Congressional Budget
Office and Joint Committee on Taxation estimated
that repealing the Affordable Care Act without implementing a replacement would result in 32 million people losing coverage by 2026, with 17 million people
losing coverage in the first year after repeal.44
44

Congressional Budget Office. Cost Estimate: H.R. 1628,

301
54. Second, those remaining in the individual
market would see their premiums roughly double. The
Congressional Budget Office estimated that individual market premiums would increase by 25 percent in
the first year after repeal, by 50 percent by 2020, and
almost double by 2026.45 These premium increases are
largely the result in the elimination of the individual
mandate and the Affordable Care Act premium subsidies, resulting in fewer healthy individuals enrolling
in individual market coverage and a costlier risk pool
for insurers.
55. Third, even a partial repeal of the provisions
of the Affordable Care Act would primarily harm
working middle class Americans. The majority of people losing coverage – as many as 82 percent – would
be in working families. Over half would be non-Hispanic whites, and up to 80 percent would not have college degrees. Thirty-eight percent would be young
adults between ages 18 and 34.46
56. Fourth, repealing the Affordable Care Act will
have significant negative consequences for public
health and safety. For example, the Pennsylvania
Budget and Policy Center found that repealing the
Medicaid expansion and Affordable Care Act tax
Obamacare Repeal Reconciliation Act of 2017, Jul. 2017. Available at https://www.cbo.gov/system/files/115th-congress-20172018/costestimate/52939- hr1628amendment.pdf.
45

Id.

Blumberg L, Buettgens M, Holahan J. Implications of Partial
Repeal of the ACA Through Reconciliation, Urban Institute, Dec.
2016. Available at https://www.urban.org/sites/default/files/publication/86236/2001013-the-implications-of-partial-repeal-of-theaca-through-reconciliation_1.pdf.

46

302
credit subsidies would result in 3,425 premature
deaths each year in that state alone. 47 Researchers
from Harvard and New York University found that repealing the Affordable Care Act would result in 1.25
million Americans with serious mental conditions losing coverage. They further estimate that 2.8 million
Americans with a substance use disorder, including
roughly 222,000 with an opioid-related disorder,
would lose coverage.48
57. Fifth, repealing the Affordable Care Act will
drive insurance companies out of the individual market. The Congressional Budget Office estimated that
legislation repealing the Affordable Care Act would
leave an estimated three-fourths the nation’s population in areas where no insurers are willing to offer
nongroup coverage by 2026. 49 These estimates align
with my own research at Georgetown, in which colleagues and I conducted interviews with 13 health insurance company executives participating in the
individual markets in 28 states. In those interviews,
executives told us they would “seriously consider” a
market withdrawal; they further told us that a bill repealing the Affordable Care Act without an immediate
Stier M. Devastation, Death, and Deficits: The Impact of ACA
Repeal on Pennsylvania, Pennsylvania Budget and Policy Center,
Jan.
2017.
Available
at
https://pennbpc.org/sites/
pennbpc.org/files/Impact_of_ACA_Repeal_Final.pdf

47

Frank RG, Glied SA. Keep Obamacare to Keep Progress on
Treating Opioid Disorders and Mental Illnesses, The Hill, Jan.
2017.
Available
at
http://thehill.com/blogs/pundits-blog/
healthcare/313672-keep-obamacare-to-keep- progress-on-treating-opioid-disorders.
48

Congressional Budget Office. Cost Estimate: H.R. 1628,
Obamacare Repeal Reconciliation Act of 2017, Jul. 2017.

49

303
replacement would destabilize the market and create
“significant” downside financial risk for those companies remaining.50
58. Sixth, an increase in the uninsured will impose significant financial harm on hospitals and other
health care providers. For example, repealing the Affordable Care Act without a replacement was estimated to cost the nation’s public hospitals $54.2 billion
in uncompensated care charges between 2018 and
2026. 51 The Iowa Fiscal Partnership estimated that
Affordable Care Act repeal would result in a $10 billion increase in the cost of uncompensated care in that
state alone, with most of the burden borne by rural
hospitals.52
59. Seventh, repeal of the Affordable Care Act
would lead to significant negative economic consequences. For example, repealing just the Medicaid expansion and Affordable Care Act tax credits would
result in an estimated loss of 2.6 million jobs across
the country.53 State-specific analyses align with these
Corlette S, Lucia K, Giovannelli J, Palanker D. Uncertain Future for Affordable Care Act Leads Insurers to Rethink Participation, Prices, Georgetown University and Robert Wood Johnson
Foundation, Jan. 2017. Available at https://georgetown.
app.box.com/file/127781433019.

50

America’s Essential Hospitals. ACA Replacement Must Protect
Vulnerable People, Communities, Feb. 2017. Available at
https://essentialhospitals.org/wp-content/uploads/2017/02/UCCpolicy-brief-February-2017-FINAL.pdf.

51

Fisher P. Repealing ACA: Pushing thousands of Iowans to the
brink, Iowa Fiscal Partnership, Jan. 2017. Available at
http://www.iowafiscal.org/wp/wp-content/uploads/2017/01/
170119-IFP-ACA.pdf.

52

53

Ku L, Steinmetz E, Brantley E, Bruen B. Repealing Federal

304
findings. For example, the University of California at
Berkley’s Center for Labor Research and Education
found that just a partial repeal of the Affordable Care
Act would cause California to suffer 209,000 lost jobs,
$20.3 billion in lost gross domestic product, and $1.5
billion lost in state and local tax revenue.54 Arizona
State University’s Seidman Research Institute similarly found that if Arizona lost federal Affordable Care
Act funding, it would leave a $5 billion dent in the
state’s economy, cost over 62,000 jobs state wide, and
lower personal income by almost $3.5 billion.55
60. Eighth, and finally, a full repeal of the Affordable Care Act would not only harm the individual insurance market. Other programs would be harmed as
well. For example, repealing the law is estimated to
accelerate the insolvency of the Medicare Hospital Insurance Trust Fund (Part A) by five years, from 2026
to 2021.56
Health Reform: Economic and Employment Consequences for
States, The Commonwealth Fund, Jan. 2017. Available at
http://www.commonwealthfund.org/~/media/files/publications/issue-brief/2017/jan/ku-aca-repeal-job-loss/1924_ku_repealing_
federal_hlt_reform_ib.pdf.
Lucia L and Jacobs K. California’s Projected Economic Losses
under ACA Repeal, UC Berkeley Center for Labor Research and
Education, Dec. 2016.

54

Seidman Research Institute, W.P. Carey School of Business.
Economic Impact on Arizona Of Repeal of Funding Provisions Of
the Affordable Care Act, Arizona State University, Jan. 2017.
Available at http://azchildren.org/wp-content/uploads/2017/05/
ACA-Impact-Feb-6-.pdf.

55

Committee for a Responsible Federal Budget. Full Repeal of
Obamacare Would Hasten Medicare's Insolvency, Apr. 2017.
Available at http://www.crfb.org/blogs/full-repeal-obamacarewould-hasten-medicares-insolvency.

56

305
61. The plaintiff’s suggestion that the Affordable
Care Act be enjoined ignores the serious negative consequences of an action that would be tantamount to
repealing the law without any clear federal policy to
replace it. When such a strategy was proposed last
year to Congress, it was rejected because of the serious
economic and public health barbs that would result,
including: millions of Americans losing coverage, premiums doubling, insurers exiting the market, and the
costs of uncompensated care putting providers at serious financial risk. Repeal-without-replace would also
result in heavy job and productivity losses. These are
serious adverse repercussions that should not be
taken lightly.
I declare under penalty of perjury that the foregoing is
true and correct and of my own personal knowledge.
Executed on June 5, 2018 in Washington, D.C.
/s/ Sabrina Corlette
Sabrina Corlette
Research Professor
Center on Health Insurance Reforms

306
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: June 7, 2018]
_______
CONGRESSIONAL BUDGET OFFICE, REPEALING THE INDIVIDUAL HEALTH INSURANCE
MANDATE: AN UPDATED ESTIMATE
(NOV. 2017)
_______

307

308

309

310

311

312
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: June 7, 2018]
_______
FEDERAL DEFENDANTS’ MEMORANDUM IN
RESPONSE TO PLAINTIFFS’ APPLICATION
FOR PRELIMINARY INJUNCTION
_______
INTRODUCTION
In the Affordable Care Act (ACA), Pub. L. No. 111148, 124 Stat. 119 (2010), Congress fundamentally altered the American health-insurance system by imposing a “[r]equirement” for most Americans “to
maintain minimum essential coverage.” 26 U.S.C.
§ 5000A(a). In light of the basis on which the Supreme
Court previously held that this “individual mandate”
survived constitutional scrutiny, the United States
agrees with the Plaintiffs that Section 5000A(a) must
now be struck down as unconstitutional in light of the
amendments that were made to it in the Tax Cuts and
Jobs Act (TCJA), Pub. L. No. 115-97, 131 Stat. 2054
(2017). Two years after the ACA’s passage, the Supreme Court held that the individual mandate in Section 5000A(a) exceeded the scope of Congress’s
commerce power. National Fed’n of Indep. Bus. v.

313
Sebelius (NFIB), 567 U.S. 519, 572 (2012) (“The Court
today holds that our Constitution protects us from federal regulation under the Commerce Clause so long as
we abstain from the regulated activity.”). The Court
nevertheless held that the provision “may reasonably
be characterized as a tax” because, among other
things, it “yields the essential feature of any tax” in
that “[i]t produces at least some revenue for the Government.” Id. at 564; see id. at 574. Chief Justice Roberts’ controlling opinion made clear, however, that
“the statute reads more naturally as a command to
buy insurance than as a tax,” and that “it is only because [courts] have a duty to construe a statute to save
it, if fairly possible, that [the provision] can be interpreted as a tax” given the revenue raised. Id. at 574;
accord id. at 562–63 (opinion of Roberts, C.J.) (“The
most straightforward reading of the mandate is that it
commands individuals to purchase insurance,” but
there is a savings construction under which it “can be
regarded as establishing a condition . . . that triggers
a tax” in light of “the required payment to the IRS.”).
Critically, however, the Supreme Court’s saving
construction of the individual mandate as a tax is no
longer available. The TCJA eliminated the penalty for
failing to purchase minimum essential coverage
(starting in 2019), but left untouched the statutory
“[r]equirement to maintain minimum essential coverage” in Section 5000A(a). See Pub. L. No. 115-97,
§ 11081, 131 Stat. at 2092. The individual mandate
thus still exists, but it will no longer be fairly possible
to describe it as a tax because it will no longer generate any revenue.
As of 2019, therefore, the individual mandate will
be unconstitutional under controlling Supreme Court
precedent holding that “[t]he Federal Government

314
does not have the power to order people to buy health
insurance.” NFIB, 567 U.S. at 574‒75 (opinion of Roberts, C.J.); accord id. at 547‒561; id. at 649‒60 (opinion of Scalia, Kennedy, Thomas, Alito, JJ. (“joint
dissent”)). Because the TCJA eliminated the basis for
the Court’s saving construction in NFIB, the individual mandate is untethered to any source of constitutional authority. Furthermore, as the United States
explained to the Court in NFIB, Congress’s own “findings establish that the guaranteed-issue and community-rating provisions are inseverable from the
minimum coverage provision.” Br. For Resp’t (Severability) at 45, NFIB, No. 11-393 (citing 42 U.S.C.
§ 18091(2)(I)). The remainder of the ACA, however,
can stand despite the invalidation of those provisions.
See id. at 26-44.
Although Plaintiffs are likely to succeed in part on
the merits, they are not entitled to a preliminary injunction. As Plaintiffs agree that the mandate will not
become unconstitutional until the tax is eliminated in
2019, immediate relief is not warranted. That said, because this is a pure question of law on which the Plaintiffs and Defendants do not disagree, this Court should
consider construing Plaintiffs’ motion as a request for
summary judgment and then entering a declaratory
judgment that the ACA’s provisions containing the individual mandate as well as the guaranteed-issue and
community-rating requirements will all be invalid beginning on January 1, 2019.
BACKGROUND
A.

The Affordable Care Act

The ACA established a framework of economic regulations and incentives concerning the health-insurance and healthcare industries. It spans more than

315
900 pages of the session laws and is divided into nine
titles. Many of the ACA’s more familiar major provisions relating to the regulation of health insurance are
in Titles I and II. There, among other things, Congress:


Required certain individuals to maintain insurance. As detailed below, the ACA required most
Americans to maintain health insurance meeting specified standards, subject to a monetary
exaction for failure to do so. 26 U.S.C. § 5000A.



Subjected certain employers to tax consequences
concerning sponsorship of insurance. The ACA
imposed tax liabilities under certain circumstances on large employers that do not offer a
minimum mandated level of coverage to fulltime employees, 26 U.S.C. § 4980H—a provision sometimes referred to as the “employer
mandate”—and established tax incentives for
eligible small businesses to purchase health insurance for their employees, 26 U.S.C. § 45R.



Created health insurance exchanges. The ACA
created health insurance “exchanges” where
qualified health plans could be purchased by individuals and small businesses. 42 U.S.C.
§§ 18031–18044. A State may choose whether
or not to set up an exchange; if it elects not to,
the federal government will establish one. Id.
§ 18041(b), (c).



Imposed numerous insurance-market regulations. Two of the insurance market regulations
prohibit insurers from either denying coverage
because of an enrollee’s medical condition or
history (“guaranteed issue”), id. §§ 300gg-1,

316
300gg-3, 300gg-4(a), or charging higher premiums because of an applicant’s or enrollee’s medical condition or history (“community rating”),
id. §§ 300gg(a)(1), 300gg-4(b). Among other requirements, the ACA also:
o Required insurers providing family coverage
to continue covering adult children until age
26. Id. § 300gg-14(a).
o Barred insurers from placing lifetime dollar
caps on benefits. Id. § 300gg-11.
o Prohibited insurers from canceling insurance absent fraud or intentional misrepresentation. Id. § 300gg-12.
o Established medical loss ratios for insurers—i.e., minimum percentages of premium
revenues that insurers must spend on clinical services and activities that improve
health-care quality. See id. § 300gg-18(b).
o Required plans to cover certain “essential
health benefits.” Id. § 18022.


Provided tax incentives to subsidize certain individuals’ purchase of insurance. The ACA established a system of tax credits for eligible
individuals (i.e., those with income between
100% and 400% of the federal poverty level) to
purchase health insurance. 26 U.S.C. § 36B.



Expanded the scope of the Medicaid program.
The newly eligible are primarily nonelderly
adults without dependent children with income

317
below a certain threshold.
§ 1396a(a)(10)(A)(i)(VIII).1

42

U.S.C.

Perhaps foremost among the ACA’s provisions is
the individual mandate to maintain insurance. 26
U.S.C. § 5000A. Subsection (a) of that provision imposes a “[r]equirement to maintain minimum essential coverage” stating that certain individuals “shall .
. . ensure” that they are “covered under minimum essential coverage.” Id. § 5000A(a). Subsection (b) of that
provision then imposes “a penalty,” called a “shared
responsibility payment,” on certain taxpayers who
“fail[] to meet the requirement of subsection (a).” Id.
§ 5000A(b). And subsection (c) provides “[t]he amount
of the penalty imposed.” Id. § 5000A(c). Notably, subsection (d) provides that certain individuals—i.e., people with religious exemptions, individuals not lawfully
present in the United States, and incarcerated individuals—are entirely exempt from the requirement to
maintain minimum essential coverage, id. § 5000A(d),
whereas subsection (e) provides that certain other individuals remain subject to that requirement but are
exempt from the penalty for noncompliance, id.
§ 5000A(e) (i.e., those who cannot afford coverage, taxpayers with income below the filing threshold, members of Indian tribes, those experiencing short
coverage gaps, and individuals determined by the Secretary of Health and Human Services to have suffered

1 The ACA as originally enacted required States either to expand
their Medicaid programs in this manner or lose all federal Medicaid funding. The Supreme Court in NFIB invalidated the requirement and held that States may elect to decline this
expansion without jeopardizing funding for their existing Medicaid programs. 567 U.S. at 575–88.

318
a hardship with respect to obtaining coverage). Finally, subsection (f) defines “minimum essential coverage” to mean various types of insurance coverage,
including government-sponsored programs such as
Medicare and Medicaid, id. § 5000A(f)(1)(A), as well as
eligible employer-sponsored plans and plans offered in
the non-group market, id. § 5000A(f)(1)(B)–(D); 42
U.S.C. § 18011.2
The ACA contains a specific finding by Congress
that the “individual responsibility requirement” to
maintain insurance is “essential” to “creating effective
health insurance markets in which improved health
insurance products that are guaranteed issue and do
not exclude coverage of pre-existing conditions can be
sold,” because “many individuals would wait to purchase health insurance until they needed care” “if
there were no requirement.” 42 U.S.C. § 18091(1),
(2)(I). More generally, Congress found that “[t]he re-

2

The definition of “minimum essential coverage” in Section
5000A(f) also serves a variety of other purposes throughout the
Internal Revenue Code. For example, a large employer that fails
to offer its employees minimum essential coverage is in certain
circumstances subject to a tax. 26 U.S.C. § 4980H(a), (b). An individual’s eligibility for minimum essential coverage governs his
or her eligibility for a tax credit for the purchase of insurance. Id.
§ 36B(b)(3). A “person who provides minimum essential coverage”
is required to make an informational return with the IRS. Id.
§ 6055. Large employers must also make a return describing
whether they offer minimum essential coverage to their employees. Id. § 6056. The taxability of certain health insurance reimbursement arrangements for employees depends on the
definition of minimum essential coverage. Id. § 106(g). An excise
tax on high-cost health coverage also turns on the concept of minimum essential coverage, id. § 4980I, as does the deductibility of
certain business expenses by health insurance providers, id.
§ 162(m)(6)(C)–(D).

319
quirement is an essential part” of the ACA’s “regulation of the health insurance market.” Id.
§ 18091(2)(H); see also id. § 18091(2)(C)–(G), (J) (identifying other ways in which the requirement furthered
the ACA’s objectives).
Beyond Titles I and II, the ACA addresses numerous other issues. For example:


Title III amended Medicare. Among other provisions, it revised the Medicare Part D prescription drug program, § 3301; modified certain
Medicare reimbursement rates for hospitals,
§ 3133; and required quality reporting for longterm care hospitals, inpatient rehabilitation
hospitals, and hospice programs, § 3004.



Title IV funded existing prevention programs
and created new prevention programs. For example, it created the National Prevention,
Health Promotion and Public Health Council,
§§ 4001, 4002; required that chain restaurants
disclose nutritional information, § 4205; and
funded school-based health clinics, § 4101.



Title V sought to expand the supply of health
care workers, including through modifications
to the federal student loan program, § 5201, and
a variety of subject-specific grants.



Title VI enacted anti-fraud requirements for facilities participating in Medicare and Medicaid,
including screening providers, § 6401, and programs to reduce elder abuse.



Title VII expanded the 340B drug discount program, § 7101, and established a process for FDA
licensing of biosimilar products, § 7002.

320


Title VIII established a voluntary long-term
care insurance program, § 8002 (which has
since been repealed, see Pub. L. No. 112-240,
§ 642(a), 126 Stat. 2313, 2358 (2013)).



Title IX addressed various taxes, including an
excise tax on high-cost plans, § 9001, which has
not yet taken effect due to postponements, see
Pub. L. No. 114-113, § 101(a), 129 Stat. 2242,
3037 (2015); Pub. L. No. 115-120, § 4002, 132
Stat. 28, 38 (2018).

B.

The Supreme Court’s Decision in NFIB v.
Sebelius

In the years immediately following the ACA’s enactment, a variety of challenges to its constitutionality
were filed in federal court, many of which focused on
whether Congress had the power under Article I of the
Constitution to enact Section 5000A. That question
was resolved by the Supreme Court in NFIB, a case
brought by a small-business association and several
individuals as well as 26 States, including 16 of the
State Plaintiffs here. See 567 U.S. at 520.
In NFIB, the Supreme Court held that although
Section 5000A was not authorized by Congress’s commerce power, it was a valid exercise of the taxing
power. As Chief Justice Roberts explained in his controlling opinion, in light of the statutory language that
individuals “‘shall’” maintain coverage, the “most
straightforward reading of the mandate is that it commands individuals to purchase insurance.” 567 U.S. at
562 (quoting 26 U.S.C. § 5000A(a)). Furthermore, the
Chief Justice agreed with the four dissenters that the
“Commerce Clause does not authorize such a command,” id. at 574; accord id. at 547–561; id. at 649–60
(joint dissent)—a holding of the Court that was

321
acknowledged in the portion of the Chief Justice’s
opinion that was joined by a majority of the Court. Id.
at 572 (“The Court today holds that our Constitution
protects us from federal regulation under the Commerce Clause so long as we abstain from the regulated
activity.”). Nevertheless, because “[u]nder the mandate, if an individual does not maintain health insurance, the only consequence is that he must make an
additional payment to the IRS when he pays his
taxes,” Chief Justice Roberts agreed with the government that “the mandate can be regarded as establishing a condition . . . that triggers a tax,” given the
obligation to adopt “a saving construction” “if fairly
possible.” Id. at 562–63 (citing 26 U.S.C. § 5000A(b)),
574–75. A majority of the Court agreed that Section
5000A so construed could be upheld under Congress’s
taxing power. Id. at 570. But critical to the Court’s
saving construction and constitutional holding was
the fact that the individual mandate’s shared responsibility payment “yield[ed] the essential feature of any
tax: [i]t produces at least some revenue for the Government.” Id. at 564.
C.

The Tax Cuts and Jobs Act

In the TCJA, Congress enacted a variety of amendments to the Internal Revenue Code. As relevant here,
the Act amended Section 5000A(c) by reducing to $0
the monetary exaction imposed for noncompliance
with the “[r]equirement to maintain minimum essential coverage” for tax-years 2019 and beyond. See Pub.
L. No. 115-97, § 11081, 131 Stat. at 2092. Under the
ACA, the tax penalty for failing to maintain minimum
essential coverage for those years was to be the
greater of 2.5% of household income or $695. The
TCJA amended those figures to “Zero percent” and
“$0.” Id. The TCJA leaves the rest of Section 5000A

322
intact, including the “[r]equirement” in subsection (a)
that applicable individuals “shall … ensure” they are
covered by “minimum essential coverage.” Congress
also left untouched the congressional findings in Section 18091 that the “individual responsibility requirement” to maintain insurance was “essential” to the
guaranteed-issue and community-rating insurance reforms. See 42 U.S.C. § 18091(2)(H)‒(I).
D. This Case
Plaintiffs are 20 States and two individuals. Intervenors-Plaintiffs are two employers. Among other
things, the individual plaintiffs have declared that the
individual mandate legally obligates them to maintain
minimum essential coverage, but that they wish instead to purchase non-ACA-compliant insurance that
better reflects their actuarial risks. See App’x in Support of Application for Preliminary Injunction, Dkt.
No. 41, at App.004 (“My preference would be to purchase reasonably-priced insurance coverage that is
consumer-driven in accordance with my actuarial
risk.”); App.008 (“The ACA prevents me from obtaining care from my preferred health care providers and
has greatly increased my health insurance costs. I
would purchase reasonably priced insurance coverage
that allowed me to access care locally from my preferred service providers, were I not limited to the plans
provided through the federal health insurance marketplace.”).
The complaint and the complaint-in-intervention
raise five claims. Their central contention (Count 1) is
that Section 5000A, as amended by the TCJA, falls
outside of Congress’s Article I powers and is inseverable from the rest of the ACA, which they claim is thus
invalid in its entirety. Am. Compl., Dkt. No. 27, ¶¶ 55–
57; Complaint-in-Intervention, Dkt. No. 81-1, ¶¶ 54–

323
66. In Count 2, Plaintiffs claim that if Section 5000A
is unconstitutional, then “the rest of the ACA is irrational” and thus violates due process. Am. Compl.
¶ 65; Complaint-in-Intervention ¶¶ 71. In Count 3,
they claim that if Section 5000A is unconstitutional,
then the rest of the ACA “is outside the powers delegated to the United States by the Constitution” and
thus violates the Tenth Amendment. Am. Compl. ¶ 73;
Complaint-in-Intervention ¶ 79. In Count 4, Plaintiffs
assert that if the ACA is invalid in its entirety, then
“all regulations” issued under its authority must be
declared invalid. Am. Compl. ¶ 81; Complaint-in-Intervention ¶ 87. In Count 5, Plaintiffs assert an entitlement to injunctive relief. Am. Compl. ¶ 85;
Complaint-in-Intervention ¶ 91. Because Plaintiffs’
preliminary injunction brief solely relies (pp. 21–40)
on their Count 1 claim that Section 5000A as amended
by the TCJA is unconstitutional and inseverable from
the rest of the ACA, that is the only claim to which
Defendants respond here.
LEGAL STANDARDS
“A preliminary injunction is an extraordinary remedy never awarded as of right.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 24 (2008). A party seeking a
preliminary injunction must show: “(1) a substantial
likelihood of success on the merits, (2) a substantial
threat of irreparable injury if the injunction is not issued, (3) that the threatened injury if the injunction is
denied outweighs any harm that will result if the injunction is granted, and (4) that the grant of an injunction will not disserve the public interest.” Jordan v.
Fisher, 823 F.3d 805, 809 (5th Cir. 2016). Due to its
“extraordinary” nature, no preliminary injunction
should be “granted unless the party seeking it has

324
clearly carried the burden of persuasion on all four requirements.” Id. at 221 (citation omitted).
ARGUMENT
The United States agrees with Plaintiffs that the
ACA’s individual mandate, as amended by the TCJA,
is unconstitutional. Because Section 5000A(a) can no
longer fairly be described as a tax after the TCJA
amendment takes effect in 2019, the saving construction adopted by NFIB will no longer be available. Instead, Section 5000A(a) must be interpreted per its
plain text as a freestanding legal mandate to maintain
insurance, which NFIB squarely held exceeds the
powers of Congress. And as the United States explained in NFIB, the individual mandate cannot be
severed from the guaranteed-issue and communityrating provisions, though those three provisions can
be severed from the rest of the ACA. Nonetheless, as
explained below, preliminary injunctive relief should
not be issued; instead, this Court should simply enter
a declaratory judgment.
I.

THE INDIVIDUAL MANDATE IS UNCONSTITUTIONAL AFTER THE TCJA.

Starting in 2019, the TCJA will eliminate the individual mandate’s tax penalty under Section 5000A(b)–
(c) but it will not alter the mandate’s plain-text
“[r]equirement to maintain minimum essential coverage” under Section 5000A(a). The individual mandate
will continue to provide that applicable individuals
“shall . . . ensure” that they are “covered under minimum essential coverage.” 26 U.S.C. § 5000A(a). Yet
the only available interpretation of that plain text will
be that it mean what it says: there is a legal mandate
to obtain insurance; the mandate can no longer instead fairly be interpreted as a tax because it will raise

325
no revenue as Congress has eliminated the monetary
penalty.
This plain-text interpretation is confirmed by the
Supreme Court’s decision in NFIB. The Chief Justice’s
controlling opinion repeatedly acknowledged—and
the four Justices in the joint dissent asserted even
more emphatically—that “[t]he most straightforward
reading of the mandate is that it commands individuals to purchase insurance. After all, it states that individuals ‘shall’ maintain health insurance.” NFIB,
567 U.S. at 562 (quoting § 5000A(a)); see also id. at 574
(“the statute reads more naturally as a command to
buy insurance than as a tax”); id. at 662–63 (joint dissent) (describing Section 5000A(a) as “unquestionably” a “mandate . . . enforced by a penalty” rather than
a tax). Although the Chief Justice concluded at the
time that it was “fairly possible” to interpret the mandate as merely “establishing a condition—not owning
health insurance—that triggers a tax—the required
payment to the IRS,” id. at 563, that saving construction is no longer available because, post-TCJA, the
mandate no longer “yields the essential feature of any
tax,” which is that it must “produce[] at least some revenue for the Government.” Id. at 564 (opinion of the
Court); see also id. at 574 (opinion of Roberts, C.J.)
(“Congress’s authority under the taxing power is limited to requiring an individual to pay money into the
Federal Treasury, no more.”).
This plain-text interpretation is further confirmed
by established canons of construction. First, it is “a
cardinal principle” that a statute should be construed
so that “no clause, sentence, or word shall be superfluous, void, or insignificant.” TRW Inc. v. Andrews, 534
U.S. 19, 31 (2001). Here, in light of the elimination of
the Section 5000A(b) penalty, Section 5000A(a) would

326
be utterly meaningless unless it imposes a legal requirement that covered individuals shall maintain insurance, as would Section 5000A(d)’s exemption from
that requirement. See 26 U.S.C. §º5000A(d) (setting
forth certain categories of individuals who are not subject to Section 5000A(a)’s “[r]equirement to maintain
minimum essential coverage”). Second, “Congress is
presumed to act with full awareness of existing judicial interpretations.” United States v. Fausto, 484 U.S.
439, 460 n.6 (1987) (citing Rodriguez v. United States,
480 U.S. 522, 525 (1987) (per curiam)). Here, Congress
was indisputably aware of NFIB’s saving construction
of Section 5000A(a)’s individual mandate, and that it
rested on the revenue raised by Section 5000A(b)’s
penalty. Yet Congress eliminated the linchpin of that
saving construction—the revenue-raising penalty—
without altering the unambiguous language of the
mandate itself. Cf. Harris v. United States, 536 U.S.
545, 556 (2002) (refusing to apply the canon of constitutional avoidance where doing so would contradict
the “respect for Congress” upon which “[t]he avoidance
canon rests”).
This plain-text interpretation is also shared by at
least some members of the public. See App’x in Support of Application for Preliminary Injunction at
App.004 (“I value compliance with my legal obligations, and believe that following the law is the right
thing to do. The repeal of the associated health insurance tax penalty did not relieve me of the requirement
to purchase health insurance. I continue to maintain
minimum essential health insurance coverage because I am obligated to comply with the Affordable
Care Act’s individual mandate, even though doing so
is a burden to me.”); App.008 (same).

327
In sum, once the associated financial penalty is
gone, the “tax” saving construction will no longer be
fairly possible and thus the individual mandate will be
unconstitutional. As a majority of the Supreme Court
held in NFIB, “[t]he Federal Government does not
have the power to order people to buy health insurance. Section 5000A would therefore be unconstitutional if read as a command.” NFIB, 567 U.S. at 575
(opinion of Roberts, C.J.); see also id. at 706‒07 (joint
dissent); id. at 572 (opinion of the Court). Because Section 5000A(a) must be read as a command once the
TCJA’s elimination of the penalty takes effect in 2019,
it will exceed Congress’s enumerated powers.
II. THE INDIVIDUAL MANDATE IS NOT SEVERABLE FROM THE GUARANTEED-ISSUE
AND COMMUNITY-RATING PROVISIONS,
BUT THOSE THREE PROVISIONS ARE
SEVERABLE FROM THE REST OF THE
ACA.
In addition to claiming that the individual mandate is unconstitutional in light of the TCJA, Plaintiffs
claim that the rest of the ACA is not severable from
the unconstitutional mandate. A plaintiff seeking to
invalidate provisions of a statute as inseverable must
show that it is “evident that Congress would not have
enacted those provisions which are within its power,
independently of those which are not.” Murphy v.
NCAA, 138 S. Ct. 1461, 1482 (2018); see also Alaska
Airlines, Inc. v. Brock, 480 U.S. 678, 684–85 (1987).
This inquiry reflects the fact that under our Constitution, the Judiciary “cannot rewrite a statute and give
it an effect altogether different from that sought by the
measure viewed as a whole.” Murphy, 138 S. Ct. at
1482 (quoting R.R. Retirement Bd. v. Alton R. Co., 295
U.S. 330, 362 (1935)). Although the Supreme Court’s

328
test for severability is “essentially an inquiry into legislative intent,” Minnesota v. Mille Lacs Band of Chippewa Indians, 526 U.S. 172, 191 (1999), “the enacted
text is the best indicator of intent,” Nixon v. United
States, 506 U.S. 224, 232 (1993).3
Here, as the United States has consistently maintained, the individual mandate is not severable from
the ACA’s guaranteed-issue and community-rating requirements, but it is severable from the ACA’s other
provisions.
In addition, plaintiffs may only seek to invalidate statutory provisions as inseverable if those provisions themselves injure them.
The Supreme Court has held that it “ha[s] no business answering” questions about the inseverability of provisions that concern
only “the rights and obligations of parties not before the court.”
Printz v. United States, 521 U.S. 898, 935 (1997); see also Murphy, 138 S. Ct. at 1485–87 (Thomas, J. concurring). And that
holding is consistent with basic limitations on Article III standing and equitable remedies. See, e.g., Town of Chester v. Laroe
Estates, Inc., 137 S. Ct. 1645, 1650 (2017) (“[S]tanding is not dispensed in gross,” and “a plaintiff must demonstrate standing . . .
. for each form of relief that is sought.” (citations omitted)); Madsen v. Women’s Health Ctr., Inc., 512 U.S. 753, 765 (1994) (explaining that equitable relief must “be no more burdensome to
the defendant than necessary to provide complete relief to the
plaintiffs” (citation omitted)). Here, the individual plaintiffs have
adequately alleged injury from the ACA’s guaranteed-issue and
community-rating provisions. See, e.g., App’x in Support of Application for Preliminary Injunction at App.004 (“My preference
would be to purchase reasonably-priced insurance coverage that
is consumer-driven in accordance with my actuarial risk.”). By
contrast, Plaintiffs have not argued and cannot argue that each
and every other provision in the ACA also injures them. Accordingly, regardless of whether other provisions of the ACA are inseverable and whether this Court may consider that question in
analyzing the inseverability of the guaranteed-issue and community-rating provisions, it would be improper for this Court to enter judgment on the inseverability of any of the many ACA
provisions that do not injure Plaintiffs.
3

329
A. The Guaranteed-Issue and CommunityRating Requirements Are Not Severable
The United States contended in NFIB that “Congress’s findings establish that the guaranteed-issue
and community-rating provisions are inseverable from
the minimum coverage provision.” Br. for Resp. (Severability) at 45, NFIB, No. 11-393. And the Supreme
Court has since essentially agreed, noting that these
“three reforms are closely intertwined” and that “Congress found that the guaranteed issue and community
rating requirements would not work without the coverage requirement.” King v. Burwell, 135 S. Ct. 2480,
2487 (2015).
That finding, set forth at 42 U.S.C. § 18091(2)(I),
specifically and expressly explains why Congress believed that the individual mandate requirement is “essential” to the operation of the guaranteed-issue and
community-rating provisions. Namely, “if there were
no requirement, many individuals would wait to purchase health insurance until they needed care.” Id.
But “[b]y significantly increasing health insurance
coverage,” the mandate, “together with the other provisions of this Act, will minimize this adverse selection
and broaden the health insurance risk pool to include
healthy individuals, which will lower health insurance
premiums.” Id. Accordingly, the individual mandate
“is essential to creating effective health insurance
markets in which improved health insurance products
that are guaranteed issue and do not exclude coverage
of pre-existing conditions can be sold.” Id. In short,
Congress found that enforcing guaranteed issue and
community-rating requirements without an individual mandate would allow individuals to game the system by waiting until they were sick to purchase health
insurance, thereby increasing the price of insurance

330
for everyone else—the polar opposite of what Congress
sought in enacting the ACA.
Indeed, Congress’s conclusions regarding the linkage between the individual mandate, guaranteed-issue, and community-rating requirements were agreed
upon by all of the Justices in NFIB. See 567 U.S. at
548 (opinion of Roberts, C.J.) (“The guaranteed-issue
and community-rating reforms … exacerbate” the
“problem” of “healthy individuals who choose not to
purchase insurance to cover potential health care
needs,” and “threaten to impose massive new costs on
insurers[.] … The individual mandate was Congress’s
solution to these problems.”); id. at 597–98 (Ginsburg,
J., concurring in part and dissenting in part) (“[T]hese
two provisions, Congress comprehended, could not
work effectively unless individuals were given a powerful incentive to obtain insurance. … [G]uaranteedissue and community-rating laws alone will not
work.”); id. at 695–96 (joint dissent) (“Insurance companies bear new costs imposed by a collection of insurance regulations and taxes, including ‘guaranteed
issue’ and ‘community rating’ requirements . . . but the
insurers benefit from the new, healthy purchasers
who are forced by the Individual Mandate to buy the
insurers’ product.”).
In expressly finding this link between these three
provisions, Congress looked to experiences from prior
state experiments in restructuring their laws governing health insurance. In some States, insurers were
forced to cover everyone and charge the same rates regardless of health status, and chose to raise premiums
for healthy individuals. See Br. of America’s Health
Insurance Plans and the Blue Cross Blue Shield Association as Amici Curiae in Support of Reversal of the
Court of Appeals’ Severability Judgment at 8‒11,

331
NFIB, No. 11-393. For example, after imposing guaranteed-issue and community-rating requirements
without an individual mandate, New Hampshire experienced an increase in premiums and, ultimately, all
but two insurers withdrew from the State. See Br. for
Resp’t (Severability) at 49, NFIB, No. 11-393; see also
id. at 48‒51 (collecting examples). Thus, Congress
acted on the assumption that severing the individual
mandate from the guaranteed-issue and communityrating provisions “necessarily would impose significant risks and real uncertainties on insurance companies, their customers, all other major actors in the
system, and the government treasury.” NFIB, 567
U.S. at 699 (joint dissent). Although the empirical assumptions underlying this connection may be subject
to dispute (see, e.g., Br. for Court-Appointed Amicus
Curiae Supporting Complete Severability at 35‒41,
NFIB, No. 11-393), what is indisputable is that Congress believed that these three provisions were interdependent in enacting the ACA.
That conclusion is not affected by the fact that the
TCJA eliminated the mandate’s penalty. It still remains the case that, in the complete absence of the
mandate, retention of the guaranteed-issue and community-rating requirements would expose health insurers (and their customers) to unfettered adverse
selection by individuals who can game the system by
waiting until they are sick to purchase insurance, contrary to Congress’s express intent. 42 U.S.C.
§ 18091(2)(I). Nor is this conclusion undermined by
the fact that the TCJA did not itself eliminate the
guaranteed-issue and community-rating requirements at the same time it eliminated the mandate’s
penalty and thereby rendered the mandate unconstitutional. The best evidence of Congress’s intent is

332
found in the legislative findings, which continue to remain part of the ACA after the TCJA. These express
findings continue to describe the mandate as “essential” to the operation of the guaranteed-issue and community-rating provisions. See EEOC v. Hernando
Bank, Inc., 724 F.2d 1188, 1190–91 (5th Cir. 1984)
(noting that in determining “whether Congress would
have enacted the remainder of the statute in the absence of the invalid provision[,] … [c]ongressional intent and purpose are best determined by an analysis
of the language of the statute in question”). Those findings cannot be deemed to have been impliedly repealed by Congress’s mere elimination of the financial
penalty. See Nat’l Ass’n of Home Builders v. Defs. of
Wildlife, 551 U.S. 644, 662 (2007) (explaining that “‘repeals by implication are not favored’ and will not be
presumed unless the ‘intention of the legislature to repeal is clear and manifest’” (citation omitted)).4
B. The ACA’s Other Provisions Are Severable
As the United States also contended in NFIB, the
remainder of the ACA is severable from the individual
mandate and the guaranteed-issue and communityrating requirements. Br. For Resp’t (Severability) at
44‒54, NFIB, No. 11-393.
1. The ACA’s other major provisions—concerning various insurance regulations, health insurance
4

That is especially true given that Congress passed the TCJA by a majority
vote under the restrictive reconciliation process, which limits congressional
action to generally fiscal matters. See H.R.1, 115th Cong., “An Act to provide for reconciliation pursuant to titles II and V of the concurrent resolution on the budget for fiscal year 2018”; Cong. Research Serv., Bill Heniff
Jr., The Budget Reconciliation Process: The Senate’s “Byrd Rule” (Nov.
22, 2016), https://fas.org/sgp/crs/misc/RL30862.pdf (last visited June 7,
2018). Although Congress was able to revoke the tax penalty, it could not
have revoked the guaranteed-issue or community-rating provisions through
reconciliation.

333
exchanges and associated subsidies, the employer
mandate and Medicaid expansion, and reduced federal healthcare reimbursement rates for hospitals—
are severable from the individual mandate. Although
Congress made clear its belief that the mandate is not
severable from the guaranteed-issue and communityrating requirements, see 42 U.S.C. § 18091(2)(I), Congress did not do so with respect to the ACA’s other major provisions.
The ACA contains numerous mechanisms designed
to expand health insurance coverage through federal
regulation. Each of these provisions can independently operate “consistent with Congress’ basic objectives in enacting the statute,” and therefore, this
Court “must retain” them. United States v. Booker,
543 U.S. 220, 258‒59 (2005). Although Plaintiffs speculate (Br. at 35‒39) as to a chain reaction of failed policymaking that could occur once the individual
mandate is struck down, they cannot show that striking down the individual mandate, guaranteed-issue,
and community-rating requirements means that the
ACA necessarily “ceases to implement any coherent
federal policy.” Murphy, 138 S. Ct. at 1483. Congress’s
other legislative findings in 42 U.S.C. § 18091(2)
demonstrate that, instead, these other provisions are
severable from the mandate. See 42 U.S.C.
§ 18091(2)(C), (E), (F) (finding that the “individual responsibility requirement,” “together with the other
provisions of this Act,” will accomplish Congress’s objectives of “increas[ing] the number and share of
Americans who are insured” and “significantly reducing the number of the uninsured”). The other major
provisions still serve the objectives that Congress had
when enacting the ACA notwithstanding the elimination of the mandate (plus guaranteed-issue and community-rating)—especially given that Congress itself

334
reduced the effect of the mandate by eliminating its
penalty in the TCJA, and yet did not repeal the rest of
the ACA despite repeated attempts to do so.
For example, Congress has repeatedly expanded
the scope of Medicaid since the inception of the program over half a century ago. There is no reason why
the ACA’s particular expansion of Medicaid hinges on
the individual mandate. The same can be said about
the health insurance exchanges, which likewise can
operate as functioning “marketplace[s] for the purchase of health insurance” without the individual
mandate. H.R. Rep. No. 443, 111th Cong., 2d Sess. Pt.
2, at 976 (2010) (citation omitted); see also 42 U.S.C.
§ 18091(2)(J) (“By significantly increasing health insurance coverage and the size of purchasing pools,
which will increase economies of scale, the requirement, together with the other provisions of this Act,
will significantly reduce administrative costs and
lower health insurance premiums.”). This is not a case
like Murphy in which the Court concluded that finding
one provision severable from another would inherently bring about “a weird result.” 138 S. Ct. at 1483–
84 (“If the people of a State support the legalization of
[an activity], federal law would make the activity illegal.”). Instead, Plaintiffs rely on a chain of speculative
hypotheticals, which are not strong enough to justify
invalidating these other parts of the ACA’s insurance
market regulations.
Congress has provided further proof of its intent
that the bulk of the ACA would remain in place by
amending the ACA on numerous occasions after the
TCJA invalidated the individual mandate. See Pub. L.
No. 115-120, § 3002(g)(2), 132 Stat. at 35 (amending
26 U.S.C. § 5000A(f)(1) (revising definition of “minimum essential coverage,” which is relevant to various

335
insurance reforms besides the mandate, see supra at
7–8 n.2)); id. § 4002, 132 Stat. at 38 (amending ACA
§ 9001(c) (delaying implementation date of excise tax
on high cost employer-sponsored health coverage)); id.
§ 4003 (amending ACA § 9010(j) (suspending annual
fee on health insurance providers)); see also Pub. L.
No. 115-123, §§ 50207, 50208, 50901(a), (c), 52001,
53103, 53119, 132 Stat. 64, 186–89, 283–88, 298, 300–
01, 308–13 (2018); Pub. L. No. 115-96, §§ 3101, 3103,
131 Stat. 2044, 2048–49 (2017). Congress likely would
not have sought to amend a statute that it believed
had been invalidated in total.
2. If the ACA’s major provisions besides guaranteed-issue and community-rating are severable from
the mandate, then it follows that the remaining provisions are as well. But even if some or all of the other
major provisions were inseverable, this Court still
should not hold “inseverable all other minor provisions
scattered throughout the ACA.” Pltfs. Br. 39. Many, if
not all, of these “minor” provisions serve purposes far
removed from the individual mandate, the guaranteed-issue and community-rating requirements, and
the purchase of health insurance in general, as Plaintiffs appear to acknowledge. Cf. id. at 40 (arguing that
the “minor provisions” “only (if at all) tangentially further the law’s main purpose of near-universal affordable care”). Thus, the presence or absence of three
provisions of the ACA would not affect the functioning
of, for example, “regulations on the display of nutritional content at restaurants.” Id. at 40 (citing 21
U.S.C. § 343(q)(5)(H)).
The cases that Plaintiffs cite, moreover, confirm
that the tangential nature of these “minor” provisions
weighs in favor of their severability. For example, in
Williams v. Standard Oil Co. of Louisiana, 278 U.S.

336
235 (1929), after holding a law fixing gasoline prices
unconstitutional, the Supreme Court concluded that
several other provisions (including a provision requiring permits to sell gasoline and providing for the issuing of the permits) were inseverable because they were
“adjuncts” with the sole purpose of enabling the problematic price-fixing provision. Id. at 242–43. Here, in
contrast, the “minor” provisions are not “adjuncts”
with the sole purpose of effectuating Section 5000A—
rather, they operate in a completely different sphere.
Plaintiffs also suggest (Br. at 40) that the “minor”
provisions would not have garnered the requisite votes
in Congress if they were not attached to the rest of the
ACA. But the severability analysis should be one of
statutory construction, not parliamentary probabilities. A court should not hypothesize about the motivations of individual legislators, or speculate about the
number of votes available for any number of alternatives. To the contrary, in New York v. United States,
505 U.S. 144 (1992), the Supreme Court recognized
that the statute before it, “like much federal legislation, embodies a compromise among the States,” but
nonetheless held that the invalidated provision of the
statute was severable from other provisions. See id. at
183, 186–87.
Accordingly, this Court should hold that the individual mandate is severable from all but the ACA’s
guaranteed-issue and community-rating requirements.

337
III. PRELIMINARY INJUNCTIVE RELIEF IS
NOT WARRANTED AT THIS TIME, BUT A
DECLARATORY JUDGMENT WOULD BE
APPROPRIATE.
Although Plaintiffs have demonstrated a substantial likelihood of success on the merits, at least in part,
preliminary relief is nevertheless unwarranted here.
The individual mandate will not become unconstitutional under NFIB until the TCJA’s elimination of the
mandate’s tax penalty goes into effect in 2019. An injunction may “be issued only if future injury is ‘certainly impending.’” Aransas Project v. Shaw, 775 F.3d
641, 664 (5th Cir. 2014) (quoting Babbitt v. United
Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979)).
Here, the injury imposed by the individual mandate is
not sufficiently imminent to warrant preliminary injunctive relief, especially where final adjudication
would be possible before that injury occurs.
Because Plaintiffs agree that the mandate will not
become unconstitutional until the tax is eliminated in
2019, immediate relief is not warranted at this time.
That said, because this is a pure question of law on
which the Plaintiffs and Defendants do not disagree,
this Court should consider construing Plaintiffs’ motion as a request for summary judgment and then entering a declaratory judgment that the ACA’s
provisions establishing the individual mandate as well
as the guaranteed-issue and community-rating requirements will all be invalid as of January 1, 2019.
That would be adequate relief against the government. See, e.g., Fla. ex rel. Bondi v. U.S. Dep’t of
Health & Human Servs., 780 F. Supp. 2d 1256, 1305
(N.D. Fla. 2011).

338
CONCLUSION
For these reasons, this Court should hold that the
ACA’s individual mandate will be unconstitutional as
of January 1, 2019, and that the ACA’s guaranteedissue and community-rating provisions are inseverable from the mandate.
Dated: June 7, 2018

Respectfully submitted,
CHAD A. READLER
Acting Assistant Attorney
General
BRETT A. SHUMATE
Deputy Assistant Attorney
General
BRENNA E. JENNY
Counsel to the Assistant
Attorney General
/s/ Daniel D. Mauler
DANIEL D. MAULER
Virginia State Bar No.
73190
Trial Attorney
U.S. Department of Justice
Civil Division, Federal Programs Branch
20 Massachusetts Ave. NW
Washington, DC 20530
(202) 616-0773
(202) 616-8470 (fax)
dan.mauler@usdoj.gov
Counsel for the Federal Defendants

339
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 5, 2018]
_______
DECLARATION OF BLAKE FULENWIDER
_______
My name is Blake Fulenwider and I am over the age
of 18 and fully competent to make this declaration and
state the following:
1. I am Deputy Commissioner and Chief of the
Division of Medical Assistance Plans for the Georgia
Department of Community Health (DCH). DCH’s Division of Medical Assistance Plans administers Georgia Medicaid and the Children’s Health Insurance
Program (CHIP), known as PeachCare for Kids®.
2. Georgia Medicaid serves: (1) Low-income families; (2) Children; (3) Pregnant women; (4) Aged residents; (5) Blind persons; and (5) individuals with
disabilities. PeachCare for Kids® serves children and
youth from birth to age 19 who are members of a
household with income above Georgia Medicaid income eligibility criteria up to 252% of the Federal Poverty Level (FPL). As a result of the Affordable Care
Act (ACA), an additional category of people eligible for

340
Georgia Medicaid as added to this list: individuals under age 26 who aged out of foster care in the state and
who were enrolled in Medicaid while in foster care. 42
U.S.C.A. § 1396a(a)(10)(A)(i)(IX); Affordable Care Act,
Pub. L. 111-148, 124 Stat. 865, § 2004.
3. Financial eligibility for Medicaid, CHIP, and
many other social programs is based on a household’s
income level as compared to the Federal Poverty Level
(FPL). The FPL is intended to identify the minimum
amount of income a household would need to meet
very basic needs and is established annually by the
U.S. Department of Health and Human Services.
4. Both the state and federal governments fund
Medicaid. The federal share of Medicaid funds Georgia
receives is based on the Federal Medical Assistance
Percentage (FMAP). The FMAP is calculated annually
using each state’s per capita personal income in relation to the U.S. average. Currently (FFY 2018), Georgia receives FMAP of 68.50%, meaning the
federal/state share of Medicaid funding is around
70/30 for medical benefit expenditures. Generally, administrative expenses are matched 50/50 between the
state and federal government.
5. DCH uses several factors to determine eligibility for Medicaid including: (1) Household income; (2)
age; (3) assets; and (4) other factors including but not
limited to eligibility for other non-DCH administered
benefits such as Temporary Assistance for Needy
Families (TANF) or Supplemental Security Income
(SSI).
6. Household income often varies over time and
is a key factor for Medicaid eligibility. Before the ACA
was passed, DCH would review eligibility criteria for
Medicaid enrollees every 6 months to allow for timely

341
disenrollment when a person no longer qualified for
Medicaid.
7. The ACA imposed changes to the Medicaid eligibility renewal process. Pursuant to the ACA, eligibility redeterminations are now allowed no more
frequently than once per 12 months1, unless the enrollee volunteers to DCH that his or her household income has changed in a way that makes the beneficiary
ineligible. This change mandated by the ACA restrains the frequency with which DCH can identify
persons no longer eligible for Medicaid and remove
them from the program, thus increasing the number
of persons eligible for Medicaid services at any given
time. This restriction has caused some ineligible enrollees to receive benefits for a period of time that exceeds their period of eligibility, despite DCH’s desire
to remove enrollees from the program promptly upon
becoming ineligible for continued enrollment.
8. The ACA also required states to adopt a new
measure of household income, Modified Adjusted
Gross Income (MAGI) of a Non-Elderly, Non-Disabled
household, for the purpose of determining eligibility
for state Medicaid and CHIP programs. Adoption of
MAGI standards required Georgia to marginally2 increase income thresholds for affected categories of eligibility when Georgia’s MAGI Conversion Plan was
approved by the federal government in 2014.
9. The ACA’s individual mandate contributed to
the expansion of the Medicaid population in Georgia
as well. As a result of the individual mandate, Georgia
1

42 CFR Sec. 435.916(a).

https://www.medicaid.gov/medicaid/program-information/
medicaid-and-chip-and-the-marketplace/downloads/ga-converted-thresholds-03jul2013.pdf (MAGI conversion results).
2

342
residents were necessarily required to secure health
care coverage or pay a fine to the federal government.
Even individuals who qualified for the federal “Hardship Exemption” sought qualified coverage through
available sources, including Medicaid. Efforts to avoid
imposition of the fine likely prompted more individuals to secure Medicaid from DCH.
10. Although it is difficult to quantify the exact
number of Medicaid enrollees that can be attributed to
the individual mandate, I believe that the individual
mandate played a substantial role in the increase in
the number of Medicaid recipients since 2011. This assertion is based on my experience with DCH and the
Governor’s Office of Planning and Budget (OPB), as
well as research I have participated in to prepare policy analyses and budget projections since the ACA was
enacted into law.
11. The ACA requires Georgia’s Integrated Eligibility System (IES), known as “Georgia Gateway,” to
electronically interface with the Federally Facilitated
Exchange (FFE) systems in order to receive Medicaid
applications that the FFE has assessed as Medicaideligible. It is the obligation of DCH, as the Single State
Agency for Medicaid, to conduct a full eligibility determination based upon information received by the FFE.
12. Georgia has not expanded Medicaid to cover
childless adults from 0% FPL up to 138% FPL. However, the FFE has and continues to assess individuals
who fall within the above range as eligible for Medicaid and transmits this assessment to DCH for an eligibility determination. DCH continues to receive
thousands of such applications from the FFE each
year, creating a significantly increased workload on
Medicaid eligibility staff whose resources are limited.

343
13. The ACA also mandates the specific Medicaid
services Georgia is required to cover. Rather than allowing DCH to make such determinations based on
the needs of Georgia’s population, the ACA imposed a
“one-size-fits-all” rule upon Georgia, thereby governing the provision of inpatient hospital services, outpatient hospital services, family planning services and
supplies, federally qualified health centers, nurse
midwife services, certified pediatric and family nurse
practitioner services, home health care services, medical transportation services, nursing facility services
for individuals 21 or over, rural health clinic services,
and other significant and complex medical services
and systems.
14. From January 2014 — March 2018, Georgia’s
Medicaid enrollment has grown from 1.829 million to
2.074 million individuals.
15. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.
Respectfully submitted this the 14th day of May, 2018.
/s/ Blake T. Fulenwider
Blake T. Fulenwider
Deputy Commissioner
Chief, Medical Assistance Plans
Georgia Department of Community
Plans
County of Fulton
State of Georgia
Sworn and subscribed before me
this 14 day of May, 2018.
/s/ R. Renee Robinson
My Commission Expires 10.30.20

344
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 5, 2018]
_______
DECLARATION OF TERESA MACCARTNEY
_______
My name is Teresa MacCartney and I am over the age
of 18 and fully competent to make this declaration and
state the following:
1. I am the Chief Financial Officer of the State of
Georgia and the Director of the Governor’s Office of
Planning and Budget (“OPB”). I have served as the
state’s CFO and the Director of OPB for five and a half
years. As the CFO of the State of Georgia and the Director of OPB, I am responsible for overseeing the fiscal affairs of the state and developing financial policies
and plans for each of its public departments, agencies,
and institutions. As a part of these responsibilities, I
monitor agency expenditures and develop budget recommendations to suit the state’s policy goals. I am
particularly familiar with changes in costs, plans, and
policies related to the enactment of the Affordable
Care Act (“ACA”) because I oversee the budgets for the
Georgia Department of Community Health (“DCH”),
the University System of Georgia Board of Regents

345
(“BOR”) and the State Accounting Office (“SAO”). I
have personal knowledge of the matters and information set forth herein.
2. DCH administers the state Medicaid and
PeachCare for Kids programs and the State Health
Benefit Plan (“SHBP”). PeachCare for Kids is a comprehensive health care program for uninsured children living in Georgia. SHBP provides health
insurance coverage to state employees, retirees, and
their dependents.
3. BOR administers the University System of
Georgia Healthcare Plan which provides health insurance coverage to University System of Georgia employees, retirees, and their dependents.
4. SAO is responsible for facilitating the completion of federal reports to the Internal Revenue Service
and insured employees and retirees.
Provider Costs Associated with
ACA Regulations
5. With the passing of the Affordable Care Act,
DCH and BOR have suffered and continue to suffer
financial burdens because the ACA replaced the flexibility they previously had to provide health insurance
plans tailored to needs of Georgia’s population with
federal policies. Across all programs and agencies,
compliance with the ACA has cost the State of Georgia
an estimated net cumulative $514 million after discounting offsets from increased employer premiums
and federal funding. Moreover, because most of the
relevant ACA mandates are permanent, the State of
Georgia will continue to pay additional costs indefinitely.
6. Prior to the implementation of the ACA, DCH
provided coverage for unmarried dependents up to age

346
25 who are enrolled as a full-time student at least five
months during the year or are eligible to enroll but are
prevented due to illness or injury to remain on their
parents’ insurance OR requires that a health services
plan or health insurer exempt dependent children incapable of self-sustaining employment due to disability from dependent age limits. But the ACA requires
health insurance coverage to provide continuing coverage for all dependents until the age of 26. Continuing health insurance coverage for adult dependents
until the age of 26 imposes significant costs upon DCH
because each individual insured by a DCH plan constitutes expenses for the system. Had DCH been permitted to continue providing dependent coverage that
met pre-ACA requirements, these costs would not
have been imposed upon DCH. Compliance with the
ACA will require DCH to indefinitely continue paying
these additional costs because the dependent age requirement mandated by the ACA remains 26.
7. Prior to adoption of the ACA, DCH required
insured persons to pay coinsurance and/or co-pays for
preventative care that are now disallowed because the
ACA requires that preventative care be covered at
100%. Covering 100% of preventative care costs more
than covering less than 100% of preventative care.
Thus, if DCH could have continued to provide its prior
coverage plan for preventative care, it would have
saved substantial sums. Compliance with the ACA
will require DCH to indefinitely continue paying these
additional costs.
8. Prior to implementation of the ACA, DCH provided insurance coverage for contraceptive drugs at a
rate below 100%. The ACA, however, requires contraceptives to be covered at 100%. Covering drugs at
100% of cost is more expensive for DCH than covering

347
drugs at less than 100%. If DCH could have maintained its prior coverage plan for contraceptives,
therefore, it would have saved significant monies.
Compliance with the ACA will require DCH to indefinitely continue paying these additional costs.
9. The ACA requires DCH to pay a Patient-Centered Outcomes Research Institute (“PCORI”) fee. The
fee increases yearly. If the PCORI fee had not been required under the ACA, DCH would not have paid it
and would therefore have not seen an increase in cost.
This fee is imposed currently for plans that end before
October 1, 2019, and therefore, will continue to be paid
into 2020 under the ACA.
10. The ACA required DCH to pay a Transitional
Reinsurance Program fee. If this requirement had not
been in place, DCH would not have paid the fee and
would have saved substantial sums.
11. The ACA requires limits for consumer spending on in-network essential health benefits (“EHB”s)
covered under most health plans. Once a person has
reached the limit, the plan must cover 100% of all
medical expenses. Prior to the ACA, DCH had no such
limit. Covering 100% of medical expenses cost more
than covering less than 100% of medical expenses.
Thus, the imposition of this regulation has required
DCH to spend significant funds. This is a permanent
requirement under the ACA, thus the costs to DCH as
a result will continue indefinitely.
12. After the implementation of the ACA’s individual mandate, DCH experienced a substantial increase
in employee elections to obtain health insurance. Because SHBP incurs additional costs for each additional
employee who elects to obtain health insurance, the

348
increased number of elections resulted in substantial
costs to SHBP.
13. The aforementioned ACA provisions also impact the University System of Georgia Healthcare
plan. Like SHBP, BOR was and continues to be impacted by ACA mandates that differ from its pre-ACA
policies. Such ACA mandates include eliminating lifetime maximums, changing coverage requirements for
preventative care and out-of-pocket maximums, and
instituting reoccurring fees. All of these provisions as
well as increased health benefit elections have increased BOR’s health plan costs.
14. As a result of the ACA, DCH and BOR increased employee premiums and participated in the
Early Retiree Reinsurance Program established by
the ACA to offset the cost of the law’s mandates and
fees. Employee premiums are paid by state employees.
Thus, although DCH’s costs were offset by raising employee premiums, state employee wages were negatively affected. Furthermore, when these revenue
adjustments are taken into account, the net cost of the
ACA to SHBP and BOR are still an estimated $442.1
million and $44.1 million, respectively, and those
amounts will continue to increase each year due to the
permanent and otherwise continuing mandates of the
ACA.
Medicaid Costs Associated with
ACA Regulations
15. With the passing of the ACA, DCH has been
financially harmed and will continue to be financially
harmed by the burdens imposed on it related to Medicaid and CHIP programs. To date, Medicaid and CHIP
program changes as a result of the ACA have cost
DCH an estimated net $24.3 million after discounting

349
increased rebates for CMO coverage and an increased
Enhanced Federal Medical Assistance Percentage.
These costs will continue year after year because the
relevant ACA provisions are permanent.
16. Prior to the ACA, Georgia assessed the eligibility of Medicaid recipients every six months. To comply with the ACA, Georgia now reviews the eligibility
of Medicaid recipients no more frequently than every
12 months. Less-frequent eligibility assessments result in a greater number of Medicaid recipients. Each
additional Medicaid recipient represents additional
costs to DCH. Thus, were it not for the implementation
of this regulation, DCH would have saved substantial
costs. This is a permanent requirement under the
ACA, so the costs to DCH as a result will continue indefinitely.
17. The ACA imposes a fee on all for-profit entities
involved in the business of providing health insurance.
This fee applies to Care Management Organizations
(CMOs) providing health insurance coverage to Medicaid beneficiaries. DCH is required to reimburse
CMOs for the cost of the fee. If DCH was not required
to pay the fee, DCH would have saved substantial
sums. Compliance with the ACA will require DCH to
indefinitely continue paying these growing costs.
18. The ACA allowed hospitals to determine presumptive eligibility for increased populations to include low income Medicaid categories of eligibility. It
also prevents entities conducting presumptive eligibility determination from requiring proof of status. Once
a qualifying hospital determines a person is presumptively eligible for Medicaid, the person can receive services for a period of 60 days. Even if the person is later
found to be ineligible for Medicaid, Medicaid must pay
for services rendered during the period of presumptive

350
eligibility. This provision of the ACA has imposed substantial costs on DCH through Medicaid match requirements. This is a permanent provision of the ACA,
thus the costs to DCH as a result will continue indefinitely.
19. The ACA required the state Medicaid program
to increase primary care provider (PCP) reimbursement rates to 100% of Medicare reimbursement rates
between January 1, 2013 and December 31, 2014. This
provision required CMOs to adjust capitation rates to
account for higher reimbursement rates for primary
care providers, which resulted in an increase in the
Health Insurance Provider Fees paid by the CMOs
and was then passed onto the state through CMO capitation rates.
20. The net cost of the ACA to DCH’s Medicaid
programs is estimated to be $24.3 million when the
costs of eligibility review requirements, presumptive
eligibility requirements, Health Insurer Provider Fee,
and expansion of State Children’s Insurance Plan
(CHIP) coverage are offset by savings from the ACA’s
policy of increasing rebates for CMO coverage and its
23% increase to the Enhanced Federal Medical Assistance Percentage for CHIP beneficiaries.
Administrative Costs Associated with
ACA Regulations
21. With the passing of the Affordable Care Act,
SAO, DCH, and BOR have had to comply with reporting requirements that would not have otherwise been
required. The cost to these agencies of compliance with
the ACA’s reporting requirements is an estimated net
$3.6 million to date after discounting the new Enhanced Federal Medical Assistance Percentage. Since

351
reporting requirements are a permanent provision of
the ACA, reporting costs will continue indefinitely.
22. Under the ACA, SAO is required to report coverage annually. This is a permanent provision of the
ACA, thus the costs to SAO as a result will continue
indefinitely.
23. Under the ACA, DCH is required to provide
Medicaid and PeachCare beneficiaries with coverage
information on IRS 1095-B forms. This is a permanent
provision of the ACA, thus the costs to DCH as a result
will continue indefinitely.
24. After the implementation of the ACA, DCH experienced increased enrollment of individuals already
eligible for Medicaid benefits under pre-ACA eligibility standards. The enrollment increase required DCH
to enhance its Medicaid Management Information
System to process additional Medicaid applications.
Enhancing its Medicaid Management Information
System was very costly.
25. The total administrative costs associated with
the ACA are estimated to total $11.2 million. These
costs were partially offset by the ACA’s increasing the
Enhanced Federal Medical Assistance Percentage
from 77% to 100% which reduced administrative expenditures by an estimated $7.7 million. The net cost
increase for administrative programs is estimated to
be $3.6 million.
26. Pursuant to 28 U.S.C. § 1746, I declare under
penalty of perjury that the foregoing is true and correct.

352
Respectfully submitted this the __ day of May, 2018.
/s/ Teresa A. MacCartney
Teresa A. MacCartney
State Chief Financial Officer
Director, Officer of Planning and Budget
State of Georgia
County of Fulton
On this, the 14th day of May, 2018, before me a notary
public, the undersigned officer, personally appeared
Teresa A. MacCartnery, known to me (or satisfactorily
proven) to be the person whose name is subscribed to
the within instrument, and acknowledged that he executed the same for the purposes therein contained.
In witness hereof, I hereunto set my hand and official
seal.
/s/ Felicia A. Lowe
Exp. 5/29/2018

353
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 5, 2018]
_______
DECLARATION OF JAMES J. DONELON, LOUISIANA COMMISSIONER OF INSURANCE,
PURSUANT TO 28 U.S.C. § 1746
_______
INTRODUCTION
1. My name is James J. Donelon and I am the Louisiana Commissioner of Insurance.
2. As Commissioner, I am the head of the Louisiana Department of Insurance (“LDI”) and the chief
regulator of insurance in Louisiana pursuant to Article IV, Section 11 of the Louisiana Constitution.
3. The LDI is responsible for regulating the Louisiana health insurance market and protecting consumers
in this market. The LDI performs a variety of tasks to
protect insurance consumers and to ensure a competitive
health insurance market environment, including:
a. Licensing insurance companies and monitoring their financial solvency to make sure
that consumers have the insurance coverage they expect when they need it;

354
b. Conducting examinations of foreign and domestic insurers doing business in Louisiana
to ensure compliance with Louisiana laws,
rules and regulations;
c. Reviewing insurance policies to be sold in
Louisiana to ensure compliance with Louisiana and federal law;
d. Issuing licenses to producers, brokers, third
party administrators, and other entities
that sell, market and administer insurance
products;
e. Investigating consumer complaints against
insurance companies, producers, and other
entities involved in the business of insurance doing business in Louisiana;
f. Researching special insurance issues to understand and assess their impact on the citizens of Louisiana;
g. Providing technical assistance on legislation and promulgating rules and regulations in accordance with the Louisiana
Insurance Code;
h. Creating and distributing consumer education materials and public information for
many types of insurance;
i. Taking administrative action including
fines, license suspension, and/or license
revocation against entities found to be in violation of the provisions of the Louisiana
Insurance Code;
j. Taking action to initiate rehabilitation, conservation, or liquidation proceedings of
companies determined to be in financially

355
hazardous condition or determined to be insolvent;
4. As the Louisiana Commissioner of Insurance,
my duties include monitoring the impact of the Affordable Care Act (“ACA”) on Louisiana’s insurance market, ensuring Louisiana’s compliance with the ACA,
advising the Louisiana Governor and legislature on
the ACA, and developing strategies for Louisiana to
mitigate the numerous harms the ACA has inflicted
on Louisiana’s health insurance markets.
HARMS CAUSED BY THE
AFFORDABLE CARE ACT
5. Title 1 of the ACA included market reforms
that guaranteed minimum coverage of certain health
care services, prohibited lifetime and annual limits,
limited the ability of insurers to charge premiums
based on gender, age, and health, as well as other
lesser reforms that had an impact on pricing. The major reforms went into effect in 2014.
6. Louisiana has been very adversely affected by
the market reforms of the ACA. Loss ratios for insurers operating in Louisiana skyrocketed and those sustained losses by insurers has led to market
withdrawals, decreased competition, fewer product
choices and higher premiums.
7. In 2013, prior to the effective date of the major
provisions of the ACA, there were sixteen (16) insurance companies writing major medical insurance policies in the individual market in Louisiana. As their
profits dwindled and losses mounted, companies began exiting the individual market. In 2018 there are
essentially only two insurers writing individual major
medical policies in Louisiana.

356
8. In 2013, prior to the effective date of the major
provisions of the ACA, premiums increased an average of 3.7 percent (3.7%) in the Louisiana individual
market. In 2014, due to the mandates of the ACA, premiums increased by fifty-three percent (53%) and have
continued to increase by double digits every year. The
average rate increase in the individual market was
seventeen percent (17%) in 2015, fourteen percent
(14%) in 2016, thirty-three percent (33%) in 2017, and
eighteen and one half percent (18.5%) in 2018. Additionally, total market enrollment is down significantly
as premiums continue to rise. The viability and continued existence of the individual market in Louisiana
is threatened by rising premiums and reduced enrollment.
9. Health insurance premiums are predicted to
continue to rise. The Congressional Budget Office’s
April 2018 “Budget and Economic Outlook: 2018 to
2028” estimates that, under current law, Federal outlays for health insurance subsidies and related spending will rise by about sixty percent (60%) over the
projection period, increasing from $58 billion in 2018
to $91 billion by 2028. (cbo.gov/publication/53651).
These rising premiums have a significant negative impact on Louisiana’s middle-class as fewer employers
offer health insurance coverage due to increasing premiums.
10. The LDI, as the primary enforcer of insurance
laws, has spent the past six years reading, studying,
interpreting, and enforcing federal regulations and
additional guidance related to the ACA. The LDI completely revised its insurance policy review standards
for health insurance products, educated the public on
changes in the Law, and handled consumer complaints expressing confusion and frustration about the

357
limited, expensive choices that remain in the Louisiana individual market.
11. Additionally, Louisiana has been harmed by
the ACA because it has preempted Louisiana law, preventing the Louisiana Department of Insurance from
regulating health insurance in the manner it deems
best for consumers.
12. Finally, the ACA has harmed the Louisiana
health insurance market by providing for the establishment of the Consumer Operated and Oriented
Plan (Co-op) Program. The program was intended to
foster the creation of nonprofit health insurance issuers to offer health plans in the individual and small
group markets as an alternative to commercial insurance to create competition and drive down premiums.
The onerous restrictions placed on the Co-ops as well
as inadequate funding contributed to the downfall of
the vast majority of the original twenty-three (23) Coops created nationwide. Almost every Co-op has been
financially troubled and most have failed, including
Louisiana’s Co-op, Louisiana Health Cooperative
(“LAHC”). LAHC was placed in Rehabilitation by a
Louisiana court on September 1, 2015 and the LDI has
spent considerable resources overseeing the Rehabilitation of LAHC to protect the consumers and
healthcare providers affected by the failure of the Coop. The ACA’s Co-op Program has cost taxpayers nationwide more than $1.8 billion to date.
I DECLARE UNDER PENALTY OF PERJURY THAT
THE FOREGOING IS TRUE AND CORRECT.

358
Executed in Baton Rouge, Louisiana, this 2ND day of
MAY, 2018.
/s/ James J. Donelon
James J. Donelon
Commissioner of Insurance
State of Louisiana

359
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 5, 2018]
_______
DECLARATION OF ERIC A. CIOPPA, MAINE
SUPERINTENDENT OF INSURANCE
PURSUANT TO 28 U.S.C. § 1746
_______
1. My name is Eric Cioppa. I am the Superintendent of Insurance for the State of Maine.
2. As Superintendent of Insurance, I am the
head of the Bureau of lnsurance within the Maine Department of Professional and Financial Regulation.
Generally, my official duties include supervising the
agency, serving as final adjudicator of all administrative actions, and serving on various councils and committees. As a member of the State Employee Health
Commission, I have first-hand experience with the
management and operations of a large self-insured
health plan.
3. The duties of the Maine Bureau of Insurance
include:
a. Assisting insurance consumers with their
insurance problems;

360
b. Conducting examinations of foreign and domestic insurers doing business in Maine to
ensure compliance with Maine laws and
rules;
c. Monitoring the financial solvency of licensed companies to make sure that consumers have the insurance coverage they
expect when they need it;
d. Reviewing insurance policies sold in Maine
to ensure compliance with Maine and federal law;
e. Issuing licenses to agents, brokers, consultants, and other entities that sell and market insurance products;
f. Researching special insurance issues to understand and assess their impact on Mainers;
g. Providing technical assistance on legislation, adopting rules to implement insurance
laws, and issuing bulletins and other interpretive guidance;
h. Creating and distributing public information and consumer education about all
types of insurance; and
i. When insurance companies are in financially hazardous condition or have become
insolvent, working with the guaranty associations made up of insurance companies,
which by statute must step in and pay policyholder claims when an insurer fails.
4. In addition to the implementation and enforcement of the Maine Insurance Code, my duties include the implementation and enforcement of other

361
state and federal statutes to the extent that they provide for administration or enforcement by the Superintendent. Federal law mandates that I enforce those
provisions enacted by HIPAA and the ACA that have
been codified in the federal Public Health Service Act.
5. In 1993, Maine mandated guaranteed issuance of coverage and modified community rating in its
individual health insurance market without any mandate to purchase coverage.
6. As explained in Pages 30 and 31 of the Plaintiffs” Brief in Support of their Motion for Preliminary
Injunction, the government argued in NFIB v. Sebelius that without an individual mandate, guaranteed
issue and community rating “would drive up costs and
reduce coverage,” leading to “a marketwide adverseselection death spiral,” and “the market will blow up.”
7. That is precisely what happened in Maine.
Under Maine’s guaranteed-issue law, coverage became increasingly unaffordable, even for consumers
willing to purchase plans with per-person deductibles
as high as $20,000. By 2010, there was only one carrier
offering comprehensive health plans. Only 30,000
Mainers were enrolled in the individual market, while
110,000 were uninsured.
8. The ACA implementation has led to a lack of
choices in coverage, and failed to live up to its promise
of affordability. Consumers with one of the most
widely purchased plans in 2013, the Anthem
HealthChoice 15000 plan, were mapped by Anthem
into the ACA-compliant Bronze Guided Access plan
for 2014. The resulting premium increase for consumers aged 30 to 60 ranged from 48.1% to 122.7%, depending on age and geographic area. Outside Rating

362
Area 1 (which includes Portland) the smallest increase
for the other three rating areas was 78.5%.
9. Premiums under the ACA continue to rise.
Carriers’ average individual rate increases in Maine
ranged from 18.0% to 25.5% in 2017, and ranged from
19.6% to 39.7% in 2018.
10. The cost of insurance is particularly burdensome for consumers who earn more than 400% of the
Federal Poverty Level (“400 % FPL”) and are not eligible for premium subsidies. This year, the unsubsidized premium for a 45-year-old nonsmoking couple
with two young children ranges from $16,978.80 to
$25,094.40 for the lowest-priced Silver plan, depending on which county they live in. These plans are not
offered on the Exchange, so the price is not artificially
increased by the cost of the Cost-Sharing reductions.
Even if this family were to buy a Catastrophic plan,
the annual premium for the lowest-priced plan would
range from $9909.84 to $14,409.12, depending on geography.
11. Even for consumers who are eligible for subsidies, the cost of ACA-compliant insurance is often out
of reach. Under the ACA, subsidies are only available
if the price of the second-lowest-cost Silver plan (the
“baseline” plan) exceeds a specified percentage of income. When subsidies are available, they are calculated so that the consumer must pay that percentage
of their income as the premium for the baseline plan,
and must also pay the applicable deductible and other
cost sharing. For example; for consumers making between 300% and 400% FPL, the subsidized premium
for the baseline plan is equal to 9.56% of their household income in premium. This year, for a family of
four, 400% of the Federal Poverty Level (“400% FPL”)
is $100,400 and 300% FPL is $75,300. This makes

363
their subsidized premium $7,198.68 per year at 300%
FPL and $9,598.24 at 400% FPL.
I declare under penalty of perjury that the foregoing is
true and correct, based on my personal knowledge and
on information contained within the records of the
Maine Bureau of Insurance, Department of Professional and Financial Regulation.
April 30, 2018
/s/ Eric A. Cioppa
Eric A. Cioppa
Superintendent of Insurance,
State of Maine

364
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 16, 2018]
_______
ORDER
_______
Before the Court is Plaintiffs’ Application for Preliminary Injunction (ECF No. 39), filed April 26, 2018.
In response, the Federal Defendants oppose injunctive
relief because “immediate relief is not warranted at
this time,” and urge the Court to “consider construing
Plaintiffs’ motion as a request for summary judgment
. . . .” Fed. Defs.’ Br. Resp. Pls.’ App. Prelim. Inj. 20,
ECF No. 92.
The Court ORDERS all parties to file any additional information they wish to present in opposition
to considering these issues on summary judgment.
Any additional information any party wishes to present should be filed on or before July 30, 2018. See
FED. R. CIV. P. 56(f)(3).
SO ORDERED on this 16th day of July, 2018.
/s/

Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

365
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 30, 2018]
_______
PLAINTIFFS’ STATEMENT ON CONSIDERATION OF THE CONSTITUTIONALITY OF THE
INDIVIDUAL MANDATE ON
SUMMARY JUDGMENT
_______
On July 16, the Court issued an order, Doc. 176,
noting Federal Defendants’ opposition to Plaintiffs’ request for the issuance of immediate injunctive relief
and their suggestion that the Court “consider construing Plaintiffs’ motion as a request for summary judgment . . . .” Doc. 92, Defs. PI Br.20. The Court has
provided the parties an opportunity to present additional information in opposition to the Court considering the issues raised by Plaintiffs’ application for
preliminary injunction in the summary judgment posture. Doc. 176. For the reasons discussed below, Plaintiffs maintain that preliminary injunctive relief is
necessary and the Court must treat Plaintiffs’ application for a preliminary injunction as requesting that relief under applicable standards. That said, because the
parties agree that the matters currently before the
Court are purely issues of law, Plaintiffs do not oppose

366
the Court also and simultaneously considering Plaintiffs’ application as a motion for partial summary judgment on the constitutionality of the ACA’s mandate.
***
In their response to Plaintiffs’ application for preliminary injunction, Federal Defendants assert that
“the injury imposed by the individual mandate is not
sufficiently imminent to warrant preliminary injunctive relief, especially where final adjudication would
be possible before that injury occurs.” Defs. PI Br.20
(citing Aransas Project v. Shaw, 775 F.3d 641, 664 (5th
Cir. 2014), for the proposition that an injunction may
“be issued only if future injury is ‘certainly impending’”).
Federal Defendants agree that the ACA’s individual mandate will be unconstitutional with the repeal
of the tax penalty taking effect in 2019. Defs. PI Br.20.
It is thus undisputed—at least as between Plaintiffs
and Federal Defendants—that Plaintiffs have met
their burden of showing a constitutional injury sufficient to constitute irreparable harm. See Doc. 40, Pls.
PI Br. 41-48; Doc. 175, Pls. PI Reply Br.21-26. This
impending harm is sufficient to justify a preliminary
injunction. “[T]he injury need not have been inflicted
when application is made or be certain to occur; a
strong threat of irreparable injury before trial is an adequate basis.” United States v. Emerson, 270 F.3d 203,
262 (5th Cir. 2001) (emphasis added) (quoting 9
Wright, Miller & Kane, FED. PRAC. & PROC. § 2948.1
at 153–56)). Because the focus is on whether irreparable harms will flow to the movant prior to trial, and
because Federal Defendants do not contest those
harms, their focus on whether Plaintiffs’ injury is “sufficiently imminent” is misplaced.

367
And contrary to Federal Defendants’ suggestion
that “final adjudication would be possible before that
injury occurs,” Defs. PI Br.20, it would be remarkable
for this Court to resolve all issues in this case and enter final judgment before January 1, 2019. Not only
are the issues in this case particularly complex and
important, but only one of Plaintiffs’ four claims is currently before the Court: Plaintiffs’ preliminary injunction application does not address their Due Process
Clause, Tenth Amendment, or APA claims. See Pls. 2d
Am. Compl. ¶¶61-83. Because issuing a final judgment on every issue and claim raised in this suit prior
to January 1, 2019—the day that the irreparable harm
to the plaintiffs begins—is highly unlikely, if not
nearly impossible, Plaintiffs’ preliminary injunction
application is the only way for Plaintiffs to obtain relief from the irreparable harms their record evidence
has established.
Federal Defendants and Plaintiffs do agree, however, that the constitutionality of the ACA’s mandate
is a “pure question of law.” Defs. PI Br.20. Discovery
and further factual development of the record are unnecessary for the Court to determine whether the
mandate falls upon the elimination of the tax penalty.
For that reason, the Court could treat Plaintiffs’ application for preliminary injunction as a combined application for preliminary injunction and motion for
partial summary judgment on their declaratory judgment claim that the mandate exceeds Congress’s Article I powers. See Pls. 2d Am. Compl. ¶¶48-60; e.g.,
Landry v. Air Line Pilots Ass’n Int’l AFL–CIO, 892
F.2d 1238, 1269 (5th Cir. 1990) (affirming summary
judgment granted prior to discovery being conducted
because “many of the issues raised by the summary
judgment motions were purely legal and . . . discovery
would therefore not aid their resolution”); Rosas v.

368
U.S. Small Bus. Admin., 964 F.2d 351, 359 (5th Cir.
1992) (“As the issues to be decided by the district court
were purely legal in nature, the court did not abuse its
discretion in deciding the summary judgment motion
prior to completion of discovery.”).
Construing Plaintiffs’ application in this way
would not change any standards for the granting or
denial of either motion, but would serve judicial economy because there is no need for the parties to rehash
the legal issues surrounding the unconstitutionality of
the individual mandate—and the severability of the
remainder of the ACA—on later summary judgment
briefing en route to a final resolution of this litigation.1
Dated: July 30, 2018

Respectfully submitted,

BRAD D. SCHIMEL
Wisconsin Attorney General

KEN PAXTON
Attorney General of Texas

MISHA TSEYTLIN
Wisconsin Solicitor General

JEFFREY C. MATEER
First Assistant Attorney General

KEVIN M. LEROY
Wisconsin Deputy Solicitor General

BRANTLEY D. STARR
Deputy First Assistant
Attorney General

To the extent that the Court were to treat Plaintiff’s application
for a preliminary injunction as a partial summary judgment motion only, that would be the practical denial of a request for injunctive relief, which would be immediately appealable. 28
U.S.C. § 1292(a)(1) (authorizing appellate jurisdiction from orders “refusing or dissolving injunctions”); Carson v. American
Brands, Inc., 450 U.S. 79, 83 (1981) (orders that have the “practical effect” of denying injunctive relief are immediately appealable).

1

369
State of Wisconsin
Department of Justice
17 West Main Street
P.O. Box 7857
Madison, Wisconsin
53707-7857
Tel: (608) 267-9323
Attorneys for Wisconsin
/s/ Robert Henneke
ROBERT HENNEKE
Texas Bar No. 24046058
rhenneke@texaspolicy.com
Texas Public Policy Foundation
901 Congress Avenue
Austin, Texas 78701
Tel: (512) 472-2700
Attorney for IndividualPlaintiffs

JAMES E. DAVIS
Deputy Attorney General for Civil Litigation
/s/ Darren McCarty
DARREN MCCARTY
Special Counsel for
Civil Litigation
Texas Bar No.
24007631
darren.mccarty
@oag.texas.gov
AUSTIN R. NIMOCKS
Special Counsel for
Civil Litigation
DAVID J. HACKER
Special Counsel for
Civil Litigation
Attorney General of
Texas
P.O. Box 12548, Mail
Code 001
Austin, Texas 787112548
Tel: 512-936-1414
Attorneys for Texas

(Additional counsel omitted)

370
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________
Civil Action No. 4:18-cv-000167-O
TEXAS, ET AL., Plaintiffs,
v.
UNITED STATES OF AMERICA, ET AL., Defendants,
CALIFORNIA, ET AL., Intervenors-Defendants
_______
[Filed: July 30, 2018]
_______
INTERVENOR STATES’ RESPONSE TO
JULY 16, 2018 COURT ORDER
_______
The Intervenor States submit this response to the
Court’s July 16, 2018 Order directing the parties “to
file any additional information they wish to present in
opposition to considering” the issues raised by the
briefing on Plaintiffs’ Application for a Preliminary Injunction “on summary judgment.” ECF No. 176. The
Intervenor States understand that Order not as a request to present additional evidence or arguments
they might submit in support of (or in opposition to) a
motion for summary judgment, but instead a request
to identify for the Court what evidence and argument
they might wish to raise during summary judgment
briefing.
The Intervenor States respectfully submit that this
Court should not convert the briefing on the preliminary injunction application into a motion for summary

371
judgment. The Intervenor States’ opposition to the application for a preliminary injunction focused on the
legal and evidentiary standards that govern that relief. At the summary judgment stage, however, the Intervenor States would be afforded an opportunity to
more fully brief legal issues that the preliminary injunction legal standard and page limitations did not
permit previously. These issues include, but are not
limited to: (1) whether Plaintiffs have Article III
standing to challenge the constitutionality of the minimum coverage provision; (2) whether the minimum
coverage requirement under 26 U.S.C. § 5000A may
now be sustained under the Commerce Clause, see
State Defendants’ Br. In Opp. to Plaintiffs’ Application
for a Preliminary Injunction, ECF No. 91, at 18 n.17;
(3) whether an injunction limited to the 20 Plaintiff
States is legally supportable and whether it would
harm the Intervenor States,1 (4) whether regulations
promulgated under the Affordable Care Act remain
lawful if the minimum coverage provision, or any
other provisions, are struck down; (5) whether the Supreme Court’s “modern severability precedents” are
consistent with “longstanding limits on judicial
power,” Murphy v. Nat’l Collegiate Athletic Ass’n, 138
S. Ct. 1461, 1487 (2018) (Thomas, J., concurring); and
(6) whether Plaintiffs can meet their burden of demonstrating that they are entitled to a permanent injunction, see, e.g., eBay Inc. v. MercExchange, LLC, 547
U.S. 388, 391 (identifying factors that a plaintiff seeking permanent injunctive relief must satisfy). If the
The Plaintiff States requested this narrower injunctive relief for
the first time in their Preliminary Injunction Reply Brief. See
ECF No. 175 at 29-30.

1

372
Court nevertheless intends to move straight to summary judgment at this time, it should permit the parties the opportunity to submit supplemental briefing
which will enable the parties to place all of the legal
and factual issues in this case before the Court.2 See
Underwood v. Hunter, 604 F.2d 367, 369 (5th Cir.
1979) (when only a preliminary injunction is pending,
“we cannot say with assurance that the parties will
present everything they have. The very intimation of
mortality when summary judgment is at issue assures
us that the motion will be rebutted with every factual
and legal argument available.”). Based upon all of the
foregoing, the Intervenor States—in agreement with
the Plaintiffs—urge the Court to decline the Federal
Defendants’ invitation to convert the pending preliminary injunction application into another motion. If the
Court determines that summary judgment is appropriate at this time, however, the Intervenor States respectfully request that the Court grant the parties a
30-day period to file supplemental briefing on the additional issues identified above (and perhaps others).
Dated: July 30, 2018 Respectfully submitted,
XAVIER BECERRA
Attorney General of
California
JULIE WENG-GUTIERREZ
Senior Assistant Attorney
General
Whether the Court rules on the merits under the preliminary
injunction standard or under the summary judgment framework,
the Court’s ruling should be a final appealable order or a final
judgment so that the parties may promptly seek appellate review.

2

373
KATHLEEN BOERGERS
Supervising Deputy Attorney
General
NIMROD P. ELIAS
Deputy Attorney General
/s/ Neli N. Palma
NELI N. PALMA
Deputy Attorney General
California State Bar No.
203374
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 210-7522
Fax: (916) 322-8288
E-mail:
Neli.Palma@doj.ca.gov

Attorneys for IntervenorsDefendants
(Additional counsel omitted)

374
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________
No. 19-10011
TEXAS, ET AL., Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA, ET AL., Defendants –
Appellants,
CALIFORNIA, ET AL., Intervenor-Defendants –
Appellants.
_______
[Filed: January 9, 2020]
_______
OPINION
_______
REVISED January 9, 2020
FILED December 18, 2019
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
JENNIFER WALKER ELROD, Circuit Judge:
The Patient Protection and Affordable Care Act
(the Act or ACA) is a monumental piece of healthcare
legislation that regulates a huge swath of the nation’s
economy and affects the healthcare decisions of millions of Americans. The law has been a focal point of
our country’s political debate since it was passed
nearly a decade ago. Some say that the Act is a muchneeded solution to the problem of increasing
healthcare costs and lack of healthcare availability.
Many of the amici in this case, for example, argue that

375
the law has extensively benefitted everyone from
children to senior citizens to local governments to
small businesses. Others say that the Act is a costly
exercise in burdensome governmental regulation that
deprives people of economic liberty. Amici of this perspective argue, for example, that the Act “has deprived
patients nationwide of a competitive market for affordable high-deductible health insurance,” leaving
“patients with no alternative to . . . skyrocketing premiums.” Association of American Physicians & Surgeons Amicus Br. at 15.
None of these policy issues are before the court.
And for good reason—the courts are not institutionally
equipped to address them. These issues are far better
left to the other two branches of government. The
questions before the court are far narrower: questions
of law, not of policy. Those questions are: First, is
there a live case or controversy before us even though
the federal defendants have conceded many aspects of
the dispute; and, relatedly, do the intervenor-defendant states and the U.S. House of Representatives have
standing to appeal? Second, do the plaintiffs have
standing? Third, if they do, is the individual mandate
unconstitutional? Fourth, if it is, how much of the rest
of the Act is inseverable from the individual mandate?
We answer those questions as follows: First, there
is a live case or controversy because the intervenordefendant states have standing to appeal and, even if
they did not, there remains a live case or controversy
between the plaintiffs and the federal defendants. Second, the plaintiffs have Article III standing to bring
this challenge to the ACA; the individual mandate injures both the individual plaintiffs, by requiring them
to buy insurance that they do not want, and the state

376
plaintiffs, by increasing their costs of complying with
the reporting requirements that accompany the individual mandate. Third, the individual mandate is unconstitutional because it can no longer be read as a tax,
and there is no other constitutional provision that justifies this exercise of congressional power. Fourth, on
the severability question, we remand to the district
court to provide additional analysis of the provisions of
the ACA as they currently exist.
I.
On March 23, 2010, President Barack Obama
signed the ACA into law. See Patient Protection and
Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119
(2010). The Act sought to “increase the number of
Americans covered by health insurance and decrease
the cost of health care” through several key reforms.
See Nat’l Fed’n of Indep. Bus. v. Sebelius (NFIB), 567
U.S. 519, 538 (2012).
Some of those reforms implemented new consumer
protections, aiming primarily to protect people with
preexisting conditions. For example, the law prohibits
insurers from refusing to cover preexisting conditions.
42 U.S.C. § 300gg-3. The “guaranteed-issue requirement” forbids insurers from turning customers away
because of their health. See 42 U.S.C. §§ 300gg, 300gg1. The “community-rating requirement” keeps insurers from charging people more because of their preexisting health issues. 42 U.S.C. § 300gg-4. 1 The law
The ACA features a few other consumer-protection reforms of
note. For example, the Act requires insurance companies to allow
young adults to stay on their parents’ health insurance plans until they turn 26; prohibits insurers from imposing caps on the

1

377
also requires insurers to provide coverage for certain
types of care, including women’s and children’s preventative care. 42 U.S.C. § 300gg-13(a)(3)–(4).2
Other reforms sought to lower the cost of health insurance by using both policy “carrots” and “sticks.” 3
value of benefits provided; and mandates that the insurance plans
cover at least ten “essential health benefits,” including emergency
services, prescription drugs, and maternity and newborn care. See
42 U.S.C. §§ 300gg-14 (young adults), 300gg-11 (restriction on
benefit caps), 18022 (essential health benefits). The ACA also
requires employers with at least fifty full-time employees to pay
the federal government a penalty if they fail to provide their employees with ACA-compliant coverage. 26 U.S.C. § 4980H.
The women’s preventative care provision was at issue in a trio
of recent Supreme Court cases. See Zubik v. Burwell, 136 S. Ct.
1557 (2016); Wheaton College v. Burwell, 573 U.S. 958 (2014);
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014); see
also California v. U.S. Dep’t of Health & Human Servs., No. 1915072, 2019 WL 5382250 (9th Cir. Oct. 22, 2019); Pennsylvania
v. President United States, 930 F.3d 543 (3d Cir. 2019), as
amended (July 18, 2019); DeOtte v. Azar, 393 F. Supp. 3d 490,
495 (N.D. Tex. 2019).

2

Some opponents of the ACA assert that the goal was not to lower
health insurance costs, but that the entire law was enacted as part
of a fraud on the American people, designed to ultimately lead to a
federal, single-payer healthcare system. In a hearing before the
House Committee on Oversight and Government Reform, for example, Representative Kerry Bentivolio suggested that Jonathan
Gruber, who assisted in crafting the legislation, had “help[ed] the
administration deceive the American people on this healthcare
act or [told] the truth in [a] video . . . about how [the Act] was a
fraud upon the American people.” Examining Obamacare Transparency Failures: Hearing Before the H. Comm. on Oversight and
Government Reform, 113th Cong. 83 (2014) (statement of Rep.
Kerry Bentivolio).
3

378
On the stick side, the individual mandate—which
plaintiffs challenge in the instant case—requires individuals to “maintain [health insurance] coverage.” 26
U.S.C. § 5000A(a). If individuals do not maintain this
coverage, they must make a payment to the IRS called
a “shared responsibility payment.”4 Id.; see also King
v. Burwell, 135 S. Ct. 2480, 2486 (2015).
The individual mandate was designed to lower insurance premiums by broadening the insurance pool.
See 42 U.S.C. § 18091(2)(J) (“By significantly increasing . . . the size of purchasing pools, . . . the [individual
mandate] will significantly . . . lower health insurance
premiums.”). When the young and healthy must buy
insurance, the insurance pool faces less risk, which, at
least in theory, leads to lower premiums for everyone.
See 42 U.S.C. § 18091(2)(I) (positing that the individual mandate will “broaden the health insurance risk
pool to include healthy individuals, which will lower
health insurance premiums”). The individual mandate thus serves as a counterweight to the ACA’s protections for preexisting conditions, which push riskier,
costlier individuals into the insurance pool. Under the
protections for consumers with preexisting conditions,
if there were no individual mandate, there would arThe Act exempts several groups of people from the shared responsibility payment. Specifically, the Act provides that “[n]o
penalty shall be imposed” on those “who cannot afford [insurance]
coverage,” on “[t]axpayers with income below [the] filing
threshold,” on “[m]embers of Indian tribes,” on those who had only
“short coverage gaps,” or on anyone who, in the Secretary of
Health and Human Services’ determination, has “suffered a
hardship.” 26 U.S.C. § 5000A(e).
4

379
guably be an “adverse selection” problem: “many individuals would,” in theory, “wait to purchase health insurance until they needed care.” Id.5
The Act also sought to lower insurance costs for
some consumers through policy “carrots,” providing
tax credits to offset the cost of insurance to those with
incomes under 400 percent of the federal poverty line.
See 26 U.S.C. § 36B; 42 U.S.C. §§ 18081, 18082. The
Act also created government-run, taxpayer-funded
health insurance marketplaces—known as “Exchanges”—which allow customers “to compare and
purchase insurance plans.” King, 135 S. Ct. at 2485;
see also 42 U.S.C. § 18031. Opponents of the law argue that the law has led to unintended subsidies to
keep plans afloat and insurance companies in the
black. Texas points in its brief, for example, to a Congressional Budget Office study estimating that federal
outlays for health insurance subsidies and related
spending will rise by about 60 percent over the next ten
years, from $58 billion in 2018 to $91 billion by 2028.
CBO, The Budget and Economic Outlook: 2018 to 2028

Opponents of the ACA, however, argue that the Act goes too far
in limiting individuals’ freedom to choose healthcare coverage.
For example, at a House committee hearing, Representative Darrell Issa argued that one of the “false claims” that the Obama
administration made in passing the Act was that “[i]f you like
your doctor, you will be able to keep your doctor, period. . . . [And
i]f you like your [insurance] plan, you can keep your plan.” Examining Obamacare Transparency Failures: Hearing Before the H.
Comm. on Oversight and Government Reform, 113th Cong. 2
(2014) (statement of Rep. Darrell Issa, Chairman, H. Comm. on
Oversight and Government Reform).

5

380
at 51 (April 2018), available at https://tinyurl.com/CBOBudgetEconOutlook-2018-2028; State
Plaintiffs’ Br. at 13–14.
The ACA also enlarged the class of people eligible
for Medicaid to include childless adults with incomes
up to 133 percent of the federal poverty line. 42 U.S.C.
§§ 1396a(a)(10)(A)(i)(VII), 1396a(e)(14)(I)(i); NFIB,
567 U.S. at 541–42. The ACA originally required each
state to expand its Medicaid program or risk losing “all
of its federal Medicaid funds.” NFIB, 567 U.S. at 542.
In NFIB, however, the Supreme Court held that this
exceeded Congress’ powers under the Spending
Clause. Id. at 585 (plurality opinion). But the Court
allowed those states that wanted to accept Medicaid
expansion funds to do so. See id. at 585–86 (plurality
opinion); id. at 645–46 (Ginsburg, J., concurring in
part, concurring in the judgment in part, and dissenting in part). As a result, the states that have not participated in the expansion now subsidize, through their
general tax dollars, the states that have participated
in expansion.
Since the Act was passed, its opponents have attempted to attack it both through congressional
amendment and through litigation. Between 2010
and 2016, Congress considered several bills to repeal,
defund, delay, or amend the ACA. See Intervenor-Defendant States’ Br. at 10. Except for a few modest
changes, these efforts were closely fought but ultimately failed. Intervenor-Defendant States’ Br. at 10–
11. In 2017, the shift in presidential administrations
reinvigorated opposition to the law, but many of these
later legislative efforts failed as well. In March 2017,
House leaders pulled a bill that would have repealed
many of the ACA’s essential provisions. In July 2017,

381
the Senate voted on three separate bills that similarly
would have repealed major provisions of the Act, but
each vote failed.6 Finally, in September 2017, several
Senators introduced another bill that would have repealed some of the ACA’s most significant provisions,
but Senate leaders ultimately chose not to bring it to
the floor for a vote. Intervenor-Defendant States’ Br.
at 11.
The ACA’s opponents also took their cause to the
courts in a series of lawsuits, some of which reached
the Supreme Court. Particularly relevant here, the
Court, in NFIB, upheld the law’s individual mandate.
567 U.S. at 574. Through fractured voting and shifting majorities—explained in more detail in Part V of
this opinion—the Court decided that the ACA’s individual mandate could be read as a tax on an individual’s decision not to purchase insurance, which was a
constitutional exercise of Congress’ taxing powers under Article I of the U.S. Constitution. Id.; U.S. Const.
art. I, § 8, cl. 1. The Court favored this tax interpretation to save the provision from unconstitutionality.
Reading the provision as a standalone command to
purchase insurance would have rendered it unconstitutional. This reading could not have been justified
under the Commerce Clause because it would have
done more than “regulate commerce . . . among the
several states.” U.S. Const. art. I, § 8, cl. 3. It would
have compelled individuals to enter commerce in the
One of these bills failed by a razor-thin vote of fifty-one against,
forty-nine in favor. See 163 Cong. Rec. S4415 (daily ed. July 27,
2017).

6

382
first place.7 NFIB, 567 U.S. at 557–58. The Court also
held that the provision could not be justified under the
Constitution’s Necessary and Proper Clause. Id. at
561 (Roberts, C.J.); id. at 654–55 (Scalia, Kennedy,
Thomas, and Alito, JJ., dissenting).
In December 2017, the ACA’s opponents achieved
some legislative success. As part of the Tax Cuts and
Jobs Act, Congress set the “shared responsibility payment” amount—the amount a person must pay for
failing to comply with the individual mandate—to the
“lesser” of “zero percent” of an individual’s household
income or “$0,” effective January 2019. Pub. L. No.
115-97, § 11081, 131 Stat. 2054, 2092 (2017); see also
26 U.S.C. § 5000A(c). The individual mandate is still
“on the books” of the U.S. Code and still consists of the
three fundamental components it always featured.
Subsection (a) prescribes that certain individuals
“shall . . . ensure” that they and their dependents are
“covered under minimum essential coverage.” 26
U.S.C. § 5000A(a). Subsection (b) “impose[s] . . . a penalty” called a “[s]hared responsibility payment” on
those who fail to ensure they have minimum essential
coverage. 26 U.S.C. § 5000A(b). Subsection (c) sets
the amount of that payment. All Congress did in 2017
was change the amount in subsection (c) to zero dollars. 26 U.S.C. § 5000A(c).

Chief Justice Roberts cautioned that concluding otherwise
would empower the government to compel Americans into all
kinds of behavior that the government thinks is beneficial for
them, including, for example, compelling them to purchase broccoli. See NFIB, 567 U.S. at 558 (Roberts, C.J.).

7

383
Two months after the shared responsibility payment was set at zero dollars, the plaintiffs here—two
private citizens8 and eighteen states9—filed this lawsuit against several federal defendants: the United
States of America, the Department of Health and Human Services and its Secretary, Alex Azar, as well as
the Internal Revenue Service and its Acting Commissioner, David J. Kautter. The plaintiffs argued that
the individual mandate was no longer constitutional
because: (1) NFIB rested the individual mandate’s
constitutionality exclusively on reading the provision
as a tax; and (2) the 2017 amendment undermined any
ability to characterize the individual mandate as a tax
because the provision no longer generates revenue, a
requirement for a tax. The plaintiffs argued further
that, because the individual mandate was essential to
and inseverable from the rest of the ACA, the entire
ACA must be enjoined. On this theory, the plaintiffs
sought declaratory relief that the individual mandate
is unconstitutional and the rest of the ACA is inseverable. The plaintiffs also sought an injunction prohibiting the federal defendants from enforcing any
provision of the ACA or its regulations.
The federal defendants agreed with the plaintiffs
that once the shared responsibility payment was reduced to zero dollars, the individual mandate was no
8

Namely, Neill Hurley and John Nantz.

Namely, Texas, Alabama, Arizona, Florida, Georgia, Indiana,
Kansas, Louisiana, Mississippi, Missouri, Nebraska, North Dakota, South Carolina, South Dakota, Tennessee, Utah, West Virginia, and Arkansas. Wisconsin, which was originally a plaintiff
state, sought and was granted dismissal from the appeal.

9

384
longer constitutional. They also agreed that the individual mandate could not be severed from the ACA’s
guaranteed-issue and community-rating requirements. Unlike the plaintiffs, however, the federal defendants contended in the district court that those
three provisions could be severed from the rest of the
Act. Driven by the federal defendants’ decision not to
fully defend against the lawsuit, sixteen states10 and
the District of Columbia intervened to defend the
ACA.
The district court agreed with the plaintiffs’ arguments on the merits. Specifically, the court held that:
(1) the individual plaintiffs had standing because the
individual mandate compelled them to purchase insurance; (2) setting the shared responsibility payment
to zero rendered the individual mandate unconstitutional; and (3) the unconstitutional provision could not
be severed from any other part of the ACA. The district court granted the plaintiffs’ claim for declaratory
relief. Specifically, the district court’s order “declares
the Individual Mandate, 26 U.S.C. § 5000A(a), UNCONSTITUTIONAL,” and the order further declares
that “the remaining provisions of the ACA, Pub L. 111148, are INSEVERABLE and therefore INVALID.”
The district court, however, denied the plaintiffs’ application for a preliminary injunction. The district
court entered partial final judgment11 as to the grant
Namely, California, Connecticut, Delaware, Hawaii, Illinois,
Kentucky, Massachusetts, New Jersey, New York, North Carolina, Oregon, Rhode Island, Vermont, Virginia, Washington, and
Minnesota.
10

11

The final judgment is only partial because it addresses only

385
of summary judgment for declaratory relief, but
stayed judgment pending appeal. This appeal followed.
On appeal, the U.S. House of Representatives intervened to join the intervenor-defendant states in defending the ACA. 12 Also on appeal, the federal
defendants changed their litigation position. After
contending in the district court that only a few provisions of the ACA were inseverable from the individual
mandate, the federal defendants contend in their
opening brief for the first time that all of the ACA is
inseverable. See Fed. Defendants’ Br. at 43–49. Moreover, the federal defendants contend for the first time
on appeal that—even though the entire ACA is inseverable—the court should not enjoin the enforcement
of the entire ACA. The federal defendants now argue
that the district court’s judgment should be affirmed
Count One of the plaintiffs’ amended complaint. Count One requests a declaratory judgment that the individual mandate exceeds Congress’ constitutional powers. The district court has not
yet ruled on the other counts in the amended complaint. In
Count Two, the plaintiffs request a declaratory judgment that
the ACA violates the Due Process Clause of the Fifth Amendment. In Count Three, the plaintiffs request a declaratory judgment that the ACA violates the Tenth Amendment.
In
Count Four, the plaintiffs request a declaratory judgment that
agency rules promulgated pursuant to the ACA are unlawful. In
Count Five, the plaintiffs request an injunction prohibiting federal officials from “implementing, regulating, or otherwise enforcing any part of the ACA.”
In addition to the U.S. House, four other states intervened on
appeal to join the original group that defended the Act in the district court: Colorado, Iowa, Michigan, and Nevada.

12

386
“except insofar as it purports to extend relief to ACA
provisions that are unnecessary to remedy plaintiffs’
injuries.”13 Fed. Defendants’ Br. at 49. They also now
argue that the district court’s judgment “cannot be understood as extending beyond the plaintiff states to invalidate the ACA in the intervenor states.” Fed.
Defendants’ Supp. Br. at 10. Simply put, the federal
defendants have shifted their position on appeal more
than once.
II.
We review a district court’s grant of summary judgment de novo. Time Warner Cable, Inc. v. Hudson, 667
F.3d 630, 638 (5th Cir. 2012). Summary judgment is
appropriate when “the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); see also Dialysis Newco, Inc. v. Cmty.
Health Sys. Grp. Health Plan, 938 F.3d 246, 250 (5th
Cir. 2019). A dispute about a material fact is genuine
if “the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Amerisure
Ins. v. Navigators Ins., 611 F.3d 299, 304 (5th Cir.
2010) (quoting Gates v. Tex. Dep’t of Protective & Regulatory Servs., 537 F.3d 404, 417 (5th Cir. 2008)).
When ruling on a motion for summary judgment, the
court views all inferences drawn from the factual record “in the light most favorable to the non-moving parties
below.” Trent v. Wade, 776 F.3d 368, 373 n.1
(5th Cir. 2015).

13 The federal defendants do not specify which precise provisions,
in their view, injure the plaintiffs and which do not.

387
III.
We first must consider whether there is a live
“[c]ase” or “[c]ontroversy” before us on appeal, as Article III of the U.S. Constitution requires. U.S. Const.
art. III, § 1. A case or controversy does not exist unless
the person asking the court for a decision—in this
case, asking us to decide whether the district court’s
judgment was correct—has standing, which requires a
showing of “injury, causation, and redressability.” Sierra Club v. Babbitt, 995 F.2d 571, 574 (5th Cir. 1993).
When “standing to appeal is at issue, appellants must
demonstrate some injury from the judgment below.”
Id. at 575 (emphasis omitted).
We conclude, as all parties agree, that there is a
case or controversy before us on appeal. Two groups
of parties appealed from the district court’s judgment:
the federal defendants, and the intervenor-defendant
states. 14 There is a case or controversy before us because both of these groups have their own independent
standing to appeal.15
The federal defendants have standing to appeal.
The instant case is on all fours with the Supreme
The U.S. House of Representatives, also a party in this case, intervened in our court after the intervenor-defendant states and
the federal government had filed notices of appeal.
14

15 Even if only one of these parties had standing to appeal, that
would be enough to sustain the court’s jurisdiction. An intervenor needs standing only “in the absence of the party on whose
side the intervenor intervened.” Sierra Club, 995 F.2d at 574 (alteration omitted) (quoting Diamond v. Charles, 476 U.S. 54, 68
(1986)); see also Vill. of Arlington Heights v. Metro. Hous. Dev.
Corp., 429 U.S. 252, 264 & n.9 (1977) (exercising jurisdiction because “at least one” plaintiff had standing to sue).

388
Court’s decision in United States v. Windsor, 570 U.S.
744 (2013). In that case, the executive branch of the
federal government declined to defend a federal statute that did not allow the surviving spouse of a samesex couple to receive a spousal tax deduction. Id. at
749–53. The district court ruled that the statute was
unconstitutional and ordered the executive branch to
issue a tax refund to the surviving spouse. Id. at 754–
55. The executive branch agreed with the district
court’s legal conclusion, but it appealed the judgment
and continued to enforce the statute by withholding the
tax refund until a final judicial resolution. Id. at 757–
58.
The Supreme Court ruled that “the United States
retain[ed] a stake sufficient to support Article III jurisdiction.” Id. at 757. That stake was the tax refund,
which the federal government refused to pay. This
threat of payment of money from the Treasury constituted “a real and immediate economic injury” to the
federal government, which was sufficient for standing
purposes. Id. at 757–58 (quoting Hein v. Freedom
From Religion Found., Inc., 551 U.S. 587, 599 (2007)
(plurality opinion)). As the Court explained, “the refusal of the Executive to provide the relief sought suffices to preserve a justiciable dispute as required by
Article III.” Id. at 759; see also Food Mktg. Inst. v. Argus Leader Media, 139 S. Ct. 2356, 2362 (2019) (concluding that there was a justiciable controversy
because the government “represented unequivocally”
that it would not voluntarily moot the controversy absent a final judicial order, and “[t]hat is enough to satisfy Article III”); INS v. Chadha, 462 U.S. 919, 939
(1983) (holding that there was “adequate Art. III adverseness” because the executive branch determined

389
that a federal statute was unconstitutional and refused to defend it but simultaneously continued to
abide by it).
The instant case is similar. Though the plaintiffs
and the federal defendants are in almost complete
agreement on the merits of the case, the government
continues to enforce the entire Act. The federal government has made no indication that it will begin dismantling any part of the ACA in the absence of a final
court order. Just as in Windsor, then, effectuating the
district court’s order would require the federal government to take actions that it would not take “but for the
court’s order.” Windsor, 570 U.S. at 758. And just as
in Windsor, the federal defendants stand to suffer financially if the district court’s judgment is affirmed.16
As just one example, the district court’s judgment declares the Act’s Medicare reimbursement schedules
unlawful, which, if given effect, would require Medicare to reimburse healthcare providers at higher
rates. See, e.g., 42 U.S.C. § 1395ww(b)(3)(B)(xi)–(xii).
Therefore, just as in Windsor, an appellate decision
here will “have real meaning.” 570 U.S. at 758 (quoting Chadha, 462 U.S. at 939).17
The dissenting Justices in Windsor objected to the Windsor majority’s approach to standing. Justice Scalia, for example, said
that this approach to standing “would have been unrecognizable
to those who wrote and ratified our national charter.” Windsor,
570 U.S. at 779 (Scalia, J., dissenting). We are bound by the
Windsor majority opinion.
16

17 Just as in Windsor, moreover, principles of prudential standing
weigh in favor of exercising jurisdiction despite the government’s
alignment with the plaintiffs. Just like the intervenors in Windsor, the intervenor-defendant states and the U.S. House both put
on a “sharp adversarial presentation of the issues.” Id. at 761.

390
The intervenor-defendant states also have standing to appeal. While a party’s mere “status as an intervenor below . . . does not confer standing,” Diamond
v. Charles, 476 U.S. 54, 68 (1986), intervenors may appeal if they can demonstrate injury from the district
court’s judgment. Sierra Club, 995 F.2d at 574; see
also Va. House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1951 (2019); Cooper v. Tex. Alcoholic Beverage
Comm’n, 820 F.3d 730, 737 (5th Cir. 2016). The intervenor-defendant states have made this showing because the district court’s judgment, if ultimately given
effect, would: (1) strip these states of funding that they
receive under the ACA; and (2) threaten to hamstring
these states in possible future litigation because of the
district court judgment’s potentially preclusive effect.18
First, the intervenor-defendant states receive significant funding from the ACA, which would be discontinued if we affirmed the district court’s judgment
declaring the entire Act unconstitutional. “[F]inancial
loss as a result of” a district court’s judgment is an injury sufficient to support standing to appeal. United
States v. Fletcher ex rel. Fletcher, 805 F.3d 596, 602
(5th Cir. 2015). In their supplemental briefing, the intervenor-defendant states identify a few examples of
the funding sources they would lose under the district
18 At first glance, it may not be entirely clear how a mere partial
summary judgment on the issuance of a declaratory judgment
would aggrieve anyone. But at oral argument, all parties agreed
that the district court’s partial summary judgment would have
binding effect. Indeed, this is partly why the district court issued
a stay. The district court acknowledged that the intervenor-defendant states would be prejudiced by the judgment, which means
that the district court understood it to be binding.

391
court’s judgment. Evidence in the record shows that
eliminating the Act’s Medicaid expansion provisions
alone would cost the original sixteen intervening state
defendants and the District of Columbia a total of
more than $418 billion in the next decade. See 42
U.S.C.
§§
1396a(a)(10)(A)(i)(VIII),
(e)(14)(I)(i),
1396d(y)(1). Moreover, the Act’s Community First
Choice Option program gives states funding to care for
the disabled and elderly at home or in their communities instead of in institutions.
See 42 U.S.C.
§ 1396n(k). Record evidence shows that eliminating
this program would cost California $400 million in
2020, and that Oregon and Connecticut have already
received $432.1 million under this program. This evidence is more than enough to show that the intervenor-defendant states would suffer financially if the
district court’s judgment is given effect, an injury sufficient to confer standing to appeal. See Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2565 (2019).
The district court’s judgment, if given effect, also
threatens to injure the intervenor-defendant states
with the judgment’s potentially preclusive effect in future litigation. We have held that “[a] party may be
aggrieved by a district court decision that adversely affects its legal rights or position vis-à-vis other parties
in the case or other potential litigants.” Leonard v.
Nationwide Mut. Ins., 499 F.3d 419, 428 (5th Cir.
2007) (quoting Custer v. Sweeney, 89 F.3d 1156, 1164
(4th Cir. 1996)). If the federal defendants began unwinding the ACA, either in reliance on the district
court’s judgment or on their own, the district court’s
judgment would potentially estop the intervenor-defendant states from challenging that action in court.
This case thus stands in contrast to the cases in which

392
there was no chance whatsoever of a preclusive effect.
See Klamath Strategic Inv. Fund ex rel. St. Croix Ventures v. United States, 568 F.3d 537, 546 (5th Cir.
2009) (holding that there was no threatened injury
from potential estoppel from the appealed-from judgment because that judgment was interlocutory, not final, and therefore could not estop the appealing
party).
Finally, we examine the standing of the U.S. House
of Representatives, which intervened after the case
had been appealed. The Supreme Court’s recent decision in Virginia House of Delegates v. Bethune-Hill
calls the House’s standing to intervene into doubt. 139
S. Ct. at 1953 (“This Court has never held that a judicial decision invalidating a state law as unconstitutional inflicts a discrete, cognizable injury on each
organ of government that participated in the law’s
passage.”). However, we need not resolve the question
of the House’s standing. “Article III does not require
intervenors to independently possess standing” when
a party already in the lawsuit has standing and seeks
the same “ultimate relief” as the intervenor. Ruiz v.
Estelle, 161 F.3d 814, 830 (5th Cir. 1998). That is the
case here: the intervenor-defendant states have standing to appeal, and the House seeks the same relief as
those states. We accordingly pretermit the issue of
whether the House has standing to intervene.
IV.
We now turn to the issue of whether any of the
plaintiffs had Article III standing to bring this case at
the time they brought the lawsuit. To be a case or controversy under Article III, the plaintiffs must satisfy
the same three requirements listed above. First, a

393
plaintiff must have suffered an “injury in fact”—a violation of a legally protected interest that is “concrete
and particularized,” as well as “actual or imminent,
not ‘conjectural’ or ‘hypothetical.’” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560 (1992) (quoting Whitmore
v. Arkansas, 495 U.S. 149, 155 (1990)). Second, that
injury must be “fairly . . . trace[able] to the challenged
action of the defendant, and not . . . th[e] result [of] the
independent action of some third party not before the
court.” Id. (alterations in original) (quoting Simon v.
E. Ky. Welfare Rights Org., 426 U.S. 26, 41–42 (1976)).
Third, it must be “likely”—not merely “speculative”—
that the injury will be “redressed by a favorable decision.” Id. at 561 (quoting Simon, 426 U.S. at 38, 43).
The instant case has two groups of plaintiffs: the
individual plaintiffs and the state plaintiffs. Only one
plaintiff need succeed because “one party with standing is sufficient to satisfy Article III’s case-or-controversy requirement.”19 Texas v. United States (DAPA),
809 F.3d 134, 151 (5th Cir. 2015) (quoting Rumsfeld v.
Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 52 n.2 (2006)), aff’d by an equally divided court,
136 S. Ct. 2271 (2016).20 The individual plaintiffs and
the state plaintiffs allege different injuries. We evaluate each in turn and conclude that both the individual plaintiffs and the state plaintiffs have standing.

For an academic critique of this approach, see Aaron-Andrew
P. Bruhl, One Good Plaintiff Is Not Enough, 67 Duke L. J. 481
(2017).

19

20 We refer to this 2015 case as “DAPA”—after Deferred Action
for Parents of Americans, the policy at issue there—to prevent
confusion with the present case of the same name.

394
A.
The standing issues presented by the individual
plaintiffs are not novel. The Supreme Court faced a
similar situation when it decided NFIB in 2012. At
oral argument in that case, Justice Kagan asked Gregory Katsas, representing NFIB, whether he thought “a
person who is subject to the [individual] mandate but
not subject to the [shared responsibility payment]
would have standing.” Transcript of Oral Argument
at 68, Dep’t of Health & Human Servs. v. Florida, 567
U.S. 519 (2012) (No. 11-398). Mr. Katsas replied, “Yes,
I think that person would, because that person is injured by compliance with the mandate.”
Id.
Mr. Katsas explained, “the injury—when that person
is subject to the mandate, that person is required to
purchase health insurance. That’s a forced acquisition
of an unwanted good. It’s a classic pocketbook injury.”
Id. at 68–69.
In 2012, this questioning made sense because neither the individual mandate nor the shared responsibility payment would be assessed for another two
years. Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, § 1501, 124 Stat. 119, 244 (2012)
(requiring insurance coverage “for each month beginning after 2013” and applying the shared responsibility payment for any failure to purchase insurance
“during any calendar year beginning after 2013”). It
was thus certainly imminent that the private plaintiffs would be subject to the individual mandate, which
applies to everyone, but not certain that they would be
subject to the shared responsibility payment, which
exempts certain people. 26 U.S.C. § 5000A(e) (prescribing that “[n]o penalty shall be imposed” on certain

395
groups of people).21 The distinction was important because a plaintiff “must demonstrate standing for each
claim he seeks to press.” Davis v. Fed. Election
Comm’n, 554 U.S. 724, 734 (2008) (quoting DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006)).
To bring a claim against the individual mandate,
therefore, the plaintiffs needed to show injury from the
individual mandate—not from the shared responsibility payment.
Accordingly, the district court in NFIB ruled that
the private plaintiffs were injured by the ACA “because of the financial expense [they would] definitively
incur under the Act in 2014,” and the private plaintiffs’ need “to take investigatory steps and make financial arrangements now to ensure compliance then.”
Florida ex rel. Bondi v. U.S. Dep’t of Health & Human
Servs., 780 F. Supp. 2d 1256, 1271 (N.D. Fla. 2011),
aff’d in part and rev’d in part, 648 F.3d 1235 (11th Cir.
2011), aff’d in part and rev’d in part, 567 U.S. 519
(2012). The record evidence in that case supported
this conclusion. Mary Brown, one of the private plaintiffs in that case, for example, had declared that “to
comply with the individual insurance mandate, and
well in advance of 2014, I must now investigate
whether and how to rearrange my personal finance affairs.” Appendix of Exhibits in Support of Plaintiffs’
Motion for Summary Judgment, Florida v. U.S. Dep’t
of Health & Human Servs., No. 3:10-cv-91-RV/EMT
(N.D. Fla. Nov. 10, 2010), ECF No. 80-6. At the Eleventh Circuit, all parties agreed that Mary Brown had
standing. Florida ex rel. Att’y. Gen. v. U.S. Dep’t of
Health & Human Servs., 648 F.3d 1235, 1243 (11th
21

For the full list of exemptions, see supra note 4.

396
Cir. 2011), aff’d in part and rev’d in part, 567 U.S. 519
(2012) (“Defendants do not dispute that plaintiff
Brown’s challenge to the minimum coverage provision
is justiciable.”). Congress could have reasonably contemplated people like Mary Brown. As Mr. Katsas explained at oral argument in the Supreme Court,
“Congress reasonably could think that at least some
people will follow the law precisely because it is the
law.” Transcript of Oral Argument at 67, Dep’t of
Health & Human Servs. v. Florida, 567 U.S. 519
(2012) (No. 11-398).
The district court in the instant case followed a
similar approach with regard to the individual plaintiffs’ standing.22 It concluded that because the individual plaintiffs are the object of the individual
mandate, which requires them to purchase health insurance that they do not want, those plaintiffs have
demonstrated two types of “injury in fact”: (1) the financial injury of buying that insurance; and (2) the
“increased regulatory burden” that the individual
mandate imposes. In concluding that these injuries
were caused by the individual mandate, the court
made specific fact findings that both Nantz and Hurley purchased insurance solely because they are “obligated to comply with the . . . individual mandate.” The
district court made these findings based on Nantz’s
and Hurley’s declarations, which the intervenor-defendant states never challenged. Because the undisputed evidence showed that the individual mandate
caused these injuries, the district court reasoned that
22 No party initially questioned the plaintiffs’ standing in the district court. An amicus brief raised the issue, and the intervenordefendant states addressed it at oral argument.

397
a favorable judgment would redress both injuries, allowing the individual plaintiffs to forgo purchasing
health insurance and freeing them “from what they essentially allege to be arbitrary governance.”
We agree with the district court. The Supreme
Court has held that when a lawsuit challenges “the legality of government action or inaction, the nature and
extent of facts that must be averred (at the summary
judgment stage) or proved (at the trial stage) in order
to establish standing depends considerably upon
whether” the plaintiffs are themselves the “object[s] of
the action (or forgone action) at issue.” Lujan, 504
U.S. at 561; see also Texas v. EEOC, 933 F.3d 433, 446
(5th Cir. 2019). “Whether someone is in fact an
object of a regulation is a flexible inquiry rooted in
common sense.” EEOC, 933 F.3d at 446 (quoting Contender Farms, L.L.P. v. U.S. Dep’t of Agric., 779 F.3d
258, 265 (5th Cir. 2015)). If a plaintiff is indeed the
object of a regulation, “there is ordinarily little question that the action or inaction has caused [the plaintiff] injury, and that a judgment preventing or
requiring the action will redress it.” Lujan, 504 U.S.
at 561–62.
It is undisputed that Hurley and Nantz are the objects of the individual mandate and that they have
purchased insurance in order to comply with that mandate. Record evidence supports these conclusions. In
his declaration in the district court, Nantz stated, “I
continue to maintain minimum essential health coverage because I am obligated.” Similarly, Hurley
averred in his declaration that he is “obligated to comply with the ACA’s individual mandate.” They both
explain in their declarations that they “value compli-

398
ance with [their] legal obligations” and bought insurance because they “believe that following the law is the
right thing to do.” Accordingly, the district court expressly found that Hurley and Nantz bought health
insurance because they are obligated to, and we must
defer to that factual finding. The evidentiary basis for
this injury is even stronger than it was in NFIB. In
the instant case, the individual mandate has already
gone into effect, compelling Nantz and Hurley to purchase insurance now as opposed to two years in the
future.
The intervenor-defendant states fail to point to any
evidence contradicting these declarations, and they
did not challenge this evidence in the district court. In
fact, some of the evidence these parties rely on actually supports the conclusion that Nantz and Hurley
purchased insurance to comply with the individual
mandate.
The
intervenor-defendant
states
acknowledge a 2017 report from the Congressional
Budget Office indicating that “a small number of people” would continue to buy insurance without a penalty “solely because” of a desire to comply with the law.
Cong. Budget Office, Repealing the Individual Health
Insurance Mandate: An Updated Estimate 1 (Nov.
2017). This report is at least somewhat consistent
with a 2008 Congressional Budget Office report, relied
on by the state plaintiffs, that “[m]any individuals”
subject to the mandate, but not the shared responsibility payment, will obtain coverage to comply with the
mandate “because they believe in abiding by the nation’s laws.” Cong. Budget Office, Key Issues in Analyzing Major Health Insurance Proposals 53 (Dec.
2008). Whether this group of law-abiding citizens in-

399
cludes “many individuals” or “a small number of people,” Nantz and Hurley have undisputed evidence
showing that they are a part of this group.
In this context, being required to buy something
that you otherwise would not want is clearly within
the scope of what counts as a “legally cognizable injury.” “Economic injury” of this sort is “a quintessential injury upon which to base standing.”
Tex.
Democratic Party v. Benkiser, 459 F.3d 582, 586 (5th
Cir. 2006); see also Vt. Agency of Nat. Res. v. United
States, 529 U.S. 765, 772–77 (1998) (finding Article III
injury from financial harm); Clinton v. New York, 524
U.S. 417, 432 (1998) (same); Sierra Club v. Morton,
405 U.S. 727, 733–34 (1972) (same); DAPA, 809 F.3d
at 155 (same). In Benkiser, for example, we held that
a political party would suffer an injury in fact because
it would need to “expend additional funds” in order to
comply with the challenged regulation. 459 F.3d at
586. In the instant case, the undisputed record evidence shows that the individual plaintiffs have spent
“additional funds” to comply with the statutory provision that they challenge on constitutional grounds.
This injury, moreover, is “actual,” not merely a
speculative fear about future harm that may or may
not happen. Lujan, 504 U.S. at 560. The record shows
that, at the time of the complaint, Hurley and Nantz
held health insurance, spending money every month
that they did not want to spend. Nantz reports that
his monthly premium is $266.56, and Hurley says his
is $1,081.70. The injury is also “concrete” because it
involves the real expenditure of those funds. See Barlow v. Collins, 397 U.S. 159, 162–63, 164 (1970) (finding a concrete injury when a regulation caused
economic harm from lost profit).

400
Causation and redressability “flow naturally” from
this concrete, particularized injury. Contender Farms,
779 F.3d at 266. The evidence in the record from Hurley’s and Nantz’s declarations show that they would
not have purchased health insurance but for the individual mandate, and the intervenor-defendant states
have no evidence to the contrary. A judgment declaring that the individual mandate exceeds Congress’
powers under the Constitution would allow Hurley
and Nantz to forgo the purchase of health insurance
that they do not want or need. They could purchase
health insurance below the “minimum essential coverage” threshold, or even decide not to purchase any
health insurance at all.
The intervenor-defendant states make several arguments against this straightforward injury, and all
of them come up short. They first argue that there is
no legally cognizable injury because there is no longer
any penalty for failing to comply. In one sense, this
argument misses the point. The threat of a penalty
that Hurley and Nantz would face under the pre-2017
version of the statute is one potential form of injury,
but it is far from the only one. We have held that the
costs of compliance can constitute an injury just as
much as the injuries from failing to comply. See, e.g.,
Benkiser, 459 F.3d at 586. Thus, in this instance, it is
this injury—the time and money spent complying with
the statute, not the penalty for failing to do so—that
constitutes the plaintiffs’ injury.
But the intervenor-defendant states also argue
that even the costs of compliance cannot count as an
injury in fact if there is no consequence for failing to
comply. The individual mandate’s compulsion cannot
inflict a cognizable injury, they say, because it is not a

401
compulsion at all. Because the enforcement mechanism has been removed, the U.S. House contends, it is
now merely a suggestion, at most. We recently rejected this argument in Texas v. EEOC, when the
Equal Employment Opportunity Commission tried to
argue that Texas could not challenge its allegedly nonfinal administrative guidance because “the Guidance
does not compel Texas to do anything.” 933 F.3d at
448. We concluded that it would “strain credulity to
find that an agency action targeting current ‘unlawful’
discrimination among state employers—and declaring
presumptively unlawful the very hiring practices employed by state agencies—does not require action immediately enough to constitute an injury-in-fact.” 23
Id. The individual mandate is no different. Just like
the agency guidance, the individual mandate targets
as “unlawful” the decision to go without health insurance.
The dissenting opinion grounds its discussion of the
issue in the Supreme Court’s decision in Poe v. Ullman,
367 U.S. 497 (1961). There, the Supreme Court re-

23 The dissenting opinion states that Texas had standing in Texas
v. EEOC because of the “consequences for disobeying the [challenged] guidance—including the possibility that the Attorney
General would enforce Title VII against it.” This depiction of
Texas v. EEOC ignores that opinion’s emphasis on the fact that
Texas was “the object of the Guidance.” 933 F.3d at 446; see also
id. (“If, in a suit ‘challenging the legality of government action,’
‘the plaintiff is himself an object of the action . . . there is ordinarily little question that the action or inaction has caused him injury
. . . .’” (quoting Lujan, 504 U.S. at 561–62)). As explained above,
the individual plaintiffs in this case are the objects of the individual mandate.

402
jected a challenge to Connecticut’s criminal prohibition on contraception. The dissenting opinion states
that if there was no standing in Ullman, then there
cannot be standing here. The dissenting opinion
seems to treat Ullman as part of the “pre-enforcement
challenge” line of cases in which the Supreme Court
analyzed claims of injury based on future enforcement
to determine whether the future enforcement was sufficiently imminent. Ullman, however, is not cited in
the seminal Supreme Court cases of that line. See, e.g.,
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158–
61 (2014); Holder v. Humanitarian Law Project, 561
U.S. 1, 15 (2010); Virginia v. Am. Booksellers Ass’n,
Inc., 484 U.S. 383, 392–93 (1988); Babbitt v. United
Farm Workers Nat’l Union, 442 U.S. 289, 298 (1979);
see also Abbott Labs. v. Gardner, 387 U.S. 136, 154
(1967). More importantly, as we have explained, this
case is not a pre-enforcement challenge because the
plaintiffs have already incurred a financial injury.24
The dissenting opinion also relies on City of Austin v. Paxton,
No. 18-50646, ___ F.3d ____, 2019 WL 6520769 (5th Cir. Dec. 4,
2019). That reliance is confusing because City of Austin is an Ex
parte Young case, not a standing case. For the Ex parte Young
exception to Eleventh Amendment sovereign immunity to apply,
the state official sued “must have ‘some connection with enforcement of the challenged act.’” Id. at *2 (alteration omitted) (quoting Ex parte Young, 209 U.S. 123, 157 (1908)). In City of Austin,
the City’s claims against the Texas Attorney General failed because the City failed to show the requisite connection to enforcement under Ex parte Young. Of course, because this is a lawsuit
against the federal government, neither the Eleventh Amendment nor Ex parte Young applies. Moreover, even if City of Austin had been a pre-enforcement challenge standing case, it would
still be irrelevant because this case is not a pre-enforcement challenge.
24

403
The plurality opinion in Ullman said there was insufficient adversity between the parties because there
was overwhelming evidence—eighty years’ worth of no
enforcement of the statute—of “tacit agreement” between prosecutors and the public not to enforce the
anti-contraceptive laws that the plaintiffs challenged.
367 U.S. at 507–08. As a result, the Court held that
the lawsuit before it was “not such an adversary case
as will be reviewed here.” Id. The fifth, controlling
vote in that case—Justice Brennan, who concurred in
the judgment—emphasized that this adverseness was
lacking because of the case’s “skimpy record,” devoid of
evidence that the “individuals [were] truly caught in
an inescapable dilemma.” Id. at 509 (Brennan, J., concurring).
By contrast, as documented above, the record in the
instant case contains undisputed evidence that Nantz
and Hurley feel compelled by the individual mandate
to buy insurance and that they bought insurance
solely for that reason. Especially in light of the fact
that the individual mandate lacks a similar eightyyear history of nonenforcement, Nantz and Hurley
have gone much further in demonstrating that they
are caught in the “inescapable dilemma” that the
Ullman plaintiffs were not.
The intervenor-defendant states also argue that
there is no causation between the individual mandate
and Hurley and Nantz’s purchase of insurance because Hurley and Nantz exercised a voluntary “choice”
to purchase insurance. Because Nantz and Hurley
would face no consequence if they went without insurance, the intervenor-defendant states argue that their
purchase of insurance is not fairly traceable to the federal defendants. Instead, they claim that Nantz and

404
Hurley impermissibly attempt to “manufacture standing merely by inflicting harm on themselves.” Glass
v. Paxton, 900 F.3d 233, 239 (5th Cir. 2018) (quoting
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 416
(2013)).
This argument fails, however, because it conflates
the merits of the case with the threshold inquiry of
standing. The argument assumes that 26 U.S.C.
§ 5000A presents not a legal command to purchase insurance, but an option between purchasing insurance
and doing nothing. Because this option exists, the argument goes, any injury arising from Hurley’s and
Nantz’s decisions to buy insurance instead of doing
nothing (the other putative option) is entirely self-inflicted. This, however, is a merits question that can be
reached only after determining the threshold issue of
whether plaintiffs have standing.
Texas v. EEOC makes clear that courts cannot fuse
the standing inquiry into the merits in this way.
There, in addition to the injury described above from
the Guidance’s rebuke of Texas’s employment practices as “unlawful,” Texas claimed it was injured by
the EEOC’s curtailing of Texas’s procedural right to
notice and comment before being subject to a regulation. EEOC, 933 F.3d at 447. In rejecting the suggestion that Texas was not truly injured because the
EEOC had not in fact violated the Administrative Procedure Act’s notice-and-comment rules, we held that
“[w]e assume, for purposes of the standing analysis,
that Texas is correct on the merits of its claim that the
Guidance was promulgated in violation of the APA.”
Id. (citing Sierra Club v. EPA, 699 F.3d 530, 533 (D.C.
Cir. 2012)); see also Bennett v. Spear, 520 U.S. 154,

405
177–78 (1997) (treating constitutional standing and finality as distinct inquiries).
Indeed, allowing a consideration of the merits as
part of a jurisdictional inquiry would conflict with the
Supreme Court’s express decision in Steel Co. v. Citizens for a Better Environment to not abandon “two centuries of jurisprudence affirming the necessity of
determining jurisdiction before proceeding to the merits.” 523 U.S. 83, 98 (1998). That case presented both
the question of Article III standing and the merits
question of whether the relevant statute authorized
lawsuits for purely past violations. Id. at 86. The
Court rejected any “attempt to convert the merits issue
. . . into a jurisdictional one.” Id. at 93. The Court further rejected the “doctrine of hypothetical jurisdiction,” under which certain courts of appeals had
“proceed[ed] immediately to the merits question, despite jurisdictional objections” in certain circumstances. Id. at 93–94. As the district court correctly
noted, that is exactly what the appellants ask this
court to do. They urge us to “skip ahead to the merits
to determine § 5000A(a) is non-binding and therefore
constitutional and then revert to the standing analysis
to use its merits determination to conclude there was
no standing to reach the merits in the first place.”
Moreover, even if we were to consider the merits as
part of our jurisdictional inquiry, it would not make a
difference in this case. Because we conclude in
Part IV of this opinion that the individual mandate is
best read as a command to purchase insurance (and an
unconstitutional one at that), rather than as an option

406
between buying insurance or doing nothing, the individual plaintiffs would have standing even if we considered the merits.25
B.
We next consider whether the eighteen state plaintiffs have standing, and we conclude that they do. 26
The state plaintiffs allege that the ACA causes them
both a fiscal injury as employers and a sovereign injury “because it prevents them from applying their
own laws and policies governing their own healthcare
markets.” State Plaintiffs’ Br. at 25. In DAPA, we determined that the state of Texas was entitled to special solicitude because it was “exercising a procedural
right created by Congress and protecting a ‘quasi-sovereign’ interest.” DAPA, 809 F.3d at 162 (quoting Massachusetts v. EPA, 549 U.S. 497, 520 (2007)); see also
id. at 154–55. Because the state plaintiffs in this case
have suffered fiscal injuries as employers, we need not
address special solicitude or the alleged sovereign injuries.

Even if the individual plaintiffs did not have standing, this case
could still proceed because the state plaintiffs have standing.
DAPA, 809 F.3d at 151 (holding that only one plaintiff needs
standing for the court to exercise jurisdiction). “This circuit follows the rule that alternative holdings are binding precedent and
not obiter dictum.” Id. at 178 n.158 (quoting United States v.
Potts, 644 F.3d 233, 237 n.3 (5th Cir. 2011)).
25

26 Likewise, even if the state plaintiffs did not have standing, this
case could still proceed because the individual plaintiffs have
standing. DAPA, 809 F.3d at 151 (holding that only one plaintiff
needs standing for the court to exercise jurisdiction).

407
Employers, including the state plaintiffs, are required by the ACA to issue forms verifying which employees are covered by minimum essential coverage
and therefore do not need to pay the shared responsibility payment. See 26 U.S.C. § 6055(a) (“Every person
who provides minimum essential coverage to an individual during a calendar year shall, at such time as
the Secretary may prescribe, make a return described in subsection (b).”); 26 U.S.C. § 6056(a)
(“Every applicable large employer [that meets certain
statutory requirements] shall . . . make a return described in subsection (b).”). These provisions have led
to Form 1095-B and 1095-C statements that employees receive from their employers around tax time,
which include a series of check boxes indicating the
months that employees had health coverage that complies with the ACA. State Plaintiffs’ Br. at 23. These
legally required reporting practices exist on top of
state employers’ own in-house administrative systems
for managing and tracking their employees’ health insurance coverage.
The record is replete with evidence that the individual mandate itself has increased the cost of printing and processing these forms and of updating the
state employers’ in-house management systems. For
example, Thomas Steckel, the director of the Division
of Employee Benefits within the South Dakota Bureau
of Human Resources, submitted a declaration documenting the administrative costs that the individual
mandate has imposed by way of these reporting requirements. He said, “[t]he individual mandate
caused significant administrative burdens and expenses to program our IT system to track and report
ACA eligible employees and complete mandatory IRS

408
Form 1095 annual reports.” Steckel noted specifically
that “the individual mandate caused . . . $100,000.00
[in] ongoing costs” for Form 1095-C administration
alone. The dissenting opinion discards this evidence
as conclusory. But as even counsel for the intervenordefendant states admitted at oral argument, nobody
challenged this evidence as conclusory in the district
court or in the appellate court.27 Oral Argument at
5:12.

27 The reason why is obvious: the evidence is not conclusory. This
is bread-and-butter summary judgment practice, not, as the dissenting opinion contends, any “new summary-judgment rule.” Of
course, a properly-included affidavit must be based on personal
knowledge, and conclusory facts and statements on information
and belief cannot be utilized. See Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure, § 2738 (4th ed.
2019). The Steckel affidavit easily satisfies this standard: it is a
detailed 8-page declaration. Steckel attested, under penalty of
perjury, that he is “responsible for developing and implementing
the State’s health plan for state employees” and that he is “particularly familiar with changes in costs, plans, and policies related to the enactment of the ACA because of my role as the
Director of the Division [of Employee Benefits].” He estimates
the financial costs the individual mandate has caused in nine different categories, including ongoing costs of $10,400 for review of
denied appeals, ongoing costs of $100,000 for Form 1095-C administration, and a one-time cost of $3,302,942 as a Transitional
Reinsurance Program fee. For other costs, such as the pre-existing conditions prohibition and the expanded eligibility for adult
dependent children to age 26, he conceded that he was “unable to
accurately estimate the ongoing costs of this mandate.” A determination of standing is supported by the administration of
Form 1095-C, the CBO’s prediction that some individuals will
continue to purchase insurance in the absence of a shared responsibility payment, the fact that two such individuals are before

409
South Dakota is far from the only state that has
been harmed from the financial cost of the reporting
requirements that the individual mandate aggravates. Judith Muck, the Executive Director of the Missouri Consolidated Health Care Plan, reported that
Missouri’s costs for preparing 1095-B forms, along
with 1094-B forms, are projected to be $47,300 in fiscal
year 2019 and $49,200 in fiscal year 2020. Similarly,
Teresa MacCartney, the Chief Financial Officer of the
State of Georgia and the Director of the Georgia Governor’s Office of Planning and Budget, reported that
Georgia’s overall cost of compliance with the ACA’s reporting requirements “is an estimated net $3.6 million
to date.” MacCartney also reported that after the
ACA’s implementation, Georgia’s Department of Community Health “experienced increased enrollment of
individuals already eligible for Medicaid benefits under pre-ACA eligibility standards.” This enrollment
increase required the Department to enhance its management systems, which was “very costly.” Blaise Duran, who is the Manager for Underwriting, Data
Analysis and Reporting for the Employees Retirement
System of Texas, further documented Texas’ costs of
the reporting requirements.
He declared that the
Texas Employees Group Benefits Program “has made
administrative process changes in connection with its
ACA compliance, such as those related to the provision

this court, and the Supreme Court’s observation that “third parties will likely react in predictable ways.” Department of Commerce, 139 S. Ct. at 2566.

410
of Form 1095-Bs to plan participants and the Internal
Revenue Service.”28
The intervenor-defendant states and the U.S.
House have not challenged the state plaintiffs’ evidence or presented any evidence to the contrary. Instead, they argue that the reporting requirements set
forth in Sections 6055(a) and 6056(a) “are separate
from the mandate and serve independent purposes.”
U.S. House Reply Br. at 19. Therefore, they claim,
“any resulting injury is thus neither traceable to Section 5000A nor redressable by its invalidation.” U.S.
House Reply Br. at 19. But this misreads the undisputed evidence in the record. The individual mandate
commands individuals to get insurance. Every time
an individual gets that insurance through a state employer, the state employer must send the individual a
form certifying that he or she is covered and otherwise
process that information through in-house management systems.29 Thus, the reporting requirements in
This list is not exhaustive. For instance, Arlene Larson, Manager of Federal Health Programs and Policy for Wisconsin Employee Trust Funds, declared that the state expended funds by
“hir[ing] a vendor to issue 343 Form 1095-Cs” in 2017. And Mike
Michael, Director of the Kansas State Employee Health Plan,
averred that reporting for Form 1094 and 1095 cost the state
$43,138 in 2017 and $38,048 in 2018. No record evidence indicates that these reporting requirements have been eliminated.
Moreover, the “standing inquiry remains focused on whether the
party invoking jurisdiction had the requisite stake in the outcome
when the suit was filed.” Davis v. Fed. Election Comm’n, 554 U.S.
724, 734 (2008).
28

29 Relying on this injury, therefore, does not run afoul of Nat’l
Fed’n of the Blind of Texas v. Abbott, 647 F.3d 202 (5th Cir. 2011).

411
Sections 6055(a) and 6056(a) flow from the individual
mandate set forth in Section 5000A(a).
These costs to the state plaintiffs are well-established.30 Moreover, the continuing nature of these fiscal injuries is consistent with Fifth Circuit and
Supreme Court precedent.
That case prevents plaintiffs from claiming injury based on provisions whose enforcement would be enjoined only if they are inseverable from an unconstitutional provision that does not harm
the plaintiff. Id. at 210–11. The state plaintiffs’ injuries stem
from the increased administrative costs created by the individual
mandate itself, not from other provisions. To be sure, those costs
are created in part by the individual mandate’s practical interaction with other ACA provisions, like the reporting requirements.
But this is no different from the injuries in DAPA, where the challenged action interacted with Texas’s driver’s license regulations.
It is also no different from Department of Commerce, where the
challenged census question interacted with constitutional rules
tying political representation to a state’s population.
30 The dissenting opinion, citing no authority, contends that the
state plaintiffs need evidence that at least one specific “employee
enrolled in one of state plaintiffs’ health insurance programs
solely because of the unenforceable coverage requirement.” We
have already explained why the uncontested affidavits suffice.
We note, moreover, that the DAPA court found that Texas had
standing because “it would incur significant costs in issuing
driver’s licenses to DAPA beneficiaries”—without requiring that
Texas first show that it had issued a specific license to a specific
illegal alien because of DAPA. Finally, the dissenting opinion’s
rule would create a split with our sister circuits. See Massachusetts v. United States Dep’t of Health & Human Servs., 923 F.3d
209, 225 (1st Cir. 2019) (“[Massachusetts] need not point to a specific person who will be harmed in order to establish standing in
situations like this.”); California v. Azar, 911 F.3d 558, 572 (9th
Cir. 2018), cert. denied sub nom. Little Sisters of the Poor Jeanne
Jugan Residence v. California, 139 S. Ct. 2716 (2019) (“Appellants

412
In DAPA, we held that the state of Texas had
standing to challenge the federal government’s DAPA
program because it stood to “have a major effect on the
states’ fisc.” 809 F.3d at 152. This was because, if
DAPA were permitted to go into effect, it would have
“enable[d] at least 500,000 illegal aliens in Texas” to
satisfy Texas’s requirements that the Department of
Public Safety “‘shall issue’ a license to a qualified applicant,” including noncitizens who present “documentation issued by the appropriate United States agency
that authorizes the applicant to be in the United
States.” Id. at 155 (quoting Tex. Transp. Code §§
521.142(a), 521.181). Evidence in the record showed
that Texas, which subsidizes its licenses, would “lose a
minimum of $130.89 on each one it issued to a DAPA
beneficiary.” Id. Even a “modest estimate” of predictable third-party behavior would rack up costs of “several million dollars.” Id.
The Supreme Court recently applied a similar analysis in Department of Commerce v. New York, 139 S.
Ct. 2551 (2019). In that case, a group of state and local
governments sued to prevent the federal government
from including a question about citizenship status on
the 2020 census. Id. at 2563. The Supreme Court held
that these plaintiffs had standing because they met
their burden “of showing that third parties will likely
fault the states for failing to identify a specific woman likely to
lose coverage. Such identification is not necessary to establish
standing.”); Pennsylvania v. President United States, 930 F.3d
543, 564 (3d Cir. 2019), as amended (July 18, 2019) (“The Government faults the States for failing to identify a specific woman who
will be affected by the Final Rules, but the States need not define
injury with such a demanding level of particularity to establish
standing.”).

413
react in predictable ways to the citizenship question.”
Id. at 2566. The census question would likely lead to
“noncitizen households responding . . . at lower rates
than other groups, which in turn would cause them to
be undercounted.” Id. at 2565. This undercounting of
third parties would injure the state and local governments by “diminishment of political representation,
loss of federal funds, degradation of census data, and
diversion of resources.” Id.
In both DAPA and Department of Commerce, the
state plaintiffs demonstrated injury by showing that
the challenged law would cause third parties to behave
in predictable ways, which would inflict a financial injury on the states. The instant case is no different.
The individual mandate commands people to ensure
that they have minimum health insurance coverage.
That predictably causes more people to buy insurance,
which increases the administrative costs of the states
to report, manage, and track the insurance coverage of
their employees and Medicaid recipients.31

The dissenting opinion contends that our opinion is inconsistent because we rely on Department of Commerce, in which the
Court found that some individuals will predictably violate the
law, in explaining why some individuals will predictably “follow
the law regardless of the incentives.” In a large group, there will
predictably be some individuals in each category. Even the dissenting opinion accepts the Congressional Budget Office’s projection that some people will buy insurance solely because of a desire
to comply with the law. See Cong. Budget Office, Repealing the
Individual Health Insurance Mandate: An Updated Estimate 1
(Nov. 2017).

31

414
V.
Having concluded that both groups of plaintiffs
have standing to bring this lawsuit, we must next determine whether the individual mandate is a constitutional exercise of congressional power. We conclude
that it is not. We first discuss the Supreme Court’s
holding in NFIB, and then we explain why, under that
holding, the individual mandate is no longer constitutional.
A.
The NFIB opinion was extremely fractured. In
that case, Chief Justice Roberts wrote an opinion addressing several issues. Parts of that opinion garnered a majority of votes and served as the opinion of
the Court.32 In relevant part, Part III-A of the Chief
Justice’s opinion, joined by no other Justice, observed
As a general overview, Chief Justice Roberts’s opinion functioned in the following way. In Part III-A, Chief Justice Roberts
said that the individual mandate was most naturally read as a
command to buy insurance, which could not be sustained under
either the Interstate Commerce Clause or the Necessary and
Proper Clause. Though no Justice joined this part of the opinion,
the four dissenting Justices—Justices Scalia, Kennedy, Thomas,
and Alito—agreed with Part III-A in a separate opinion. In Part
III-B, the Chief Justice wrote that even though the most natural
reading of the individual mandate was unconstitutional, the
Court still needed to determine whether it was “fairly possible”
to read the provision in a way that saved it from being unconstitutional. In Part III-C, the Chief Justice—joined by Justices
Ginsburg, Breyer, Kagan, and Sotomayor—concluded that the
provision could be construed as constitutional by reading the individual mandate, in conjunction with the shared responsibility
payment, as a legitimate exercise of Congress’ taxing power. This
last part of the opinion supported the Court’s ultimate judgment:
that the individual mandate was constitutional as saved.

32

415
that “[t]he most straightforward reading of the [individual] mandate is that it commands individuals to
purchase insurance,” and that, using that reading of
the statute, the individual mandate is not a valid exercise of Congress’ power under the Interstate Commerce Clause. NFIB, 567 U.S. at 562, 546–61
(Roberts, C.J.). The Constitution, he explained, “gave
Congress the power to regulate commerce, not to compel it.” Id. at 555 (Roberts, C.J.). For similar reasons,
the Chief Justice concluded that this command to purchase insurance could not be sustained under the Constitution’s Necessary and Proper Clause. Id. The
individual mandate was not “proper” because it expanded federal power, “vest[ing] Congress with the extraordinary ability to create the necessary predicate to
the exercise of” its Interstate Commerce Clause powers. Id. at 560.
Though no other Justices joined this part of the
Chief Justice’s opinion, the “joint dissent”—joined by
Justices Scalia, Kennedy, Thomas, and Alito—
reached the same conclusions on the Interstate Commerce Clause and Necessary and Proper Clause questions. Id. at 650–60 (joint dissent). A majority of the
court, therefore, concluded that the individual mandate is not constitutional under either the Interstate
Commerce Clause or the Necessary and Proper
Clause.
This limited reading of the Interstate Commerce
Clause—and, by extension, of the Necessary and
Proper Clause—was necessary to preserving “the
country [that] the Framers of our Constitution envisioned.” Id. at 554 (Roberts, C.J.). As Chief Justice
Roberts observed, if the individual mandate were a

416
proper use of the power to regulate interstate commerce, that power would “justify a mandatory purchase to solve almost any problem.” Id. at 553
(Roberts, C.J.). If Congress can compel the purchase
of health insurance today, it can, for example, micromanage Americans’ day-to-day nutrition choices tomorrow. Id. (Roberts, C.J.); see also id. at 558 (Roberts,
C.J.) (reasoning that, under an expansive view of the
Commerce Clause, nothing would stop the federal government from compelling the purchase of broccoli).
An expansive reading of the Interstate Commerce
Clause would be foreign to the Framers, who saw the
clause as “an addition which few oppose[d] and from
which no apprehensions [were] entertained.” Id. at
554 (Roberts, C.J.) (quoting The Federalist No. 45, at
293 (J. Madison) (C. Rossiter ed., 1961)). Elevating
Congress’ power to “regulate commerce . . . among the
several states,” U.S. Const. art. I, § 8, cl. 3, to a power
to create commerce among the several states would
make a Leviathan of the federal government, “everywhere extending the sphere of its activity and drawing
all power into its impetuous vortex.” NFIB, 567 U.S.
at 554 (Roberts, C.J.) (quoting The Federalist No. 48,
at 309 (J. Madison) (C. Rossiter ed., 1961)). The joint
dissenters similarly noted that the more expansive
reading of the Interstate Commerce Clause would render that provision a “font of unlimited power,” id. at
653 (joint dissent), or, in the words of Alexander Hamilton, a “hideous monster whose devouring jaws . . .
spare neither sex nor age, nor high nor low, nor sacred
nor profane,” id. (quoting The Federalist No. 33, at 202
(C. Rossiter ed., 1961)).

417
In Part III-B, again joined by no other Justice,
Chief Justice Roberts concluded that because the individual mandate found no constitutional footing in the
Interstate Commerce or Necessary and Proper
Clauses, the Supreme Court was obligated to consider
the federal government’s argument that, as an exercise
in constitutional avoidance, the mandate could be read
not as a command but as an option to purchase insurance or pay a tax. This “option” interpretation of the
statute could save the statute from being unconstitutional, as it would be justified under Congress’ taxing
power. Id. at 561–63 (Roberts, C.J.); see also id. at 562
(Roberts, C.J.) (“No court ought, unless the terms of an
act rendered it unavoidable, to give a construction to
it which should involve a violation, however unintentional, of the constitution.” (quoting Parsons v. Bedford, 28 U.S. (3 Pet.) 433, 448–49 (1830))); see also id.
at 563 (Roberts, C.J.) (“The question is not whether
that is the most natural interpretation of the mandate,
but only whether it is a ‘fairly possible’ one.” (quoting
Crowell v. Benson, 285 U.S. 22, 62 (1932))).
In Part III-C, the Chief Justice—writing for a majority of the Court, joined by Justices Ginsburg,
Breyer, Sotomayor, and Kagan—undertook that inquiry of determining whether it was “fairly possible”
to read the individual mandate as an option and
thereby save its constitutionality. See id. at 563–74
(majority opinion). Chief Justice Roberts reasoned
that the individual mandate could be read in conjunction with the shared responsibility payment in order
to save the individual mandate from unconstitutionality. Read together with the shared responsibility payment, the entire statutory provision could be read as a

418
legitimate exercise of Congress’ taxing power for four
reasons.
First and most fundamentally, the shared-responsibility payment “yield[ed] the essential feature of any
tax: It produce[d] at least some revenue for the Government.” Id. at 564. Second, the shared-responsibility payment was “paid into the Treasury by taxpayers
when they file their tax returns.” Id. at 563 (alternations and internal quotation marks omitted). Third,
the amount owed under the ACA was “determined by
such familiar factors as taxable income, number of dependents, and joint filing status.” Id. Fourth and finally, “[t]he requirement to pay [was] found in the
Internal Revenue Code and enforced by the IRS, which
. . . collect[ed] it in the same manner as taxes.” Id. at
563–64 (internal quotation marks omitted).
Because of these four attributes of the shared responsibility payment, the Court reasoned that “[t]he
Federal Government does have the power to impose a
tax on those without health insurance.” Id. at 575.
The Court concluded that “[s]ection 5000A is therefore
constitutional, because it can reasonably be read as a
tax.”33 Id. We agree with the dissenting opinion that
“this case begins and ought to end” with NFIB.
Seven Justices—Chief Justice Roberts and Justices Scalia,
Kennedy, Thomas, Breyer, Alito, and Kagan—agreed that the
Act’s Medicaid-expansion provisions unconstitutionally coerced
states into compliance. NFIB, 567 U.S. at 575–85 (plurality opinion); id. at 671–89 (joint dissent). But, in light of a severability
clause, Part IV–B of the Chief Justice’s opinion concluded that the
unconstitutional portion of the Medicaid provisions could be severed. Id. at 585–88 (plurality opinion). Meanwhile, Justice Ginsburg, joined by Justice Sotomayor, disagreed that the Act’s

33

419
B.
Now that the shared responsibility payment
amount is set at zero, 34 the provision’s saving construction is no longer available. The four central attributes that once saved the statute because it could
be read as a tax no longer exist. Most fundamentally,
the provision no longer yields the “essential feature of
any tax” because it does not produce “at least some
revenue for the Government.” Id. at 564. Because the
provision no longer produces revenue, it necessarily
lacks the three other characteristics that once rendered the provision a tax. The shared-responsibility
payment is no longer “paid into the Treasury by taxpayer[s] when they file their tax returns” because the
payment is no longer paid by anyone. Id. at 563 (alteration in original and internal quotation marks
omitted). The payment amount is no longer “determined by such familiar factors as taxable income,
number of dependents, and joint filing status.” Id. The
amount is zero for everyone, without regard to any of
these factors. The IRS no longer collects the payment
“in the same manner as taxes” because the IRS cannot

mandatory Medicaid expansion was unconstitutional. Id. at 633
(Ginsburg, J., concurring in the judgment in part, and dissenting
in part). Those two Justices concurred in the judgment with respect to the Chief Justice’s conclusion that the unconstitutional
provisions could be severed from the remainder of the Act. Id. at
645–46 (Ginsburg, J., concurring in the judgment in part, and
dissenting in part). The four dissenting Justices concluded that
the Act’s Medicaid-expansion provisions were unconstitutionally
coercive and rejected the relief of allowing states to opt into Medicaid expansion. Id. at 671–90 (joint dissent).
34

26 U.S.C. §§ 5000A(c)(2)(B)(iii), (c)(3)(A).

420
collect it at all.
marks omitted).

Id. at 563–64 (internal quotation

Because these four critical attributes are now missing from the shared responsibility payment, it is, in
the words of the state plaintiffs, “no longer ‘fairly possible’ to save the mandate’s constitutionality under
Congress’ taxing power.” State Plaintiffs’ Br. at 32.
The proper application of NFIB to the new version of
the statute is to interpret it according to what Chief
Justice Roberts—and four other Justices of the
Court—said was the “most straightforward” reading
of that provision: a command to purchase insurance.
Id. at 562 (Roberts, C.J.). As the district court
properly observed, “the only reading available is the
most natural one.” Under that reading, the individual
mandate is unconstitutional because, under NFIB, it
finds no constitutional footing in either the Interstate
Commerce Clause or the Necessary and Proper
Clause. Id. at 546–61 (Roberts, C.J.); id. at 650–60
(joint dissent).
The intervenor-defendant states have several arguments against this conclusion, all of which fail.
They first argue that the saving construction of the individual mandate, interpreting the provision as an option to buy insurance or pay a tax, is still “fairly
possible.” As the individual plaintiffs point out, the
Court interpreted the individual mandate as an option
only because doing so would save it from being unconstitutional. Accordingly, the intervenor-defendant
states must show that the “option” would still be a constitutional exercise of Congress’ taxing power. To
make that showing, the intervenor-defendant states
reject the plaintiffs’ attempt to read a “some revenue”
requirement into the Constitution’s Taxing and

421
Spending Clause, arguing instead for a potential-toproduce-revenue requirement. The individual mandate, they say, is still set out in the Internal Revenue
Code. It still provides a “statutory structure through
which” Congress could eventually tax people for failing
to buy insurance. It still includes references to taxable
income, number of dependents, and joint filing status.
26 U.S.C. §§ 5000A(b)(3), (c)(2), (c)(4). Further, it still
does not apply to individuals who pay no federal income taxes. 26 U.S.C. § 5000A(e)(2).
The intervenor-defendant states have little support for this reading of the Taxing and Spending
Clause. For starters, NFIB could not be clearer that
the “produc[tion]” of “at least some revenue for the
Government”—not the potential to produce that revenue—is “the essential feature of any tax.” 567 U.S. at
564 (majority opinion) (emphasis added). As the district court observed, when determining whether a statute is a tax, the actual production of revenue is “not
indicative, not common—[but] essential.”
The intervenor-defendant states also find no support in United States v. Ardoin, 19 F.3d 177, 179–80
(5th Cir. 1994). In that unusual case, Congress had
imposed a tax on machine guns, but subsequently outlawed machine guns altogether, which prompted the
relevant agency to stop collecting the tax. Id. at 179–
80.
The defendant was convicted not only for possessing a machine gun but also for failing to pay the
tax, which remained on the books. Id. at 178. The
court upheld the conviction on the basis that the tax
law at issue could “be upheld on the preserved, but unused, power to tax or on the power to regulate interstate commerce.” Id. at 180. But the taxing power was

422
“preserved” in Ardoin because it was non-revenue-producing only in practice whereas the “tax” here is actually $0.00 as written on the books. 35 See Fed.
Defendants’ Br. at 32. Expanding Ardoin to apply
here would, as the federal defendants point out, puzzlingly allow Congress to “prohibit conduct that exceeds
its commerce power through a two-step process of first
taxing it and then eliminating the tax while retaining
the prohibition.” Fed. Defendants’ Br. at 32.
The intervenor-defendant states argue further that
the individual mandate does not even need constitutional justification because it is merely a suggestion,
not binding legislative action. The individual mandate, they contend, is no different from the Flag Code,
which, though entered into the pages of the U.S. Code,
“was not intended to proscribe conduct.” Dimmitt v.
City of Clearwater, 985 F.2d 1565, 1573 (11th Cir.
1993) (analyzing 36 U.S.C. §§ 174–76). This argument is just a repackaged version of their argument
that the individual mandate can still be read as an option. But, as the state plaintiffs, the individual plaintiffs, and the federal defendants point out, the
Supreme Court has already held that the “most
straightforward” reading of the individual mandate—
which emphatically demands that individuals “shall”
buy insurance, 26 U.S.C. § 5000A(a)—is as a command
This distinction also disposes of the intervenor-defendant
states’ concern about “cast[ing] constitutional doubt on taxes
with delayed start dates or that Congress has temporarily suspended for periods of time.” Intervenor-Defendant States’ Br. at
43. In none of the examples the intervenor-defendant states cite
did the statute purport to levy a “tax” of $0.00.

35

423
to purchase health insurance. The Court then concluded that that command lacked constitutional justification. The zeroing out of the shared responsibility
payment does not render the provision any less of a
command. Quite the opposite: Chief Justice Roberts
concluded that the greater-than-zero shared responsibility payment actually converted the individual mandate into an option. NFIB, 567 U.S. at 563–64
(majority opinion). Now that the shared responsibility
payment has been zeroed out, the only logical conclusion under NFIB is to read the individual mandate as
a command, quite unlike the Flag Code. It is an individual mandate, not an individual suggestion.
Moreover, it is not true that when the Court adopts
a limiting construction to avoid constitutional questions, that construction controls as to all applications
of the statute, regardless of whether the original constitutional implications are present. The case on
which the U.S. House relies involved different applications of an identical statute to different facts. Clark
v. Martinez, 543 U.S. 371, 380 (2005) (rejecting the argument that “the constitutional concerns that influenced” a previous interpretation of a provision of the
Immigration and Nationality Act were “not present
for” the aliens at issue in that case). This case is readily distinguishable because the four characteristics
that made the previous interpretation possible—the
production of revenue and other tax-like features—
have now been legislatively removed. The limiting
construction is no longer available as a matter of statutory interpretation. The interpretation must accordingly change to comport with what five Justices of the

424
Supreme Court have said is the “most straightforward
reading” of that interpretation.36
The dissenting opinion justifies its continued reliance on the saving construction—even though it is no
longer applicable—by citing Kimble v. Marvel Entm’t,
LLC, 135 S. Ct. 2401 (2015). This approach fares no
better. The dissenting opinion quotes Kimble to say
that “in whatever way reasoned,” the Court’s interpretation “effectively become[s] part of the statutory
scheme, subject . . . to congressional change.” Id. at
2409. The dissenting opinion correctly acknowledges
that the individual mandate was never changed. But
what did change was the provision that actually mattered: the shared responsibility payment. When it
was set above zero, it could be saved as a tax, even
though five justices agreed this was an unnatural
reading. It would be puzzling if Congress could change
a statute at will, entirely insulated from constitutional
infirmity, just because the Court had previously used
constitutional avoidance to save a previous version of
the statute.
Contrary to the dissenting opinion’s suggestion, a saving construction is no longer available. The canon of constitutional
avoidance applies only “when statutory language is susceptible of
multiple interpretations.” Jennings v. Rodriguez, 138 S. Ct. 830,
836 (2018). In NFIB, § 5000A was amenable to two possible interpretations. It was either “a command to buy insurance” or “a
tax.” NFIB, 567 U.S. at 574 (Roberts, C.J.). After Congress zeroed out the shared responsibility payment, one of those possible
interpretations fell away. What was then the “most straightforward reading” is now the only available reading: it is a “command
to buy insurance” and “the Commerce Clause does not authorize
such a command.” Id.

36

425
The intervenor-defendant states argue furthermore that the individual mandate can now be constitutional under the Interstate Commerce Clause
because it does not compel anyone into commerce.
This is again a repackaged version of their argument
that the individual mandate is an option even without a revenue-generating shared responsibility payment, an argument that, as the state plaintiffs point
out, the Supreme Court has already rejected. This argument, as the district court observed, is also logically
inconsistent. If the individual mandate no longer
truly compels anything, then it can hardly be said to
be a “regulat[ion]” of interstate commerce. In the
words of the district court, the intervenor-defendant
states “hope to have their cake and eat it too.”37
Finally, we would be remiss if we did not engage
with the dissenting opinion’s contention that § 5000A
is not an exercise of legislative power. This would
likely come as a shock to the legislature that drafted
it, the president who signed it, and the voters who celebrated or lamented it. It is not surprising that the
dissenting opinion can cite no case in which a federal
court deems a duly enacted statute not an exercise of
legislative power, much less a statute that clearly
commands that an individual “shall” do something.38
Any argument that the individual mandate can now be sustained under the Necessary and Proper Clause fails for the same
reasons. The individual mandate now must be read as a command, and five Justices in NFIB already rejected the argument
that such a command could be sustained under the Necessary and
Proper Clause. NFIB, 567 U.S. at 561 (Roberts, C.J.); id. at 654–
55 (joint dissent).
37

38

The dissenting opinion’s theory of the “law that does nothing”

426
The dissenting opinion is inconsistent on this point: it
argues that the provision’s status as an exercise of legislative power fluctuates according to the amount of
the shared responsibility payment while simultaneously contending that “if the text of the coverage requirement has not changed, its meaning could not
have changed either.” Our decision breaks no new
ground. We simply observe that § 5000A was originally cognizable as either a command or a tax. Today,
it is only cognizable as a command. It has always been
an exercise of legislative power.
***
In NFIB, the individual mandate—most naturally
read as a command to purchase insurance—was saved
from unconstitutionality because it could be read together with the shared responsibility payment as an
option to purchase insurance or pay a tax. It could be
read this way because the shared responsibility payment produced revenue. It no longer does so. Therefore, the most straightforward reading applies: the
mandate is a command. Using that meaning, the individual mandate is unconstitutional.

results in some bizarre metaphysical conclusions. The ACA was
signed into law in 2010. No one questions that when it was
signed, § 5000A was an exercise of legislative power. Yet today,
the dissenting opinion asserts, § 5000A is not an exercise of legislative power. So did Congress exercise legislative power in
2010, as seen from 2015? As seen from 2018? Does § 5000A ontologically re-emerge should a future Congress restore the shared
responsibility payment? Perhaps, like Schrödinger’s cat, § 5000A
exists in both states simultaneously. The dissenting opinion does
not say. Our approach requires no such quantum musings.

427
VI.
Having concluded that the individual mandate is
unconstitutional, we must next determine whether, or
how much of, the rest of the ACA is severable from that
constitutional defect. On this question, we remand to
the district court to undertake two tasks: to explain
with more precision what provisions of the post-2017
ACA are indeed inseverable from the individual mandate; and to consider the federal defendants’ newlysuggested relief of enjoining the enforcement only of
those provisions that injure the plaintiffs or declaring
the Act unconstitutional only as to the plaintiff states
and the two individual plaintiffs. We address each issue in turn.
A.
The Supreme Court has said that the “standard for
determining the severability of an unconstitutional
provision is well established.” Alaska Airlines, Inc. v.
Brock, 480 U.S. 678, 684 (1987). Unless it is “evident
that the Legislature would not have enacted those provisions which are within its power, independently of
that which is not, the invalid part may be dropped if
what is left is fully operative as a law.” Id. (quoting
Buckley v. Valeo, 424 U.S. 1, 108 (1976)).
This inquiry into counterfactual Congressional intent has been crystallized into a “two-part . . . framework.” NFIB, 567 U.S. at 692 (joint dissent). First, if
a court holds a statutory provision unconstitutional, it
then determines whether the now-truncated statute
will operate in “a manner consistent with the intent of
Congress.” Alaska Airlines, 480 U.S. at 685 (emphasis
omitted). This first step asks whether the constitutional provisions—standing on their own, without the

428
unconstitutional provisions—are “fully operative as a
law,” not whether they would simply “operate in some
coherent way” not designed by Congress. Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 509 (2010) (quoting New York v. United States,
505 U.S. 144, 186 (1992)); NFIB, 567 U.S. at 692 (joint
dissent). Second, even if the remaining provisions can
operate as Congress designed them to, the court must
determine if Congress would have enacted the remaining provisions without the unconstitutional portion. If
Congress would not have done so, then those provisions must be deemed inseverable. Alaska Airlines,
480 U.S. at 685 (“[T]he unconstitutional provision
must be severed unless the statute created in its absence is legislation that Congress would not have enacted.”); Free Enter. Fund, 561 U.S. at 509 (“[N]othing
in the statute’s text or historical context makes it evident that Congress, faced with the limitations imposed by the Constitution, would have preferred no
Board at all to a Board whose members are removable
at will.” (internal quotation marks omitted)).
Severability doctrine places courts between a rock
and a hard place. On the one hand, courts strive to be
faithful agents of Congress,39 which often means refusing to create a hole in a statute in a way that creates legislation Congress never would have agreed to
or passed. See Murphy v. NCAA, 138 S. Ct. 1461, 1482
(2018) (“[Courts] cannot rewrite a statute and give it
an effect altogether different from that sought by the
See Frank H. Easterbrook, Text, History, and Structure in Statutory Interpretation, 17 Harv. J. L. & Pub. Pol’y 61, 63 (1994)
(“[Courts] are supposed to be faithful agents, not independent
principals.”).

39

429
measure viewed as a whole.” (quoting R.R. Ret. Bd. v.
Alton R.R., 295 U.S. 330, 362 (1935))). On the other
hand, courts often try to abide by the medical practitioner’s maxim of “first, do no harm,” aiming “to limit
the solution to the problem” by “refrain[ing] from invalidating more of the statute than is necessary.”
Ayotte v. Planned Parenthood of N. New England, 546
U.S. 320, 328 (2006); Collins v. Mnuchin, 938 F.3d 553,
592 (5th Cir. 2019) (en banc) (Haynes, J.) (severing unconstitutional removal restriction from remainder of
Federal Housing Finance Agency’s enabling statute).40
In fact, courts have a “duty” to “maintain the act in so
far as it is valid” if it “contains unobjectionable provisions separable from those found to be unconstitutional.” Alaska Airlines, 480 U.S. at 684 (quoting
Regan v. Time, Inc., 468 U.S. 641, 652 (1984) (plurality
opinion)).
The Supreme Court emphasizes this duty so
strongly that commentators have identified “a presumption [of severability] implicit in the Court’s” severability jurisprudence. Adrian Vermeule, Saving
Constructions, 85 Geo. L.J. 1945, 1950 n.28 (1997); see
also Brian Charles Lea, Situational Severability, 103
Va. L. Rev. 735, 744 (2017) (“[C]ourts assume that a
legislature intends for any unlawful part of its handiwork to be severable from all lawful parts in the absence of indicia of a contrary intention.”). This
presumption is strongest when Congress includes a
severability clause in the statutory text; however, “[i]n
the absence of a severability clause . . . Congress’s si-

40 Judge Haynes wrote the opinion of the court as to the question
of remedy. See Collins, 938 F.3d at 591.

430
lence is just that—silence—and does not raise a presumption against severability.” Alaska Airlines, 480
U.S. at 686.
Nevertheless, the meticulous analysis required by
severability doctrine defies reliance on presumptions
or generalities. The Supreme Court’s latest venture
into severability territory, Murphy v. NCAA, 138 S. Ct.
1461 (2018), provides an example. There, the Court
held that the entirety of the Professional and Amateur
Sports Protection Act was unconstitutional because
one of its provisions—authorizing private sports gambling—violated the anti-commandeering doctrine. Id.
at 1484. Justice Alito’s majority opinion separately explored each of the other operative provisions in the act,
reasoning that all of the act’s provisions were “obviously meant to work together” and be “deployed in tandem.” Id. at 1483. Because Congress would not have
wanted the otherwise-valid provisions “to stand
alone,” the Court declined to sever them. Id. This
conclusion prompted a dissent from Justice Ginsburg,
who characterized the majority as “wield[ing] an ax . . .
instead of using a scalpel to trim the statute” and reiterated that “the Court ordinarily engages in a salvage
rather than a demolition operation.” Id. at 1489–90
(Ginsburg, J., dissenting).
These Murphy opinions draw attention to one difficulty inherent in severability analysis: selecting the
right tool for the job. Justice Thomas’ concurring
opinion goes further, providing two reasons why navigating between the Scylla of poking small but critical holes in complex, carefully crafted legislative
bargains and the Charybdis of invalidating more duly
enacted legislation than necessary stands “in tension
with traditional limits on judicial authority.” Murphy,

431
138 S. Ct. at 1485 (Thomas, J., concurring). “[T]he judicial power is, fundamentally, the power to render
judgments in individual cases,” and severability doctrine threatens to violate that vital separation-of-powers principle in more than one way. Id. (Thomas, J.,
concurring).
First, severability doctrine requires “a nebulous inquiry into hypothetical congressional intent,” as opposed to the usual judicial bread-and-butter of
“determin[ing] what a statute means.” Id. at 1486
(Thomas, J., concurring) (quoting United States v.
Booker, 543 U.S. 220 at 321 n.7 (2005) (Thomas, J.,
dissenting in part)). Because “Congress typically does
not pass statutes with the expectation that some part
will later be deemed unconstitutional,” id. at 1487,
this requirement often leaves courts to exercise their
imagination or “intuitions regarding what the legislature would have desired had it considered the severability issue.” Lea, supra, at 747. This, in turn,
“enmeshes the judiciary in making policy choices” the
Constitution reserves for the legislature, David H.
Gans, Severability as Judicial Lawmaking, 76 Geo.
Wash. L. Rev. 639, 663 (2008), providing unelected judicial officers with cover to simply implement their
own policy preferences.
Second, severability doctrine forces courts to
“weigh in on statutory provisions that no party has
standing to challenge, bringing courts dangerously
close to issuing advisory opinions.” Murphy, 138 S. Ct.
at 1487 (Thomas, J., concurring); see also Jonathan F.
Mitchell, The Writ-of-Erasure Fallacy, 104 Va. L. Rev.
933, 936 (2018) (“The federal courts have no authority
to erase a duly enacted law from the statute books,

432
[but can only] decline to enforce a statute in a particular case or controversy.” 41 ). As Justice Thomas
points out, when Chief Justice Marshall famously declared that “[i]t is emphatically the province and duty
of the judicial department to say what the law is,” he
justified that assertion by explaining that “[t]hose who
apply [a] rule to particular cases, must of necessity expound and interpret that rule.” Marbury v. Madison,
5 U.S. (1 Cranch) 137, 177 (1803). Yet severability
doctrine directs courts to go beyond the necessary—
that is, the application of a particular statutory provision to a particular case—to consider the viability of
other provisions without even “ask[ing] whether the
plaintiff has standing to challenge those other provisions.” Murphy, 138 S. Ct. at 1487 (Thomas, J., concurring).
“[S]everability doctrine is thus an
unexplained exception to the normal rules of standing,
as well as the separation-of-powers principles that
those rules protect.” Id.
Severability analysis is at its most demanding in the
context of sprawling (and amended) statutory schemes
like the one at issue here. The ACA’s framework of
economic regulations and incentives spans over
900 pages of legislative text and is divided into ten titles. Most of the provisions directly regulating health
insurance, including the one challenged in this case,
are found in Titles I and II. See, e.g., 26 U.S.C.
§ 5000A(a) (individual mandate); 42 U.S.C. § 300gg14(a) (requiring insurers offering family plans to cover
adult children until age 26), §§ 18031–18044 (creating

41 If that is true, then courts are speaking loosely when they state
that they are “invalidating” or “striking down” a law.

433
health insurance exchanges). The other titles generally amend Medicare (Title III), fund preventative
healthcare programs (Title IV), seek to expand the
supply of healthcare workers (Title V), enact antifraud requirements for Medicare/Medicaid facilities
(Title VI), establish or expand drug regulations (Title VII), create a voluntary long-term care insurance
program (Title VIII), address taxation (Title IX), and
improve health care for Native Americans (Title X42).
The plaintiffs group this host of provisions into
three categories for ease of reference. State Plaintiffs’
Br. at 38. The first category includes the three core
ACA provisions the Supreme Court has called “closely
intertwined”: the individual mandate, 26 U.S.C.
§ 5000A(a), the guaranteed-issue requirement, 42
U.S.C. §§ 300gg, 300gg-1, and the community-rating
requirement, 42 U.S.C.§ 300gg-4. King, 135 S. Ct. at
2487. The second category includes the remaining
“[m]ajor provisions of the Affordable Care Act,” NFIB,
567 U.S. at 697 (joint dissent), namely other provisions dealing with “insurance regulations and taxes,”
“reductions in federal reimbursements to hospitals and
other Medicare spending reductions,” the insurance
“exchanges and their federal subsidies,” and “the employer responsibility assessment.” See, e.g., 25 U.S.C.
§ 4980H; 26 U.S.C. § 36B; 42 U.S.C. §§ 1395ww,
18021–22. The third category includes a variety of minor provisions, for example taxes on certain medical
devices or provisions requiring the display of nutritional content at restaurants. See, e.g., 21 U.S.C.
§ 343(q)(5)(H); 26 U.S.C. § 4191(a).
Title X also includes a number of miscellaneous provisions relating to the other titles.
42

434
Moreover, Congress has made a number of substantive amendments to the ACA, revising the statute
in 2010, 2011, 2014, 2017, and 2018. See, e.g., Medicare and Medicaid Extenders Act of 2010, Pub. L. No.
111-309, 124 Stat. 3285 (2010) (modifying tax credit
scale and Medicaid requirements); Department of Defense and Full-Year Continuing Appropriations Act,
2011, Pub. L. No. 112-10, 125 Stat. 38 (2011) (repealing program that required some employers to provide
some employees with vouchers for purchasing insurance); Bipartisan Budget Act of 2015, Pub. L. No.
114-74, 129 Stat. 584 (2015) (repealing requirement
that employers with more than 200 employees enroll
new full-time employees in health insurance and continue coverage for current employees). Most of these
amendments occurred prior to the 2017 legislation
eliminating the shared responsibility payment, but
some are more recent. See, e.g., Bipartisan Budget
Act of 2018, Pub. L. No. 115-123, 132 Stat. 64 (2018)
(repealing Independent Payment Advisory Board).
In summary, then, this issue involves a challenging legal doctrine applied to an extensive, complex,
and oft-amended statutory scheme. All together,
these observations highlight the need for a careful,
granular approach to carrying out the inherently difficult task of severability analysis in the specific context of this case. We are not persuaded that the
approach to the severability question set out in the
district court opinion satisfies that need. The district
court opinion does not explain with precision how particular portions of the ACA as it exists post-2017 rise
or fall on the constitutionality of the individual mandate. Instead, the opinion focuses on the 2010 Congress’ labeling of the individual mandate as “essential”

435
to its goal of “creating effective health insurance markets,” 42 U.S.C. § 18091(2)(I), and then proceeds to designate the entire ACA inseverable. In using this
approach, the opinion does not address the ACA’s provisions with specificity, nor does it discuss how the individual mandate fits within the post-2017 regulatory
scheme of the ACA.
The district court opinion begins by addressing the
2010 version of the ACA. Starting with the text of the
ACA, the district court opinion points out that the
2010 Congress incorporated into the text its view that
“the absence of the [individual mandate] would undercut Federal regulation of the health insurance market.” 42 U.S.C. § 18091(2)(H). The district court
opinion notes that the 2010 Congress devised the individual mandate, “together with the other provisions”
of the ACA, to “add millions of new customers to the
health insurance market.” 42 U.S.C. § 18091(2)(C). In
this way, the 2010 Congress sought to “minimize th[e]
adverse selection” that might otherwise occur if
healthy individuals “wait[ed] to purchase health insurance until they needed care,” 42 U.S.C.
§ 18091(2)(I)—a strategic choice that would otherwise
be available given the ACA’s guaranteed-issue and
community-rating provisions. According to the district court opinion: because the 2010 Congress found
the individuate mandate “essential” to this plan to reshape health insurance markets, the individual mandate is inseverable from the rest of the ACA “[o]n the
unambiguous enacted text alone.”
The district court opinion also addresses ACA
caselaw. Citing the Supreme Court’s decisions in
NFIB and King, the district court opinion states that
“[a]ll nine Justices . . . agreed the Individual Mandate

436
is inseverable from at least the pre-existing-condition
provisions.” See NFIB, 567 U.S. at 548 (Roberts, C.J.),
596–98 (Ginsburg, J., joined by Breyer, Kagan, and Sotomayor, JJ.), 695–96 (joint dissent of Scalia, Kennedy, Thomas, and Alito, JJ.); King, 135 S. Ct. at 2487
(stating that the individual mandate is “closely intertwined” with the guaranteed-issue and communityrating provisions). As to the ACA’s other provisions,
the district court opinion notes that the only group of
Justices who fully considered whether the other
major and minor provisions were severable was the
joint dissent in NFIB—and those Justices would have
held that “invalidation of the ACA’s major provisions
requires the Court to invalidate the ACA’s other provisions.” NFIB, 567 U.S. at 704 (joint dissent).
Beyond these points, the district court opinion
states that its “conclusion would only be reinforced” if
it “parse[d] the ACA’s provisions one by one.” The district court opinion arrives at this conclusion by reasoning that declaring only the individual mandate
unlawful would disrupt the Act’s careful balance of
“shared responsibility.” The district court opinion lists
a few examples of how it would expect this to happen
with regard to the ACA’s major provisions. First, the
district court opinion reasons that “the Individual
Mandate reduces the financial risk forced upon insurance companies and their customers by the ACA’s major regulations and taxes.” If the individual mandate
fell and the regulations and taxes did not, insurance
companies would suffer a burden without enjoying a
countervailing benefit—”a choice no Congress made
and one contrary to the text.” Second, if a court were
to declare just the individual mandate and the protections for preexisting conditions unlawful—but not the

437
subsidies for health insurance—then the Act would be
transformed into “a law that subsidizes the kinds of
discriminatory products Congress sought to abolish at,
presumably, the re-inflated prices it sought to suppress.” Third, Congress never intended “a duty on employers, see 26 U.S.C. § 4980H, to cover the
skyrocketing insurance premium costs” that would
“inevitably result from removing” the individual mandate. Fourth, because “the Medicaid-expansion provisions were designed to serve and assist fulfillment of
the Individual Mandate,” removing the individual
mandate would remove the need for that expansion.
As to the ACA’s minor provisions, the district court
opinion states that it is “impossible to know which minor provisions Congress would have passed absent the
Individual Mandate,” and that such an inquiry involves too much “legislative guesswork.” Relying on
the 2010 Congress’ labeling of the individual mandate
as “essential,” the district court opinion ultimately determines that there is “no reason to believe that Congress would have enacted” the minor provisions
independently. The district court opinion similarly
disclaims the ability to divine the intent of the 2017
Congress—which had zeroed out the shared responsibility payment but left the rest of the ACA untouched—labeling such an inquiry “a fool’s errand.”
To the extent it analyzed the intent of the 2017 Congress, the district court opinion determines that Congress’ failure to repeal the individual mandate shows
that it “knew that provision is essential to the ACA.”
In sum, the district court opinion concludes that the
entire ACA is inseverable from the individual mandate.

438
The plaintiffs urge affirmance for essentially the
same reasons stated in the district court opinion.43 As
to the guaranteed-issue and community-rating provisions, they rely primarily on the 2010 Congress’ express findings linking those provisions to the
individual mandate. State Plaintiffs’ Br. at 39–44; Individual Plaintiffs’ Br. at 47–48. The 2010 Congress
found that, without the individual mandate, “many individuals would wait to purchase health insurance until they needed care,” creating an “adverse selection”
problem. 42 U.S.C. § 18091(2)(I); see also id. (finding
that the individual mandate is “essential to creating
effective health insurance markets in which improved
health insurance products that are guaranteed issue
and do not exclude coverage of pre-existing conditions
can be sold”). As to the remaining major and some of
the minor provisions, the plaintiffs rely primarily on
the joint dissent in NFIB for the proposition that leaving these provisions standing would “undermine Congress’ scheme of shared responsibility,” throwing off
the balance of the interlocking insurance market reforms set out in the ACA. 567 U.S. at 698 (joint dissent) (internal quotation marks omitted); State
Plaintiffs’ Br. at 44–49. As for the most minor provisions, they argue that these were “mere adjuncts” of
the more important provisions and would not have
been independently enacted. State Plaintiffs’ Br. at
50.
On appeal, the federal defendants agree with the
plaintiffs that the entirety of the ACA is inseverable
from the individual mandate. Fed. Defendants’ Br. at
The individual plaintiffs adopt the state plaintiffs’ severability
arguments by reference. See Fed. R. App. P. 28(i).

43

439
36–49. This marks a significant change in litigation
position, as the federal defendants had previously submitted to the district court that only the guaranteedissue and community-rating provisions were inseverable. And that is not the only new argument the federal defendants make on appeal. For the first time on
appeal, the federal defendants argue that the remedy
in this case should be limited to enjoining enforcement
of the ACA only to the extent it harms the plaintiffs.
See Fed. Defendants’ Br. at 26–29 (arguing that the individual “plaintiffs do not have standing to seek relief
against provisions of the ACA that do not in any way
affect them”); Fed. Defendants’ Supp. Br. at 10 (“[T]he
judgment itself, as opposed to its underlying legal reasoning, cannot be understood as extending beyond the
plaintiff states to invalidate the ACA in the intervenor
states.”).
The intervenor-defendant states, meanwhile, argue that every provision of the ACA is severable from
the individual mandate. They argue that the 2017
Congress’ decision not to repeal or otherwise undermine any other provision of the ACA shows that it intended the rest of the ACA to remain operative—and
that the court should not focus on the intent of the
2010 Congress. Intervenor-Defendant States’ Br. at
34–35, 43. They point to the statements of several legislators in the 2017 Congress that seem to evince an
assumption that other parts of the ACA would not be
altered,44 and to Congress’ knowledge of reports highlighting the severe consequences a total invalidation
44 Although we decline to opine on the merits of the parties’ arguments at this juncture, we caution against relying on individual

440
of the ACA would have. Intervenor-Defendant States’
Br. at 40. Finally, they argue that the passage of time
since the ACA’s enactment has shown that the individual mandate is not all that crucial after all, and
they provide examples of ACA provisions they say have
nothing to do with insurance markets or became operative years before the individual mandate took effect.
Intervenor-Defendant States’ Br. at 45.
Although we understand and share the district
court’s general disinclination to engage in what it refers to as “legislative guesswork”—and what a Supreme Court Justice has described as “a nebulous
inquiry into hypothetical congressional intent,” Murphy, 138 S. Ct. at 1486 (Thomas, J., concurring) (quoting Booker, 543 U.S. at 321 n.7 (Thomas, J., dissenting
in part))—we nevertheless conclude that the severability analysis in the district court opinion is incomplete in two ways.

statements by legislators to determine the meaning of the law.
“[L]egislative history is not the law.” Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1631 (2018); see also Asadi v. G.E. Energy (USA),
LLC, 720 F.3d 620, 626 n.9 (5th Cir. 2013) (“[T]he authoritative
statement is the statutory text, not the legislative history or any
other extrinsic material.” (quoting Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005))); Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of Legal
Texts 392–93 (2012) (“Each member voting for the bill has a
slightly different reason for doing so. There is no single set of
intentions shared by all . . . [y]et a majority has undeniably
agreed on the final language that passes into law . . . and that is
the sole means by which the assembly has the authority to make
law.”). And even among legislative history devotees, “floor statements by individual legislators rank among the least illuminating forms.” N.L.R.B. v. SW Gen., Inc., 137 S. Ct. 929, 943 (2017).

441
First, the opinion gives relatively little attention to
the intent of the 2017 Congress, which appears in the
analysis only as an afterthought despite the fact that
the 2017 Congress had the benefit of hindsight over
the 2010 Congress: it was able to observe the ACA’s
actual implementation. Although the district court
opinion states that burdening insurance companies
with taxes and regulations without giving them the
benefit of compelling the purchase of their product is
“a choice no Congress made,” it only links this observation to the 2010 Congress. It does not explain its
statement that the 2017 Congress’ failure to repeal the
individual mandate is evidence of an understanding
that no part of the ACA could survive without it.
Second, the district court opinion does not do the
necessary legwork of parsing through the over
900 pages of the post-2017 ACA, explaining how particular segments are inextricably linked to the individual mandate. The opinion lists a few examples of
major provisions and cogently explains their link to
the individual mandate, at least as it existed in 2010.
For example, the opinion discusses the individual
mandate’s interplay with the guaranteed- issue and
community-rating provisions—all of which are found
in Title I of the ACA—analyzing how Congress intended those provisions to work and how they might
be expected to work without the individual mandate.
But in order to strike the delicate balance that severability analysis requires, the district court must undertake a similar inquiry for each segment of the post2017 law that it ultimately declares unlawful—and it
has not done so. Instead, the district court opinion focuses on the 2010 Congress’ designation of the individual mandate as “essential to creating effective health

442
insurance markets” and intention that, for at least one
set of legislative goals, the individual mandate was intended to work “together with the other provisions” of
the ACA. E.g., 42 U.S.C. § 18091(2)(I). On this basis,
and on the views of the dissenting Justices in NFIB
addressing the ACA as it stood in 2012, the district
court opinion renders the entire ACA inoperative.
More is needed to justify the district court’s remedy.
Take, for example, the ACA provisions in Title IV requiring certain chain restaurants to disclose to consumers nutritional information like “the number of
calories contained in the standard menu item.” Patient Protection and Affordable Care Act, Pub. L. No.
111-148, § 4206, 124 Stat. 119, 573–74 (2012) (codified
at 21 U.S.C. § 343). Or consider the provisions in Title X establishing the level of scienter necessary to be
convicted of healthcare fraud. Patient Protection and
Affordable Care Act § 10606, 124 Stat. 119, 1006–09,
(codified at 18 U.S.C. § 1347). Without more detailed
analysis from the district court opinion, it is unclear
how provisions like these—which certainly do not directly regulate the health insurance marketplace—
were intended to work “together” with the individual
mandate. Similarly, the district court opinion’s assertion that “most of the minor provisions” of the ACA
“are mere adjuncts of” or “aids to the[] effective execution” of the project of the individual mandate is
not supported by the actual analysis in the district
court opinion, which does not dive into those provisions. Finally, some insurance-related reforms became law years before the effective date of the
individual mandate; the district court opinion does not
explain how provisions like these are inextricably
linked to the individual mandate. See, e.g., 42 U.S.C.

443
§§ 300gg-11, 300gg-14(a). Whatever the solution to
the problem of “legislative guesswork” the district
court opinion identifies in severability doctrine as it
currently stands, it must include a careful parsing of
the statutory scheme at issue to address questions like
these.
We have long “require[d] that a district court explain its reasons for granting a motion for summary
judgment in sufficient detail for us to determine
whether the court correctly applied the appropriate legal test.” Wildbur v. ARCO Chem. Co., 974 F.2d 631,
644 (5th Cir. 1992). This is because we have “little opportunity for effective review” when the district court
opinion leaves some reasoning “vague” or “unsaid.”
Myers v. Gulf Oil Corp., 731 F.2d 281, 284 (5th Cir.
1984). “In such cases, we have not hesitated to remand . . . .” Id. In this case, the analysis the district
court opinion provides is substantial and far exceeds
the sort of cursory reasoning that normally prompts us
to remand.
Yet, the vast, wide-ranging statutory
scheme at issue in this case also far exceeds the comparatively small number of provisions at issue in other
severability cases, see, e.g., Chadha, 462 U.S. at
931–35 (considering whether 8 U.S.C. § 244(c)(2)
could be severed from the rest of § 244)—especially
cases in which entire legislative acts are determined
to be inseverable, see, e.g., Murphy, 138 S. Ct. at 1481–
84 (considering whether part of 28 U.S.C. § 3702(1)
could be severed from §§ 3701–04).
Moreover, the Supreme Court has remanded in the
severability context upon a determination that additional analysis was necessary. In Ayotte v. Planned
Parenthood of Northern New England, 546 U.S. 320
(2006), the Supreme Court took up the issue of what

444
relief was appropriate upon a determination that a
New Hampshire provision requiring parental notification prior to abortion was unconstitutional in some applications. Id. at 328–32. The Supreme Court
determined that, although the district court’s choice to
use “the most blunt remedy”—total inseverability—
was “understandable” under its own precedent, more
analysis was needed to determine “whether New
Hampshire’s legislature intended the statute to be susceptible to” severability. Id. at 330–31. As a result,
the Supreme Court remanded for “lower courts to determine legislative intent in the first instance.” Id.
We do the same here, directing the district court to
employ a finer-toothed comb on remand and conduct a
more searching inquiry into which provisions of the
ACA Congress intended to be inseverable from the individual mandate. We do not hold forth on just how
fine-toothed that comb should be—the district court
may use its best judgment to determine how best to
break the ACA down into constituent groupings, segments, or provisions to be analyzed. Nor do we make
any comment on whether the district court should
take into account the government’s new posture on appeal or what the ultimate outcome of the severability
analysis should be.45 Although “we cannot affirm the
order as it is presently supported,” we do not suggest
what result will be merited “[a]fter a more thorough
inquiry.” Unger v. Amedisys Inc., 401 F.3d 316, 325
(5th Cir. 2005). We only note that the inquiry must be
45 The district court should also consider this court’s recent severability analysis in Collins v. Mnuchin, 938 F.3d 553 (5th Cir.
2019) (en banc). That opinion was issued after both the district
court’s decision and the oral argument here.

445
made, and that the district court—which has many
tools at its disposal—is best positioned to determine in
the first instance whether the ACA “remains ‘fully operative as a law’” and whether it is evident from “the
statute’s text or historical context” that Congress
would have preferred no ACA at all to an ACA without
the individual mandate. Free Enter. Fund, 561 U.S.
at 509 (quoting New York, 505 U.S. at 186).
It may still be that none of the ACA is severable
from the individual mandate, even after this inquiry
is concluded. It may be that all of the ACA is severable
from the individual mandate. It may also be that some
of the ACA is severable from the individual mandate,
and some is not.46 But it is no small thing for unelected, life-tenured judges to declare duly enacted legislation passed by the elected representatives of the
American people unconstitutional. The rule of law demands a careful, precise explanation of whether the
provisions of the ACA are affected by the unconstitutionality of the individual mandate as it exists today.

46 For an explanation of some, but certainly not all, of the potential conclusions with regard to severability, see Josh Blackman,
Undone: The New Constitutional Challenge to Obamacare, 23
Tex. Rev. L. & Pol. 1, 28–51 (2018) (stating that the district court
could halt the enforcement of just the individual mandate, halt
the enforcement of the entire Act, or halt the enforcement of the
community-rating and guaranteed-issue provisions along with
the individual mandate, for example). The district court could
also issue a declaratory judgment without enjoining any government official.

446
B.
Remand is appropriate in this case for a second
reason: so that the district court may consider the federal defendants’ new arguments as to the proper scope
of relief in this case. The relief the plaintiffs sought in
the district court was a universal nationwide injunction: an order that totally “enjoin[ed] Defendants from
enforcing the Affordable Care Act and its associated
regulations.” Before the district court, the federal defendants urged entry of a declaratory judgment stating
that the guaranteed-issue and community-rating provisions—at that time, the only provisions the federal
defendants argued were inseverable—were “invalid[ated]” by the zeroing out of the shared responsibility payment. This would be “sufficient relief against
the Government,” the federal defendants argued, because a declaratory judgment would “operate[] in a
similar manner as an injunction” against the federal
government, which would be “presumed to comply with
the law” once the court provides “a definitive interpretation of the statute.”
Ultimately, of course, the district court opinion determined that no ACA provision was severable and resulted in a judgment declaring the entire ACA
“invalid.” On appeal, the federal defendants first
changed their litigation position to agree that no ACA
provision was severable. Now they have changed their
litigation position to argue that relief in this case
should be tailored to enjoin enforcement of the ACA in
only the plaintiff states—and not just that, but that
the declaratory judgment should only reach ACA provisions that injure the plaintiffs. They argue that the
Supreme Court has made clear that “[a] plaintiff’s

447
remedy must be tailored to redress the plaintiff’s particular injury.” Gill v. Whitford, 138 S. Ct. 1916, 1934
(2018); see also Printz v. United States, 521 U.S. 898,
935 (1997) (reasoning that the Court has “no business
answering” questions dealing with enforcement of provisions that “burden . . . no plaintiff”); see also Murphy,
138 S. Ct. at 1485–86 (Thomas, J., concurring). This
argument came as a surprise to the plaintiffs, who explained at oral argument that they saw the government’s new position as a possible “bait and switch.”
The federal defendants admitted at oral argument
that they had raised the scope-of-relief issue on appeal
“for the first time,” but argued that it was necessary to
address, as it went to the district court’s Article III jurisdiction. The federal defendants therefore suggested
that it “would be appropriate to remand to consider
the scope of the judgment.”
The court agrees that remand is appropriate for the
district court to consider these new arguments in the
first instance. The district court did not have the benefit of considering them when it crafted the relief now
on appeal.47 On remand, the district court—which is
in a far better position than this court to determine
which ACA provisions actually injure the plaintiffs—
may consider the federal defendants’ position on the
proper relief to be afforded. As part of this inquiry,
the district court may consider whether the federal defendants’ arguments were timely raised, and whether
limiting the remedy in this case is supported by Supreme Court precedent. Once again, we place no
47 The consideration of limited relief may affect the intervenors
as well. The district court is better suited to resolving these issues in the first instance.

448
thumb on the scale as to the ultimate outcome; the district court is free to weigh the federal defendants’
changed arguments as it sees fit.
VII.
For these reasons, the judgment of the district
court is AFFIRMED in part and VACATED in part.
We REMAND for proceedings consistent with this
opinion.

449
KING, Circuit Judge, dissenting:
Any American can choose not to purchase health insurance without legal consequence. Before January 1,
2018, individuals had to choose between complying
with the Affordable Care Act’s coverage requirement
or making a payment to the IRS. For better or worse,
Congress has now set that payment at $0. Without any
enforcement mechanism to speak of, questions about
the legality of the individual “mandate” are purely academic, and people can purchase insurance—or not—
as they please. No more need be said; it has long been
settled that the federal courts deal in cases and controversies, not academic curiosities.
The majority sees things differently and today
holds that an unenforceable law is also unconstitutional. If the majority had stopped there, I would be
confident its extrajurisdictional musings would ultimately prove harmless. What does it matter if the coverage requirement is unenforceable by congressional
design or constitutional demand? Either way, that law
does not do anything or bind anyone.
But again, the majority disagrees. It feels bound
to ask whether Congress would want the rest of the Affordable Care Act to remain in force now that the coverage requirement is unenforceable. Answering that
question should be easy, since Congress removed the
coverage requirement’s only enforcement mechanism
but left the rest of the Affordable Care Act in place. It
is difficult to imagine a plainer indication that Congress considered the coverage requirement entirely
dispensable and, hence, severable. And yet, the majority is unwilling to resolve the severability issue. Instead, it merely identifies serious flaws in the district
court’s analysis and remands for a do-over, which will

450
unnecessarily prolong this litigation and the concomitant uncertainty over the future of the healthcare sector.
I would vacate the district court’s order because
none of the plaintiffs have standing to challenge the
coverage requirement. And although I would not reach
the merits or remedial issues, if I did, I would conclude
that the coverage requirement is constitutional, albeit
unenforceable, and entirely severable from the remainder of the Affordable Care Act.
I.
To my mind, this case begins and ought to end with
the Supreme Court’s decision in National Federation
of Independent Business v. Sebelius, 567 U.S. 519
(2012). In that case, the Court held that the coverage
requirement would be unconstitutional if it were a legal command, because neither the Commerce Clause
nor the Necessary and Proper Clause allows Congress
to compel individuals to engage in commerce by purchasing health insurance. See NFIB, 567 U.S. at 552,
560 (opinion of Roberts, C.J.); id. at 652-53 (joint dissent). The Court concluded, however, that the coverage requirement was constitutional, because—
notwithstanding the most natural reading of the provision’s text— the coverage requirement was not actually a legal command to purchase insurance.
Instead, according to the NFIB Court, the coverage
requirement “leaves an individual with a lawful choice
to do or not do a certain act,” i.e., purchase health insurance. Id. at 574 (Roberts, C.J., majority opinion).
All that is required, under this reading, is “a payment
to the IRS” if one chooses not to purchase health insurance. Id. at 567. Beyond this shared-responsibility

451
payment, there are no further “negative legal consequences to not buying health insurance,” and individuals who forgo insurance do not violate the law as long
as they make the required payment. Id. at 567. “Those
subject to the [coverage requirement] may lawfully
forgo health insurance and pay higher taxes, or buy
health insurance and pay lower taxes. The only thing
they may not lawfully do is not buy health insurance
and not pay the resulting tax.” Id. at 574 n.11. Forcing
individuals to make that choice was constitutional, per
NFIB, because Congress could “impose a tax on not
obtaining health insurance” by exercising its enumerated power to lay and collect taxes, duties, imposts,
and excises. Id. at 570.
Contrary to the suggestion of the majority, which I
address specifically infra at Part III, Congress did not
alter the coverage requirement’s operation when it
amended the ACA in 2017. See Tax Cuts and Jobs Act
of 2017, Pub. L. No. 115-97, § 11081, 131 Stat. 2054,
2092 (“TCJA”). All the TCJA did, with respect to
healthcare, was change the amount of the shared-responsibility payment to zero dollars. Thus, despite textual
appearances,
the
post-TCJA
coverage
requirement does nothing more than require individuals to pay zero dollars to the IRS if they do not purchase health insurance, which is to say it does nothing
at all.
This insight, that the coverage requirement now
does nothing, should be the end of this case. Nobody
has standing to challenge a law that does nothing.
When Congress does nothing, no matter the form that
nothing takes, it does not exceed its enumerated powers. And since courts do not change anything when
they invalidate a law that does nothing, every other

452
law retains, or at least should retain, its full force and
effect.
II.
But as the majority goes well past NFIB, I respond.
To begin, I emphasize the importance of the rule that
a plaintiff must have standing to invoke a federal
court’s power. This is not an anachronism lingering
from some era in which empty formalities abounded in
legal practice. Quite the opposite: “[T]he requirement
that a claimant have ‘standing is an essential and unchanging part of the case-or-controversy requirement
of Article III.’” Davis v. FEC, 554 U.S. 724, 733 (2008)
(quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560
(1992)); see also Susan B. Anthony List v. Driehaus,
573 U.S. 149, 157 (2014) (“Article III of the Constitution limits the jurisdiction of federal courts to ‘Cases’
and ‘Controversies.’” (quoting U.S. Const. art. III,
§ 2)). And “[n]o principle is more fundamental to the
judiciary’s proper role in our system of government
than the constitutional limitation of federal-court jurisdiction to actual cases or controversies.” Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 408 (2013) (alteration
in original) (quoting DaimlerChrysler Corp. v. Cuno,
547 U.S. 332, 341 (2006)); accord Raines v. Byrd, 521
U.S. 811, 818 (1997).
The Constitution’s case-or-controversy requirement reflects the Framers’ view of the judiciary’s place
among the coequal branches of the federal government: to fulfill “the traditional role of Anglo–American
courts, which is to redress or prevent actual or imminently threatened injury to persons caused by private
or official violation of law.” Summers v. Earth Island
Inst., 555 U.S. 488, 492 (2009). Strict adherence to the
case-or-controversy requirement—and to standing in

453
particular—thus “serves to prevent the judicial process from being used to usurp the powers of the political branches.” Clapper, 568 U.S. at 408; see also Town
of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017) (“This fundamental limitation preserves the
‘tripartite structure’ of our Federal Government, prevents the Federal Judiciary from ‘intrud[ing] upon the
powers given to the other branches,’ and ‘confines the
federal courts to a properly judicial role.’” (alteration
in original) (quoting Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016))). Thus, “federal courts may exercise
power only ‘in the last resort, and as a necessity,’ and
only when adjudication is ‘consistent with a system of
separated powers and [the dispute is one] traditionally
thought to be capable of resolution through the judicial process.’” Allen v. Wright, 468 U.S. 737, 752
(1984) (alteration in original) (citation omitted) (first
quoting Chi. & Grand Trunk Ry. Co. v. Wellman, 143
U.S. 339, 345 (1892); then quoting Flast v. Cohen, 392
U.S. 83, 97 (1968)), abrogated on other grounds,
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118 (2014). And needless to say, a federal
court must conduct an “especially rigorous” standing
inquiry “when reaching the merits of the dispute would
force [it] to decide whether an action taken by one of
the other two branches of the Federal Government was
unconstitutional.” Amnesty Int’l, 568 U.S. at 408 (quoting Raines, 521 U.S. at 819-20). “The importance of
this precondition should not be underestimated as a
means of ‘defin[ing] the role assigned to the judiciary
in a tripartite allocation of power.’” Valley Forge Christian Coll. v. Ams. United for Separation of Church &
State, 454 U.S. 464, 474 (1982) (alteration in original)
(quoting Flast, 392 U.S. at 95).
The standing doctrine polices this constitutional
limit on the judiciary’s power “by ‘identify[ing] those

454
disputes which are appropriately resolved through the
judicial process.’” Susan B. Anthony List, 573 U.S. at
157 (alteration in original) (quoting Lujan, 504 U.S. at
560). The party seeking redress in the courts has the
burden to establish standing. See Spokeo, 136 S. Ct. at
1547. To do so, the plaintiff must show it has “(1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”
Id. “To establish injury in fact, a plaintiff must show
that he or she suffered ‘an invasion of a legally protected interest’ that is ‘concrete and particularized’ and
‘actual or imminent, not conjectural or hypothetical.’”
Id. at 1548 (quoting Lujan, 504 U.S. 560). This means
the injury must be “personal” to the plaintiff and, although the injury does not need to be “tangible,” “it must
actually exist.” Id. at 1548-49.
The plaintiffs’ evidentiary burden depends on the
stage of the litigation. At each stage, the plaintiffs
must demonstrate standing “with the manner and degree of evidence” otherwise required to establish the
plaintiffs’ merits case. Lujan, 504 U.S. at 561. Thus,
because this case comes to us on the plaintiffs’ own
motion for summary judgment, the plaintiffs must
conclusively prove all three elements of standing with
evidence that “would ‘entitle [them] to a directed verdict if the evidence went uncontroverted at trial.’” Int’l
Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257, 1264-65
(5th Cir. 1991) (quoting Golden Rule Ins. Co. v. Lease,
755 F. Supp. 948, 951 (D. Colo. 1991)). If a plaintiff
meets its burden, the defendant can nevertheless defeat summary judgment “by merely demonstrating the
existence of a genuine dispute of material fact.” Id. at
1265. In other words, the plaintiffs here must show
that, considering the summary-judgment record, all
reasonable factfinders would agree that the plaintiffs

455
demonstrate an injury traceable to the coverage requirement and redressable by a favorable decision. See
Alonso v. Westcoast Corp., 920 F.3d 878, 885-86 (5th
Cir. 2019).
These general principles alone should make the
majority’s error apparent. More specific authority illuminates it. I explain first why the majority errs in concluding the individual plaintiffs have standing, then I
explain why the majority errs in concluding the state
plaintiffs have standing.
A.
The majority concludes that the individual plaintiffs have standing to challenge the coverage requirement in the Patient Protection and Affordable Care
Act (the “ACA”), 26 U.S.C. § 5000A(a), 1 because it
forces them to purchase health insurance that they
would not purchase otherwise. The majority overlooks
what will happen if the individual plaintiffs fail to purchase insurance: absolutely nothing. The individual
plaintiffs will be no worse off by any conceivable measure if they choose not to purchase health insurance.
Thus, whatever injury the individual plaintiffs have
incurred by purchasing health insurance is entirely
self-inflicted.
A long line of cases establishes that self-inflicted
injuries cannot establish standing because a self-inflicted injury, by definition, is not traceable to the challenged action. See, e.g., Amnesty Int’l, 568 U.S. at 416
(“[R]espondents cannot manufacture standing merely
by inflicting harm on themselves . . . .”); Pennsylvania
v. New Jersey, 426 U.S. 660, 664 (1976) (“The injuries
The coverage requirement is sometimes colloquially known as
the “individual mandate.” For reasons that will become clear, this
nickname can be misleading.

1

456
to the plaintiffs’ fiscs were self-inflicted, resulting
from decisions by their respective state legislatures.
. . . No State can be heard to complain about damage
inflicted by its own hand.”); Zimmerman v. City of Austin, 881 F.3d 378, 389 (5th Cir.) (“[S]tanding cannot be
conferred by a self-inflicted injury.”), cert. denied, 139
S. Ct. 639 (2018). When a plaintiff chooses to incur an
expense, the plaintiff must show that the challenged
law forced the plaintiff to incur that expense to avoid
some other concrete injury. See Amnesty Int’l, 568 U.S.
at 415-16 (concluding costs plaintiffs incurred trying to
avoid surveillance were self-inflicted because plaintiffs’ fear of surveillance was speculative); Contender
Farms, L.L.P. v. USDA, 779 F.3d 258, 266 (5th Cir.
2015) (finding plaintiff had standing to challenge regulations that required plaintiff to either “take additional measures” to comply with regulation or “face
harsher, mandatory penalties” and prosecution). In
other words, a plaintiff can show standing if the challenged act placed him between the proverbial rock and
hard place. But without showing such a dilemma, a
plaintiff “cannot manufacture standing” by expending
costs to avoid an otherwise noncognizable injury,
which is exactly what the individual plaintiffs did here.
Amnesty Int’l, 568 U.S. at 416.
The majority brushes off this authority by insisting—without explanation—that labeling the plaintiffs’ injuries self-inflicted “assumes” that the coverage
requirement does not act as a legal command to purchase insurance, which the majority refuses to question at the standing stage. The majority
misunderstands the argument. Even accepting that
the coverage requirement acts as a legal command, the
individual plaintiffs are still free to disregard that
command without legal consequence. Therefore, any

457
injury they incur by freely choosing to obtain insurance is still self-inflicted.
Nor does it matter that to avoid inflicting injury
upon themselves, the plaintiffs would have to violate
an unenforceable statute. Plaintiffs may challenge a
statute that requires them “to take significant and
costly compliance measures or risk criminal prosecution.” Virginia v. Am. Booksellers Ass’n, 484 U.S. 383,
392 (1988) (emphasis added); see also, e.g., Int’l Tape
Mfrs. Ass’n v. Gerstein, 494 F.2d 25, 28 (5th Cir. 1974)
(explaining that standing to challenge a statute requires a “realistic possibility that the challenged statute will be enforced to [the plaintiff’s] detriment”). But
“[w]hen plaintiffs ‘do not claim that they have ever
been threatened with prosecution, that a prosecution is
likely, or even that a prosecution is remotely possible,’
they do not allege a dispute susceptible to resolution
by a federal court.” Babbitt v. United Farm Workers
Nat’l Union, 442 U.S. 289, 298-99 (1979) (quoting
Younger v. Harris, 401 U.S. 37, 42 (1971)); see also
Poe v. Ullman, 367 U.S. 497, 507 (1961) (Frankfurter,
J., plurality) (“It is clear that the mere existence of a
state penal statute would constitute insufficient
grounds to support a federal court’s adjudication of its
constitutionality in proceedings brought against the
State’s prosecuting officials if real threat of enforcement is wanting.”); cf. Zimmerman, 881 F.3d at 389-90
(“[T]o confer standing, allegations of chilled speech or
‘self-censorship must arise from a fear of prosecution
that is not “imaginary or wholly speculative.”‘“ (quoting Ctr. for Individual Freedom v. Carmouche, 449
F.3d 655, 660 (5th Cir. 2006))).

458
Ullman illustrates this principle well.2 The plaintiffs there sought to challenge Connecticut’s criminal
prohibition on contraception. Ullman, 367 U.S. at 498
(Frankfurter, J., plurality). But in the more than 75
years that the statute had been on the books, only one
violation had been prosecuted—and even that was a
collusive prosecution brought to challenge the law. Id.
at 501-02. The Court dismissed the challenge for lack
of standing, holding that “[t]he fact that Connecticut
has not chosen to press the enforcement of this statute
deprives these controversies of the immediacy which
is an indispensable condition of constitutional adjudication.” Id. at 508. The Court explained that it could
not “be umpire to debates concerning harmless, empty
shadows.” Id.3
The majority dismisses Ullman as an adversity case. Nonetheless, as this court and the Supreme Court have repeatedly recognized, Ullman grounds its analysis in terms of standing and
ripeness. See, e.g., Blum v. Yaretsky, 457 U.S. 991, 1000 (1982);
Roark & Hardee LP v. City of Austin, 522 F.3d 533, 544 (5th Cir.
2008); Thomes v. Equitable Sav. & Loan Ass’n, 837 F.2d 1317,
1318 (5th Cir. 1988). In any event, Ullman is just one example;
other cases demonstrate this concept just as well. See, e.g.,
Driehaus, 573 U.S. at 158-59 (“One recurring issue in our cases
is determining when the threatened enforcement of a law creates
an Article III injury. . . . [W]e have permitted pre-enforcement
review under circumstances that render the threatened enforcement sufficiently imminent.”).
2

3 The lead opinion in Ullman garnered only a four-judge plurality. But Justice Brennan, who concurred in the judgment, wrote
that he “agree[d] that this appeal must be dismissed for failure
to present a real and substantial controversy” and that “until the
State makes a definite and concrete threat to enforce these laws . . .
this Court may not be compelled to exercise its most delicate
power of constitutional adjudication.” Ullman, 367 U.S. at 509
(Brennan, J., concurring in judgment). Accordingly, five Justices

459
Ullman makes this an easy case. Connecticut’s contraception law at least allowed the possibility of enforcement, even if it was speculative and unlikely to
ever occur. Here, as I cannot say often enough, the coverage requirement has no enforcement mechanism. It
is impossible for the individual plaintiffs to ever be
prosecuted (or face any other consequences) for violating it. In “find[ing] it necessary to pass on” the coverage requirement, the majority “close[s] [its] eyes to
reality.” Id.4
The majority does not engage with the lessons of
Ullman and its progeny. The closest it comes is in its
citation to Texas v. EEOC, 933 F.3d 433 (5th Cir.
2019). That case does not abrogate Ullman, Younger,
Babbitt, American Booksellers, or Tape Manufacturers—nor could it. In Texas v. EEOC, Texas challenged
EEOC administrative guidance stating that employers who screen out job applicants with criminal records could be held liable for disparate-impact
discrimination. Id. at 437-38. The EEOC argued that
Texas did not have standing to challenge the guidance
because the guidance reflected only the EEOC’s interpretation of Title VII, and the Attorney General, not
the EEOC, has the sole power to enforce Title VII

agreed that plaintiffs lacked standing absent any real threat of
enforcement.
4 For the same reason, it does not matter that the district court
“expressly found” that the individual plaintiffs “are obligated to”
purchase health insurance. Even ignoring the conclusory nature
of this supposed finding of fact, it is not the abstract obligation
that matters; it is the concrete consequences, if any, that follow
from a violation of that obligation. And the district court did not
find (and there would be no basis for it to find) that the individual
plaintiffs would face any consequences.

460
against states. See Brief for Appellants Cross-Appellees at 18-19, Texas v. EEOC, 933 F.3d 433 (5th Cir.
2019) (No. 18-10638). In rejecting that argument, this
court explained that Title VII’s enforcement scheme is
not so simple. Although the EEOC may not itself bring
enforcement actions against states, it may investigate
states and refer cases to the Attorney General for enforcement actions. EEOC, 933 F.3d at 447. Therefore,
“the possibility of investigation by EEOC and referral
to the Attorney General for enforcement proceedings
if it fails to align its laws and policies with the Guidance” put pressure on Texas to conform to the EEOC’s
guidance. Id.
In other words, even absent a direct threat of a formal enforcement action from the EEOC, Texas faced
other consequences for disobeying the guidance—including the possibility that the Attorney General
would enforce Title VII against it. In fact, we noted
that “[o]ne Texas agency ha[d] already been required
to respond to a charge of discrimination filed with
EEOC based on its no-felon hiring policy.” Id. at 447
n.26. The majority here cites no similar concrete consequences that will (or even plausibly could) follow if the
plaintiffs violate the coverage requirement.
My conclusion that individual plaintiffs lack standing is only bolstered by a unanimous opinion issued
mere weeks ago by a panel that included the author of
today’s majority opinion. In that case, the court held
that Austin, Texas could not use a suit against the
Texas Attorney General to challenge a state statute,
which the Attorney General was authorized to enforce,
that barred the city from enforcing one of its ordinances. City of Austin v. Paxton, No. 18-50646, ___
F.3d ___, 2019 WL 6520769, at *6 (5th Cir Dec. 4,
2019). Although the Paxton court based its holding on

461
sovereign immunity, it looked to “our standing jurisprudence,” and “note[d] that it’s unlikely the City had
standing,” because it did not show that the Attorney
General would likely “inflict ‘future harm’” by enforcing the statute against Austin. Id. at *6-7. If standing
was absent in Paxton because enforcement was insufficiently probable, I have no idea why standing should
be present in this case, where enforcement of the challenged portion of the ACA is altogether impossible.
In sum, even if the unenforceable coverage requirement must be read as a command to purchase health
insurance, it does not harm the individual plaintiffs
because they can disregard it without consequence.
Binding precedent squarely establishes that plaintiffs
may not sue in such circumstances—and with good
reason. The great power of the judiciary should not be
invoked to disrupt the work of the democratic
branches when the plaintiffs can easily avoid injury on
their own.5

The majority’s suggestion that NFIB, 567 U.S. at 552 (opinion
of Roberts, C.J.), supports the individual plaintiffs’ standing does
not warrant above-the-line attention. In short, the NFIB Court
did not address standing. See id. at 530-708. At the time NFIB
was decided, the coverage requirement was set to take effect with
the shared-responsibility payment as an enforcement mechanism. And there is no indication that any of the NFIB plaintiffs
were exempt from the shared-responsibility payment. Thus, even
if the majority seeks to infer from NFIB some jurisdictional ruling in violation of the Supreme Court’s “repeated[]” command
“that the existence of unaddressed jurisdictional defects has no
precedential effect,” Lewis v. Casey, 518 U.S. 343, 352 n.2 (1996),
NFIB offers no inferences of value for the majority to draw. Further, counsel’s answer to a Justice’s hypothetical question does
not bind this court.

5

462
B.
The majority’s conclusion that the state plaintiffs
have standing to challenge the coverage requirement
fares no better. I would deny the state plaintiffs standing because there is no evidence in the record, much
less conclusive evidence, to support the state plaintiffs’ alleged injuries.
1.
The majority first concludes that the state plaintiffs have standing because it believes that the coverage requirement increases the number of state
employees who enroll in the states’ employee
healthcare programs. And with more enrollees, the
logic goes, the states as employers must file more
forms with the IRS at a higher cost to the states.
The majority’s biggest mistake is that it ignores the
posture of this case: the defendants appeal from the
district court’s order granting summary judgment to
the plaintiffs. Accordingly, the state plaintiffs face a
tremendous evidentiary burden—they must produce
evidence so conclusive of the coverage requirement’s
effect on their healthcare-administration costs that the
evidence “would ‘entitle [them] to a directed verdict if
the evidence went uncontroverted at trial.’” Int’l Shortstop, 939 F.2d at 1264-65 (quoting Golden Rule Ins.,
755 F. Supp. at 951).6 And the state plaintiffs provided
The district court was free to—but did not—make findings of
jurisdictional fact, which we would review for clear error. See
Krim v. pcOrder.com, Inc., 402 F.3d 489, 494 (5th Cir. 2005). Indeed, the district court did not address the state plaintiffs’ standing at all. Thus, for the state plaintiffs to establish standing on
their own motion for summary judgment, they must show the
summary-judgment evidence is conclusive.

6

463
no evidence at all, never mind conclusive evidence, to
support the dubious notion that even a single state
employee enrolled in one of state plaintiffs’ health insurance programs solely because of the unenforceable
coverage requirement.7
The majority relies on affidavits from several of the
state plaintiffs’ healthcare administrators. But these
affidavits only establish that the state plaintiffs incur
costs complying with the IRS reporting requirements
found in 26 U.S.C. §§ 6055(a) and 6056(a). And as the
majority recognizes, these requirements are distinct
from the coverage requirement. Accordingly, to trace
the state plaintiffs’ reporting burden to the coverage requirement, the majority must additionally show that
at least some state employees have enrolled in employer-sponsored health insurance solely because of
the unenforceable coverage requirement. The majority
comes up empty at this step, pointing only to a conclusory statement from a South Dakota human-resources
director claiming that the coverage requirement, not
§§ 6055(a) and 6056(a), caused South Dakota to incur
its reporting expenses. This will not do. See, e.g., Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888 (1990) (“The
object of [summary judgment] is not to replace conclusory allegations of the complaint or answer with conclusory allegations of an affidavit.”); Shaboon v.

The majority misunderstands my position. See Maj. Op. 32 n.31.
The state plaintiffs do not need to identify a “specific” person that
is likely to enroll, but they still must establish that at least one
state employee will enroll as a result of the post-TCJA coverage requirement. Otherwise, the state plaintiffs’ injuries are not traceable to the provision they challenge and would not be redressed
by its elimination.
7

464
Duncan, 252 F.3d 722, 737 (5th Cir. 2001) (“[U]nsupported affidavits setting forth ‘ultimate or conclusory
facts and conclusions of law’ are insufficient to either
support or defeat a motion for summary judgment.”
(alteration in original) (quoting Orthopedic & Sports
Injury Clinic v. Wang Labs., Inc., 922 F.2d 220, 225
(5th Cir. 1991))).8
Citing Department of Commerce v. New York, 139
S. Ct. 2551 (2019), the majority argues the state plaintiffs can establish standing by “showing that third parties will likely react in predictable ways” to the
coverage requirement. Id. at 2566. But the majority
The majority suggests we must accept this statement as true because the defendants did not “challenge” this evidence. The majority cites no authority for this proposition, and I am at a loss to
understand where the majority came up with its challenge rule.
I know of nothing in the Federal Rules of Civil Procedure or the
caselaw requiring litigants to “challenge” conclusory statements
in declarations. On the contrary, courts in this circuit regularly
confront and disregard conclusory statements in the summaryjudgment record. See, e.g., Tex. Capital Bank N.A. v. Dall. Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846 F.3d 112, 124 (5th Cir.
2017); Brown v. Mid-Am. Apartments, 348 F. Supp. 3d 594, 60203 (W.D. Tex. 2018). The district courts and litigants of this circuit
will be surprised to learn about the majority’s new summaryjudgment rule.
The majority also claims that the statement is not conclusory.
But nothing in the affidavit addresses the post-TCJA coverage
requirement. The affiant states that his knowledge is “related to
the enactment of the ACA,” which occurred in 2010. He focuses
on “financial costs associated with ACA regulations” and concludes that “South Dakota would be significantly burdened if the
ACA remained law.” The affidavit does not explain how the postTCJA coverage requirement harms South Dakota. Such generalities, untethered to the actual law at issue in this appeal, cannot
establish standing—especially not at the summary-judgment
stage.
8

465
fails to explain why state employees who do not want
health insurance would nevertheless predictably enroll in health insurance solely because an unenforceable statute, here the coverage requirement, directs
them to do so. What the majority fails to mention in
its discussion of Department of Commerce is that the
“predictable” behavior at issue there was individuals
“choosing to violate their legal duty to respond to the
census.” Id. at 2565 (emphasis added). Thus, Department of Commerce shows that people will predictably
violate the law when sufficiently incentivized to do so.
This directly contradicts the assumption undergirding
much of the majority’s analysis—that people tend to
follow the law regardless of the incentives. And state
employees who do not want to enroll in insurance have
every incentive to violate the coverage requirement.9
2.
The majority similarly argues that the coverage requirement increases the number of individuals enrolled in the state plaintiffs’ Medicaid programs. This
9 A Congressional Budget Office report released shortly before
Congress repealed the shared-responsibility payment further
supports this notion. It concluded:

If the [shared-responsibility payment] was
eliminated but the [coverage requirement] itself was not repealed . . . . only a small number
of people who enroll in insurance because of
the [coverage requirement] under current law
would continue to do so solely because of a willingness to comply with the law.
Cong. Budget Office, Repealing the Individual Health Insurance
Mandate: An Updated Estimate at 1 (2017) (hereinafter “CBO
Report”). On this record, we have been given no reason to believe
that any of the state plaintiffs’ employees are among this “small
number of people.” Id.

466
argument fails for the same reason: the state plaintiffs
produce no evidence—let alone conclusive evidence—
showing that anyone has enrolled in their Medicaid
programs solely because of the unenforceable coverage
requirement. To this end, the best the majority can
scrape up is a statement from Teresa MacCartney, a
Georgia budget official, stating that “[a]fter the implementation of the ACA, [Georgia] experienced increased enrollment of individuals already eligible for
Medicaid benefits under pre-ACA eligibility standards.” The majority’s takeaway is that the coverage requirement caused this increase. Maybe so. But
MacCartney’s statement refers specifically to the coverage requirement at the time of the ACA’s enactment,
when the coverage requirement interacted with the
shared-responsibility payment. This statement provides no insight into how the coverage requirement affects Medicaid rolls after the shared-responsibility
payment’s repeal. In fact, MacCartney signed her declaration on May 14, 2018, more than seven months before the shared-responsibility payment’s repeal went
into effect. See Budget Fiscal Year, 2018, Pub. L. No.
115-97, § 11081(b), 131 Stat. 2054, 2092 (2017).
Accordingly, the majority’s analysis again rests on
the necessary assumption that people will obey the
coverage requirement regardless of the incentives, in
direct contradiction to Department of Commerce. And
because Medicaid is available to eligible recipients at
little to no cost, it is especially unlikely that the unenforceable coverage requirement would play any significant part in anyone’s decision to enroll. It belies
common sense to conclude that anyone who would
otherwise pass on the significant benefits of Medicaid
would be motivated to enroll solely because of an unenforceable law.

467
In sum, the majority cites no actual evidence tying
any costs the state plaintiffs have incurred to the unenforceable coverage requirement. The state plaintiffs
accordingly cannot show an injury traceable to the
coverage requirement, so they do not have standing to
challenge the coverage requirement.
III.
I would not reach the merits of this case because, as
explained in Part II, I would vacate the district court’s
order for lack of standing. But as the majority errs on
the merits too, I voice my disagreement.
“Neither the Act nor any other law attaches negative legal consequences to not buying health insurance,
beyond requiring a payment to the IRS.” NFIB, 567
U.S. at 568 (Roberts, C.J., majority opinion). Now that
Congress has zeroed out that payment, the coverage
requirement affords individuals the same choice individuals have had since the dawn of private health
insurance, either purchase insurance or else pay zero
dollars. Thus, to my mind, the majority’s focus on
whether Congress’s taxing power or the Necessary and
Proper Clause authorizes Congress to pass a $0 tax is
a red herring; the real question is whether Congress
exceeds its enumerated powers when it passes a law

468
that does nothing.10 And of course it does not.11 Congress exercises its legislative power when it “alter[s]
the legal rights, duties and relations of persons.” INS
v. Chadha, 462 U.S. 919, 952 (1983); cf. id. (“Not every
action taken by either House is subject to the bicameralism and presentment requirements of Art. I.
Whether actions taken by either House are, in law and
fact, an exercise of legislative power depends not on
their form but upon ‘whether they contain matter
which is properly to be regarded as legislative in its
character and effect.’” (citation omitted) (quoting S.
Rep. No. 1335, 54th Cong., 2d Sess., 8 (1897))).
Lest the majority mistake my position and end up
shadowboxing with “bizarre metaphysical conclusions,” “quantum musings,” or ersatz inconsistencies,
Maj. Op. at 44 & n.40, I need to make something explicit at the outset. The TCJA did not change the text
or the meaning of the coverage requirement, but it did
change the real-world effects it produces. Before the
TCJA, the two options afforded by the coverage requirement—purchasing insurance or making a
shared-responsibility payment—were both burdensome, but Congress could force individuals to choose
one of those options by exercising its Taxing Power.
Today, the shared-responsibility payment’s meaning
“In litigation generally, and in constitutional litigation most
prominently, courts in the United States characteristically pause
to ask: Is this conflict really necessary?” Arizonans for Official
English v. Arizona, 520 U.S. 43, 75 (1997). The majority would do
well if it paused to ask whether it is necessary for a federal court
to rule on whether the Constitution authorizes a $0 tax or otherwise prohibits Congress from passing a law that does nothing.
The absurdity of these inquiries highlights the severity of the majority’s error in finding the plaintiffs have standing to challenge
this dead letter.

10

11

The majority does not argue otherwise.

469
has not changed—it still gives individuals the choice
to purchase insurance or make a shared-responsibility
payment—but the amount of that payment is zero dollars, which means that the coverage requirement now
does nothing. The majority’s contrary conclusion rests
on the premise that the coverage requirement compels
individuals to purchase health insurance. With this
understanding, the majority says that the coverage requirement does exactly what the Supreme Court said
it cannot do: compel participation in commerce. See
NFIB, 567 U.S. at 552 (opinion of Roberts, C.J.); id. at
652-53 (joint dissent). This conclusion follows fine
from the premise, but the premise is wrong. Despite its
seemingly mandatory language, the coverage requirement does not compel anyone to purchase health insurance.
In NFIB, although five Justices agreed that “[t]he
most straightforward reading of the [coverage requirement] is that it commands individuals to purchase insurance,” id. at 562 (opinion of Roberts, C.J.); accord
id. at 663 (joint dissent), applying the canon of constitutional avoidance, the Court rejected this interpretation. Instead, the Court interpreted the coverage
requirement to offer applicable individuals a “lawful
choice” between purchasing health insurance and paying the shared-responsibility payment, which the
Court interpreted as a valid exercise of Congress’s taxing power. Id. at 574 (Roberts, C.J., majority opinion).
This is a permissible construction, the Court concluded, because “[w]hile the [coverage requirement]
clearly aims to induce the purchase of health insurance, it need not be read to declare that failing to do
so is unlawful.” Id. at 567-68. The Court observed that
“[n]either the [ACA] nor any other law attaches

470
negative legal consequences to not buying health insurance, beyond requiring a payment to the IRS.” Id.
at 568. And the Court further explained:
Indeed, it is estimated that four million
people each year will choose to pay the
IRS rather than buy insurance. We
would expect Congress to be troubled
by that prospect if such conduct were
unlawful. That Congress apparently regards such extensive failure to comply
with the [coverage requirement] as tolerable suggests that Congress did not
think it was creating four million outlaws.
Id. (citation omitted).
The NFIB Court’s application of constitutional
avoidance as an interpretive tool does not mean that
the Court rewrote the statute. Only Congress can do
that. Rather, the Court was “choosing between competing plausible interpretations of a statutory text,
resting on the reasonable presumption that Congress
did not intend the alternative which raises serious constitutional doubts.” Clark v. Martinez, 543 U.S. 371,
381 (2005). “The canon is thus a means of giving effect
to congressional intent, not of subverting it.” Id. at
382. Accordingly, when the Court ruled in NFIB that
“[t]hose subject to the [coverage requirement] may
lawfully forgo health insurance,” NFIB, 567 U.S. at
574 n.11, that was an authoritative determination regarding what the text of the coverage requirement
meant and what Congress intended.
The majority pushes aside NFIB’s construction, acting as though the fact that the NFIB Court applied the

471
canon of constitutional avoidance means that its interpretation no longer governs following the repeal of the
shared-responsibility payment. But when the Court
construes statutes, its “interpretive decisions, in whatever way reasoned, effectively become part of the statutory scheme, subject (just like the rest) to
congressional change.” Kimble v. Marvel Entm’t, LLC,
135 S. Ct. 2401, 2409 (2015) (emphasis added). While
Congress can change its mind and could have
amended the coverage requirement to turn the “lawful choice” described by NFIB, 567 U.S. at 574, into an
unwavering command, the majority does not suggest
that Congress ever made such a choice. Sure, Congress
amended the shared-responsibility payment in 2017.
Yet as the district court went to great lengths to establish and the majority is elsewhere eager to point out,
the coverage requirement and the shared-responsibility payment are distinct provisions. See Maj. Op. at 19
(“To bring a claim against the [coverage requirement],
therefore, the plaintiffs needed to show injury from the
individual mandate—not from the shared responsibility payment.”); Texas v. United States, 340 F. Supp. 3d
579, 596 (N.D. Tex. 2018) (“It is critical to clarify something at the outset: the shared-responsibility payment, 26 U.S.C. § 5000A(b), is distinct from the
[coverage requirement], id. § 5000A(a).”). And Congress did not touch the text of the coverage requirement when it amended the shared-responsibility
payment. See Budget Fiscal Year, 2018, Pub. L. No.
115-97, § 11081. Compare § 5000A(a), with 26 U.S.C.
§ 5000A(a) (2011). At risk of stating the obvious, if the
text of the coverage requirement has not changed, its
meaning could not have changed either. By “giv[ing]
these same words a different meaning,” the majority
“invent[s] a statute rather than interpret[s] one.”
Clark, 543 U.S. at 378.

472
The majority is thus left on unsteady ground:
amendment by implication, which “will not be presumed unless the legislature’s intent is ‘clear and
manifest.’” In re Lively, 717 F.3d 406, 410 (5th Cir.
2013) (quoting Nat’l Ass’n of Home Builders v. Defs. of
Wildlife, 551 U.S. 644, 662 (2007)); see also, e.g., Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624 (2018) (“[I]n
approaching a claimed conflict, we come armed with
the ‘stron[g] presum[ption]’ that repeals by implication
are ‘disfavored’ and that ‘Congress will specifically address’ preexisting law when it wishes to suspend its
normal operations in a later statute.” (second and
third alterations in original) (quoting United States v.
Fausto, 484 U.S. 439, 452-53 (1988))). This rule operates with equal force when a judicial construction previously illuminated the meaning of the purportedly
amended statute. See TC Heartland LLC v. Kraft
Foods Grp. Brands LLC, 137 S. Ct. 1514, 1520 (2017)
(“When Congress intends to effect a change of [a statute’s earlier judicial interpretation], it ordinarily provides a relatively clear indication of its intent in the
text of the amended provision.”); Midlantic Nat’l Bank
v. N.J. Dep’t of Envtl. Prot., 474 U.S. 494, 501 (1986)
(“The normal rule of statutory construction is that if
Congress intends for legislation to change the interpretation of a judicially created concept, it makes that
intent specific.”); cf. Whitman v. Am. Trucking Ass’n,
531 U.S. 457, 468 (2001) (“Congress, we have held,
does not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it does
not, one might say, hide elephants in mouseholes.”).
Congress’s silence on the matter is thus conclusive.
Yet even if one probes further, it boggles the mind
to suggest that Congress intended to turn a nonmandatory provision into a mandatory provision by

473
doing away with the only means of incentivizing compliance with that provision. Congress quite plainly intended to relieve individuals of the burden the
coverage requirement put on them; it did not intend to
increase that burden. And if it did, it certainly did not
make that intent “clear and manifest.” Lively, 717 F.3d
at 410. Moreover, the considerations that led the NFIB
Court to conclude that Congress did not intend the
coverage requirement to impose a legal command to
purchase health insurance are even more compelling in
the absence of the shared-responsibility payment.
Whereas before the only “negative legal consequence[]
to not buying health insurance” was the payment of a
tax, NFIB, 567 U.S. at 567-68, now there are no consequences at all. And as the Congressional Budget Office (“CBO”) has predicted, without the sharedresponsibility payment, most applicable individuals
will not maintain health insurance solely for the purpose of obeying the coverage requirement. See Cong.
Budget Office, Repealing the Individual Health Insurance Mandate: An Updated Estimate at 1 (2017).
“That Congress apparently regards such extensive
failure to comply with the [coverage requirement] as
tolerable suggests that Congress did not think it was
creating [millions of] outlaws.” NFIB, 567 U.S. at 568.
Ergo, when Congress zeroed-out the shared-responsibility payment without amending the coverage
requirement, it did not do away with the lawful choice
it previously offered applicable individuals; it simply
changed the parameters of that choice. Under the old
scheme, applicable individuals could lawfully choose
between maintaining health insurance and paying a
tax. Under the new scheme, applicable individuals can
lawfully choose between maintaining health insurance and doing nothing. In other words, the coverage

474
requirement is a dead letter—it functions as an expression of national policy or words of encouragement,
at most. Accordingly, although I would not reach the
merits, I would reverse if I did.
IV.
I agree with much of what the majority has to say
about the district court’s severability ruling. But I fail
to understand the logic behind remanding this case for
a do-over. Severability is a question of law that this
court can review de novo. And the answer here is quite
simple—indeed, a severability analysis will rarely be
easier. After all, “[o]ne determines what Congress
would have done by examining what it did,” and Congress declawed the coverage requirement without repealing any other part of the ACA. Legal Servs. Corp.
v. Velazquez, 531 U.S. 533, 560 (2001) (Scalia, J., dissenting); see also Ayotte v. Planned Parenthood of N.
New Eng., 546 U.S. 320, 330 (2006) (“[T]he touchstone
for [severability analysis] is legislative intent.”). Consequently, little guesswork is needed to determine
that Congress believed the ACA could stand in its entirety without the unenforceable coverage requirement.
The majority suggests that remand is necessary because the district court “has many tools at its disposal”
and is thus “best positioned to undertake” the severability inquiry. Maj. Op. at 60. It is true that the district
court is better able to assess factual issues than appellate judges, because it can hold evidentiary hearings,
but I cannot see how that could be relevant, since severability is a question of law that we review de novo.
Further, it is not clear what sort of evidence the district
court could receive that would be useful when deciding
severability questions except perhaps legislative history, a source which the majority derides. See Maj. Op.

475
at 56 n.45 (“[W]e caution against relying on individual
statements by legislators to determine the meaning of
the law.”). When it comes to analyzing the statute’s
text and historical context, see id., we are just as competent as the district court. There is thus no reason to
prolong the uncertainty this litigation has caused to
the future of this indubitably significant statute.12
A.
Before I address the more specific problems with
the district court’s inseverability ruling, some background on the ACA is in order. Congress passed the
ACA in 2010 to address a growing crisis of Americans
living without health insurance. Prior to the ACA,
nearly 50 million Americans (about 15 percent of the
population at the time) were uninsured. Florida ex rel.
Att’y Gen. U.S. Dep’t of Health & Human Servs., 648
F.3d 1235, 1244 (11th Cir. 2011), rev’d on other
grounds, NFIB, 567 U.S. 519. Although many large
employers provided health insurance, coverage was often cost prohibitive for small businesses and consumers seeking insurance through the individual market
(i.e., directly instead of through an employer). See U.S.
Gov’t Accountability Office, GAO-12-166R, Health
Care Coverage: Job Lock and the Potential Impact of
The majority also suggests that remand is necessary so that
the district court can consider remedial issues, raised by the
United States for the first time on appeal, regarding the appropriate scope of relief. But such issues are largely moot if, as I believe, the coverage requirement is completely severable from the
rest of the ACA. For example, I do not perceive a meaningful difference between a nationwide injunction prohibiting enforcement
of the already-unenforceable coverage requirement versus an injunction against enforcement that is limited to the plaintiff
states. In any case, this court could—and, in my view, should—
resolve the severability issue even if remanding remedial issues
is appropriate.

12

476
the Patient Protection and Affordable Care Act 3-4
(2011). Moreover, insurance companies could—and
regularly would—deny coverage to high-risk consumers, especially those with preexisting medical conditions. Id. at 4.
The pre-ACA status quo created numerous economic and social problems. Most obviously, America’s
uninsured population could not afford spiraling
healthcare costs, thus exacerbating health problems,
leading to an estimated 45,000 premature deaths annually, Andrew P. Wilper et al., Health Insurance and
Mortality in US Adults, 99 Am. J. Pub. Health 2289,
2292 (2009), and causing “62 percent of all personal
bankruptcies,” 42 U.S.C. § 18091(2)(G). The uninsured
crisis caused some subtler problems too. For one thing,
hospitals would have to absorb the costs of treating
uninsured patients and would inevitably pass those
costs along to insurance companies, which would then
pass them along to consumers. See § 18091(2)(F) (“The
cost of providing uncompensated care to the uninsured
was $43,000,000,000 in 2008. To pay for this cost,
health care providers pass on the cost to private insurers, which pass on the cost to families.”). See generally
Amicus Br. of HCA Healthcare, Inc. at 9-13. And dependency on employer-based healthcare decreased labor mobility, discouraged entrepreneurship, and kept
potential caregivers away from the home. See GAO-12166R, supra, at 5-6.
In enacting the ACA, Congress sought to address
these and other problems with the national healthcare
system by drastically reducing the number of uninsured and underinsured Americans. To achieve this
goal, the ACA undertook a series of reforms, most notably to the individual insurance market. See generally Patient Protection and Affordable Care Act, Pub.

477
L. No. 111-148, tit. I, 124 Stat. 119 (2010). Among the
ACA’s most important (and visible) reforms are two
related provisions: guaranteed issue and community
rate. See 42 U.S.C. §§ 300gg, 300gg-1. The guaranteedissue provision requires health-insurance providers to
accept every individual who applies for coverage, thus
preventing insurers from denying coverage based on a
consumer’s preexisting medical condition. See § 300gg1(a). The community-rate provision prevents insurers
from charging a higher rate because of a policyholder’s
medical condition. See § 300gg(a).
Left without some counterbalance, the guaranteedissue and community-rate provisions threatened to
overload insurers’ risk pools with high-risk policyholders. Beyond allowing more high-risk consumers to
purchase health insurance (as intended), these provisions disincentivized healthy (i.e., low risk) consumers
from purchasing health insurance because it allowed
them to wait until they developed costly health problems to purchase insurance.13 This would have caused
premiums to skyrocket, exacerbating many of the
problems Congress sought to solve. See generally Amicus Br. of Blue Cross Blue Shield Ass’n at 3-4. Thus, the
ACA included several provisions to incentivize lowrisk consumers to purchase health insurance. It offered tax credits to offset much of the cost of health
insurance for middle-income consumers. See 26 U.S.C.
§ 36B(b). It created healthcare exchanges to facilitate
competition among health plans and to lower transaction costs. See 42 U.S.C. §§ 18031, 18041. It limited
new enrollments to an open-enrollment period set by
the Secretary of Health and Human Services, which
mitigates the adverse-selection problem by preventing
consumers from purchasing health insurance only
13

This is known as the adverse-selection problem.

478
when they need it. See § 18031(c)(6). And it included
the coverage requirement at issue in this lawsuit. See
§ 5000A(a).
Although the coverage requirement has been
among the ACA’s best-known provisions, the ACA’s reforms to the private insurance market extend well beyond it. As just mentioned, Congress created other
mechanisms to achieve the same goal as the coverage
requirement: incentivize low-risk consumers to purchase health insurance. The ACA also included other
provisions expanding access to the private insurance
market, including a requirement that employers with
50 or more employees offer health insurance, see 26
U.S.C. § 4980H, and a requirement that health-insurance providers allow young adults to remain on their
parents’ insurance until they turn 26, see 42 U.S.C.
§ 300gg-14. And it included provisions designed to
make health-insurance policies more attractive, such
as those directly regulating premiums, see, e.g., id.
§ 300gg-18(b), limiting benefits caps, see id. § 300gg11, and prescribing certain minimum-coverage requirements for health plans, see, e.g., id. § 300gg-13.
Moreover, the ACA contains countless other provisions
that are unrelated to the private insurance market—
and many that are only tangentially related to health
insurance at all. 14 The following are only some of
many possible examples:

 Section 3006, which directs the Sec-

retary of Health and Human Services to “develop a plan to

The ACA contains ten titles. Only the first title focuses on the
private insurance industry. The other titles address wide-ranging topics from the “prevention of chronic disease,” ACA tit. IV,
to the “health care work force,” id. tit. V.

14

479
implement a value-based purchasing program for payments under the
Medicare program . . . for skilled
nursing facilities.”

 Section 4205, which requires chain

restaurants to conspicuously display “the number of calories contained in . . . standard menu
item[s].”

 Section 5204, which creates a student-loan repayment assistance
program “to eliminate critical public health workforce shortages in
Federal, State, local and tribal public health agencies.”

 Section 6402, which, among other
things, strengthens criminal laws
prohibiting healthcare fraud.

 Title III of Part X, which reauthor-

izes and amends the Indian Health
Care Improvement Act, a decadesold statute creating and maintaining the infrastructure for tribal
healthcare services.

Given the breadth of the ACA and the importance of
the problems that Congress set out to address, it is
simply unfathomable to me that Congress hinged the
future of the entire statute on the viability of a single,
deliberately unenforceable provision.15

I do not mean to suggest that, as a policy matter, Congress
chose the best (or even worthwhile) solutions to these problems.

15

480
B.
In Planned Parenthood of Northern New England,
the Court announced the three principles that must
guide our severability analysis. “First, we try not to
nullify more of a legislature’s work than is necessary,
for we know that ‘[a] ruling of unconstitutionality frustrates the intent of the elected representatives of the
people.’” Planned Parenthood of N. New Eng., 546 U.S.
at 329 (alteration in original) (quoting Regan v. Time,
Inc., 468 U.S. 641, 652 (1984) (plurality opinion)).
“Second, mindful that our constitutional mandate and
institutional competence are limited, we restrain ourselves from ‘rewrit[ing] [a] law to conform it to constitutional requirements’ even as we strive to salvage it.”
Id. (first alteration in original) (quoting Am.
Booksellers, 484 U.S. at 397). “Third, the touchstone
for any decision about remedy is legislative intent, for
a court cannot ‘use its remedial powers to circumvent
the intent of the legislature.’” Id. at 330 (quoting Califano v. Westcott, 443 U.S. 76, 94 (1979) (Powell, J., concurring in part and dissenting in part)).
In accordance with these principles, the Court’s
cases suggest a two-part inquiry. First, we must ask
“whether the law remains ‘fully operative’ without the
invalid provisions.” Murphy v. NCAA, 138 S. Ct. 1461,
1482 (2018); see also United States v. Booker, 543 U.S.
220, 258-59 (2005); Alaska Airlines, Inc. v. Brock, 480
U.S. 678, 684 (1987). If so, the remaining provisions
are “presumed severable” from the invalid provision.
Chadha, 462 U.S. at 934 (quoting Champlin Ref. Co.
Such matters are beyond my job description, so I express no opinion on them. But the district court should have thought more critically about whether Congress likely intended to leave its chosen
solution to a serious problem so vulnerable to judicial invalidation.

481
v. Corp. Comm’n, 286 U.S. 210, 234 (1932)). This presumption is rebutted only if “the statute’s text or historical context makes it ‘evident’ that Congress, faced
with the limitations imposed by the Constitution,
would have preferred” no statute over the statute with
only the permissible provisions. Free Enter. Fund v.
Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 509
(2010). And as should be clear by now, “the ‘normal
rule’ is ‘that partial, rather than facial, invalidation is
the required course.’” Id. at 508 (quoting Brockett v.
Spokane Arcades, Inc., 472 U.S. 491, 504 (1985)).
1.
The majority has identified the most glaring flaw
in the district court’s severability analysis: the district
court “gives relatively little attention to the intent of
the 2017 Congress, which appears in the analysis only
as an afterthought.” When one takes this fact into account, there can be little doubt as to Congress’s intent.
We have unusual insight into Congress’s thinking
because Congress was given a chance to weigh in on
the ACA’s future without an effective coverage requirement and it decided the ACA should remain in
place. By zeroing out the shared-responsibility payment, the 2017 Congress left the coverage requirement unenforceable. If Congress viewed the coverage
requirement as so essential to the rest of the ACA that
it intended the entire statute to rise and fall with the
coverage requirement, it is inconceivable that Congress would have declawed the coverage requirement
as it did. And make no mistake: Congress declawed the
coverage requirement. As the CBO found only a month
before Congress passed the TCJA, “[i]f the [coverage requirement] penalty was eliminated but the [coverage
requirement] itself was not repealed, the results
would be very similar to” if the coverage requirement

482
itself were repealed. 2017 CBO Report, supra, at 1. Regardless of lofty civic notions about people who follow
the law for the sake of following the law, the objective
evidence before Congress was that “only a small number of people” would obey the coverage requirement
without the shared-responsibility payment. Id.; cf.
Dep’t of Commerce, 139 S. Ct. at 2565-66 (concluding
people will “predictabl[y]” “violate their legal duty”
when incentivized to do so). Congress accordingly
knew that repealing the shared-responsibility payment would have the same essential effect on the
ACA’s statutory scheme as would repealing the coverage requirement.
Furthermore, as various amici highlight, judicial
repeal of the ACA would have potentially devastating
effects on the national healthcare system and the
economy at large. See, e.g., Amicus Br. of Am.’s Health
Ins. Plans (discussing impact on health-insurance industry); Amicus Br. of 35 Counties, Cities, and Towns
(discussing impact on municipalities); Amicus Br. of
Bipartisan Econ. Scholars (discussing impact on economy); Amicus Br. of Am. Hosp. Ass’n et al. (discussing
impact on hospitals). Regardless of whether the ACA
is good or bad policy, it is undoubtedly significant policy. It is unlikely that Congress would want a statute
on which millions of people rely for their healthcare
and livelihoods to disappear overnight with the wave
of a judicial wand. If Congress wanted to repeal the
ACA through the deliberative legislative process, it
could have done so. But with the stakes so high, it is
difficult to imagine that this is a matter Congress intended to turn over to the judiciary.
2.
A second flaw in the district court’s analysis is the
great weight it places on the fact that Congress in 2017

483
did not repeal its statutory findings emphasizing the
coverage requirement’s importance to the guaranteedissue and community-rate provisions. See 42 U.S.C.
§ 18091. The district court overread the significance of
§ 18091. Congress enacted the findings in § 18091 to
demonstrate the coverage requirement’s role in regulating interstate commerce. When it invokes its commerce power, Congress routinely makes such findings
to facilitate judicial review. See United States v. Morrison, 529 U.S. 598, 612 (2000) (“While ‘Congress normally is not required to make formal findings as to the
substantial burdens that an activity has on interstate commerce,’ the existence of such findings may
‘enable us to evaluate the legislative judgment that
the activity in question substantially affect[s] interstate commerce, even though no such substantial effect [is] visible to the naked eye.’” (alterations in
original) (citation omitted) (quoting United States v.
Lopez, 514 U.S. 549, 562-63 (1995))). Indeed,
§ 18091(2), the subsection the district court focused its
attention on, is entitled “Effects on the national economy and interstate commerce.”
Section 18091 is not an inseverability clause, and
nothing in its text suggests that Congress intended to
make the coverage requirement inseverable from the
remainder of the ACA. If Congress intended to draft
an inseverability clause, it knew how to do so. See Office of Legislative Counsel, U.S. Senate, Senate Legislative Drafting Manual § 131(b) (1997) (explaining
purpose of inseverability clause). Compare id. § 131(c)
(providing as example of proper form for inseverability
clause: “EFFECT OF INVALIDITY ON OTHER PROVISIONS OF ACT.—If section 501, 502, or 503 of the
Federal Election Campaign Act of 1971 (as added by
this section) or any part of those sections is held to be
invalid, all provisions of and amendments made by

484
this Act shall be invalid”), with § 18091(2)(H) (“The requirement is an essential part of this larger regulation
of economic activity, and the absence of the requirement would undercut Federal regulation of the health
insurance market.”). In fact, both the House and the
Senate legislative drafting guides suggest that Congress should include an inseverability clause if it
wants to make a statute inseverable because “[t]he Supreme Court has made it quite clear that invalid portions of statutes are to be severed ‘unless it is evident
that the Legislature would not have enacted those provisions which are within its powers, independently of
that which is not.’” Office of Legislative Counsel, U.S.
House of Representatives, House Legislative Counsel’s Manual on Drafting Style § 328 (1995) (quoting
Chadha, 462 U.S. at 931); accord Senate Legislative
Drafting Manual, supra, at § 131(a). The absence of a
genuine inseverability clause should be all but conclusive in assessing the legislature’s intent.
Moreover, the argument that § 18091 is meant to
signal Congress’s intent that the coverage requirement be inseverable proves far too much. Section 18091 discusses the coverage requirement’s
importance to the entire federal healthcare regulatory
scheme, including—along with the ACA—the Public
Health Service Act (“PHSA”) and the Employee Retirement Income Security Act (“ERISA”). See
§ 18091(2)(H) (“Under the Employee Retirement Income Security Act of 1974 (29 U.S.C. 1001 et seq.), the
Public Health Service Act (42 U.S.C. 201 et seq.), and
this Act, the Federal Government has a significant
role in regulating health insurance. The [coverage] requirement is an essential part of this larger regulation
of economic activity, and the absence of the requirement would undercut Federal regulation of the health

485
insurance market.” (emphasis added)). It is not suggested that Congress intended a court to strike down
the PHSA and ERISA if it found the coverage requirement unconstitutional. This would be especially implausible given the intensity of the debate over the
coverage requirement’s constitutionality from the getgo. See NFIB, 567 U.S. at 540 (“On the day the President signed the [ACA] into law, Florida and 12 other
States filed a complaint in the Federal District Court
for the Northern District of Florida.”). Yet in signaling
that the coverage requirement is “an essential part of
this larger regulation,” Congress did not distinguish
between the ACA and these prior statutes. Thus,
§ 18091 cannot reasonably be read to bear on the coverage requirement’s severability.
3.
Another flaw in the district court’s analysis is its
suggestion that the Supreme Court concluded in NFIB
and King v. Burwell, 135 S. Ct. 2480 (2015), that the
coverage requirement is inseverable from the ACA’s
guaranteed-issue and community-rate provisions. The
district court misconstrued these opinions. And even
if the district court read them correctly, these opinions
address the coverage requirement as enforced by the
shared-responsibility payment. They give little valuable insight into the coverage requirement’s role in the
post-TCJA ACA.
In NFIB, only the dissenters addressed the coverage requirement’s severability. The district court did
not suggest it is bound by a Supreme Court dissent,
and of course it is not. The district court instead took
language from the other five Justices out of context to
conclude that each of them viewed the coverage requirement as inseverable. But none of the language
the district court cited addresses severability. See

486
NFIB, 567 U.S. at 547-48 (opinion of Roberts, C.J.)
(discussing Government’s argument that coverage requirement plays a role in regulating interstate commerce); id. at 597 (Ginsburg, J., dissenting in part)
(same). Although the Justices’ reasoning certainly suggests that they saw the coverage requirement as an
important part of the statutory scheme as it existed in
2012, this does not mean the Justices found it “evident”
that Congress would have preferred the entire statute
to fall without the coverage requirement. Alaska Airlines, 480 U.S. at 684.
King likewise contains some helpful commentary
about the ACA’s original statutory scheme, but it does
not discuss severability or otherwise control the severability analysis. The Court ruled in King that the
ACA’s tax credits were available to every eligible consumer regardless of whether the state in which a consumer lived established its own exchange or relied on
the federally operated exchange. 135 S. Ct. at 2496.
The coverage requirement came up because many
more individuals would have been exempt from the
shared-responsibility payment if tax credits were not
available to them. Id. at 2493-95; see also
§ 5000A(e)(1)(A) (“No penalty shall be imposed . . .
with respect to . . . [a]ny applicable individual for any
month if the applicable individual’s required contribution (determined on an annual basis) for coverage for
the month exceeds 8 percent of such individual’s household income . . . .”).16 Noting the importance of the tax
Lest there be any confusion, the exemption at issue in King exempted individuals otherwise subject to the coverage requirement
from the shared-responsibility payment; it did not exempt them
from the coverage requirement itself. Exemptions from the
shared-responsibility payment are listed in § 5000A(e)(1),
16

487
credits and coverage requirement (as enforced by the
shared-responsibility payment) to the statutory structure, the Court concluded as a matter of statutory interpretation that Congress did not intend a scheme in
which neither tax credits nor the coverage requirement were operating to bring low-risk consumers into
the insurance pools. See King, 135 S. Ct. at 2492-94
(“The combination of no tax credits and an ineffective
coverage requirement could well push a State’s individual insurance market into a death spiral. . . . It is
implausible that Congress meant the [ACA] to operate
in this manner.”).
The district court framed King as saying that Congress intrinsically tied the community-rate and guaranteed-issue provisions to the coverage requirement,
meaning that those provisions must be inseverable
from the coverage requirement. But the district court
ignored a crucial aspect of the King Court’s analysis:
it explicitly discussed the coverage requirement as enforced by the shared-responsibility payment. See id. at
2493 (referring to the coverage requirement as “a requirement that individuals maintain health insurance
coverage or make a payment to the IRS” (emphasis
added)). Indeed, as the Court identified it, the crux of
the problem with denying consumers tax credits in federal-exchange states was that doing so would make a
large number of individuals unable to afford insurance, thus exempting them from the shared-responsibility payment. See id. These widespread exemptions
would, in turn, make the coverage requirement “ineffective.” Id. King thus speaks far more to the sharedresponsibility payment’s role in the ACA’s pre-TCJA
whereas exemptions from the coverage requirement itself are
listed in § 5000A(d).

488
statutory scheme than it does the coverage requirement’s role in the statutory scheme.
Even to the extent the Court in NFIB or King
meant to opine on the coverage requirement’s severability, these cases were both decided before the TCJA.
They thus give no insight into how the coverage requirement fits into the post-TCJA scheme. Whatever
reservations the Court previously harbored about severing the coverage requirement, Congress plainly did
not share those concerns when it zeroed out the
shared-responsibility payment. Congress either concluded that healthcare markets under the ACA had
reached a point of stability at which they no longer
needed an effective coverage requirement,17 or it chose
to accept the negative side effects of effectively repealing the coverage requirement as a cost of relieving the
burden it placed on applicable individuals. Either way,
the legislative considerations have necessarily shifted.
In sum, there was no reason for the district court
to conclude that any provision in the ACA was inseverable from the coverage requirement. The majority
does not necessarily disagree. I thus do not understand
its decision to remand when, even on the majority’s
analysis of the case, it could instead reverse and render a judgment declaring only the coverage requirement unconstitutional.

See CBO Report, supra, at 1 (concluding that “[n]ongroup insurance markets would continue to be stable in almost all areas of
the country throughout the coming decade” if the coverage requirement were repealed); Amicus Br. of Blue Cross Blue Shield
Ass’n at 24-27 (explaining that tax credits and other ACA provisions are driving enough consumers into insurance markets to
make the coverage requirement unnecessary).

17

489
V.
Limits on judicial power demand special respect in
a case like this. For one thing, careless judicial interference has the potential to be especially pernicious
when it involves a complex statute like the ACA, which
carries such significant implications for the welfare of
the economy and the American populace at large. For
another, the legitimacy of the judicial branch as a
countermajoritarian institution in an otherwise democratic system depends on its ability to operate with restraint—and especially so in a high-profile case such
as the one at bar. The district court’s opinion is textbook judicial overreach. The majority perpetuates that
overreach and, in remanding, ensures that no end for
this litigation is in sight.
I respectfully dissent.

490
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________
No. 19-10011
TEXAS,1 ET AL., Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA, ET AL., Defendants –
Appellants,
CALIFORNIA, ET AL., Intervenor-Defendants –
Appellants.
_______
[Filed: January 29, 2020]
_______
ORDER DENYING EN BANC REVIEW
_______
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
PER CURIAM:
The court having been polled at the request of one
of the members of the court and a majority of the
judges who are in regular active service and not disqualified not having voted in favor (FED. R. APP. P.
35 and 5TH CIR. R. 35), rehearing en banc is DENIED.2

Governor Tate Reeves is substituted pursuant to Federal Rule
of Appellate Procedure 43(c)(2).

1

Judges Ho and Oldham are recused and did not participate in
the en banc poll.

2

491
In the poll, 6 judges voted in favor of rehearing en
banc, and 8 voted against. Judges Smith, Stewart,
Dennis, Graves, Higginson, and Costa voted in favor.
Chief Judge Owen and Judges Jones, Elrod, Southwick, Haynes, Willett, Duncan, and Engelhardt voted
against.
ENTERED FOR THE COURT:
/s/ Jennifer Walker Elrod
_____________________________
Jennifer Walker Elrod
United States Circuit Judge

492
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________
No. 19-10011
TEXAS, ET AL., Plaintiffs – Appellees,
v.
UNITED STATES OF AMERICA, ET AL., Defendants –
Appellants,
CALIFORNIA, ET AL., Intervenor-Defendants –
Appellants.
_______
[Filed: February 6, 2020]
_______
JUDGMENT
_______
FILED December 18, 2019
Before KING, ELROD, and ENGELHARDT, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed in part, and remanded
to the District Court for further proceedings in accordance with the opinion of this Court.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.
KING, Circuit Judge, dissenting.

